<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2016 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 114-204, Part 7]
[From the U.S. Government Publishing Office]






                                                 S. Hrg. 114-204, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1376

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2016 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 7

                            STRATEGIC FORCES

                               ----------                              

                  MARCH 4, 25; APRIL 15, 22, 29, 2015





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Printed for the use of the Committee on Armed Services




















                                                 S. Hrg. 114-204, Pt. 7

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1376

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2016 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES
                               __________

                                 PART 7

                            STATEGIC FORCES
                               __________

                  MARCH 4, 25; APRIL 15, 22, 29, 2015
                               __________


        Printed for the use of the Committee on Armed Services




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









        Available via the World Wide Web: http://www.fdsys.gov/
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-950 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001








  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                 ______

                    Subcommittee on Strategic Forces

                    JEFF SESSIONS, Alabama, Chairman

JAMES M. INHOFE, Oklahoma            JOE DONNELLY, Indiana
DEB FISCHER, Nebraska                BILL NELSON, Florida
MIKE LEE, Utah                       JOE MANCHIN III, West Virginia
LINDSEY GRAHAM, South Carolina       ANGUS S. KING, JR., Maine
TED CRUZ, Texas                      MARTIN HEINRICH, New Mexico

                                  (ii)

  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
                            C O N T E N T S

                              ----------                              

                             March 4, 2015

                                                                   Page

U.S. Nuclear Weapons Policy, Programs, and Strategy..............     1

Kendall, Hon. Frank, III, Under Secretary of Defense for 
  Acquisition, Technology, and Logistics; Hon. Brian P. McKeon, 
  Principal Deputy Under Secretary of Defense for Policy; Michael 
  S. Elliott, Deputy Director for Strategic Stability, Strategic 
  Plans and Policy Directorate (J-5) Joint Chiefs of Staff; Adm 
  Cecil D. Haney, USN, Commander, U.S. Strategic Command; and LT. 
  Gen. Frank G. Klotz, USAF (Ret.), Under Secretary for Nuclear 
  Security, Department of Energy, and Administrator, National 
  Nuclear Security Administration................................     4

Questions for the Record.........................................    29

                             March 25, 2015

Ballistic Missile Defense Programs...............................    31
McKeon, Brian P., Principal Deputy Under Secretary of Defense for 
  Policy, Department of Defense..................................    33
Syring, Vice Admiral James D., USN, Director, Missile Defense 
  Agency Department of Defense...................................    39
Mann, Lieutenant General David L., USA, Commanding General, U.S. 
  Army Space and Missile Defense Command/Army Forces Strategic 
  Command and Joint Functional Component Command for Integrated 
  Missile Defense................................................    49
Gilmore, Hon. J. Michael, Director of Operational Test and 
  Evaluation, Department of Defense..............................    58

Questions for the Record.........................................    79

                             April 15, 2015

The National Nuclear Security Administration Plans and Programs..    83
Klotz, Hon. Frank G., Under Secretary for Nuclear Security, and 
  Administrator, National Nuclear Security Administration, 
  Department of Energy; Accompanied by Hon. Donald L. Cook, 
  Deputy Administrator for Defense Programs, National Nuclear 
  Security Administration, Department of Energy; Hon. Anne M. 
  Harrington, Deputy Administrator for Defense Nuclear 
  Nonproliferation, National Nuclear Security Administration, 
  Department of Energy; and ADM John M. Richardson, USN, 
  Director, Naval Nuclear Propulsion and Office of Naval 
  Reactors, National Nuclear Security Administration, Department 
  of Energy......................................................    85
Trimble, David C., Director, Natural Resources and Environment, 
  Government Accountability Office...............................    97

Questions for the Record.........................................   140

                             April 22, 2015

Air Force and Navy Nuclear Programs and the Implementation of 
  Nuclear Enterprise Review Recommendations......................   145
Creedon, Hon. Madelyn, Deputy Administrator, National Nuclear 
  Security Administration........................................   146
Brumer, Dr. Yisroel E., Director, Strategic, Defensive and Space 
  Programs, Office of the Secretary of Defense, Cost Assessment 
  and Program Evaluation.........................................   150
Benedict, VADM Terry J., USN, Director, Strategic Systems 
  Programs.......................................................   153
Wilson, Lt. Gen. Stephen W., USAF, Commander, Air Force Global 
  Strike Command.................................................   160
Harencak, Maj. Gen. Garrett, USAF, Assistant Chief of Staff, 
  Strategic Deterrence and Nuclear Integration...................   169

Questions for the Record.........................................   189

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, MARCH 4, 2015

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

          U.S. NUCLEAR WEAPONS POLICY, PROGRAMS, AND STRATEGY

    The subcommittee met, pursuant to notice, at 3:33 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions, Fischer, 
Nelson, King, and Heinrich.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. The subcommittee welcomes Secretary 
Kendall and other distinguished officials. The witnesses 
represent the policy, acquisition, force structure and 
warfighter components of the U.S. nuclear weapons. Collectively 
they comprise the Nuclear Weapons Council (NWC), a body 
established by Congress in 1986 to facilitate cooperation and 
coordination between the Department of Defense (DOD) and the 
Department of Energy (DOE).
    Today's hearing, however, will go beyond the specifics of 
the nuclear stockpile to address broader nuclear policy and 
strategy issues as the members see fit.
    Let me just say, gentlemen, I believe the NWC is stronger 
and more effective than it has ever been. I believe there is 
better transparency. I believe there is better coordination 
between DOE and DOD. I think the fact that you have produced 
one statement that speaks for all of you is proof that you are 
getting along better than we have had sometimes in the past or 
a better coordination at least. It is something that I and I 
think Senator Nelson and others have pushed for in recent 
years, and it is really pleasing to me to see that we are 
moving in this direction.
    So on balance, the President's 2016 budget and out-year 
spending profile represents a good faith effort, given the 
budget constraints, to modernize all three legs of the nuclear 
triad while addressing aging DOD [Department of Defense] and 
DOE [Department of Energy] nuclear weapons and infrastructure 
problems.
    Notably, for the first time since fiscal year 2012, the 
President's budget request for DOE and NNSA [National Nuclear 
Security Administration] nuclear weapons activities, which is 
$8.9 billion, meets the funding target established in the 2010 
New START [Strategic Arms Reduction Treaty] treaty ratification 
process discussion and commitments that were made. So we are 
pleased about that.
    Also, notable is Secretary Carter's announcement that there 
will be about $8 billion over the next 5 years to fund 
improvements across the nuclear enterprise to address current 
readiness, training, and infrastructure shortfalls. As Deputy 
Secretary Work explained in February, ``our nuclear deterrent 
force is aging. It will be modernized in the 20s and 30s. We 
need to keep the old equipment and systems going, but it is 
becoming more expensive to do so.''
    Over the past few years, Congress moved forward with the 
President's nuclear modernization program indicating broad 
bipartisan support for nuclear modernization.
    You know, to follow up on Bob Work's comments, General 
Klotz, you said last fall at the end of the Cold War, we 
entered into a sort of procurement holiday as far as our 
strategic nuclear forces were concerned, and we were able to do 
that because they were extraordinary capable systems. But now, 
after a couple of decades of doing that, the bill is coming 
due. I see some nods there. I think that is a fair statement of 
where we are.
    I have got a chart we will show later that really does show 
the dramatic decline in the percentage of the defense budget 
going to nuclear weapons and the fact that we are going to now 
have to have some increase to maintain what I think is an 
essential requirement.
    So, unfortunately, there remains a net $2.5 billion 
shortfall in DOE and NNSA weapons activity funding over the 
past 4 years that has led to some delays. Likewise, there has 
been a 2-year delay in fielding the new ballistic missile 
submarine, which will have operational consequences. Mr. 
Kendall, as you noted last year, quote, the program is fragile, 
and any funding reductions at this point could pose 
unacceptable risk to the health of the nuclear enterprise.
    Critics of the nuclear weapons--and we have had some that 
have been pretty aggressive at times, but I think they have not 
prevailed in the battle of ideas. So their hopes to derail 
modernization plans by claiming that nuclear modernization is 
unaffordable or a distraction from more pressing nuclear 
capabilities has not prevailed. So we will address this claim 
today.
    But I would note that according to CBO [Congressional 
Budget Office] estimates--and I think, colleagues, this is 
important--funding to maintain and modernize DOE and DOD 
nuclear programs will account for roughly 5 to 6 percent of the 
National defense budget funding 050 during the peak funding 
years. This is out there 2024-2025. There are a few years it 
peaks out there, but it is, I think, about less than 3 percent 
today.
    If we examine only modernization cost, the cost of 
replacing existing delivery systems, missiles, planes, subs, 
and costs for life extension of the warheads, CBO estimates 
that during the period 2024 to 2030 modernization costs would 
average about $15 billion per year. According to OMB [Office of 
Management and Budget], national defense funding during that 
time would be over $806 billion in 2024, $15 billion out of 
$806 billion, which means that nuclear modernization will 
account for less than 2 percent of the defense spending during 
that period of peak funding. So the nuclear warheads themselves 
are a particularly small part of the budget. Considering the 
decades of decline in spending on nuclear forces, this level is 
not only affordable but certainly necessary.
    So, Senator Nelson, glad to have you with us and any 
comments you would like to have. Welcome back to that seat. You 
have held it and chaired this committee over the years, and you 
have full experience in all of these issues.

                STATEMENT OF SENATOR BILL NELSON

    Senator Nelson. I am standing in for Senator Donnelly today 
who is away at a funeral.
    But you remember those old times. The two of us got along 
on very controversial issues. Miracles never ceased. I used to 
persuade you to my position.
    [Laughter.]
    Senator Sessions. I always gave in to you whenever you were 
right, which was normal.
    Senator Nelson. I want to get on. So what I am going to do 
is just insert my statement into the record. Thank you.
    [The prepared statement of Senator Nelson follows:]

                   Prepared statement by Bill Nelson
    Let me thank Senator Sessions for holding today's hearing. I will 
be filling in for a short period as ranking member since Senator 
Donnelly, the committee's ranking member, cannot make it today.
    There are several issues I would like to consider today.
    First the commitment we must make to our nuclear deterrent, which 
as Secretary Carter so aptly described as the ``bedrock'' of our 
national security strategy. This commitment is seen in two ways. What 
we must do now to ensure the force is ready and able to execute its 
mission if the President so chooses and second what we must spend in a 
time of tight budget choices, to modernize the force to meet our 
deterrence requirements for the next 20 to 30 years.
    Second, I will want to understand how we are structuring our 
deterrent now and in the future to meet challenges not only with 
Russia, which is modernizing its triad but countries similar to China, 
which is developing a ballistic missile submarine that will patrol the 
South China seas or India and Pakistan which is increasing the size and 
scope of their arsenals, and in India's case, a ballistic submarine 
much like China.
    Again, I want to thank Senator Sessions for holding this hearing 
and I look forward to today's testimony.

    Senator Sessions. Thank you.
    Secretary Kendall, do you want to give us the statement 
that you prepared?

STATEMENT OF HON. FRANK KENDALL III, UNDER SECRETARY OF DEFENSE 
   FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS; HON. BRIAN P. 
McKEON, PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE FOR POLICY; 
 MICHAEL S. ELLIOTT, DEPUTY DIRECTOR FOR STRATEGIC STABILITY, 
 STRATEGIC PLANS AND POLICY DIRECTORATE (J-5), JOINT CHIEFS OF 
   STAFF; ADM CECIL D. HANEY, USN, COMMANDER, U.S. STRATEGIC 
   COMMAND; AND LT. GEN. FRANK G. KLOTZ, USAF (RET.), UNDER 
   SECRETARY FOR NUCLEAR SECURITY, DEPARTMENT OF ENERGY, AND 
    ADMINISTRATOR, NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Mr. Kendall. Yes, Mr. Chairman. Thank you for your kind 
remarks at the beginning.
    Chairman Sessions and I guess it is Acting Ranking Member 
Nelson, distinguished members of the subcommittee, on behalf of 
Admiral Haney, Lieutenant General Klotz, Honorable McKeon, and 
Mr. Elliott, thank you for the opportunity to appear before you 
today.
    We are or we represent the statutory members of the Nuclear 
Weapons Council. The Nuclear Weapons Council (NWC) is a joint 
Department of Defense and Department of Energy National Nuclear 
Security Administration forum established to facilitate 
priorities between the two Departments as they fulfill their 
dual agency responsibilities for the U.S. nuclear weapons 
stockpile.
    We look forward to discussing both the role of the NWC, the 
status of life extension programs, infrastructure, delivery 
platform modernization programs, sustainability of the 
stockpile and all other responsibilities charged to the 
council, as well as the challenge that we face.
    Sir, I would like my written testimony which provides more 
detail--if I could ask it be admitted to record, please.
    Senator Sessions. We will make it a part of the record, 
without objection.
    Mr. Kendall. Thank you, sir.
    Our nuclear deterrent plays a unique and critical role in 
ensuring our National security. The Departments of Defense and 
Energy and the NWC have a fundamental and solemn obligation to 
responsibly manage this capability, to ensure its effectiveness 
and safety not only for today but into an uncertain and 
challenging future.
    The fundamental role of our nuclear forces is to deter a 
nuclear attack on the United States and our allies, and no 
other military capability we possess is more important and 
deserving of our focus and attention more. For over 3 years, I 
have had the privilege to serve as chairman of the NWC, along 
with other professionals representing our nuclear enterprise 
such as those here with me today. During this period, the NWC 
has responded to policy direction, including the Nuclear 
Posture Review, the implications of the New START treaty, 
technical developments in the aging of the stockpile, the 
Defense Department reviews of the nuclear enterprise conducted 
last year, and other developments.
    The strategy for our nuclear stockpile that forms the basis 
for our plans has remained constant during this period. That 
strategy known as the 3+2 strategy envisions three 
interoperable nuclear explosive packages for ballistic 
missiles, ground-based and sea-based, and two air-delivered 
warheads. A nuclear warhead strategy is tied to the Defense 
Department's delivery system modernization plans, which include 
the Ohio replacement submarine, a replacement for our Minuteman 
III ICBMs [Intercontinental Ballistic Missile's], a new long-
range strike bomber, and the replacement for the air-launched 
cruise missile. It is also tied to our plan to modernize the 
Department of Energy's infrastructure for plutonium, uranium, 
and tritium and the plan to sustain the science and engineering 
base that ensures our stockpile of nuclear weapons is safe, 
secure, reliable, and effective.
    The 3+2 strategy addresses stockpile sustainment and 
modernization and meets policy objectives of sustained 
deterrence through a smaller stockpile with fewer weapons types 
and a modernized, responsive nuclear infrastructure capable of 
addressing the technological and geological surprises that we 
may face.
    Making nuclear explosive packages interoperable on 
different delivery systems will reduce the number of different 
systems that must be maintained and provide sufficient 
diversity among our deployed systems.
    Over my 3 years as NWC chairman, budget constraints, 
particularly the implementation of sequestration in fiscal year 
2013, have forced the NWC to annually adjust its stockpile 
maintenance and infrastructure plans to fit within the 
resources appropriated. These adjustments cause delays or 
cancellations, reduce work scope, or extend development or 
production periods. Today we have reached a point where all 
flexibility from nuclear weapons life extension programs has 
been removed.
    We have worked with the U.S. Strategic Command to adjust 
stockpile requirements where possible. We continuously strive 
to strike the best balance between the science and engineering 
required to certify the stockpile, the program's plan to extend 
the life of the stockpile, and the plans for a responsive 
infrastructure. Achieving our plans for tomorrow's stockpile 
will require adequate resources, national commitment, and 
balanced investments. The NWC remains committed to our 
responsibility to ensure a safe, secure, reliable, and 
effective nuclear strategic deterrent, and we urge continued 
congressional attention to the Nation's essential security 
needs by sustaining a stable nuclear enterprise budget in 
general and in specific removing the threat of sequestration.
    Mr. Chairman, I thank you for your time, and we wait for 
your questions.
    [The prepared statement of the Nuclear Weapons Council 
follows:]

           Witness Statement of the Nuclear Weapons Council:
                      Hon. Frank Kendall, Chairman
                           ADM Cecil D. Haney
                     Hon. Lt Gen (Ret) Frank Klotz
                           Hon. Brian McKeon
                          Mr. Michael Elliott
    Chairman Sessions, Ranking Member Donnelly, and distinguished 
members of the Subcommittee, thank you for the opportunity for the 
Nuclear Weapons Council (NWC) to testify before you today. The NWC is a 
joint Department of Defense (DOD) and Department of Energy (DOE)/
National Nuclear Security Administration (NNSA) organization 
established to facilitate cooperation and coordination, reach 
consensus, and institute priorities between the two departments as they 
fulfill their dual-agency responsibilities for U.S. nuclear weapons 
stockpile management. Together, the Council represents extraordinary 
and highly skilled Soldiers, Sailors, Marines, Airmen, civilians, 
laboratory personnel, and contractors who are the core of the nuclear 
enterprise. They are professional, mission-oriented, and innovative 
problem-solvers charged with ensuring our Nation sustains a safe, 
secure, reliable, and effective nuclear deterrent. Today, we will 
discuss the role of the NWC, the status of life extension programs, 
infrastructure and delivery platform modernization programs, our 
ability to sustain the stockpile, and all of the other responsibilities 
of the NWC, along with our challenges.
                            nwc organization
    As mandated by Title X, U.S. Code 179, the NWC manages and achieves 
consensus on priorities for the nuclear weapons stockpile. Our 
membership includes the Under Secretary of Defense for Acquisition, 
Technology and Logistics (Chairman), the DOE Under Secretary for 
Nuclear Security/Administrator of the National Nuclear Security 
Administration, the Under Secretary of Defense for Policy, the Vice 
Chairman of the Joint Chiefs of Staff, and the Commander of the U.S. 
Strategic Command. Additionally, to ensure all equities in the 
enterprise are represented, we receive consistent, valuable 
participation from the Military Services, the Comptroller, the DOD 
Office of Cost Assessment and Program Evaluation (CAPE), Department of 
State, and the National Security Council. Over the last year, the NWC 
convened 10 meetings, including our annual joint meeting with the 
United Kingdom Ministry of Defence, which we hold to review our 
continued cooperation in warhead development, the Ohio-class 
submarines, and the D-5 missile program.
    In order to engage at all levels of the enterprise, we utilize our 
subordinate committees and action groups to identify and analyze issues 
and to provide recommendations to the Council. The NWC Standing and 
Safety Committee (NWCSSC), co-chaired by DOD and the NNSA, functions to 
advise, assist, and provide information and analysis and 
recommendations on issues and topics for the Council's consideration. 
Additionally, NNSA details a member of its staff to DOD to serve as the 
NWCSSC Executive Secretary, ensuring interagency representation in day-
to-day operations. Finally, a dedicated working group of staff, 
representing the diverse stakeholders in the nuclear enterprise, meets 
informally about twice a month to review weapon and infrastructure 
programs. We continually analyze our current working relationships to 
ensure a streamlined decision-making process and to ensure that our 
teams are informed and empowered to assess issues and make 
recommendations to the NWC. NWC issues are not only addressed when the 
Members meet; our mission is executed every day through the 
organizational structure just described.
                              nwc mission
    The NWC convenes approximately monthly to ensure focused attention 
on our greatest nuclear enterprise challenges in four vital areas. 
First, we must maintain and strengthen our ability to extend the life 
of warheads through comprehensive component reuse, refurbishment, 
replacement and ensuring alignment with the delivery platform (see 
Table 1 for a breakdown of the current and future nuclear weapons 
stockpile). Second, we must safeguard our ability to provide the 
intensive science and engineering required to assess an aging stockpile 
and certify the safety and effectiveness without underground testing. 
Third, we must remain steadfast in our commitment to sustain and 
modernize our aging infrastructure that provides materials, components, 
and testing facilities essential for our nuclear deterrent enterprise. 
Finally, we must ensure that our nuclear weapons and delivery systems 
modernization programs are aligned.

                                Table 1. The Current and Future Triad Composition
----------------------------------------------------------------------------------------------------------------
                                                             ICBM                SLBM               Air-Leg
----------------------------------------------------------------------------------------------------------------
                                                                                              ..................
                                                    Current-----------------------------------------------------
----------------------------------------------------------------------------------------------------------------
Weapon System.......................................        W87 Warhead         W76 Warhead            B61 Bomb
                                                            W78 Warhead         W88 Warhead            B83 Bomb
                                                                                                  W80-1 Warhead
----------------------------------------------------------------------------------------------------------------
Delivery Platform...................................      Minuteman III       Trident II D5                B-2A
                                                                                                          B-52H
                                                                                                        F15/F16
                                                                                                             ALCM\1\
----------------------------------------------------------------------------------------------------------------
                                                    Future
----------------------------------------------------------------------------------------------------------------
Weapon System.......................................   W78/88-1 IW-1\2\       W78/88-1 IW-1         B61-12 Bomb
                                                                   IW-2                IW-2       W80-4 Warhead
                                                                   IW-3                IW-3
----------------------------------------------------------------------------------------------------------------
Delivery Platform...................................            GBSD\3\        D5 Follow-on                B-2A
                                                                                                          B-52H
                                                                                                         JSF\4\
                                                                                                        LRSB\5\
                                                                                                        LRSO\6\
----------------------------------------------------------------------------------------------------------------
1 Air-Launched Cruise Missile
2 Interoperable Warhead
3 Ground-Based Strategic Deterrent
4 Joint Strike Fighter
5 Long Range Strike Bomber
6 Long Range Standoff

                 stockpile planning and life extension
    The NWC sees our future nuclear stockpile as one that is flexible 
and adaptable to technical and geopolitical changes. As envisioned, the 
future stockpile plan will include three interoperable nuclear 
explosive packages for ballistic missiles and two air-delivered 
warheads, referred to as the ``3+2 strategy.'' The 3+2 strategy 
addresses stockpile obsolescence and meets policy objectives of 
sustaining deterrence through a smaller stockpile with fewer weapon 
types and a modernized, responsive nuclear infrastructure capable of 
addressing technological and geopolitical surprise. Making nuclear 
explosive packages interoperable on different delivery platforms will 
reduce the number of different systems that must be maintained and 
serviced, while providing sufficient diversity among deployed systems.
    The NWC oversees implementation planning for the strategy. 
Established in 2012 for the fiscal year (FY) 2014 budget formulation, 
the NWC's 25-year plan for the nuclear weapons stockpile--also known as 
the Baseline Plan--aligned warhead life extension plans, platforms 
modernization, and infrastructure needs. The coordinated Baseline Plan 
integrated NNSA nuclear security enterprise requirements and plans with 
operational warfighter requirements.
    Budget realities have forced changes to the 2012 plan. Since the 
plan was adopted, we endorsed deferrals to several key warhead life 
extension programs (LEPs) and infrastructure modernization milestones, 
delaying implementation of our 3+2 strategy. We deferred the 
Interoperable Warhead 1 (IW-1) and delayed the Long Range Standoff 
(LRSO) warhead schedules. For the B83-1 bomb, we adjusted the deployed 
requirement to meet operational requirements and align with the air-
delivered gravity weapon strategy. For the B61-12 bomb LEP, we accepted 
a schedule delay due to the sequestration cuts in the fiscal year 2014 
budget. We have little, if any, margin left in the schedule for the 
program, and both Departments are aggressively managing costs and 
schedules. Plutonium pit production schedules and supporting plutonium 
infrastructure investments experienced significant delays due to 
shortfalls in the fiscal year 2013 and fiscal year 2015 budgets. 
Additionally, we accept risk each year in NNSA's science and 
engineering programs in order to achieve a balance between life 
extension work and the science and engineering needed for 
certification.
    Continued uncertainty in our DOD and NNSA budgets, especially the 
threat of sequestration, exacerbates long-term challenges to our 
ability to sustain the stockpile. Despite these persistent challenges, 
we have had many success stories. The following highlights the work 
accomplished through the dedicated talent and focus of the people 
working in the nuclear enterprise.

B61 Bomb (Aircraft-delivered)

    We are working to extend the lifespan of the B61 gravity bomb. In 
April 2010, the Nuclear Posture Review reaffirmed both the extended and 
strategic deterrent roles of the B61 bomb and directed its life 
extension. The B61-12 LEP with Air Force-provided Tailkit Assembly is 
undergoing development engineering and remains on schedule and budget 
to meet its March 2020 First Production Unit (FPU). The B61-12 LEP 
consolidates four variants of the B61 bomb--the -3, -4, -7, and -10--
and improves the safety and security of the oldest nuclear weapon 
system in the U.S. arsenal. The B61-12 LEP will achieve: 1) a 50 
percent reduction in the number of nuclear gravity bombs in the 
stockpile, 2) the removal of a megaton-class weapon--the B83-1, 3) an 
80 percent reduction in the amount of special nuclear material in those 
bombs, and 4) the first step toward implementing the 3+2 strategy.

W88 Warhead (SLBM-delivered)

    Over the last year, the nuclear enterprise faced several pivotal 
decisions for our future stockpile, one pertaining to the W88. The W88 
SLBM warhead is in the development engineering phase for Alteration 
(ALT) 370 to replace the aging arming, fuzing, and firing components 
and is on schedule to achieve its December 2019 FPU. In August 2014, 
the NWC agreed to address potential conventional high explosive (CHE) 
scope for the W88, which was not part of the original ALT 370 program. 
After extensive review by our national laboratories, NNSA, and the 
Navy, the NWC made the decision to refresh the W88 CHE and identified 
the majority of funding offsets needed for this work. The offsets were 
generated by reducing sustainment activities and hedge quantities for 
some legacy systems to make the majority of funds available for the CHE 
refresh. The remaining required funds for CHE refresh in future years 
will be resourced from within the NNSA. That decision, identified areas 
where increased risk could be accepted to produce cost-savings within 
the current program--without additional funding--and without additional 
delays to future work.

Interoperable Warhead (for ballistic missile-delivered systems)

    IW-1, also known as the W78/88-1, will be the first of three 
ballistic missile warheads under the 3+2 strategy. The IW-1 was delayed 
as part of the fiscal year 2015 budget request and is now scheduled for 
a 2030 FPU. In 2014, the NNSA completed an abbreviated IW-1 feasibility 
study and briefed the NWC with the conclusion that interoperable 
nuclear explosive packages could be used in the ICBM and SLBM forces. A 
full feasibility study is planned for completion in the early 2020s.

W80-4 (Long Range Standoff Cruise Missile Warhead)

    Over the last two years, the NWC selected the follow-on warhead for 
the Air-Launched Cruise Missile replacement, the Long Range Standoff 
(LRSO) missile. We considered the B61, W80, and W84 warhead families. 
The interagency effort analyzed the trade space of military 
requirements, surety features, military characteristics, and cost. We 
performed rigorous analysis at all levels of the NWC structure to 
select the W80 Nuclear Explosive Package as the basis for the LRSO 
warhead, and designated the LEP as the W80-4. In January 2014, the NWC 
had delayed the LRSO warhead from an FPU of 2024 to fiscal year 2025-
2027 but as a result of the ongoing program review, the fiscal year 
2016 President's Budget requests resources for an fiscal year 2025 FPU 
and an fiscal year 2026 LRSO first missile delivery.
nnsa nuclear enterprise infrastructure and nuclear material commodities
    The 2010 Nuclear Posture Review stressed the importance of a NNSA 
infrastructure that can respond to technical challenges or geopolitical 
surprises and ultimately enable our consideration of stockpile 
reductions. The NWC focuses specifically on the plutonium, uranium, and 
tritium capabilities to support the current and future stockpile as 
documented in the NWC's Baseline Plan. Our nuclear enterprise 
infrastructure challenges are two-fold: 1) addressing aged, end-of-life 
facilities maintenance, recapitalization, and replacement and 2) 
working to achieve a responsive infrastructure. In addition, NNSA's 
general purpose infrastructure (e.g., electrical distribution systems) 
that enables the plutonium, uranium, and tritium capabilities is also 
aging, brittle, and a limiting factor.
    We reinforce NNSA's need to fully develop responsive and productive 
plutonium and uranium capabilities for this Nation. Today, these 
capabilities and their enabling infrastructure are at great risk and 
rank among our highest priority infrastructure challenges. We must 
relocate our uranium production from 1950s-era buildings that are 
deteriorating rapidly and creating a hazardous work environment for our 
people. We must also have a plutonium pit production capability to 
support future stockpile requirements, move toward a responsive 
infrastructure, and address plutonium aging issues.
    In January 2014, The Secretary of Defense revalidated the DOD 
requirement for NNSA to produce 50-80 plutonium pits per year by 2030. 
This analysis was predicated on four drivers for pit production: 1) 
policy objectives for the U.S. nuclear deterrent, 2) stockpile aging, 
3) military requirements, and 4) infrastructure costs and capacity. The 
NWC is working with NNSA to achieve the requirement of 50-80 pits per 
year in 2030. NNSA developed a strategy to achieve this goal, including 
ramp-up time, through recapitalization of the existing Plutonium 
Facility 4 at Los Alamos and the construction of additional smaller, 
modular nuclear facilities for plutonium work. The concept of 
constructing smaller, modular nuclear facilities over time alleviates 
the cost associated with one large nuclear facility to replace all 
capabilities at one time. Building large, one-of-a-kind nuclear 
facilities presents significant challenges in terms of planning, 
design, and development and thus NNSA adopted a modular approach. The 
NWC engaged the DOD CAPE to assist NNSA on the benefits and feasibility 
of this strategy through a Business Case Analysis completed in November 
2013. The CAPE agreed with NWC's endorsement that a modular strategy 
for nuclear facilities provides the most affordable and flexible 
option. The NWC supports NNSA's plan to achieve two operational modular 
plutonium facilities at Los Alamos by 2027. Success will require 
continued sustained funding over the next decade to design, construct, 
and ensure initial operational start-up.
    Using lessons learned from the pit production approach, NNSA 
applied the smaller, scalable modular facility strategy to the Uranium 
Capabilities Replacement Project, the follow-on capability to produce 
nuclear weapon secondaries at the Y-12 National Security Complex. 
Congress has asked the DOD to validate its annual requirement for 
secondaries, and we are in the process of providing this analysis. We 
anticipate that our report will be consistent with our most recent NWC 
Baseline Plan and that there will be no changes to our requirements.
    Finally, the ability to enrich uranium to produce tritium for 
stockpile use is a critical infrastructure issue, and the NWC remains 
focused on sustaining a supply of enriched uranium for tritium 
production. Under current policy guidelines, without a domestically 
enriched uranium production capability, we will eventually be unable to 
produce new tritium for stockpile use. The NWC remains cognizant of the 
stockpile's requirement for tritium and is supporting a DOE update of 
our tritium requirements. We will certify this requirement in a letter 
to Congress by April of this year. As we update the NWC Baseline Plan, 
we will include tritium along with plutonium and uranium infrastructure 
plans in the next revision.
                         stockpile stewardship
    Science is paramount to the NWC's ability to sustain a safe, 
secure, reliable, and effective deterrent. NNSA's Stockpile Stewardship 
Program, composed of research, development, testing, and evaluation 
(RDT&E) facilities and personnel, enables the surveillance and 
assessment of the stockpile condition by revealing anomalies, 
evaluating impacts of anomalies on warhead performance, and 
implementing solutions. In general, RDT&E supports broader national 
security objectives by providing capabilities to avoid technological 
surprise and to have confidence in system performance. The NWC Baseline 
Plan relies on continued investments in research, development, design, 
and production capabilities--something that sequestration would 
threaten.
    The link between science and engineering and the future stockpile 
is inextricable. This science base capability allows the Laboratory 
directors to conduct their annual assessment of the stockpile, certify 
components for longer life in the stockpile, and resolve warhead issues 
discovered during surveillance. Additionally, RDT&E plays an important 
role in enabling key elements of the stockpile vision, including 
interoperability, plutonium pit reuse, understanding plutonium aging 
effects, and technology certification for life-extended warheads. In 
fiscal year 2014, NNSA completed a comparative analysis of LEP options 
for the W78, W88, and interoperability and presented the results. This 
analysis demonstrated how the RDT&E capabilities of the Stockpile 
Stewardship Program inform stockpile design decisions and provide 
critical insight into the feasibility of the 3+2 strategy.
    The nation needs a highly skilled nuclear workforce to meet future 
demands of our long-term stockpile plan. With the end of underground 
nuclear explosive testing, limited opportunities exist to exercise the 
full range of weapon design and production skills, including materials 
handling, code development, and design and production engineering. 
Exacerbated by an aging workforce, the pressure and risk to sustain 
critical skills is increasing.
    In the era of science-based stewardship--that is, implementing new 
components without underground testing--we must provide a strong 
science and research program that includes research, experiment, and 
advanced computation and modeling. The NWC endorses a balanced approach 
between the near and longer term risk we must take in to meet the needs 
of the nuclear deterrent within available budgets.
    dod nuclear weapon platform modernization and enterprise review
    As part of the 2010 Nuclear Posture Review, the National Security 
Council, DOD, and related agencies reviewed our deterrence requirements 
and the range of scenarios for which we must prepare. This analysis 
concluded that the Triad offers the flexibility needed for the range of 
contingencies we might face. We cannot say exactly what mix of 
capabilities the United States will require in the next 20, 30, or 40 
years, but continued modernization of the Triad will provide future 
policy makers with a flexible and resilient range of capabilities.
    Our budget request is consistent with our plans to ensure that 
current nuclear delivery systems can be sustained and that the 
modernization/replacement programs are affordable, executable, and on 
schedule to avoid capability gaps.
    Most of the Nation's nuclear weapons delivery systems are reaching 
their end of life in the 2025-2030 timeframe and have been extended 
beyond their original service lives. While we can sustain these systems 
until they can be replaced in the 2025-2030 timeframe, we have little 
schedule margin between legacy systems' end-of-life and deployment of 
the replacement systems.
    The recent Secretary of Defense-directed Nuclear Enterprise and 
Strategic Portfolio Reviews and the Program and Budget Review for the 
fiscal year 2016 budget formulation focused significant attention on 
recapitalization, sustainment, and modernization of our nuclear 
deterrence systems and infrastructure.
    In the Intercontinental Ballistic Missile (ICBM) leg of the Triad, 
the Minuteman III will be replaced by a follow-on ICBM--the Ground 
Based Strategic Deterrent (GBSD). Within the SLBM leg, Ohio-class 
Ballistic Missile Submarines (SSBNs) will be replaced by new Ohio-class 
Replacement SSBNs. The Trident D-5 SLBMs are undergoing a life-
extension, which is approximately 90 percent complete. Finally, for the 
bomber leg, the B-52H and B-2A bombers will remain critical elements of 
the Triad. The Long Range Strike-Bomber will become part of our long-
range penetrating strategic bomber force in the late 2020s. The current 
air-launched cruise missile (ALCM) will be sustained through 2030 and 
will be replaced by the LRSO cruise missile.
    We remain concerned about the ability to fund these modernization 
efforts within current resource levels. The replacement programs create 
a bow-wave in nuclear delivery system costs and modernization will 
require increased investment over current levels for much of the next 
15 years.
    The Defense Department is taking steps to control the costs of 
these efforts. However, even with success in this regard, we face 
difficult budget choices entering the 2020s in funding needed Navy 
shipbuilding programs, the Ohio-class Replacement, and the Air Force 
strategic deterrent recapitalization programs.
    The NWC is working to ensure corresponding NNSA development 
programs remain aligned with the Nation's nuclear Triad revitalization. 
The NWC provides the Services, Joint Staff, Office of the Secretary of 
Defense, and NNSA a senior-level forum to address warhead and delivery 
platform system integration areas of concern, and develops budget and 
program recommendations to the Departments' leadership. The B61-12 LEP 
is an example of how the NWC coordinates planning and integration with 
the closely linked B61-12 Tailkit Assembly and Bomb Assembly programs. 
This integration allowed DOD to better tailor the acquisition plan for 
the Tailkit Assembly, ensured minimal disruption to ongoing development 
and testing activities, and supported a more effective stewardship of 
taxpayer investments.
    The DOD Nuclear Enterprise Review highlighted evidence of systemic 
problems in the strategic deterrent forces that threaten the future 
safety, security, and effectiveness of our nuclear forces. These 
interrelated problems require cultural, structural, and sustained long-
term solutions. We are addressing these issues and implementing 
solutions managed through monthly senior leadership meetings of the 
Nuclear Deterrent Enterprise Review Group chaired by Deputy Secretary 
of Defense Work. The review teams made clear the need to refocus 
attention and resources at all levels of the DOD on this essential 
mission with four targeted areas: 1) the morale and accountability of 
personnel, 2) a culture of excessive inspections, 3) the age and 
condition of the current infrastructure and maintenance, and 4) the 
organization of the Nuclear Enterprise. The reinvigoration of the DOD 
nuclear enterprise remains the Defense Department's highest priority, 
and we are committed to treating it as such.
                               governance
    The NWC's role expanded under the NDAA in 2013 to certify that the 
NNSA budget request meets NWC requirements. This certification process 
led to greater transparency between two Cabinet Departments, and it 
strengthened and unified our interagency relationship. We understand 
the congressional interest in the overall governance of the nuclear 
enterprise as expressed in the Congressional Advisory Panel Report on 
Governance of the Nuclear Security Enterprise. The NWC Members 
participated in interviews with the panel and received briefings on the 
final report's findings, conclusions, and recommendations. The NWC 
supports strengthening NNSA's planning and costing functions. The NWC 
is ready to assist NNSA with implementation, and we look forward to 
providing Congress with comments on this report in the weeks to come as 
requested in the fiscal year 2015 National Defense Authorization Act.
                               conclusion
    Budget constraints have forced the NWC to annually adjust its 
stockpile maintenance and infrastructure plans to fit within resources 
appropriated. These adjustments cause delays or cancellations, reduce 
work scope, or extend development or production periods. We have 
reached a point where we have removed all flexibility from the nuclear 
weapons life extension programs and have worked with the U.S. Strategic 
Command to accept lower stockpile requirements where possible. We 
continuously strive to strike the best balance between the science and 
engineering required to certify the stockpile, the programs planned to 
extend the life of the stockpile, and the plans for a responsive 
infrastructure. Achieving our plans for tomorrow's stockpile will 
require adequate resources, national commitment, and balanced 
investments. The NWC remains committed to our responsibility to ensure 
a safe, secure, reliable, and effective nuclear deterrent, and we urge 
continued congressional attention to the Nation's essential security 
needs by sustaining a stable nuclear enterprise budget in general, and 
by removing the threat of sequestration specifically.

    Senator Sessions. Thank you.
    I guess I will sum it up and ask all of you--and Secretary 
Kendall, you are going to answer, I guess, first. But do you 
believe that the basic plans that we have laid out that, as I 
understand, you support in your opening statement, a move to 
modernize our triad and our delivery systems and to modernize 
the aging warheads is a substantial need for America? It needs 
to be funded, and the general outline of funds can get this job 
done?
    Mr. Kendall. Yes, Mr. Chairman, absolutely. It is a 
critical national security need. The funding that we have 
requested for both Departments through the 5-year plan that we 
submitted is adequate to execute our plan during that period. 
After the end of that period, as we start to actually produce 
the systems I talked about, we are going to have an 
affordability program that we have to deal with. You alluded to 
that earlier.
    Senator Sessions. Your period is what time?
    Mr. Kendall. This will surface in next year's budget. In 
2021, we are going to start to have a problem finding ways to 
afford these systems. We will work to do that. It is a very 
high priority, and we will work to do that. But it is going to 
be a challenge for us.
    Senator Sessions. Do any of you have any comment about 
that? Do you agree with the essential unity of statement of 
purpose and goal? Any other comments you would like to 
contribute?
    Mr. Klotz. Senator, absolutely I agree with the statement. 
I would add that from the NNSA [National Nuclear Security 
Administration] Department of Energy side, we have taken a very 
careful look at the requirements in terms of what it means for 
our scientific, technical, and engineering base at the 
laboratories and production facilities, the workload that they 
will have as we move through the series of life extension 
programs and modernization of our plutonium, uranium, and 
tritium capabilities. This is a busy--it is a challenging but 
it is an imminently executable plan that we have laid out.
    With one caveat, just to underscore what Mr. Kendall said, 
one of the most important things is stable and predictable 
funding so that we can ensure that we have the right people, 
the right tools, and the right facilities there to execute this 
program.
    Senator Sessions. Well, Secretary Kendall, you said in 
March I believe of last year, quote, the program is fragile, 
and any funding reductions at this point could pose 
unacceptable risk to the health of the nuclear enterprise. You 
noted that budget constraints force the Nuclear Weapons Council 
to annually adjust its stockpile maintenance and infrastructure 
plans to fit within the money actually appropriated. And, 
quote, we have reached a point where we have removed all 
flexibility from the nuclear weapon life extension programs and 
have worked with the Strategic Command to lower stockpile 
requirements where possible.
    So what do you mean by ``fragile,'' and how serious do you 
consider stable funding to be?
    Mr. Kendall. It is very important.
    What we have done is we have slipped the first production 
of the new submarine about 2 years, which puts it right up 
against--and we have to replace the existing submarine fleet. 
There are aging effects on the current force structure that are 
predictable and understood, and we have to deal with those. We 
acquired a lot of the current force structure basically at the 
same time historically. It is all aging out at the same time. 
The submarines are aging out.
    Senator Sessions. Yes, submarines. I know one is 
celebrating its 30th anniversary in a few weeks, and others are 
pushing 40 I believe. That is a long time to maintain a 
sophisticated piece of equipment like that.
    Mr. Kendall. It is a long time. Both the hulls themselves 
and the reactors have predictable aging effects that have to be 
dealt with. The rocket motors and our ICBM's are similar. We 
have renewed those but we are going to be at a point where we 
have to modernize those again. There are a lot of older 
technologies in those systems that have to be replaced in the 
ICBM force. The air-launched cruise missile is showing a lot of 
reliability problems right now. It is becoming harder to 
maintain, and it is going to have to be replaced as well.
    What we did in this most recent budget, which you may have 
noticed came in a little bit higher than last year's request in 
the out-years in the 5-year plan, was we were able to 
accelerate the Elkem replacement about 2 years because of those 
aging effects.
    We are also seeing some effects in the nuclear stockpile 
itself. We found some money--and it is mentioned there, the 
item about the requirement for maintaining the stockpile. We 
found some money to address a conventional high-explosive 
problem in one of our warheads, which we had hoped would last 
longer than is going to be, but we are seeing signs that it 
will not and we have to replace that. So that has added a few 
hundred million dollars of cost, which we were able to cover. 
But we are essentially out of room to maneuver in our plan.
    Senator Sessions. Well, I think you are right. We have got 
a chart. Let me just show it.
    [Deleted.]
    Senator Sessions. This chart, I think, is pretty revealing, 
and it is produced by the Defense Department I believe. But it 
shows the blue you cannot read there is investments, and the 
red is operation and support for our nuclear enterprise, which 
includes the triad, I mean, our launch system, as well as the 
bombs. So you can see this dramatic reduction here in 2002 to 
2010. We end up by 2017 to 2018, we got to start making some 
changes. This yellow is a new submarine, the Ohio-class. The 
new bomber. The orange is ICBM and the new SLBM [Submarine 
Launched Ballistic Missile], submarine-launched ballistic 
missile. Then it begins to drop again. It drops again in 2034 
through 2042.
    So I see that we have been able to go a long time, General 
Klotz, without putting much money in the system, and if we can 
get by and modernize our entire fleet for this small a 
percentage--maximal is the 15 percent, I believe. If we can get 
by at that, then we have not bankrupted the country and have 
still been able to maintain a robust nuclear deterrence that I 
think all of us share.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman. I am going to 
yield most of my time to Senator King.
    But let me just say this is a plan that you put out for $35 
billion a year for 10 years, which is that blue added above the 
yellow there. Now, in the decade of the 2020s, you are 
expecting to product 50 to 80 pits a year. Is that sufficient?
    Mr. Kendall. We would like to have the capacity to produce 
50 to 80. That number is, in part, a hedge against 
uncertainties of aging effects on the current stockpile. It 
puts us in a position--if there is a change in the geopolitical 
environment or a problem with our stockpile, we can respond to 
that. We do not know that we will have to actually produce that 
many pits.
    General Klotz can probably address that question more 
fully.
    Mr. Klotz. It does two things for us, Senator. The capacity 
to produce pits--which, by the way, it used to be very 
substantial during the Cold War period. We had a facility in 
Colorado, Rocky Flats, 30,000 square feet, produced thousands 
of pits, up to 2,000 pits a year. We now essentially have 
60,000 square feet at Los Alamos in New Mexico to do the same 
thing, and our pit production is way down.
    We will have a need, as we move towards the interoperable 
warhead, which will have an explosive package that could be 
used on both an Air Force and a Navy ballistic missile in the 
future that may require us to produce new pits, and I would be 
happy to discuss that in a little more detail in a closed 
session.
    But also as Chairman Kendall said, this is also part of 
having a responsive infrastructure and a capability to respond 
to unforeseen political developments or unforeseen technical 
challenges within the stockpile. It is a capability that we 
need and that we are in the process of pursuing through a 
plutonium strategy which has been approved by the Nuclear 
Weapons Council in a collaborative fashion. In fact, Chairman 
Kendall and I came up and briefed Members of the Hill, and it 
has been approved in the appropriations and authorization 
bills.
    Senator Nelson. Well, I thought I was going to yield to 
Senator King, but the time has just about run.
    Let me just say--Admiral Haney, the fiscal year 2016 budget 
begins a life extension of the air-launched cruise missile. Is 
there a military requirement for replacing our current air-
launched cruise missile?
    Admiral Haney. Senator, absolutely. As mentioned by 
Chairman Kendall, the fact of the matter is the current air-
launched cruise missile has reliability problems. It is well 
over its life, designed for about 10 years, and we are well 
over the 30-year point for the current missile system. It is 
important from a deterrence in warfighting requirement, given 
that we need to have for our air leg, our flexible deterrent 
part of the triad, the ability to have standoff capability now 
and well into the future.
    Senator Nelson. Thank you.
    Senator Sessions. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Gentlemen, I was pleased to see in the budget request this 
year that it moved up the development and the production of the 
replacement cruise missile to 2025. Secretary Kendall, 
previously the council had decided to delay that to 2027. Is 
there a consensus now among the members that 2025 is the date 
that you are anticipating and that you probably will stay with?
    Mr. Kendall. Thank you, Senator. Our preference was always 
to start that program earlier. Budget realities would not allow 
us to do it last year. We did, as I mentioned, come in with a 
slightly higher budget particularly in the out-years after 2016 
in our 5-year plan. That allowed us to move it back up 2 years. 
There was very strong--and Admiral Haney may want to address 
this. There was very strong interest in accelerating that 
program if we could find a way to do it, and we did so.
    Senator Fischer. Thank you, Mr. Secretary.
    Admiral, if you can clarify there, there is a difference 
between the nuclear cruise missiles and the nuclear gravity 
bombs and what they do in their missions. Can you enlarge upon 
that and why we need them?
    Admiral Haney. When we look at our air leg, the flexible 
leg of the deterrence, it is important as we look at today the 
B-2 capability, and part of that comes with the bomber--bomb 
piece. It does not have currently the capability to do an air-
launched cruise missile. The B-52 platform requires the air-
launched cruise missile to provide that standoff capability, 
unlike the B-2, designed with stealth. Very important. This 
platform, the B-52, will be around until around 2040. So we 
have more decades to come in its utilization, and as a result, 
we need to be able to have a reliable air-launched cruise 
missile, the long-range strike option we talk about today, in 
order to address, particularly as we look at how countries are 
developing more and more anti-access, access denial type of 
capability, to give us further reach and to make more complex 
their decision matrix associated with escalating their way out 
of a conflict.
    Senator Fischer. It offers our commander in chief more 
options as you provide advice when conflicts may arise. 
Correct?
    Admiral Haney. That is correct.
    Senator Fischer. Thank you.
    Mr. Elliott, if you could comment on this as well. These 
systems are not redundant. Are they? The two systems. They are 
specific in their missions?
    Mr. Elliott. They are, Senator. I would add on the bomb, 
for example, the B-61 that will replace the existing inventory 
of those is carried by our dual-capable aircraft also. They do 
not have a capability to carry the cruise missile. They do not 
have the capability to carry some of our larger weapons like 
the B-83. So it is critically important that we get that for 
both the dual-capable aircraft and for the strategic systems 
like the B-2, and it will be available for long-range strike 
bomber later on.
    At the same time, aging systems like the B-52, which when 
the first Elkem came off the inventory or into the inventory, 
was already 20 years old, now past 50 years old, is no longer 
able to penetrate those defenses. Yet, it has significant 
capabilities and a replacement air-launched cruise missile, 
LRSO [Long Range Standoff Weapon] in this case, will extend its 
utility to the plan in its primary role of deterring attacks on 
the United States. So they are equally important and serve a 
very different purpose in our plans.
    Senator Fischer. Thank you.
    General Klotz, thank you once again for allowing Senator 
King and I to come and giving us a very thorough tour of the 
facilities. We appreciated it and learned so much.
    But if you could comment on moving the warhead up, and does 
it stabilize the load for the NNSA?
    Mr. Klotz. Thank you very much for joining us out there in 
New Mexico. I am sure Senator Heinrich would say you visited 
two of the finest of the labs, but we love all our children in 
NNSA.
    Senator Fischer. We do, we do.
    Mr. Klotz. If I could just make one point to what Mr. 
Elliott just said. On the gravity bombs, the B-61, they, in 
addition to the strategic bombers, also go into these dual-
capable aircraft. Those are fighter aircraft that can conduct 
both conventional and nuclear missions. That capability is so 
essential to our overall policy of extended deterrence, in 
other words, providing that nuclear umbrella to our allies and 
partners across the globe. So that is why it is very important.
    On the issue with moving the date to the left for the long-
range standoff, we looked at that very carefully. This actually 
fits in very well with our workload projections. We will be in 
the phase of two other life extension programs where if we did 
not have work to do, we would have a gap in work for our 
employees at the laboratories, as well as the production plan. 
So by moving that a couple years to the left, it actually has a 
positive, beneficial effect by smoothing out the workflow, not 
having to go through letting some people go and then hiring 
them back at a later date.
    Senator Fischer. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    Senator King?
    Senator King. I am not sure who to address this question 
to, but I note that a lot of our nuclear force calculations are 
based upon applying the terms of the New START treaty. My 
question is, is Russia abiding by the terms of the New START 
treaty, and do we know that?
    Mr. McKeon. Senator King, what we are seeing is that Russia 
is abiding by the New START treaty. The main, central limits of 
the treaty do not come into effect until February 2018, but the 
assessment of the intelligence community at the moment is that 
we expect that they will fulfill their obligations under the 
treaty.
    We also have ongoing inspections and verification 
mechanisms in place with mutual inspections, and those are 
proceeding without any violations.
    Senator King. Thank you.
    Mr. Kendall, when I hear the word ``interoperable,'' it 
gives me a sort of uneasy feeling because I next think of the 
word ``Joint Strike Fighter.'' Execution is as important as 
vision. ``Interoperable'' sounds good. Are there practical 
problems? Please reassure me that we are not going to make 
something more expensive and difficult by trying to make it 
interoperable.
    Mr. Kendall. We have completed a fair amount of study of 
options for a common word that could be used by either of the 
ballistic missiles. While we have delayed that 5 years now in 
our plan--it does not start until late in the 5-year plan--we 
do think that is technically feasible, and it will lead to 
significant cost savings as well. So ``interoperable'' in this 
case I think is a very, very different matter, the idea of 
three largely common variants of aircraft which is what we 
tried to do in the F-35.
    Senator King. Command and control, a crucial part of the 
nuclear deterrent. How do you feel about where we are in 
command and control particularly in light of the developing 
cyber threat?
    Mr. Kendall. It is a concern. I co-chair a body with the 
Vice Chairman of the Joint Chiefs, Admiral Winnefeld, which by 
statute now oversees the nuclear command and control 
enterprise.
    We have taken some steps over the last 2 or 3 years to put 
some modernization funds into that part of the structure. Our 
chief information officer is currently doing a review of that 
and he is going to be reporting out very shortly to us. From 
the preliminary indications I have from him, we do have some 
additional things that we have to pay attention to. A lot of 
that infrastructure, like other parts of the nuclear 
enterprise, has been aging, and the cyber threats are getting 
much more severe over time. So we have to pay close attention 
to that.
    Senator King. We had a hearing a week or so ago with some 
deep thinkers on these issues, and one of the things they 
talked about was the Soviet--sorry--the Russian--that is the 
second time I have made that mistake.
    Mr. Kendall. I do that all the time too.
    Senator King. The Russian stockpile of tactical nuclear 
weapons. Is this a gap, if you will, in our deterrent? We are 
talking here about strategic weapons. If we are talking about 
deterrence, it is important, it seems to me, to have something 
to deter the tactical usage.
    Mr. Kendall. That is a cause for concern. The Russians are 
changing their doctrine and they are pursuing an approach that 
we took at one time in the 1950s. We had a lot of small-yield, 
short-range nuclear weapons. The Russians seem to be going down 
a similar path and their doctrine is changing consistent with 
that. That would suggest a more willingness to use those to try 
to control escalation.
    I would like to ask Secretary McKeon to address that 
because I know Policy has been looking at that very closely.
    Mr. McKeon. Senator, I probably cannot get into the numbers 
in this forum, but it is not a secret that Russia has more 
tactical nuclear weapons than we do. I think we still are of 
the view that our conventional and nuclear forces, taken 
together, provide us adequate capabilities to deal with that 
disparity in tactical nuclear weapons.
    Admiral Haney may also have a view on that.
    Senator King. Ironically it appears that the world was 
turned upside down in terms of perceptions. We had them because 
we perceived the Red Army as a massive conventional threat, and 
I gather they now consider us to have a more severe 
conventional threat and therefore they are moving toward the 
tactical weapons that we were relying upon.
    Mr. McKeon. That is our assessment of why they have so 
many. It is because of what they perceive to be our 
overwhelming conventional spear.
    Senator King. A question about deterrence. The whole theory 
of deterrence rests upon rational state actors, and we are now 
in a world of irrational non-state actors. How do we develop a 
doctrine that is equivalent to deterrence? Deterrence was a 
very effective doctrine for 50, 60, 70 years. But how do we 
deter somebody who: (A) does not represent a country, and (B) 
does not care about dying?
    Let the record show they pointed at each other.
    [Laughter.]
    Mr. Kendall. It is a policy question, and I would like 
Secretary McKeon to address it. But that is a cause for deep 
concern, and that is why counter-proliferation is so important 
to us. We do not want one of these groups, who is exactly as 
you described them, get their hands on a weapon of mass 
destruction of any type.
    Mr. McKeon. I do not have much to add to it. Under 
Secretary Kendall said there are certain people who cannot be 
deterred. We keep a close eye on terrorist groups and others 
who are trying to get either nuclear weapons or nuclear 
material, and we have a lot of programs in this area that both 
our Department and the Department of Energy work on, and they 
are also a critically important part of our budget.
    Admiral Haney. The only piece I would add, Senator, is that 
as we look at the art of deterrence and the cost and benefit 
ratio, it is the whole-of-government kind of approach 
associated with that. As a result, as we look at that, although 
you might argue that rational thought and terrorism, for 
example--are they congruent or not? I would just say in terms 
of a reactor state or not, there are costs and there are 
benefits, and we have to get at that in terms of the deterrence 
calculation.
    Mr. Klotz. Can I pick up on a point that was raised 
earlier? That is, a very, very important part of our overall 
nuclear security strategy also deals with making sure that 
would-be proliferators and would-be terrorists can never get 
their hands on the special nuclear materials which they would 
need to either make a bomb or to fashion a nuclear or 
radiological device that they could use in a terrorist 
scenario.
    So a large part of what we do and a large part of our 
budget requests, beyond the weapons activity, has to deal with 
putting in place systems to prevent proliferators or terrorists 
getting that material, if somehow they do, countering what they 
can do with that material, and then, God forbid, if anything 
ever actually happened, being able to respond to the 
consequences of that. So that is a very, very large part of 
what NNSA does, drawing upon the scientific, technical, 
engineering capabilities that are resident in our network of 
laboratories and production facilities.
    Senator King. Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    Senator Heinrich?
    Senator Heinrich. Thank you, Mr. Chair.
    I want to thank you for bringing up the technical nuke 
issue. I think it is something we need to put a lot of thought 
into.
    General Klotz and Under Secretary Kendall, I understand 
that you are already working to address some of the 
congressional advisory panel's recommendations for NNSA 
governance reform, and I wanted to ask on the specific issue of 
NNSA's structure, is that something you plan to address or do 
you think that this committee should be looking at legislation 
to improve on the current organization of NNSA within the 
Department?
    Mr. Kendall. I am going to let General Klotz deal with that 
question because it is a DOE organizational question.
    But I will say that I think our relationship with NNSA has 
been very good. It has been very collegial. We have worked very 
closely together to try to address problems together. I think 
how the Department of Energy organizes itself and how the 
Congress chooses to have that organization in place--we will 
find a way to work together and get the job done in any 
arrangement. But I think the current arrangements are working 
fine from our point of view. I think my colleagues from the 
Defense Department would agree with that.
    Mr. Klotz. Well, Senator, first of all, we appreciate the 
work that was done by the panel. They are a panel of 
distinguished Americans, many former Members of Congress 
represented on that, and they gave a lot of thought and spent a 
lot of time coming up with a very comprehensive list of 
recommendations.
    Many of the recommendations that they make, particularly in 
the area of management, cost estimation, analysis of 
alternatives, project oversight, are things, quite frankly, 
which the Department under Secretary Moniz's leadership--he has 
been in the saddle between a year and a half-2 years. Now with 
confirmed leadership in key positions at NNSA, we are already 
moving out very smartly on in terms of enhancing the rigor and 
the discipline and the process which we use for life extension 
programs, construction projects. Many of the things that the 
Secretary is doing and the Department is doing we can do within 
existing authorities which the Secretary or the Administrator 
of NNSA already have, and we are moving out on that.
    In legislation that came out at the end of last year, I am 
required to submit a report by March 17, and we will lay out in 
some detail our views and our responses to each of the 19 
overall recommendations and 63 sub-recommendations. I do not 
think, however, we will comment on how the Congress should 
organize itself as the panel suggested we do.
    Senator Heinrich. Everyone else does. You might as well.
    [Laughter.]
    Senator Heinrich. General Klotz, I want to continue with 
another issue. I am a strong supporter of a modest set-aside of 
funding for laboratory-directed research and development, or 
LDRD. LDRD investment in high-risk, high-payoff activities 
supports the National security mission while allowing the lab 
scientists to pursue innovative solutions to some of our 
Nation's most challenging energy as well as national security 
problems. One of the things that this really helps with is 
attracting the best and the brightest talent. I actually 
believe that a set-aside for LDRD of 8 or even 10 percent can 
be justified.
    I wanted to ask you more broadly. Do you agree that 
Congress should maintain a robust LDRD program?
    Mr. Klotz. Absolutely, Senator. I could not have said it 
any better than you did. It has payoffs both in terms of the 
basic research that is necessary to maintain the stockpile but, 
more importantly, to recruit and retain the best and the 
brightest out of STEM programs at our leading colleges and 
universities by giving them the opportunity to work on leading-
edge scientific and engineering work to establish their bona 
fides with their colleagues around the country. Once we allow 
them to do that, we find they get very intrigued by the other 
things that are going on in the laboratory, and we can hold----
    Senator Heinrich. We suck them in and they are there for 
30-plus years, which is really the goal. Some of our most 
amazing scientists have been intrigued by these issues. It is 
one of those things that for not only retention, but just 
attracting them in the first place has been incredibly 
powerful.
    One of the things that I would encourage my colleagues to 
do, as they get a chance to visit some of the labs, is to ask 
for a specific brief on some of the things coming out of LDRD 
because I have always been amazed. Not only is it really 
important for this sort recruitment and retention piece, but 
some of the most innovative things that spin off and end up 
helping our warfighters, really saving lives, doing things in 
the cyber field that we did not think was possible just a short 
time ago come out of these projects. It is fascinating to see 
that window. So I would encourage you all to do that.
    I want to move on to Los Alamos really quickly. Your 
submitted testimony says that we reinforced NNSA's need to 
fully develop responsive and productive plutonium and uranium 
capabilities for this Nation. Today these capabilities and 
their enabling infrastructure are at great risk and rank among 
our highest priority infrastructure challenges. General Klotz, 
can you explain to the subcommittee how important it is to 
ensure that the replacement for the plutonium facility is built 
and that we get that rolling in order to address some of the 
issues that my colleagues brought up regarding pit production 
and unforeseen future events?
    Mr. Klotz. Thank you, Senator. As I said earlier, we have 
gone down dramatically in terms of our ability as a Nation to 
produce pits either for future systems like the interoperable 
warhead or in response to a technical challenge that we have to 
deal with. Much of that work is going to be done at Los Alamos. 
There is also work done at our other labs and our other 
production facilities, but the heart and soul of that is at Los 
Alamos.
    We have a plutonium strategy which this whole Nuclear 
Weapons Council has agreed to that will result in repurposing 
and reusing some of the space that is in the PF-4 and at the 
rad lab, and also later this year, we will establish a mission 
need statement regarding building additional modules which will 
allow us to move some of the work that requires the highest 
degree of security and safety and free up more space within PF-
4 to actually do pit production.
    Senator Heinrich. So it is important again that we keep 
this on track. We have had great support from this committee 
and other committees on the Hill in terms of moving forward. I 
look forward to working with you on that.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Nelson?
    Senator Nelson. First of all, I want you all to know how 
much we appreciate what you do. It is not in the press, and it 
is absolutely super important to the National security of this 
country. You all do it in a collaborative fashion, and the 
results speak for themselves. So thank you. Thank you.
    Mr. Kendall, since you chair the council, it is my 
understanding that as an acquisition body that works with the 
NNSA to set requirements and develop planned warhead activities 
as you collaborate, do you think it needs to be expanded to 
include other groups such as the services or set requirements 
for DOD delivery platforms?
    Mr. Kendall. The short answer is, no, I do not. The council 
operates by consensus, and if you expand the group, it is 
harder to achieve consensus. I think we have the right people 
here before you, Admiral Winnefeld represented by Mr. Elliott, 
to represent the policy and the acquisition aspects from the 
Pentagon, as well as the operational aspects and the services 
through the Joint Staff and, of course, the Department of 
Energy through NNSA's Director.
    I just want to make the comment that we do include in 
Nuclear Weapons Council meetings all the relevant stakeholders 
whenever we meet. So we have people there from our comptroller, 
financial side of the house, from our cost analysis and program 
evaluation, CAPE [Cost Assessment and Program Evaluation], 
organization, from each of the military departments, and 
frequently from the national security staff or perhaps OMB as 
well if they are engaged on the issue. So we are very 
inclusive. We include people. We hear their points of view. We 
take them into account, and I think the membership is suitable 
as it is today.
    I would invite my colleagues to comment on that if they 
would like to as well.
    Mr. McKeon. I agree with what Under Secretary Kendall said. 
Everyone is in the room who needs to be in the room. In my 
short time in the Department--I just got there in August--my 
impression is it all works pretty well at our level. There may 
be some skirmishes amongst our staff, but by the time it gets 
to us, we come together on recommendations. I do not get the 
sense that any of the services feel like they do not have an 
adequate voice in that forum.
    Senator Nelson. Well, let me ask you something. You all 
have identified in your report, titled ``The Report on Balance 
in Nuclear Weapons Programs,'' that you need to certify and 
maintain the current stockpile, that you need to perform the 
life extensions and you need to prepare to respond to future 
uncertainties. Can you explain each of those functions?
    Mr. Kendall. Sure. Our stockpile--because we cannot do any 
underground testing anymore, we have to keep track of the 
safety and security and reliability of the stockpile. So 
surveilling the stockpile, testing it, looking for any aging 
effects that might have been predicted is one activity that we 
have to do.
    There are aging effects that take place that we understand, 
and those require us--and also, because there is some 
obsolescence of technology, we have to upgrades to the weapons 
over time. The B61, for example, is responding in part to some 
very obvious aging effects, which we understand and are aware 
of, and we are in a bit of a race against time to get that 
program and other programs like it done. So those two aspects 
deal with that.
    We also have to consider any needs in the future in terms 
of production and have the infrastructure in place that will 
support those needs. Part of this, of course, is the life 
extensions programs. We need production for that. But if we 
were called upon to do more in the case of a geopolitical 
change or something we did not foresee, the infrastructure 
needs to be there to produce weapons as well as to meet the 
needs that we do foresee.
    So those are the basic three pieces.
    Frank, do you want to add to that?
    Mr. Klotz. If I could add just a bit, Senator. Sometimes 
some people will make a distinction between production on the 
one hand and science, engineering, and research on the other. 
In my view, it is not an either/or situation. In order to do 
surveillance of the current stockpile and also understand those 
aging effects, we have to do some pretty leading-edge science 
and engineering, particularly as these systems age. As the 
components, the uranium, the plutonium, the tritium age, we 
need to understand that. The way we understand it is by doing 
diagnostic experiments and then putting the data from those 
experiments and past test data into high performance computing 
platforms which allow us to understand the effects of aging. 
They also allow us to understand the effects of changing 
components perhaps using new materials because the old 
materials are no longer manufactured or available.
    Mr. Kendall. If I could make a comment. I would encourage 
all of you to find an opportunity to come see nuclear weapons, 
come see what is in those designs. They are not simple devices. 
They are extremely complicated devices. If you look at some of 
the technology that is in some of our older weapons and you 
compare that to some of the newer life extension program 
designs, there is a remarkable difference. I think it will be 
very obvious to you why we need to do this work.
    The other thing I want to say is that we have devices which 
are critical to national security which are terribly 
destructive that we cannot test, and we have maintained them. 
If you look at the chart that you have up there, this is 
largely the platform side, but there is a similar set of charts 
for the weapons side. We built a lot of weapons. We tried to 
keep them for about 40 years. We want to be sure that those 
weapons are safe, they will not go off accidentally. We want to 
be that if they ever are asked to go off, that they will go off 
reliably. These are very stringent requirements. This is a very 
stressing, difficult, technical task. It demands the best from 
our scientists and engineers. You should see for yourselves 
what we are doing with these systems. This is a very difficult 
task. What we are doing in the science and engineering program, 
other aspects of it are all necessary to ensure the safety, 
security, and reliability of that force structure.
    Senator Nelson. Admiral Haney, in your opinion do we need 
new nuclear weapons, or can we do the job with the existing 
stockpile?
    Admiral Haney. We can do the job with the existing 
stockpile, Senator, as long as we work this 3+2 strategy, we 
work the life extension programs, as we have been talking about 
here. Those are critical for us to be able to sustain ourselves 
through the future. So I cannot say enough about staying on 
track with the 3+2 strategy.
    Senator Sessions. Well, thank you, Senator Nelson.
    Sort of to follow up on that and Senator Heinrich's 
questions, the 2015 STRATCOM report on balance in the nuclear 
weapons program suggests that due to the current funding 
emphasis on certifying the nuclear stockpile and performing 
life extension programs on aging weapons, there may be 
insufficient funding in science activity to respond to future 
uncertainties. In other words, there is concern about losing, 
``a full design and production capability,'' which is, ``a 
critical component of the U.S. nuclear deterrent.''
    Maybe Admiral Haney and General Klotz, you can comment on 
that.
    It also relates to the idea that we do not want to have 
legislation and funding so restricted that the good scientists 
who come up with good ideas are not even able to research and 
test them. Of course, Congress is not going to allow something 
new to be done that they have not ultimately approved. But do 
you feel like that is a problem? Would there be benefits 
derived from directing our scientists and engineers to gain 
practice and experience by designing at least, if not building, 
a new prototype weapon as we determine--as we go forward in the 
future?
    Mr. Klotz. Thank you, Senator, for the question.
    I am not a nuclear physicist. I am in awe of nuclear 
physicists. But when I visit the laboratories and when I visit 
the production plants, it seems to me that the work that our 
people are doing requires and imbues in them a very thorough 
understanding of the engineering and the operation of these 
very sophisticated, complicated devices. They are fully engaged 
and fully employed in that. Without going into the details of 
all that that means because of the level of sensitivity, I 
sense our people understand that.
    We are, of course, concerned about the fact that a lot of 
our workforce is aging. Many of them came of age the same time 
I did, and they are about ready to pass the torch on to the 
next generation. So we have to provide them challenging work to 
do, but I think they have a full slate of challenging work to 
do.
    The other important thing, as far as legislation is 
concerned on this or any other area--we have a broad consensus 
in the Nuclear Weapons Council that this is the right path that 
we are on. I think there is a broad consensus based upon 
authorization and appropriations on the Congress that we are on 
the right path. It seems to me that holding that consensus 
about the body of work that we have to do both on delivery 
systems and warheads that we have outlined in the 3+2 strategy 
is important to preserve.
    Mr. Kendall. Mr. Chairman, if I may. I am not a nuclear 
physicist either, but I am an engineer. I think the scientific 
and engineering challenge that we have placed upon our people 
does certainly give them the experience to be confident of 
their products.
    I do not think we need to do new designs. We have very 
state-of-the-art modeling and simulation capabilities. We are 
doing laboratory testing and other testing, to the extent we 
can, to verify the performance of our systems and the 
components that we are upgrading or redesigning within the 
existing weapons design framework basically I think is adequate 
to keep the expertise at a reasonable level. I do not think we 
need to do new designs.
    Senator Sessions. Admiral Haney?
    Admiral Haney. Chairman, I would also add the fact that 
when you look at the intricacies associated with these life 
extension programs that are underway or planned, those in 
themselves are challenging to the workforce and to such an 
extent that I think it also helps keep them proficient in terms 
of if there was ever a need for a new design, that we would 
have the workforce we need to do that, from the visits I have 
had. This business of reuse, refurbishment, and then the 
electronics associated with it is not trivial stuff, as Frank 
Kendall mentioned, and I just want to sound off that that in 
itself keeps them very gainfully not just employed but 
requiring significant thinking and cranial power.
    Senator Sessions. Well, let us just say it this way. There 
is a consensus in the Congress, and when you say a consensus 
among yourselves, I think you mean you consider a little bit of 
the political world you live in when you make those statements 
that you have made.
    The lab directors, as I understand, are concerned about 
having full design and production capability. They think that 
is a critical component to a nuclear deterrent because there 
could be future uncertainties and other developments by other 
countries.
    So I am not rocking the boat. We are not going to rock the 
boat and say what some have said like if we are going to 
refurbish this thing, why do we not just build a new one. It 
will be safer, smaller, more capable, and more flexible, and 
probably cost less money.
    So we are just going to update the ones we have got. That 
is the consensus that we have got.
    But I think you do not want to hold your people back from 
if not doing design, doing work on possible new systems in the 
future. Would you agree with that? Maybe we could at least do 
that, Secretary Kendall?
    Mr. Kendall. I think we are constrained in what we can do, 
but I do think, as we said, that the work that we give our 
people is adequately challenging to maintain their expertise.
    Mr. McKeon. If I can add one thing, Senator.
    Senator Sessions. Yes.
    Mr. McKeon. I was in a meeting in the first term with the 
Vice President, my old boss, and Secretary Chu and the three 
lab directors. General Klotz repeated this point the other day. 
They all said to a person that they have learned more in the 
last 20 years about nuclear weapons during the stockpile 
stewardship program than they did through several decades of 
testing. So you should ask them today if they still hold that 
view. General Klotz said that in our prep session the other 
day. So I think the work they have is definitely challenging.
    Senator Sessions. Well, good. I think we can move forward 
the way we are. We will move forward in a bipartisan way. Let 
us do it that way.
    General Klotz, look, I believe we need to complete the 
goals we have got and to refurbish these weapons on the 
timeframe we are. But it is an expensive proposition. We talk 
about how little we spend, but still, it is billions of 
dollars. We are talking about several years there at $15 
billion a year. I guess what I would say to you and all of you 
is that if we have to have more buildings, more infrastructure, 
let us know, but do not ask for more than we need. We are not 
able to just rebuild whole new nuclear laboratories and 
research things. The initial idea was that there were going to 
be $8 billion and $10 billion and $12 billion buildings took us 
all a bit by surprise. So I think you are creatively working 
forward with modular approaches that get you the new space you 
need. So, again, if you have to have more, please let us know, 
but if you can keep that cost down, that is going to free up 
some money that we can do things we need to do with.
    Mr. Klotz. Senator, I recall that when we met prior to my 
confirmation, that was one of the things that you stressed, and 
it has been uppermost in my mind ever since. I think you are 
right in terms of the modular approaches we take, but also in 
terms of repurposing some of the existing facilities we have 
and also looking for processes that will allow us to do things 
more effectively and with a greater margin of safety is also a 
thing that we are exploring. But we are focused on bringing 
discipline, rigor that is very much already a part of the DOD 
into the way in which we approach our project management, as 
well as program management.
    Senator Sessions. Thank you.
    Senator King?
    Senator King. Just a couple of follow-up questions.
    One is I think your chart, Mr. Chairman, is very 
informative. It would be even interesting to compare it with 
the decline of the defense budget as a percent of GDP because 
what you have is a declining share of a declining share. The 
defense budget in 1962 was something like 5-6 percent of GDP 
[Gross Domestic Product]. It is now at 3.3. So it makes this 
even more dramatic in terms of its cost to the taxpayers.
    Senator Sessions. Can I say one thing about that chart? The 
new bomber, as I understand it, is considered about three-
fourths non-nuclear costs. So we have got the full cost of the 
new bomber in there, which is really a little higher. It makes 
it look a little higher than otherwise would be.
    Senator King. I do not think we have talked about this 
directly. All these plans and well laid scenarios and what you 
are going to do with refurbishing--what does sequester do to 
all that?
    Mr. Kendall. That is a great question, Senator.
    Well, first of all, this is an extremely high priority for 
us. We would, I think, have to reexamine everything that both 
Departments do under sequester. That said, we are looking at 
the percentage of our budget that is involved here. We would do 
our best to protect this area because of the strategic 
deterrence mission area is so vital. I think we would have to 
make some adjustments, but I think we----
    Senator King. Do you have a choice to do so, or would 
sequester require cuts in this area as in all others? Would you 
have that kind of flexibility and discretion under the way the 
law is----
    Mr. Kendall. My understanding--and I may be incorrect about 
this--is that after fiscal year 2013, there is more discretion 
in how sequester is implemented, and we would have some 
discretion. I would hope that would be the case because doing 
what we did in fiscal year 2013 and taking the same cuts from 
everything essentially was a very dysfunctional way to take 
cuts.
    Senator King. But if you did protect this area, it would 
simply mean that we would have to take it out of readiness or 
end strength or modernization of the other part of the Defense 
Department.
    Mr. Kendall. That is right.
    Senator King. So is it fair to say that sequester would be 
damaging to this program?
    Mr. Kendall. Yes, it is.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    General Klotz, you were discussing the issues that you 
faced with your workforce, whether they are aging and looking 
at retirement, to make sure that they are challenged with their 
work, to keep a workload even so you do not have to have 
layoffs and lose those people to other industries. I would ask 
Admiral Haney, do you have issues like that with your workforce 
at STRATCOM? Do you share some of those same concerns about 
keeping a workforce that has the abilities and the needed 
knowledge actively employed?
    Admiral Haney. Senator Fischer, absolutely I remain 
concerned. I would say we had the furlough. That was a signal 
to all of our workforce. Quite frankly, we lost some people as 
a result of that.
    You combine that as well as how some of the pundits like to 
talk about this capability we have here in this discussion, the 
strategic nuclear capability, and as a result, in some of those 
discussions, it further devalues what this workforce is about 
that is so important to our country.
    So this is an area that we spend time, just as I think 
General Klotz and his team does, in terms of working intern 
programs and what have you to connect this to universities to 
bring in new talent while at the same time working hard to 
retain the talent we have. Headquarters of your Strategic 
Command is about 60 percent civilian, very important when you 
look at the intricacies of the strategic deterrent that we keep 
the right and relevant workforce.
    Senator Fischer. We had a discussion earlier on the 
effectiveness of our nuclear deterrent and looking at the 
Russians and their tactical weapons. It kind of looked like 
maybe you wanted to join in that discussion. Did you have 
anything you wanted to say with regards to the effectiveness of 
our deterrent and also with the Russian tactical weapons and 
how those affect our outlook to the future as well?
    Admiral Haney. I thought our discussion was rich, and I 
agree with everything that was stated relative to our whole 
capability, strategic capability, as well as conventional 
capability that a joint military force operates day in and day 
out.
    The only piece that I would add is when people talk about 
the use of a tactical nuke, I would just say if one of those 
were to go off and our deterrence failed, that tactical nuclear 
weapon or non-strategic nuclear weapon, as we sometimes call 
it, would have a strategic effect, and that we can ill afford 
to have.
    Senator Fischer. Thank you very much.
    Senator Sessions. Senator Heinrich?
    Senator Heinrich. Let me follow up on that question just a 
little bit because with regard to the Russian tactical nuclear 
weapons, or non-strategic weapons, how do the rules of 
deterrence differ for tactical versus strategic nuclear weapons 
in your view? Are more tactical nukes, in other words, a better 
deterrent than maybe the conventional forces? How do those 
general rules--because I think everybody intuitively kind of 
understands how our doctrine and deterrence works with 
strategic nuclear weapons, but it seems to me that tactical 
nuclear weapons do not exactly operate by the same set of 
rules.
    Admiral Haney. Well, I would say it is not the weapons that 
operate by the rules. It is the actors, nation states, et 
cetera that have those weapons at their disposal that are more 
of a concern. I think it would be inappropriate for me to 
compare a brigade or a conventional capability and say X number 
of this equals one of that. I do not think that is what we are 
talking about. I think the real key, when you look at our 
strategic nuclear capability, it is to make deterrence work so 
that we do not have any type of nuclear weapon utilization, and 
a whole-of-government approach to that has to be part of that 
equation.
    Senator Heinrich. A related question sort of harkening back 
to Senator King's mention of non-state actors. Do you have any 
comments about how some of the more recent nuclear breakout 
states, the Pakistans, Indias, fit into our overall doctrine of 
deterrence?
    Admiral Haney. I would just say that--interesting you would 
ask that question. I had a deterrence symposium last year, and 
I had a Pakistani individual associated with their program and 
he had breakfast with me. I asked him about his program, and he 
wanted to make sure he was clear to me it was not a program 
against us. However, I would just say it is very problematic, 
as we watch Pakistan modernize its capability. As we have 
stated before here, part of this is being able to prevent more 
development of nuclear weapons in the world and to contain that 
piece. So looking at the modernization programs that Pakistan 
has right now can be troubling as we look into the future and 
how the world could change.
    Senator Heinrich. Thank you.
    Sort of moving back to slightly more mundane issues, there 
has always been a little bit of a--and I will direct this back 
to, General Klotz--a perpetual question about balancing 
workload between Lawrence Livermore and Los Alamos. There have 
been a number of occasions where something was developed in Los 
Alamos and then shifted over to Livermore for work balance. I 
am curious. I would like your thoughts on what the future holds 
for these two labs, as you see it, in terms of work balance.
    Mr. Klotz. Thank you, Senator.
    First of all, I think we need both labs.
    Senator Heinrich. For the record, I would agree.
    Mr. Klotz. Thank you, sir.
    One of the key things that has been a part of our whole 
enterprise for the past several decades is the fact that the 
labs conduct peer review with each other. Without getting into 
any of the details, there have been instances in the past 
where, quite frankly, one lab was able to see things in a very 
different way and come up with a slightly different solution. 
On the issue of the W88, which we talked about, and the need 
for CHE refresh, one lab did the primary work, and another lab 
checked their homework. That as very useful to us I think in 
our deliberations in the Nuclear Weapons Council that we had 
that verification.
    There is work the two labs do together that is very 
similar, and that is where we do a lot of the balancing of the 
work. But there are also some unique capabilities at each of 
the laboratories. Clearly, as I said earlier, Los Alamos is the 
center of excellence for plutonium science, chemistry, and 
operations. It also has facilities like DARHT, which are one of 
a kind. Lawrence Livermore in California has the National 
Ignition Facility, which is very, very important to us. Then, 
of course, Sandia in Albuquerque is the systems engineer for 
the entire enterprise. So I think we have got sort of the right 
mix there, and I think the balance is appropriate.
    Senator Heinrich. Thank you very much.
    Senator Sessions. Thank you.
    Just to pursue one a little more. In South Korea, the 
President said nuclear ambitions in the United States and 
Russia--no. That is a different report.
    Here it is. He said as President I changed our nuclear 
posture to reduce the number and role of nuclear weapons in our 
National security strategy. I made it clear that the United 
States will not develop new nuclear warheads. So that is why we 
have just agreed to agree. We will not pursue new military 
missions for nuclear weapons. We have narrowed the range of 
contingencies under which we would ever use or threaten to use 
nuclear weapons. He said that at Hankuk University in South 
Korea, and it caused a lot of unease among our Korean allies, 
among others.
    Under Secretary of State Rose Gottemoeller in Prague in 
December of last year said we have seen new and enduring 
pressures on the nonproliferation regime, pressures that 
threaten global stability. We are seeing nations turn away from 
cooperation, turn away from the common good of nonproliferation 
efforts, and cling ever more tightly to their nuclear arsenals. 
I think that is true.
    This is the U.S. National Intelligence Council, Global 
Trends 2030 that was produced in December 2012. ``Nuclear 
ambitions in the United States and Russia over the past 20 
years have evolved in opposite directions. Reducing the role of 
nuclear weapons in U.S. security is a U.S. objective, while 
Russia is pursuing new concepts and capabilities for expanding 
the role of nuclear weapons in its national security.''
    It goes on to say, ``other nuclear powers, such as Pakistan 
and potential aspirants, Iran and North Korea, desire nuclear 
weapons as compensation for other security weaknesses.'' So I 
think that is accurate.
    I asked former Secretary Kissinger at a hearing a few weeks 
ago about the negotiations with Iran, and he actually was 
alarmed. He thought our negotiation position had moved too far, 
that we are accepting too close an ability of Iran to have a 
nuclear weapon, noting that if we were down to 9 months, he 
explicitly said Turkey, Saudi Arabia, and Egypt he believed 
would develop or buy a nuclear weapon.
    So I do not know how we achieve nuclear stability around 
the world. We have had it pretty good for a long time. But if 
we have three or four Nations or five nations in the Middle 
East all with nuclear weapons, this is taking us in the wrong 
direction. It really is dangerous, and there would be a major 
expansion of the number of countries that would have nuclear 
weapons.
    So forgive me if I am a bit concerned that de-emphasizing 
our nuclear posture could have the perverse effect of lessening 
confidence or increasing the desire of other nations to expand 
theirs--well, I do not know that I will say any more about 
that.
    If any of you would like to comment on it, I would be--
Secretary McKeon, you are the policy man. Maybe you would like 
to comment on it. But things are not going as well as we would 
like with regard to the risk of nuclear proliferation.
    Mr. McKeon. Senator, you have laid out a pretty complicated 
set of statements there. Let me try to address some of them.
    On the first one, in terms of the Koreans--Mr. Elliott may 
be able to add some flavor to this--we spend a lot of time 
worrying about extended deterrence and our commitments both in 
Europe and in Asia. In fact, Mr. Elliott just returned from 
some extended deterrence talks both with our Japanese and 
Korean partners that he does in concert with somebody on my 
staff, Elaine Bunn, who is the Deputy Assistant Secretary. So 
he can speak to the current Korean frame of mind.
    I would agree with Under Secretary Gottemoeller that the 
nonproliferation system is under stress. We have an NPT review 
conference coming up next month where the system will be 
debated. In terms of the Middle East, there is no question. It 
is one of the reasons that the President is trying to prevent 
Iran from getting a nuclear weapon is the concerns among 
proliferation among its neighbors if they were to have a 
breakout capability, which is what these talks are about.
    Senator Sessions. Well, thank you.
    Do any of the others have any comments?
    [No response.]
    Then we will wrap it up. Thank you all. It was a very 
excellent panel. I appreciate the good work of what you are 
doing, and I think it has made a positive impact financially 
and to our national security.
    [Whereupon, at 4:50 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Martin Heinrich
                     supply chain management center
    1. Senator Heinrich. General Klotz, many small businesses in New 
Mexico are concerned about the NNSA's increasing the targets for M&O 
contractors to use enterprise-side purchasing agreement through the 
Supply Chain Management Center (SCMC). Small and disadvantaged 
businesses believe NNSA's and EM's use of enterprise-wide agreements 
tilts the playing field against them, resulting in lost business, lost 
jobs, reduced community involvement, and harm to the local communities' 
economies. Northern New Mexico is especially impacted given Los Alamos 
National Laboratory's massive size relative to the local economy. As 
use of the SCMC grows, M&O contractors will find it increasingly 
difficult to meet their contracting goals for small and disadvantaged 
businesses.
    What are NNSA and EM doing to ensure small disadvantaged businesses 
are notified of opportunities from SCMC and can successfully compete 
for enterprise-wide purchase agreements?
    General Klotz. Discounting Supply Chain Management Center (SCMC) 
agreements for travel and procurement/bank cards, where there are no 
opportunities for small businesses, 95 percent of SCMC agreement 
dollars are with small businesses. The SCMC works with the 24 NNSA and 
EM contractor locations that use its ePlatform tools and enterprise-
wide agreements to identify opportunities to educate potential small 
business suppliers; individual companies contact SCMC directly to 
request assistance; and, SCMC attends DOE's Small Business Expos to 
provide demonstrations and information about SCMC, including its 
platforms and processes. Additionally, SCMC has an initiative and 
process to work with the DOE/NNSA contractors to identify potential 
local agreements that can be expanded to all SCMC user contractors in 
order to improve the financial impact to the local community. Enhancing 
that initiative, the SCMC has planned to launch a web site this month 
or in the very near future to provide a ``small business information 
exchange.'' Also, SCMC, in collaboration with Los Alamos National 
Laboratory (LANL), recently completed an initiative to address Northern 
New Mexico small business concerns by incorporating the LANL 
``subcontractor's Regional and Community Development Plan,'' clause to 
its solicitations and agreements. Through SCMC agreements, small 
businesses are able to reach the many DOE/NNSA contractors at once, 
where previously they would have needed to compete for individual 
contracting opportunities.
                             local spending
    2. Senator Heinrich. General Klotz, the NNSA's national 
laboratories and facilities play a vital role in my state's economy. 
However, in fiscal year 2014, Sandia National Laboratories' spending in 
New Mexico declined $58 million over fiscal year 2013 and LANL's New 
Mexico spending declined $63 million. Are there ways to strengthen the 
M&O contractors' annual performance management plans to ensure local 
businesses have an equal opportunity to compete for procurements?
    General Klotz. All NNSA management and operating contractors have 
commitments to local community development which are often manifested 
through subcontract awards to local businesses. Sandia National 
Laboratories and Los Alamos National Laboratory routinely spend well 
over half of their procurement dollars in New Mexico. Strategic 
Sourcing agreements issued by the NNSA M&O Supply Chain Management 
Center to Northern New Mexico small businesses are being used by 
additional NNSA contractors and four DOE contractors as well. These 
actions resulted in contractors spending $29 million in fiscal year 
2014, and thereby expanding the business base on a national scale. 
Additionally, the Supply Chain Management Center and Los Alamos 
National Laboratory have collaborated to incorporate LANL's requirement 
` Subcontractor's Regional and Community Development Plan'' into SCMC 
solicitations; thus levelling the playing field for all suppliers and 
ensuring further commitment to community development within Northern 
New Mexico. Lastly, Los Alamos National Laboratory provides for a 5 
percent pricing preference for Northern New Mexico businesses.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, MARCH 25, 2015

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

                   BALLISTIC MISSILE DEFENSE PROGRAMS

    The subcommittee met, pursuant to notice, at 3:32 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions, Fischer, 
Sullivan, Donnelly, and King.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Chairman Sessions. We just left an Armed Services Committee 
briefing with President Ghani and Dr. Abdullah, so some of our 
members are still there participating in that, but I wanted to 
go on and get started on this important hearing.
    Thank you for being with us. Thank you for the work you 
have been doing, which I think is smart and sound and on the 
right path, in general.
    Ten years ago, the United States began initial operations 
of the Ground-Based Midcourse Defense system, our homeland 
missile capability. Today we enjoy a good measure of protection 
against limited ICBM threats, especially from rogue nations 
like North Korea or, potentially, Iran.
    In 2 years, we will increase that capacity from 30 to 44 
interceptors. I think that was a good step. In 5 years, we will 
enhance the GMD sensor network and begin to retrofit the 
ground-based interceptors with a high-performance, Redesigned 
Kill Vehicle. Also, I believe it will be successful, and I 
believe that will be a major step forward.
    Within 10 years, the plan is, in the words of Admiral 
Syring, to ``revolutionize our missile defense architecture'' 
by placing several kill vehicles atop each GBI, increasing the 
number of lethal objects that can be intercepted with a single 
GBI.
    So the important question is whether Admiral Syring has 
sufficient funding, because the threat continues to grow. As it 
has evolved from the Strategic Defense Initiative Organization 
to the Ballistic Missile Defense Organization to today's 
Missile Defense Agency, the men and women who design, develop, 
and deploy our homeland and regional missile defenses deserve 
the thanks of the Nation.
    I know that we are working hard to make sure that THAAD is 
alert and with good morale and excellent leadership.
    Admiral Syring, in particular, deserves credit for his 
recommendation to modernize the entire GMD system, including 
the interceptors, the sensors, and ground components, 
especially with the financial constraints we are under. In 
fact, this year's 5-year spending plan for MDA is about $6 
billion below the spending projection provided several years 
ago.
    A recent memo to the Secretary of Defense from the chief of 
Naval Operations and chief of staff warns that ``ballistic 
missile threats are increasingly capable, continue to outpace 
our active defense systems, and exceed our Services' capacity 
to meet combatant commanders' demand.''
    Two Service Chiefs call for long-term BMD strategy that 
addresses homeland and regional missile defense from a more 
holistic approach, including nonkinetic means.
    Perhaps General Mann can explain what prompted this appeal, 
and Mr. McKeon can shed light on the Secretary's views on it. 
The memo does raise an important point, which is, what is the 
future of ballistic missile defense?
    The MDA has been so focused on deploying our current 
missile defense capabilities that it has had little time or 
funding available to think about the next generation of missile 
defense capabilities that will be necessary to address the 
growing threat, although I know all of you have given thought 
to that.
    As Deputy Secretary Work recently noted, we need to come up 
with other ideas to defeat this threat. I think that is a good 
challenge to all of us.
    While MDA does have an advanced technology component, it is 
too limited, in my view, and what it can hope to accomplish 
over the next 10 years is important. Perhaps what is needed is 
a new Strategic Defense Initiative.
    So I turn to our ranking member for his opening remarks, 
and look forward to hearing from our excellent witnesses.
    Without objection, all statements will be entered into the 
record.

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Mr. Chairman. I want to thank 
Senator Sessions for holding this hearing.
    Let me also thank our witnesses for testifying. We very 
much appreciate the time you took to prepare for today's 
hearing and for the work you do for our country.
    Protecting our country and our forward-deployed troops 
around the world is of utmost importance. I am pleased we have 
begun to get our missile defense systems on track so they 
perform reliably and effectively. We should continue to improve 
our sensor and discrimination capabilities, so we have a better 
picture of the threats.
    We need to continue to conduct smart simulation and testing 
before we commit to buying new technologies. Fly before you buy 
has been a tough lesson learned in these programs.
    While we continue to improve our homeland defense systems, 
we should not take our eyes off the ball when it comes to 
protecting our deployed troops and reassuring our allies and 
partners. The demand from our combatant commanders for Aegis 
ships, for THAAD, and for Patriot batteries remains high. We 
need to consider how we can best allocate these systems and 
effectively train the warfighters who will operate them to 
provide the protection that is needed in today's budget-
constrained environment.
    Finally, I would be remiss if I didn't note the great 
relationship between MDA and my constituents at Purdue in West 
Lafayette. You have formed a great partnership that I think 
adds tremendous value to our Nation, and I know that the 
Boilermakers are glad to support MDA's mission.
    Thank you again for coming today, and I look forward to the 
dialogue.
    Chairman Sessions. Thank you, Senator Donnelly.
    We will have 6-minute rounds, and maybe we can start right 
off.
    Senator King, do you have an opening statement?
    Senator King. No, Mr. Chairman.
    Chairman Sessions. Oh, from the witnesses. Well, we would 
like to hear your opening statements.
    Mr. Secretary, would you like to start first?

    STATEMENT HON. BRIAN P. McKEON, PRINCIPAL DEPUTY UNDER 
     SECRETARY OF DEFENSE FOR POLICY, DEPARTMENT OF DEFENSE

    Mr. McKeon. I would be happy to, Mr. Chairman.
    Chairman Sessions. Pardon me for getting ahead of myself.
    Mr. McKeon. No worries.
    Mr. Chairman, Senator Donnelly, Senator King, thank you for 
the opportunity to be here today to testify on the fiscal year 
2016 budget request for missile defense, which we regard as a 
critical national security priority. We are grateful for your 
attention to and support of this critical mission of defending 
our Homeland, our partners and allies, and deployed forces.
    The President's budget requests $9.6 billion in fiscal year 
2016, of which $8.1 billion is for the Missile Defense Agency 
to develop and deploy missile defense capabilities that protect 
the U.S. Homeland and strengthen regional missile defenses.
    Sequestration levels would, of course, be significantly 
lower and, as Secretary Carter has said, would make the Nation 
less secure. Even without sequestration, however, in these 
austere times, there is not enough money to fund every program 
that we might wish to have. We are required to prioritize 
investments accordingly.
    As members of this subcommittee, you are well aware of the 
ballistic missile threats and trends. I will focus on several 
key policy priorities for addressing these threats: defending 
the United States against limited long-range ballistic missile 
attacks, strengthening defense against regional missile 
threats, fostering defense cooperation with partners, and 
examining how to advance the missile defense technology base in 
a cost-effective manner.
    The U.S. homeland is currently protected against potential 
ICBM attacks from states like North Korea and Iran. To ensure 
that we stay ahead of the threat, we are continuing to 
strengthen our homeland defense posture and invest in 
technologies to better enable us to address emerging threats in 
the next decade. This requires continued improvement to the 
Ground-Based Midcourse Defense system, including enhanced 
performance of the ground-based interceptor and deployment of 
new sensors.
    As you noted, Mr. Chairman, we are planning to deploy 14 
additional interceptors in Alaska. We are on track to do that 
by the end of 2017. These interceptors, along with the 30 
currently deployed, will provide protection against both North 
Korean and Iranian ICBM threats as they emerge and evolve.
    We have also deployed a second forward base missile defense 
radar in Japan that is operating today thanks to the hard work 
of MDA and the Japanese Government. This radar strengthens both 
our homeland and regional defenses.
    This year's budget request also reflects the department's 
commitment to modernizing the GMD system. It will move us 
toward a more reliable and effective defense of the United 
States. It includes funding for development of a new radar 
that, when deployed in Alaska, will provide persistent sensor 
coverage and improve our discrimination capabilities against 
North Korea. It also continues funding for the redesign of the 
kill vehicle for the ground-based interceptor.
    As directed by the Congress, the MDA is also conducting 
environmental impact studies at four sites in the Eastern part 
of the United States that could host an additional GBI missile 
field. These will be completed next year.
    The cost of building an additional missile defense site in 
the United States is very high. Given that the ICBM threat from 
Iran has not yet emerged and the need to fix the current GBI 
kill vehicles, the highest priorities for the protection of the 
homeland are improving the reliability and effectiveness of the 
GBI and improving the GMD sensor architecture.
    The current GMD system provides coverage of the entire 
United States from North Korean and potential Iranian ICBMs, 
and no decision has been made to deploy an additional missile 
field in the United States.
    Our request also continues to implement deployment of 
missile defenses tailored to security circumstances in Europe, 
the Middle East, and the Asia-Pacific. Our focus is on 
developing and fielding missile defense capabilities that are 
mobile and relocatable, which allow us to address crises as 
they emerge.
    We also encourage our allies and partners to acquire 
missile defense capabilities and to strengthen operational 
missile defense cooperation.
    This year, we initiated a Joint staff-led effort to update 
the 2012 Joint Capabilities Mix study to ensure we are making 
the most effective regional missile defense investments 
possible. In a regional context, we know we will not be able to 
purchase enough interceptors to rely purely on missile defense 
for the duration of a conflict.
    In such a situation, we must protect our most valuable 
assets, while also drawing on our other capabilities to provide 
a comprehensive approach to defeating the threat from ballistic 
missiles.
    We must continue to look ahead. This means ensuring that 
our investment strategy and priorities balance the needs of 
addressing the most dangerous threats we confront today while 
positioning us to respond to threat developments in the next 
decade. Our budget contains various technology investments in 
that regard.
    In conclusion, the austere budget environment will continue 
to compel us to make difficult choices. Sequestration would 
undermine our ability to improve the GBI fleet, place new and 
advanced sensors, and defend our deployed forces and allies 
against ballistic missile attack.
    Quite simply, it would hinder our ability to keep up with 
the growing threat. We believe we cannot let our guard down, 
much less in the current security environment, so we urge you 
to focus on repealing sequestration, and we would ask you to 
fund our request for missile defense.
    Thank you very much.
    [The prepared statement of Mr. McKeon follows:]

                      Prepared Statement of McKeon
    Chairman Sessions, Ranking Member Donnelly, members of the 
Subcommittee, thank you for the opportunity to testify on the Fiscal 
Year 2016 Budget Request for missile defense, a critical national 
security priority. I am grateful for your consistent attention to and 
continuing support of the critical mission of defending our homeland, 
our partners and Allies, and deployed forces from a growing ballistic 
missile threat.
    Let me offer my assessment of how the programs and fiscal year 2016 
budget request for the Missile Defense Agency (MDA) ensure we are 
sustaining and modernizing our homeland missile defense capability so 
that we remain ahead of the threat while providing effective, 
integrated, and interoperable regional ballistic missile defense (BMD) 
capability. The President's budget requests $9.6 billion in fiscal year 
2016, of which $8.1 billion is for the MDA to develop and deploy 
missile defense capabilities that protect the U.S. homeland and 
strengthen regional missile defenses. Sequestration levels would, of 
course, be significantly lower and as Secretary Carter has said, would 
make the nation less secure. Even without sequestration, however, in 
these austere times, there is still not enough money to fund every 
program we might wish to have, and we are required to prioritize 
investments accordingly.
    I will begin with a discussion of ballistic missile threats and 
other trends, and then focus on several key policy priorities: 
defending the United States against limited long-range ballistic 
missile attacks, strengthening defense against regional missile 
threats, fostering defense cooperation with partners, and examining how 
to advance the missile defense technology base in a cost-effective 
manner.
                       ballistic missile threats
    Ballistic missiles continue to become more survivable, reliable, 
and accurate at greater ranges, and regional powers are basing more 
missiles on mobile platforms. Technical and operational measures to 
defeat missile defenses are also increasing. Several countries are 
designing missiles to launch from multiple transporters against a broad 
array of targets, enhancing their mobility and capacity for salvo 
fires, which increases their effectiveness on the battlefield. Shorter 
launch time preparations are making newer systems more survivable.
Iran
    Iran already has the largest inventory of ballistic missiles in the 
Middle East, and today can strike targets throughout the region and 
into Eastern Europe. In addition to its growing missile inventories, 
Iran is seeking to enhance lethality and effectiveness of existing 
systems with improvements in accuracy and warhead designs. Iran is 
developing an anti-ship ballistic missile which could threaten maritime 
activity throughout the Persian Gulf and Straits of Hormuz. While Iran 
has not yet deployed an intercontinental ballistic missile (ICBM), its 
progress on space launch vehicles--along with its desire to deter the 
United States and its allies--provides Tehran with the means and 
motivation to develop longer-range missiles, including an ICBM. Iran 
publicly stated that it intends to launch a space-launch vehicle as 
early as this year capable of intercontinental ranges, if configured as 
such.
North Korea
    North Korea's weapons and missile programs pose a serious threat to 
the United States and to East Asia. North Korea has conducted three 
nuclear tests. It is also seeking to develop longer-range ballistic 
missiles capable of delivering nuclear weapons to the United States, 
and continues efforts to bring its KN08 road mobile ICBM to operational 
capacity. While the reliability of an untested North Korean ICBM is 
likely to be very low, North Korea has used its Taepo-Dong-2 launch 
vehicle to put a satellite in orbit, thus successfully demonstrating 
technologies applicable to a long-range missile.
    North Korea's efforts to produce and market ballistic missiles 
raise broader regional and global security concerns, by threatening the 
United States' allies and partners and increasing our concerns about 
ballistic missile technology proliferation.
Syria
    While Syria does not pose a ballistic missile threat to the U.S. 
homeland, the Assad regime does possess short-range ballistic missiles, 
and has shown a willingness to use them repeatedly against its own 
people. Syria has several hundred short-range ballistic missiles, all 
of which are mobile and can reach much of Israel and large portions of 
Iraq, Jordan, and Turkey from launch sites well within the country.
Other Trends
    In the regional ballistic missile context, one trend that 
particularly concerns the United States is China's development of 
advanced ballistic missiles. China is augmenting the over 1,200 
conventional short-range ballistic missiles with a limited but growing 
number of conventionally armed, medium- and intermediate range 
ballistic missiles that will improve China's ability to strike regional 
targets at greater ranges. China also continues to deploy growing 
numbers of anti-ship ballistic missiles.
    Russia's recent behavior currently poses one of our most pressing 
and evolving strategic challenges--challenges felt across the strategic 
forces mission space. We are confronted with Russia's occupation of 
Crimea, continuing Russian aggression in eastern Ukraine, Russia's 
increasingly aggressive nuclear posturing and threats, including the 
prospect of nuclear weapons in Crimea, and its violation of the 
Intermediate-Range Nuclear Forces (INF) Treaty.
Homeland Defense
    The U.S. homeland is currently protected against potential ICBM 
attacks from states like North Korea and Iran. To ensure that we stay 
ahead of the threat, we are continuing to strengthen our homeland 
defense posture and invest in technologies to better enable us to 
address emerging threats in the next decade. This requires continued 
improvement to the ground-based midcourse defense (GMD) system, 
including enhanced performance of the Ground-Based Interceptor (GBI) 
and the deployment of new sensors.
    We remain on track to deploy 14 additional interceptors in Alaska 
by the end of 2017. These interceptors, along with the 30 that are 
currently deployed, will provide protection against both North Korean 
and Iranian ICBM threats as they emerge and evolve. We have also 
deployed a second forward-based missile defense radar to Japan, which 
is operating today thanks to the hard work of the MDA and the Japanese 
government, to meet our goal of having the radar deployed by the end of 
2014. This radar strengthens both homeland and regional defense.
    This year's budget request also reflects Department of Defense's 
(DOD's) commitment to modernizing the GMD system. It will move us 
towards a more reliable and effective defense of the United States. It 
includes funding for development of a new radar that, when deployed in 
Alaska, will provide persistent sensor coverage and improve 
discrimination capabilities against North Korea. It also continues 
funding for the redesign of the kill vehicle for the Ground-Based 
Interceptor. Although we have fixed the causes of past failures in the 
GBI related to the Exoatmospheric Kill Vehicle, the redesigned kill 
vehicle will have greater performance and discrimination capability.
    As directed by Congress, the MDA is also conducting environmental 
impact studies (EIS) at four sites in the eastern United States that 
could host an additional GBI missile field. These EISs will be 
completed in 2016. The cost of building an additional missile defense 
site in the United States is very high. Given that the ICBM threat from 
Iran has not yet emerged, and the need to fix the current GBI kill 
vehicles, the highest priorities for the protection of the homeland are 
improving the reliability and effectiveness of the GBI and improving 
the GMD sensor architecture. The current GMD system provides coverage 
of the entire United States from North Korean and potential Iranian 
ICBMs. No decision has been made to deploy an additional missile field 
in the United States. If an ICBM threat were to emerge in numbers that 
necessitated the deployment of additional interceptors, the steps being 
taken now, to include conducting an environmental impact statement, 
will shorten the construction timelines associated with deployment of a 
new missile defense site.
                            regional defense
    The Department's fiscal year 2016 budget request also continues to 
implement deployment of missile defenses that are tailored to the 
security circumstances in Europe, the Middle East, and Asia-Pacific. 
Our focus is on developing and fielding missile defense capabilities 
that are mobile and relocatable, which allows us to address crises as 
they emerge. We are also encouraging our allies and partners to acquire 
missile defense capabilities, and to strengthen operational missile 
defense cooperation. This year, we initiated a Joint Staff-led effort 
to update the 2012 Joint Capabilities Mix study to ensure that we are 
making the most effective regional missile defense investments 
possible. In a regional context, we know that we will not be able to 
purchase enough interceptors to rely purely on missile defense for the 
duration of a conflict. In such a situation, we must protect our most 
valuable assets while also drawing on our other capabilities to provide 
a comprehensive military approach to defeating the threat from 
ballistic missiles.
Europe
    We are continuing to implement the European Phased Adaptive 
Approach (EPAA), and we are working in close collaboration with our 
North Atlantic Treaty Organization (NATO) Allies to develop an advanced 
network of sensors and interceptors--on land and at sea--to protect 
NATO European territory, our military forces, and facilities. Since 
2011, the United States has operated a forward-based radar in Turkey 
and maintained a sea-based missile defense presence in Europe. The 
Aegis Ashore site in Romania is on schedule to be completed by the end 
of 2015. Two additional U.S. Aegis BMD destroyers, the USS Carney and 
USS Porter, will be joining USS Donald Cook and USS Ross later this 
year as they forward deploy to the naval facility at Rota, Spain. These 
multi-mission ships will support the missile defense mission, as well 
as other U.S. European Command and NATO maritime missions.
    The President's budget request also supports the Aegis Ashore site 
that will be deployed in Poland in the 2018 timeframe and the 
development of the SM-3 Block IIA interceptor that will be deployed on 
land and at sea later this decade. As these capabilities become 
operationally available, they will extend BMD coverage to all NATO 
European territory.
    Our NATO Allies are also making significant contributions to the 
European missile defense mission. Romania, Spain, and Turkey are 
hosting U.S. missile defense assets and provide the external security 
for the facilities. Beyond hosting the second Aegis Ashore site in 
Europe, Poland has also announced its intention to spend up to $10 
billion to acquire advanced air and missile defense capabilities. DOD 
is engaging directly with Poland to assist it obtaining a lower-tier 
missile defense system to meet its missile defense requirements. The 
U.S. Patriot system is a finalist in this competition. Several other 
Allies are in the process of considering the purchase of air and 
missile defense capabilities. The United States will continue to 
encourage its NATO Allies to do more to cooperate and invest in missile 
defenses that will contribute to Alliance security.
    Several Allies have modern surface combatant ships that could be 
equipped with BMD sensor or interceptor capability upgrades. The 
Netherlands and Denmark have committed to upgrading the SMART-L radars 
on their frigates to contribute to NATO BMD.
    The Netherlands and Germany have committed Patriot PAC-3 systems to 
NATO missile defense as demonstrated through the ongoing NATO 
deployment in defense of Turkey. Spain recently replaced the 
Netherlands in the defense of the Turkey mission through deployment of 
a Patriot system, and is strengthening its air and missile defense 
capabilities by acquiring additional Patriot systems from Germany.
    France is planning to provide its Spirale satellite detection 
system and a long-range radar for NATO territorial missile defense and 
has offered the SAMP/T air and missile defense system, which became 
operational in 2013, to NATO BMD.
    The United States conducts exercises designed to hone our Alliance 
missile defense capabilities and integration. U.S. European Command 
(USEUCOM) is engaged with NATO in the development of a biennial NATO-
led BMD exercise event that serves to reinforce and expand upon other, 
routine BMD training evolutions that take place on a quarterly and 
semi-annual basis.
    Many NATO Allies also participate in NIMBLE TITAN, an unclassified, 
two-year, multinational, BMD campaign of experimentation. The 
overarching purpose of NIMBLE TITAN is to serve as a venue for 
collaboration, exchange of views, and coordination of BMD policy and 
operational development among participating nations and organizations, 
along with U.S. government agencies and military organizations. The 
NIBLE TITAN 16 campaign, which began last year, has 25 participating 
nations and organizations, including NATO.
Asia-Pacific
    In the Asia-Pacific region, our force posture includes Aegis BMD 
capable ships, along with Patriot batteries deployed in Japan and South 
Korea. We have also maintained the THAAD battery deployment to Guam in 
response to North Korean provocation.
    The cornerstone of our security and diplomacy in the region has 
been our strong bilateral alliances, including with South Korea, Japan, 
and Australia. All three of these nations play an important role in our 
regional efforts to achieve effective missile defense.
    South Korea obviously has an immediate, proximate stake in 
preventing missile strikes from North Korea. We have worked closely 
with South Korea to ensure that our Alliance maintains the capacity to 
do just that. The United States deploys Patriot PAC-3 batteries in 
South Korea to defend U.S. and South Korean forces. In addition, South 
Korea is taking steps to enhance its own air and missile defense 
systems, which include sea- and land-based sensors and Patriot PAC-2 
batteries. DOD has been consulting with South Korea about how it can 
upgrade its missile defense capabilities as part of an Alliance 
response to the growing North Korean missile threat.
    Japan has its own layered missile defense system, which includes 
Aegis BMD ships with Standard Missile-3 interceptors, PAC-3 batteries, 
early-warning radars, and sophisticated command-and-control systems. 
Japan is upgrading two ATAGO-class Aegis destroyers to BMD capability 
with certification scheduled for fiscal year 2018 and fiscal year 2019, 
and plans to build two additional Aegis BMD ships, which would increase 
its inventory to a total of eight BMD-capable ships. As mentioned 
earlier, Japan also hosts two U.S. missile defense radars.
    Additionally, Japan is a critical international partner for BMD 
development. One of our most significant cooperative efforts is the co-
development of an advanced version of the SM-3 interceptor, the SM-3 
Block IIA.
    The United States and Australia have forged a longstanding 
partnership on missile defense research and development--most notably 
with regard to sensors. In addition, Australia is involved in a 
trilateral discussion on missile defense in the Pacific involving the 
United States, Australia, and Japan.
    We will continue to emphasize the importance of developing a 
regional ballistic missile defense system that includes the sharing of 
sensor data among Allies to take full advantage of the benefits of 
system interoperability and integration.
Middle East
    We also maintain a robust missile defense presence in the Middle 
East including land- and sea-based assets deployed in defense of our 
forward deployed forces, allies, and partners. This is in addition to 
our efforts to build the capacity of those allies and partners that 
will ultimately contribute to their ability to defend themselves.
    The United States maintains a strong defense relationship with 
Israel, and our cooperation on missile defense has resulted in a 
comprehensive missile defense architecture. Israeli programs such as 
Iron Dome, the David's Sling Weapon System, and the Arrow Weapon 
System, in conjunction with operational cooperation with the United 
States, create a multi-layered architecture designed to protect the 
Israeli people from varying types of missile threats. Missile defense 
figured prominently in the AUSTERE CHALLENGE exercise we conducted with 
Israel in the fall of 2012, the largest U.S.-Israeli military exercise 
in history. A similar exercise, JUNIPER COBRA, is scheduled to take 
place in May of this year.
    The United States is also working with a number of Gulf Cooperation 
Council (GCC) countries on missile defense, including supporting the 
purchase of missile defense systems through the Foreign Military Sales 
program. The United Arab Emirates is procuring the Terminal High 
Altitude Area Defense (THAAD) system, with the first delivery expected 
later this year. This is in addition to the UAE's earlier purchase of 
Patriot systems, which have been delivered. Saudi Arabia is in the 
process of upgrading its existing Patriot PAC-2 batteries to the PAC-3 
configuration. Kuwait is also purchasing Patriot PAC-3 batteries. Qatar 
also joined the international community of U.S. Patriot partners late 
last year--a community which also includes Saudi Arabia and Kuwait in 
addition to the UAE.
    U.S. Air Force Central Command maintains a series of regular 
exchanges between United States and GCC air defense officers at the 
Combined Air Operations Center located at Al Udeid Air Base in Qatar. 
These exchanges provide an opportunity for increased situational 
awareness of missile threats in the region as well as the potential for 
future BMD planning and operational cooperation.
    As the GCC states begin to field more capable systems, the United 
States and its Gulf partners must work toward greater integration of 
those capabilities across the region. The desired end state is a 
regional missile defense architecture in which GCC member states 
participate and contribute to the extent practical, leading to a 
networked, layered defense of key strategic centers that strengthens 
deterrence and increases our collective ability to defeat a ballistic 
missile attack.
Technology Development
    We must continue to look ahead. This means ensuring that our 
investment strategy and priorities balance the needs of addressing the 
most dangerous threats we confront today while positioning us to 
respond to threat developments in the next decade. Areas for priority 
technology investment include persistent discrimination in the current 
and future Ballistic Missile Defense System sensor architecture; high 
power lasers for multiple BMD applications; common kill vehicle 
technology leading to a multi-object kill vehicle; advanced technology 
for high risk/high pay-off breakthroughs; and a rail gun to lower the 
cost per kill.
Conclusion
    The austere budget environment will continue to compel us to make 
difficult choices here. Sequestration would undermine our ability to 
improve the GBI fleet, emplace new and more advanced sensors, and 
defend our deployed forces and Allies against ballistic missile attack. 
Quite simply, it would hinder our ability to keep up with the growing 
threat. We cannot let our guard down at any time, much less in the 
current security environment. I urge you to repeal sequestration before 
it causes irreparable damage to the nation's missile defenses.
    Thank you for having me here today, and I look forward to your 
questions.

    Chairman Sessions. Thank you.
    Admiral Syring?

   STATEMENT OF VICE ADMIRAL JAMES D. SYRING, USN, DIRECTOR, 
          MISSILE DEFENSE AGENCY DEPARTMENT OF DEFENSE

    Admiral Syring. Thank you, Chairman Sessions, Ranking 
Member Donnelly, Senator King, Senator Fischer. I appreciate 
the opportunity to testify today in front of you. I will be 
very brief in my opening statement.
    Our budget request for fiscal year 2016 maintains the 
commitment to operate and sustain our homeland defenses, 
including the planned deployment of 44 GBIs by the end of 2017 
and GBI fleet reliability enhancements. As was noted, we will 
also continue development of the Redesigned Kill Vehicle for 
improved reliability, availability, performance, and 
producibility, with initial deployment after successful testing 
planned in 2020.
    We anticipate contract award for the long-range 
discrimination radar development, deployment, and initial 
operation before the end of 2015 with fielding by 2020.
    For regional missile defense, our 2016 budget request 
supports the continued procurement of the SM-3 IB and THAAD 
interceptors. Also, the Aegis Ashore site in Romania will be 
completed by the end of 2015, and we are on track to deploy 
Aegis Ashore Poland by the end of 2018.
    Finally, will continue our discrimination sensor, weapons 
technology, directed energy, Common Kill Vehicle, and other 
technology maturation initiatives at an increased rate in this 
budget request. These investments will help us deploy a future 
BMDS architecture more capable of discriminating and killing 
reentry vehicles with a high degree of confidence.
    Mr. Chairman, members of the subcommittee, this is a sound 
budget request. I believe our Nation is well-defended and that 
our missile defense programs are on track to improve protection 
for our deployed forces, allies, and friends with the support 
of this budget.
    Thank you, sir, and I look forward to your questions.
    [The prepared statement of Admiral Syring follows:]

          Prepared Statement of Vice Admiral J.D. Syring, USN
    Good afternoon, Chairman Sessions, Ranking Member Donnelly, 
distinguished Members of the subcommittee. I appreciate this 
opportunity to testify before you today. Our current budget request of 
$8.127 billion for fiscal year (FY) 2016 will continue the development 
of defenses for our Nation, deployed forces, allies, and international 
partners against increasingly capable ballistic missiles. The fiscal 
year 2016 missile defense program will continue to support the 
warfighter and needs of the Combatant Commands (COCOMs) with the 
development and deployment of interceptors, sensors, and the command, 
control, battle management and communications (C2BMC) system for the 
integrated Ballistic Missile Defense System (BMDS). Our request for 
fiscal year 2016 will improve and expand homeland and regional missile 
defenses and invest in advanced technology development and future 
capabilities to counter the increasingly complex threat.
                        ballistic missile threat
    The threat continues to grow as our potential adversaries acquire a 
greater number of ballistic missiles, increasing their range, 
incorporating BMD countermeasures, and making them more complex, 
survivable, reliable, and accurate. Space-launch activities involve 
multistage systems that further the development of technologies for 
intercontinental ballistic missiles (ICBMs). In addition to the Taepo 
Dong 2 space launch vehicle/ICBM, North Korea is developing and has 
paraded the KN08 road-mobile ICBM and an intermediate-range ballistic 
missile (IRBM) capable of North Korea conducted multiple short- and 
medium-range ballistic missile launches and threatened to conduct 
additional longer-range launches. Today it fields hundreds of Scud and 
No Dong missiles that can reach U.S. forces forward deployed to the 
Republic of Korea and Japan.
    Iran has publicly stated it intends to launch a space launch 
vehicle as early as this year (2015) that could be capable of 
intercontinental ballistic missile ranges if configured as such. Iran 
also has steadily increased its ballistic missile force, deploying 
next-generation short- and medium-range ballistic missiles (SRBMs and 
MRBMs) with increasing accuracy and new submunition payloads. Tehran's 
overall defense strategy relies on a substantial inventory of theater 
ballistic missiles capable of striking targets in southeastern Europe. 
Iran continues to develop more sophisticated missiles and improve the 
range and accuracy of current missile systems, and it has publicly 
demonstrated the ability to launch simultaneous salvos of multiple 
rockets and missiles. Demonstrating it is capable of modifying 
currently deployed ballistic missile systems, Iran has flight-tested a 
Fateh-110 ballistic missile in an anti-ship role. By adding a seeker to 
improve the missile's accuracy against sea-based targets, Iran could 
threaten maritime activity throughout the Persian Gulf and Strait of 
Hormuz.
                       support for the warfighter
    Our overriding goal is to support the warfighter, which includes 
delivering greater missile defense capability and capacity. With this 
budget we will maintain our commitment to build out homeland defenses 
to 44 Ground Based Interceptors (GBIs) by the end of 2017. We also will 
maintain our commitment to deploy Phases 2 and 3 of the deployment of 
Standard Missile-3 (SM-3) Block IB missiles and SM-3 Block IIAs (first 
available in 2018) on ships and at Aegis Ashore sites in Romania (2015) 
and Poland (2018). We currently have 33 Aegis BMD ships, on the way to 
35 by the end of fiscal year 2016. We are continuing efforts to improve 
the performance of the Aegis Weapons System and plan to procure a total 
of 209 SM-3 Block IBs by the end of fiscal year 2016. We announced a 
Technical Capability Declaration this past December for the second 
forward-based X-band AN/TPY-2 radar in Japan, which improves homeland 
and regional defense capabilities and increases our global operational 
AN/TPY-2 radar posture. By the end of fiscal year 2016, MDA is 
scheduled to deliver 48 additional Terminal High Altitude Area Defense 
(THAAD) interceptors, for a total of 155 interceptors fielded, and we 
are continuing our support of the operational Guam THAAD battery.
    Last year we conducted or participated in several multi-event 
exercises and wargames, which are critically important to the 
warfighter and the intensive engineering efforts across the Agency. In 
response to the continued fielding by U.S. adversaries of air, missile, 
and rocket capabilities, as Technical Authority for Integrated Air and 
Missile Defense (IAMD), MDA is leading the integration of evolving MDA, 
Service, and COCOM command and control capabilities through systems 
engineering analysis and development of technical integration 
requirements and interface control documents. Other IAMD initiatives 
include integrating C2BMC with the Army's Integrated Battlefield 
Control System (IBCS) to exchange ballistic missile data and exploring 
THAAD integration within the IBCS Army architecture.
    (DOT&E), independent testers, and the Services to develop an 
Integrated Master Test Plan (IMTP) to execute a robust, cost-effective 
flight test program that features operationally realistic conditions 
and integrates U.S. government stakeholders--to include Soldiers, 
Sailors, Airmen, and Marines--and allies to prove BMD capabilities. We 
have entered a period of unprecedented testing complexity and increased 
testing tempo. Our flight tests will involve increasingly stressful 
threat representative targets as well as longer range interceptors for 
our homeland and regional capabilities. From October 2013 to the 
present, we have executed seven high profile flight tests. In fiscal 
year 2015 we will conduct 12 flight tests, and in fiscal year 2016 
seven flight tests.
                            homeland defense
    MDA remains committed to operating, sustaining, and expanding our 
nation's homeland missile defenses and requests $1.76 billion for the 
Ground-based Midcourse Defense (GMD) program, or $613 million over our 
PB 2015 request. This budget request will allow us to grow the number 
of currently deployed Ground Based Interceptor (GBI) fleet to 44 by the 
end of 2017, continue flight and system ground testing, continue 
Redesigned Kill Vehicle (RKV) development, enhance the Stockpile 
Reliability Program, modify the current booster to increase 
survivability and hardness to support RKV integration and expand the 
battle space to enable later GBI engagements, upgrade the GMD ground 
system, and deploy upgraded GMD fire control software to enhance our 
ability to use land-based sensor discrimination data.
    The successful FTG-06b intercept test this past June allowed us to 
assess the performance and interoperability of homeland defense weapon 
systems, including BMD ship acquired an Intermediate Range Ballistic 
Missile (IRBM) target and forwarded the track through C2BMC to the GMD 
fire control system, which developed a weapon task plan that the 
warfighter used to launch a GBI. The SBX acquired the target objects 
and forwarded precision tracks with discrimination data through the GMD 
ground system to the in-flight GBI. The interceptor used SBX data to 
locate the target objects, complete discrimination, and successfully 
intercept the target. Our analysis indicates that all components of the 
system performed as designed. This was the first flight test of an 
operationally configured GBI that demonstrated the ability to correctly 
discriminate and intercept the reentry vehicle in the presence of 
countermeasures. FTG-06b also demonstrated that a Capability 
Enhancement-II (CE-II) exo-atmospheric kill vehicle (EKV) with a 
cradled Inertial Measurement Unit dampens the vibration environments 
experienced during the failure of the FTG-06a flight test conducted in 
December 2010. With this successful flight test we were able to resume 
production of eight planned GBIs in the proven FTG-06b configuration.
    We are implementing several fixes to address the failed FTG-07 
flight test in July 2013. While the GBI was in flight, a voltage shift 
caused by battery electrolyte leakage shut down the flight computer and 
prevented EKV separation. We developed EKV software for CE-I GBIs, 
which includes a capability to reset and recover the flight computer 
following a voltage shift. This software was fully tested and is now 
fielded to all deployed CE-Is. New battery and ground ties, once 
tested, will be incorporated in the CE-II Block 1 deliveries beginning 
in fiscal year 2016.
    The next flight test of the GMD system will take place late this 
year. GM CTV -02+ is a non-intercept test of a CE-II GBI to demonstrate 
the performance of alternate divert thrusters in a flight environment 
and test end-to-end discrimination of a complex target scene through 
the GMD fire control loop. The EKV will use Aegis BMD SPY-1, SBX, and 
AN/TPY-2 data for target selection. Data collected from this test will 
be used to evaluate Discrimination Improvements for Homeland Defense 
(DIHD) objectives. At the end of calendar year 2016 we plan to conduct 
FTG-15, which will be the first intercept flight test for the CE-II 
Block 1 GBI and the first intercept of an ICBM range target. Following 
a successful intercept, the plan is to deliver 10 CE-II Block 1 GBIs 
over the next year to achieve our goal of 44 GBIs by the end of 2017.
    In addition to increasing the operational fleet from 30 to 44 GBIs 
by 2017, MDA will complete the refurbishment and reactivation of 
Missile Field 1 at Fort Greely by 2016 to provide sufficient silos for 
44 GBIs. We will deliver eight new CE-IIs in 2015, upgrade eight 
currently fielded CE-IIs in 2016, and deliver 10 new CE-II Block 1 GBIs 
in 2017. Four previously fielded CE-II GBIs will be used for flight and 
Stockpile Reliability testing.
    MDA completed a GBI Fleet Assessment last year that pointed out the 
need for improvements in reliability of the EKV, GBI, and ground 
systems, and we will continue to implement its findings in fiscal year 
2015 and beyond. We have introduced an enhanced Stockpile Reliability 
program to better understand the service life and reliability of the 
fielded fleet and are conducting design and reliability analysis on the 
fielded CE-IIs and booster to establish performance margins. We are 
analyzing the GBIs to identify potential failures modes and reliability 
risks so that we can conduct the right ground development of the next 
GBI with a Redesigned Kill Vehicle.
    We will continue development of a Redesigned Kill Vehicle (RKV) for 
initial deployment in 2020. The RKV will be a modular design using 
mature subassemblies and components to improve reliability, 
maintainability, producibility, and affordability when compared to the 
current EKV. The program will perform full qualification and 
reliability testing of components and subassemblies. The RKV will 
incorporate performance enhancements in target acquisition and 
discrimination and include on-demand communications. On-demand 
communications enables better use of off-board sensor data and provides 
improved situation awareness for the warfighter. The RKV also will 
include survivability enhancements. The first flight test of the RKV is 
planned for 2018, and the first intercept test is planned for 2019. We 
will acquire two additional boosters beginning in fiscal year 2016 to 
support RKV flight tests.
    This year we will finish construction of the GBI In-Flight 
Interceptor Communication System (IFICS) Data Terminal (IDT) at Fort 
Drum, New York. The east coast IDT will enable communication with GBIs 
launched from Fort Greely, Alaska and Vandenberg Air Force Base in 
California over longer distances and improve defenses for the eastern 
United States.
    MDA will implement upgrades to the GMD ground system to improve 
reliability, maintainability, and eliminate obsolescence problems. The 
existing GMD ground system was built in 2004 using technology developed 
in the 1990s. Without an upgrade, the ground system reliability would 
decay and impact GBI availability to the warfighter. Phase I will 
upgrade the GBI command launch equipment, GMD fire control Phase II 
upgrades the GMD communications network and launch systems equipment 
and modifies the IFICS data terminal to support on-demand 
communications with the RKV by 2020.
    Working with our Japanese partners, we completed the deployment of 
the AN/TPY-2 radar in Kyogamisaki in southern Japan to complement the 
radar currently operating in Shariki in northern Japan. This radar and 
a new C2BMC capability will enhance the overall performance of the 
Kyogamisaki and Shariki radars when operating in a mutually supporting 
AN/TPY-2 dual radar mode. We made a Technical Capability Declaration 
for the Kyogamisaki radar this past December. Together with the Shariki 
AN/TPY-2 radar in the north, the new radar will enhance the ability to 
defend our forward deployed forces, Japan, and the U.S. homeland from 
ballistic missile attack by providing improved tracking coverage for 
launches out of North Korea.
    We will continue missile defense upgrades of the Early Warning 
Radars in Clear, Alaska and Cape Cod, Massachusetts. We expect to 
complete the Clear radar upgrade in 2017 and the Cape Cod upgrade in 
2018. In fiscal year 2016 we will continue to support flight testing 
with the SBX to demonstrate improvements to discrimination and debris 
mitigation. Our budget request of $72.9 million for SBX includes funds 
for improving reaction time and conducting contingency operations for 
defense of the homeland. We also plan to support a near-term 
discrimination capability in 2016 and fielding near-term discrimination 
improvements for homeland defense in 2020 to enhance the tracking and 
discrimination capabilities of currently deployed sensors.
    Range Discrimination Radar (LRDR), the new midcourse tracking radar 
that will provide persistent coverage and improve discrimination 
capabilities against threats to the homeland from the Pacific theater. 
LRDR will provide larger hit assessment coverage enabling improved 
warfighting capability to manage GBI inventory and improving the 
capacity of the BMDS. We have completed technical trade studies and 
defined requirements for the LRDR and started acquisition planning and 
pre-construction activities. MDA has released a Request for Proposal 
(RFP) for the development, deployment, and initial operation of the 
LRDR. We anticipate contract award before the end of fiscal year 2015. 
In fiscal year 2016 we plan to conduct a System Requirement Review and 
Preliminary Design Review. MDA worked closely with Air Force Space 
Command to verify LRDR's inherent capabilities to support the space 
situational awareness (SSA) mission. The Command is jointly exploring 
system design and operations alternatives to maximize the exploitation 
of LRDR's inherent SSA capabilities. Air Force Space Command envisions 
using LRDR to augment the Space Surveillance Network capabilities as a 
secondary mission if it proves viable.
    A Continental United States (CONUS) Interceptor Site (CIS) study, 
conducted in accordance with Section 227 of the fiscal year 2013 
National Defense Authorization Act, determined the following sites were 
viable candidates to be included in the Environmental Impact Statement 
(EIS): Fort Drum, New York; Portsmouth SERE Training Area, Maine 
(Rangley); Camp Ravenna, Ohio; and Fort Custer Combined Training 
Center, Michigan. The Department is conducting EIS activities that will 
evaluate each of the four candidate sites, to include potential impacts 
to land use, water resources, air quality, transportation, 
socioeconomics and other factors established by the National 
Environmental Policy Act. The EIS will take approximately 30 months and 
should conclude in 2016. There has been no decision by the Department 
to move forward with an additional CONUS interceptor site. The current 
GBI sites at Fort Greely and Vandenberg AFB provide capability 
necessary to protect the U.S. homeland against the current and 
projected ICBM threat from North Korea as well as the future Iranian 
ICBM threat should it emerge. Even though an additional CONUS 
interceptor site would add battle space and interceptor capacity, a 
decision to construct the new site would come at a significant material 
development and service sustainment cost. Near-term, upgrading the kill 
vehicle on the GBI and enhancing the homeland defense sensor network 
are higher priorities and prerequisites for improving protection 
against limited ICBM attack.
                           regional defenses
    Deployment of regional defenses to protect our deployed forces, 
allies and international partners remains one of our top priorities. 
Our fiscal year 2016 budget request funds the continued development and 
deployment of defenses against SRBMs, MRBMs, and IRBMs in support of 
Combatant Commanders' near-term and future priorities and supports the 
President's commitment to EPAA.
Terminal High Altitude Area Defense
    Today, four Terminal High Altitude Area Defense (THAAD) Weapon 
System Batteries are delivered, with the fifth planned for activation 
this year. To meet the demand from combatant commanders for THAAD, in 
fiscal year 2014, MDA accelerated procurement of THAAD Battery 7 for 
delivery in fiscal year 2017, two years earlier than Software Build 
1.4, which includes critical updates to weapon system components and 
Information Assurance update. MDA also continued its support of the 
first deployed THAAD battery in Guam, exceeding the Army's required 
operational readiness rate.
    This year THAAD will participate in two flight tests, FTT-18 and 
FTO-02. In FTT18 THAAD will demonstrate an intercept of a separating 
IRBM target using the THAAD radar, launcher, fire control and 
communication, interceptor operations and engagement functions. In FTO-
02, Event 2, THAAD will engage a SRBM and demonstrate advanced radar 
algorithms. During this operational test of our regional defense 
architecture, which will include the attempted intercept of an MRBM and 
air-breathing target by Aegis BMD, THAAD will demonstrate a layered 
defense capability.
    For fiscal year 2016, MDA is requesting $464.1 million for THAAD 
procurement, which includes the purchase of 30 THAAD interceptors and 
procurement of training devices for the THAAD institutional training at 
Fort Sill, OK. By the end of fiscal year 2016, MDA will deliver an 
additional 48 THAAD interceptors to the U.S. Army, for a total of 155 
interceptors delivered. We will continue to support the forward 
deployed THAAD battery in Guam. We are requesting $228.0 million in 
RDT&E funding in fiscal year 2016 as part of the continued development 
of THAAD capabilities, and begin concept development and risk reduction 
activities for THAAD follow-on capabilities. These activities will 
explore and mature the design concept of expanding THAAD system 
interoperability with air and missile defense systems, and expanding 
the battlespace and defended area of the current baseline THAAD Weapon 
System. We are also batteries.
Aegis Ballistic Missile Defense
    In fiscal year 2014, MDA continued to expand global BMD capability 
for the Aegis Fleet. Together with the U.S. Navy, we completed four BMD 
Weapons System installations on Aegis ships--one Aegis BMD 3.6 ship and 
three Aegis BMD 4.0 ships--and we commenced upgrades on existing BMD 
ships, two from 3.6 to 4.0 and one from 3.6 to Aegis Baseline 9.C1 with 
BMD 5.0CU. We now have a total of 33 BMD capable Aegis ships in the 
Fleet. We continued delivery of Standard Missile-3s to the Fleet, 
including 29 Block IAs and 26 Block IBs.
    In fiscal year 2014, MDA conducted several critical flight tests to 
prove the operational capability of the Aegis BMD weapon system. In 
FTM-22, we successfully engaged and destroyed an MRBM target using the 
Aegis BMD 4.0 weapon system and an SM-3 Block IB. This test exercised 
the second-generation Aegis BMD 4.0 weapon system and supported 
production decisions for the SM-3 Block IB by completing developmental 
and operational testing for both the weapon system and missile. With 
the successful completion of DOT&E testing requirements, Aegis BMD 4.0 
and the SM-3 Block IB were found to be operationally suitable and 
effective. FTM-22 was also the final flight test executed by the USS 
Lake Erie, the BMD test ship for over 10 years.
    We also brought ballistic missile defense flight testing back to 
the east coast in fiscal year 2014. In FTX-18 we successfully simulated 
engagements against a raid of three short-range targets using the Aegis 
BMD 4.0 Weapons System and simulated SM-3 environment off the coast of 
Virginia at NASA's Wallops Island facility.
    As construction began at the Aegis Ashore site in Romania, we 
conducted the first Controlled Test Vehicle at the Aegis Ashore Missile 
Defense Test Complex at the Pacific Missile Range Facility (PMRF) in 
Kauai, HI. This flight test proved the design of the Aegis Ashore 
system and the ability to launch an SM-3 from land. The first Aegis 
Ashore intercept test from PMRF will occur in the third quarter of this 
year to support turn-over of the Romanian site to the Navy for 
operation.
    In its homeland defense role, Aegis BMD executed long range 
surveillance and track to provide data for the GBI launch in FTG-06b. 
In the test, USS Hopper, with the BMD 4.0 weapon system, acquired the 
target and sent track data to the BMDS Command, Control, Battle 
Management and Communications system, directly contributing to 
successful intercept of the target.
    This past fall we conducted two operationally representative tests 
for certification of the Navy's Aegis Modernization Baseline 9 weapon 
system. In FTX-20, we used our new MRBM target to exercise several BMDS 
sensors and C2BMC. This was also the first tracking exercise for the 
new Navy/MDA Integrated Air and Missile Defense Baseline 9 test ship, 
USS John Paul Jones. A couple of weeks later, in FTM-25, USS John Paul 
Jones launched an SM-3 Block IB to intercept an SRBM target while 
simultaneously launching two SM-2 Block IIIAs against two air-breathing 
threats, successfully exercising the Navy's Integrated Air and Missile 
Defense capability inherent in Baseline 9.
    In fiscal year 2016, we will continue our commitment to develop, 
test, and deliver global naval capability to the warfighter and support 
defense of our deployed forces and NATO in fiscal year 2016 to procure 
40 SM-3 Block IBs, for a total of 209 procured and 107 delivered by the 
end of fiscal year 2016. In anticipation of fiscal year 2016 and beyond 
Multiyear Procurement Authorization for the SM-3 Block IB, MDA requests 
$147.8 million in economic order quantity for missile components for 
fiscal year 2016-19 Block IB multiyear procurements. By moving to a 
multiyear procurement, we may realize an estimated cost savings of up 
to 14 percent across the FYDP. To recertify SM-3 rounds which have been 
previously delivered and deployed to the Fleet, MDA requests $19.8 
million for sustainment of these assets.
    We request $172.6 million for the SM-3 Block IIA cooperative 
development effort with the Japan Ministry of Defense. In fiscal year 
2014, the SM-3 Block IIA completed Propulsion Test Vehicle-01, in which 
the missile and new composite canister both demonstrated successful and 
safe ignition and egress from the vertical launching system. Upon 
completion of this test and the system level critical design review, 
the SM-3 Block IIA transitioned into the integration and testing phase 
and will execute the first controlled test vehicle flight test in third 
quarter fiscal year 2015. Along with a total of five flight tests for 
the SM-3 Block IIA through fiscal year 2018, fiscal year 2016 will 
focus on an extensive ground test campaign to prove system design and 
missile capability. We are committed to delivering the SM-3 Block IIA 
to the Fleet to meet global threat requirements, and specifically to 
support EPAA Phase 3.
    MDA is strongly committed to further enhancing capability of the 
Aegis BMD weapon system to give Sailors the tools needed to 
successfully execute their mission. MDA requests $40.7 million for the 
BMD 4 series weapon systems to bring advanced 5.0CU development, MDA 
has prioritized delivering BMD 5.1 capability on schedule and requests 
$180.6 million to continue software development and testing to certify 
in fiscal year 2018 and meet the delivery timeline of the SM-3 Block 
IIA missile for deployment on ships and at Aegis Ashore sites. In 
addition to weapon system development, MDA requests $110.9 million to 
procure weapon system equipment for installation and upgrade to the BMD 
Fleet and $12.6 million to sustain BMD specific equipment on the 
existing Fleet.
    We also continue development of a Sea Based Terminal capability to 
provide protection of maritime forces against observed or demonstrated 
advanced anti-ship ballistic missiles and increased layered defense for 
forces ashore. Using an incremental development approach, we are 
incorporating BMD capability into the Navy's Baseline 9 architecture, 
to include terminal defense with the SM-6 guided missile and the BMD 5 
series weapon systems. In 2014, we completed Sea Based Terminal 
Increment 1 missile (SM-6 Dual I) software build 1, and we demonstrated 
its performance in a simulated environment. We plan to test and certify 
the first increment of Sea Based Terminal capability in fourth quarter 
fiscal year 2015 in four Multi-Mission Warfare events, with follow-on 
performance testing in fiscal year 2016. Sea Based Terminal Increment 2 
is on schedule to be certified and operational in 2018.
European Phased Adaptive Approach
    We will continue to expand the EPAA to provide additional coverage 
of European NATO territory from Iranian ballistic missile threats by 
investing resources for EPAA development, testing and deployment. EPAA 
Phase 1 was implemented in 2011 with Eastern Mediterranean.
    MDA is on schedule to deliver EPAA Phase 2 by the end of 2015, 
which will enhance U.S. and NATO capabilities with the addition of more 
capable Aegis BMD SM3 Block IBs and upgraded Baseline 9 weapon system 
with BMD 5.0CU. Phase 2 will include deployment of Aegis Ashore to 
Romania with capability to launch both SM-3 Block IA and IB variants 
and upgraded versions of the Aegis BMD weapon system. Required military 
construction, installation, integration and testing activities will be 
complete for technical capability declaration in 2015. After having 
tested the system at the Moorestown, New Jersey site in 2014, the 
deckhouse, including all weapon system equipment was disassembled, 
packed and shipped to Romania. MDA requests $33.4 million in fiscal 
year 2016 to complete site activation, integration, and testing of the 
system in-country and to maintain the test site at PMRF to support 
system-wide testing for Phase 2 deployment. We are on track to turn 
over Aegis Ashore Romania to the Navy, and in fiscal year 2016 we have 
requested $13.9 million for sustainment of the system once it is 
operational. MDA also completed installations and upgrades to the BMD-
capable multi-mission ships that are shifting homeports from Norfolk, 
VA to Rota, Spain, which will support the EPAA Phase II architecture. 
The homeport transfer of four multi-mission Aegis BMD ships to Rota, 
Spain began in 2014 with the USS Donald Cook and USS Ross. The 
remaining two Aegis BMD ships, USS Porter and USS Carney, will transfer 
this year.
    EPAA Phase 3 will improve defensive coverage against medium- and 
intermediate-range threats with the deployment of a second Aegis Ashore 
site in Block IIAs. Construction at Redzikowo, Poland is expected to 
begin in fiscal year 2016. We request $30.6 million in fiscal year 2016 
for procurement of Aegis Ashore equipment and $169.2 million for the 
construction of the Aegis Ashore site in Poland. We need this funding 
to complete this site by the end of 2018.
Command, Control, Battle Management, and Communications and Sensors
    C2BMC provides persistent tracking, cueing, discrimination, and 
fire control quality data to Aegis BMD, GMD, THAAD, and coalition 
partners to support homeland and regional defense objectives. Last June 
we successfully forwarded Aegis BMD system track data through the C2BMC 
system to the GMD fire control system during FTG-06b. We continue to 
support warfighter command and control and battle management needs 
across the globe by providing the strategic BMD planner, which provides 
Combatant Commanders situational awareness tools to support weapons 
release authority for homeland defense and control and tasking of 
forward-based AN/TPY-2 radars. C2BMC operators and maintainers are 
deployed forward in some of the world's highest threat spots and 
continue to provide around-the-clock support to the local commanders. 
As the BMDS integrating element, C2BMC has also demonstrated proven 
interoperability across regional BMD architectures.
    In addition to continuing the enhancement of global BMD survivable 
communications and support for operations and sustainment of C2BMC at 
fielded sites, this year we will integrate Space Based Infrared System 
Increment 2 capabilities into C2BMC to support cueing of BMD sensors 
worldwide. We have initiated a Space Based Kill Assessment (SKA) 
demonstration that will host sensors on commercial and pass that 
information on to the BMDS to support a multi-sensor kill assessment of 
the target.
    The Services and COCOMs, with logistical support from MDA, are 
operating forward based X-band radars (AN/TPY-2(FBM)) in Japan, Israel, 
Turkey, and United States Central Command. All of these radars 
contribute to regional defense, and some, including the second AN/TPY-2 
radar deployed to Japan last year, also provide a significant 
contribution to the defense of the U.S. homeland. Last year we also 
continued our AN/TPY-2 (Terminal Mode) support to warfighters on Guam. 
We accepted AN/TPY-2 Radar #9, providing it to THAAD Battery #4, and 
AN/TPY-2 Radar #10. We also awarded a production contract for AN/TPY-2 
Radar#12, and for additional spares. In fiscal year 2016 we plan to 
develop and test advanced discrimination algorithms to counter evolving 
threats to provide additional capability to the Combatant Commanders as 
well as close Materiel Release conditions for the Terminal Mode and 
Forward-Based Mode AN/TPY-2 radars. We plan to deliver Radar #10 to 
THAAD Battery #6, start production of an Antenna Equipment Unit Float, 
and complete production of AN/TPY-2 Radar #12, which will be allocated 
to THAAD Battery #7.
    We request $536.5 million in fiscal year 2016 to develop, deploy 
and test BMDS sensors (includes $138 million for the continued 
development of the Long Range Discrimination Radar), and $187.5 million 
to sustain the nine AN/TPY-2 radars and support the UEWRs and Cobra 
Dane radar. We will continue communications support for the AN/TPY-2 
radars and C2BMC upgrades. We request $450.1 million in fiscal year 
2016 to develop, test, field, sustain, and operate all C2BMC spirals. 
We also will integrate capabilities of C2BMC to provide fire control 
quality data to BMD weapon systems in support of homeland and regional 
defense. We request $31.6 million for continued operation of the Space 
Tracking and Surveillance System in fiscal year 2016.
                      developing new capabilities
    MDA is developing fiscally sustainable, off-setting technologies to 
address gaps in the BMDS and extend our dominance in missile defense. 
MDA's goal for these investments is to deploy a future BMDS 
architecture more capable of discriminating and destroying a reentry 
vehicle with a high degree of confidence.
    In 2014 and 2015, the warfighters emphasized the importance of 
improving discrimination capability, the missile defense function that 
distinguishes between lethal and non-lethal objects, in order to reduce 
the need for large, unaffordable interceptor inventories. Radars and 
electro-optical/infrared (EO/IR) sensors are central to this 
capability. However, sensors require sufficient sensitivity and 
resolution to measure features useful for inferring which objects are 
lethal or non-lethal. Between now and 2020, we will use available 
technology to improve existing sensors, battle management and fire 
control, and kill vehicles. After 2020, our plan is to field new 
advanced EO/IR sensors and upgrade discrimination capabilities based on 
our new technology investments.
    Relying purely on terrestrial radars for precision tracking and 
discrimination of the threat is a potential weakness the enemy could 
exploit in the future. Adding persistent electro-optical sensors to the 
BMDS architecture is a high payoff solution for this gap. Last fall 
during FTM-25 we accelerated the Discrimination Sensor Technology 
flight test program by nearly six months to prove that our Aegis Weapon 
System could launch a Standard Missile based solely on tracks generated 
by remote sensors on Unmanned Aerial Vehicles (UAVs). MDA requests 
$28.2 million for our Discrimination Sensor Technology development and 
test plan to provide a cost-effective, stepping stone towards our goal 
of achieving persistent discrimination coverage of enemy missiles in 
all theaters, including ICBMs targeting the homeland. In fiscal year 
2016, we plan to upgrade UAV-borne sensors and demonstrate even greater 
discrimination capability in conjunction with Aegis flight testing in 
the first quarter fiscal year 2017 as a precursor to the development 
and test of a prototype advanced sensor under our Technology Maturation 
Initiatives program element.
    We request $45.4 million in Weapons Technology to continue 
development, integration, and testing of our high-powered directed 
energy program to build the foundation for the next-generation UAV-
borne laser system. A UAV-borne laser would be capable of acquiring, 
tracking and eventually destroying an enemy missile at a much lower 
cost than the existing BMDS. Within the Directed Energy project, we 
will develop and demonstrate the technology necessary to scale laser 
power jointly with our Air Force and DARPA partners. The Massachusetts 
Institute of Technology's Lincoln Laboratory (MIT/LL) Fiber Combining 
Laser achieved 34 kilowatts continuous power in October 2014, a record 
for fiber combined lasers. The Lawrence Livermore National Laboratory 
(LLNL) achieved similar success with their Diode Pumped Alkali Laser 
system, reaching five kilowatts last year. In our effort to mature high 
altitude, low Mach UAVs for directed energy applications, we 
successfully completed five Phantom Eye flights at the Air Force's 
Edwards Flight Test Center in California. The Phantom Eye data from 
launch to landing.
    In fiscal year 2016, MIT/LL will conduct a Fiber Combining Laser 
critical design review and begin fabrication and integration of a 
lighter, more compact Fiber Combining Laser system, driving the weight 
of the system down from five kilograms per kilowatt to one kilogram per 
kilowatt. LLNL will demonstrate a DPAL system at 30 kilowatts average 
power, six times more powerful than ever achieved by a hybrid laser.
    Within the Interceptor Technology project, MDA develops technology 
to enhance the hit-to-kill capability within current and future BMDS 
architectures. MDA will invest in cutting edge technology for the 
competitive development of the next generation, solid Divert and 
Attitude Control System (DACS) for the Multi-Object Kill Vehicle. We 
will also investigate the suitability of rail gun technology for 
missile defense missions.
    MDA requests $96.3 million for Technology Maturation Initiatives to 
build on the successes in weapons technology and discrimination sensor 
technology. Airborne discrimination sensors and low power tracking 
lasers are sufficiently mature to develop flight prototypes that 
address complex tracking and discrimination challenges from evolving 
threats to the homeland. In fiscal year 2016, MDA will incorporate an 
advanced sensor into the tactically proven Multispectral Targeting 
System and MQ-9 Reaper combination to prove precision track and 
discrimination performance of airborne sensors at strategic ranges, or 
thousands of kilometers. MDA will also contract with industry for the 
design of a UAV-borne laser demonstrator to quantify the target 
acquisition, tracking, and handover performance required for boost 
phase missile defense under realistic conditions.
    MDA requests $46.7 million for the Common Kill Vehicle Technology 
effort. Last year, we began the first phase of a two phase, development 
strategy for the next generation of our exo-atmospheric kill vehicles. 
In that first phase, we defined concepts and developed requirements for 
a new Redesigned Kill Vehicle for our ground-based interceptor program. 
In fiscal year 2016, we are implementing phase II of that strategy 
during which we will work jointly with industry to define concepts for 
deploying multiple kill vehicles from a single booster. This year we 
plan to award several contracts with industry to define concepts for 
Multi-Object Kill Vehicles (MOKV). In parallel, we will reduce 
technical risk in several areas that are critical to making this 
revolutionary concept a reality. For example, we will develop and test, 
by 2017, MOKV command and control strategies in both digital and 
Hardware-in-the-Loop venues that will prove we can manage the 
engagements of many kill vehicles on many targets from a single 
interceptor. We will also invest in the communication architectures and 
guidance technology that support this game changing approach. 
Ultimately, these Multi-Object Kill Vehicles will revolutionize our 
missile defense architecture, substantially reducing the interceptor 
inventory required to defeat an evolving and more capable threat to the 
Homeland.
    MDA requests $17.4 million for Advanced Research and development 
that capitalizes on the creativity and innovation of the Nation's small 
business community and academia to enhance the BMDS. We are also 
fostering research between U.S. and foreign universities of allied 
nations through international cooperative science and technology 
projects. We awarded 216 new contracts for innovative new research in 
eight missile defense related topics last year.
    MDA also requests $12.1 million for the Advanced Concepts & 
Performance Assessment effort, which models the capability of advanced 
BMD technology to address evolving threats to the warfighter. The 
request will fund the digital simulation and hardware-in-the-loop 
framework and models required for testing of the Airborne Advanced 
Sensor, Kill Vehicle Modular Open Architecture test bed, and maturing 
sensor fusion algorithms.
                       international cooperation
    The fiscal year 2016 budget request includes funding for regional 
missile defense capabilities in order to protect U.S. forces, reassure 
allies and partners, and build cooperative regional security 
architectures. MDA is engaged with over twenty countries and 
international organizations, such as NATO. MDA remains committed to 
expanding work with our international partners, to include conducting 
joint analyses to support partner missile defense acquisition 
decisions, cooperative research and development projects, deployments, 
Foreign Military Sales (FMS), and co-production. Our major 
international efforts reflect the Department's goals in the Asia-
Pacific, Middle East, and Europe and will help implement EPAA, build 
partner BMD capacity, and support the strategic shift to Asia-Pacific.
    As allies and partners invest in their own missile defense 
capabilities, this will enable us to build more effective regional 
security architectures and complement U.S. regional missile defense 
capabilities. MDA is currently executing an FMS case with the United 
Arab Emirates for two THAAD batteries and accompanying launchers, 
radars, and interceptors. This calendar year, we will deliver the first 
THAAD battery to our UAE partners to begin New Equipment Training. We 
continue to be actively engaged with cost data that may inform future 
decisions to procure THAAD.
    We continue to have a very strong cooperative missile defense 
partnership with Israel. In fiscal year 2014 the Israel Missile Defense 
Organization (IMDO) and MDA achieved a second successful intercept 
using the David's Sling Weapon System to defeat shorter-range ballistic 
missiles and conducted the second fly-out of the Arrow-3 upper tier 
interceptor, demonstrating its key functional capabilities in-flight. 
Arrow-3 is intended to intercept longer-range threats. The Arrow Weapon 
System 2 is a currently fielded capability operated by the Israeli Air 
Force. This past September, IMDO and MDA conducted an intercept test of 
the Arrow-2 interceptor missile against a MRBM target over the 
Mediterranean. The Department also reached agreement in March 2014 with 
Israel regarding coproduction of the Iron Dome defense system. The 
agreement garnered approximately $263 million in U.S. work share for 
coproduction of Iron Dome components. We are requesting $55.0 million 
to procure Iron Dome radars and associated equipment.
    MDA and our Japanese counterparts continue to make significant 
progress with the SM-3 IIA interceptor, our largest co-development 
effort. This development work, which remains on track for first 
delivery in the 2018 time frame, would expand extended deterrence to 
our friends and allies and establish an important vehicle for closer 
defense cooperation ties. These cooperative activities enable U.S. 
partners to be less vulnerable to coercion and ballistic missile 
attack. In addition, our strong partnership with Japan enabled a 
technical capability declaration of the second AN/TPY-2 radar now 
located at the Japan Air Self-Defense Force (JASDF) base in 
Kyogamisaki, Japan with other strategic partners in the region.
    In addition to implementing our EPAA commitments to our NATO 
Allies, we continue to work with NATO to ensure U.S. C2BMC and NATO 
command and control networks are fully interoperable. We have 
successfully demonstrated interoperability between NATO and the U.S. 
command and control networks. MDA will continue to engage our NATO 
Allies to address international cooperation in missile defense.
              cybersecurity/ supply chain risk management
    We are very cognizant of the growing cyber threat and aggressively 
working to ensure the Nation's missile defenses will be able to operate 
in a highly contested cyber environment. Potential adversaries are 
developing cyber forces as part of their military structure and 
integrating them into their overall strategy. We are working with the 
Armed Services, the Combatant Commands, especially Strategic Command's 
USCYBERCOM, and other agencies in DOD and the Federal Government to 
counter this growing threat.
    We are improving the cyber hygiene of our missile defense 
capabilities by ensuring our cybersecurity infrastructure has the 
latest security upgrades. We are assessing our systems, suppliers, and 
acquisition processes and ensure our critical software and hardware are 
strongly configured and trusted to lessen the risk of malicious 
activities. We have a rigorous cyber and Supply Chain Risk Management 
inspection program to examine everything about our systems from the 
trusted supply chain to the fielded capability. This helps us ensure 
the highest possible compliance levels. In May 2014, DISA Field 
Security Operations conducted a USCYBERCOMMissile Defense Integration 
and Operations Center in Colorado. MDA received an ``Excellent'' score. 
In June 2014 the MDA Computer Emergency Response Team (CERT) was 
inspected as a Tier 2 Computer Network Defense Service Provider by 
USCYBERCOM/DISA Field Security Operations. The MDA CERT received a 
``Commendable'' rating (second highest rating possible) and was awarded 
another three year Authorization to Operate. Over the last year we 
conducted four Enterprise Cyber Range Environment experiments with 
independent, DOT&E red team penetration testing on the Joint 
Information Operations Range. The purpose of these experiments is to 
better understand the cyber robustness of BMDS capabilities to insider 
threats. MDA also has one scheduled for May 2015. MDA completed 62 
cybersecurity inspections worldwide to ensure DOD and MDA compliance. 
We follow up on these inspections to ensure remediation of any 
identified cyber risks.
    We must build resilient cyber defenses that are capable of 
detecting and mitigating threats without impeding operations in order 
to ``fight through'' the cyber threat. MDA collaborates with the 
Director of Operational Test and Evaluation to conduct cyber 
penetration testing on key missile defense capabilities. We then use 
the results of those tests to conduct risk assessments to prioritize 
cybersecurity improvements, develop mitigation strategies, and improve 
cyber training. We are also working to develop better cyber CONOPS to 
ensure every network defender in every location knows how to quickly 
react to cyber challenges.
    We are working hard to incorporate cybersecurity requirements early 
into our acquisition lifecycle to ensure we are building cybersecurity 
into missile defenses, not the Defense Industrial Base to ensure they 
can protect any missile defense program sensitive information from 
getting into the hands of potential adversaries. We have seen too many 
instances where malicious cyber actors attempt to exfiltrate 
information from them, especially from their unclassified, commercial 
networks that have exposure to the internet. We will continue to work 
with Industry and the FBI to identify these issues and raise the costs 
of this type of behavior to those responsible in coordination with 
National authorities and in accordance with policy.
                               conclusion
    This budget balances investment in homeland and regional missile 
defense capabilities while pursuing advanced technology to pace the 
emerging threat. We will do this by improving current system 
capabilities and investing in the most promising technology to reverse 
the adversary's numerical advantage. MDA continues to aggressively 
pursue cost reduction measures through competition, partnering, and 
cooperation. MDA is on track with the Department's schedule for 
financial improvement and audit readiness, ensuring full accountability 
of resources and processes.
    Mr. Chairman, we have several critical developmental and 
operational flight tests coming up this year and next. We will adhere 
to our ``fly before you buy'' approach, testing elements of the system 
to demonstrate they work before we commit to their fielding in order to 
ensure the warfighter will have cost-effective and reliable weapon 
systems. With the successful GMD intercept this past June, continued 
emphasis on GMD reliability and commitment to increase GBI inventory, 
planned RKV investments, and renewed focus on improved tracking and 
discrimination, I believe we are turning the corner with our homeland 
defenses. We remain on track with our EPAA deployments and continue to 
make good progress with our international partners across the globe. am 
also committed to investing in advanced technologies to defeat the 
threat of the future and to looking for new and innovative ways to 
deliver missile defense capability to protect our nation, our forward 
deployed forces and our friends and allies at lower cost to the 
government and the taxpayers.
    I look forward to answering the committee's questions. Thank you.

    Chairman Sessions. Thank you.
    General Mann?

STATEMENT OF LIEUTENANT GENERAL DAVID L. MANN, USA, COMMANDING 
   GENERAL, U.S. ARMY SPACE AND MISSILE DEFENSE COMMAND/ARMY 
FORCES STRATEGIC COMMAND AND JOINT FUNCTIONAL COMPONENT COMMAND 
                 FOR INTEGRATED MISSILE DEFENSE

    General Mann. Chairman Sessions, Ranking Member Donnelly, 
Senator King, Senator Fischer, and also your staff, thank you 
for your continued support of the soldiers and civilians and 
our families.
    This is my third appearance before the subcommittee. It is, 
indeed, an honor to testify before you today to discuss the 
importance of missile defense to our Nation and the need to 
maintain these capabilities in the face of a maturing threat 
and declining budgets.
    Today, I want to briefly summarize the missions of the 
organizations that I represent.
    First, the Space and Missile Defense Command Army Forces 
Strategic Command that serves as a force provider to our 
combatant commands. Three core tasks for this organization: 
first, to provide trained and ready global missile defenders 
today; to build future capabilities and structure for tomorrow; 
and then also to evaluate critical technologies to address 
future threats.
    I also represent the Joint Functional Component Command for 
Integrated Missile Defense, which supports STRATCOM in 
integrating and synchronizing our global missile defense 
operations. As many of you know, for example, today, we have 
over 300 full-time National Guardsmen located in Fort Greely, 
Alaska, and Vandenberg Air Force Base, California, who operate 
the ground-based missile defense system. It represents the 
Nation's only ground-based defense against limited 
intercontinental ballistic missile attack. The soldiers are 
very good at what they do, and they take their mission very 
seriously.
    In addition, JFCC IMD executes five key tasks. Number one, 
we synchronize operational level planning. We support ongoing 
operations. We integrate training exercises and test activities 
globally. We provide recommendations on the allocation of 
missile defense assets. Finally, we advocate for future 
capabilities.
    Today, the missile defense threat continues to grow both in 
terms of numbers and sophistication. We as a Nation cannot 
afford a decrease in our readiness or capabilities. That said, 
we are extremely concerned about sequestration's impact on our 
readiness, and our ability to evaluate and test new 
technologies in order to stay ahead of the threat.
    This committee's continued support of missile defense 
operations, and the men and women who develop and deploy our 
systems, is essential.
    Again, I appreciate the opportunity to discuss our Nation's 
missile defense capabilities, and I look forward to addressing 
any questions you may have. Thank you.
    [The prepared statement of General Mann follows:]

      Prepared Statement by Lieutenant General David L. Mann, USA
    Chairman Sessions, Ranking Member Donnelly, and distinguished 
Members of the Subcommittee, thank you for your continued support of 
our Service Members, Civilians, and Families. In the same capacity as 
my previous appearances before this subcommittee, I appear before you 
today bringing both a Joint and Army perspective on effective missile 
defense capabilities. Let me again express my appreciation to this 
Subcommittee for its continued support of the Army, the U.S. Strategic 
Command, the Department of Defense, and the missile defense community. 
I am honored to testify before this Subcommittee along with these 
distinguished witnesses who provide missile defense capabilities to our 
Nation, forward deployed forces, partners, and allies.
    As outlined during an appearance before this subcommittee last 
year, my responsibilities encompass three main areas. First, as the 
Commander of the U.S. Army Space and Missile Defense Command (USASMDC), 
I have Title 10 responsibilities to train, maintain, and equip space 
and global ballistic missile defense forces for the Army. Second, as 
the Commander, Army Forces Strategic Command (ARSTRAT), I am the Army 
Service Component Commander (ASCC) to the U.S. Strategic Command 
(USSTRATCOM). I am responsible for planning, integrating, and 
coordinating all Army space and missile defense forces and capabilities 
in support of USSTRATCOM missions. Third, as the Commander of 
USSTRATCOM's Joint Functional Component Command for Integrated Missile 
Defense (JFCC IMD), I am responsible for synchronizing missile defense 
planning, supporting ballistic missile defense operations, and 
advocating for missile defense capabilities on behalf of the Combatant 
Commanders.
    In addition to the these three roles, the Chief of Staff of the 
Army recently designated USASMDC as the Army's Air and Missile Defense 
Enterprise Integrator with responsibility to synchronize the Army's air 
and missile defense (AMD) strategy in coordination with other 
organizations involved in providing this critical capability. My task 
is to ensure the implementation of a holistic Army AMD strategy that 
includes force planning requirements, coordinated combat and materiel 
development, AMD acquisition and life cycle management, and strategic 
communications.
    In accordance with these responsibilities, my intent today is to 
highlight the greatest missile defense asset--our great people; to 
briefly outline the strategic environment; to emphasize USASMDC/
ARSTRAT's missile defense force provider responsibilities with respect 
to the Army and the Geographic Combatant Commanders (GCCs); to outline 
JFCC IMD's role as an operational integrator of Joint missile defense 
for USSTRATCOM; and finally to summarize a few of the key Army 
ballistic missile defense activities and developments in the context of 
a comprehensive approach to addressing an evolving ballistic missile 
threat.
      the workforce--recognizing and protecting our greatest asset
    The challenges that we face cannot be mitigated without the 
dedication of our greatest asset--our people. Just as I mentioned last 
year, I feel it important to highlight our workforce, my concern of 
sequestration on our workforce, and the Army's continued commitment to 
deter instances of sexual harassment and assault. At USASMDC/ARSTRAT 
and JFCC IMD, our people remain our most enduring strength. The Service 
Members, Civilians, and Contractors support the Army and Joint 
Warfighter each and every day, both those stationed in the homeland and 
those globally deployed. We remain committed to providing trained and 
ready Service Members and Civilians to operate and pursue enhanced 
capabilities for the Nation's ballistic missile defense system (BMDS).
    As recently highlighted during Congressional testimony by the 
Service Chiefs, the potential return of sequestration causes great 
concern--especially with regards to its impact on the workforce and our 
overall readiness. Within my commands, sequestration will negatively 
impact the space and missile defense enablers our Soldiers and 
Civilians provide to the Combatant Commanders. Specifically, readiness, 
training, and enhancements to space and missile defense capabilities 
will be degraded. Also, the return of sequestration will negatively 
impact the morale of our workforce. I believe that a more prudent 
course of action should be identified and implemented to ensure that we 
can continue to meet our current global responsibilities and those of 
tomorrow.
    Sexual harassment and assault violate the Army's core values and 
harm the Soldiers, Civilians, and Family Members that make up our 
Army--it must be eliminated. In accordance with the Chief of Staff of 
the Army's guidance and direction, my leadership team fully embraces 
the importance and fundamental necessity of an effective Sexual 
Harassment/Assault Response and Prevention (SHARP) Program. The SHARP 
program effort has made noticeable strides in preventing assault and 
encouraging reporting of sexual harassment incidents. In line with Army 
requirements, our program provides Soldiers, Civilians, and Family 
Members with a SHARP program manager, sexual assault response 
coordinators, and victim advocates who are available 24/7/365 in order 
to safeguard our personnel and maintain their trust. I require my 
leadership to comprehensively investigate and report each claim of 
sexual harassment or assault. I demand nothing less than upmost 
prevention, accountability, and advocacy of our personnel--they deserve 
nothing less.
                          the advancing threat
    Ballistic missile threats of our adversaries continue to grow, both 
quantitatively and qualitatively. Today, nine nations possess, or are 
suspected of possessing, nuclear weapons and 22 have ballistic missile 
capabilities that could carry nuclear weapons. Additionally, 
approximately 75 countries are developing unmanned aerial systems and 
several of these countries are exploiting land, sea, and air attack 
cruise missile capabilities. In the future, we expect to encounter more 
complex threats, to include advanced electronic and cyber intrusions, 
multiple simultaneous attacks, and even directed energy or supersonic 
capabilities.
    To meet the objectives of the current Quadrennial Defense Strategic 
Guidance, USSTRATCOM and the Army continue to provide and enhance 
homeland and regional missile defense. In accordance with the 
Department's strategy to rebalance to the Asia-Pacific region, we have 
worked with partners in U.S. Pacific Command (USPACOM), U.S. Northern 
Command (USNORTHCOM), and USSTRATCOM to review and improve our 
capabilities in the USPACOM area of responsibility. In addition to the 
deployment of a Terminal High Altitude Area Defense (THAAD) battery in 
Guam that enhanced our ability to protect U.S. interests in the region, 
we have deployed an additional forward-based sensor in Japan to bolster 
our defense capabilities.
    The emplacement of 14 additional Ground-Based Interceptors at Fort 
Greely, Alaska, scheduled for completion in 2017, and an operational 
second missile defense sensor in Japan will provide improved capability 
and capacity to defend the Nation against a limited intercontinental 
ballistic missile (ICBM) attack. Toward this end, we continue to work 
with regional partners and allies to increase our information and data 
sharing and develop a global AMD force posture that leverages ever 
growing partner nations' capabilities. This will result in reduced 
strain on our force and enable more timely modernization of our AMD 
assets.
    The Quadrennial Defense Review also establishes a priority to 
maintain a strong commitment to security and stability in Europe and 
the Middle East. We are continuing to maintain capability and capacity 
in these regions consistent with our regional security goals. In 
conjunction with our allies and partners, the DOD has deployed Patriot 
air and missile defense forces to Turkey and Jordan in order to enhance 
our current AMD posture while sending a strategic deterrence message to 
potential adversaries. It should be noted that these deployments add to 
the stress of an already highly deployed Patriot force. Without 
significant reduction in our worldwide deployments, it will be 
challenging for the Army to execute critical planned modernization of 
our AMD force over the next 5 years.
    In summary, enemy air and missile threats continue to develop in 
complexity, quantity and capacity. The evolution of multiple 
sophisticated capabilities requires a holistic approach that 
effectively integrates offensive and defensive, kinetic and non-
kinetic, and alternative capabilities to defeat air and missile 
threats. The growing complexity of the strategic environment based on 
technological advances of the threat and fiscal realities requires cost 
efficient and effective methods of integrating current and future 
capabilities. We continue to prioritize integrated missile defense 
resources to optimize all our capabilities in support of the 
Warfighter, particularly in light of the expense associated with 
traditional approaches. We continue to partner with the Missile Defense 
Agency (MDA), Combatant Commands, and Services to ensure we pursue a 
fiscally responsible path to keep pace with evolving threats by 
identifying and prioritizing additional capabilities that provide the 
greatest operational value.
          providing and enhancing missile defense capabilities
    USASMDC/ARSTRAT, a force provider of missile defense capabilities, 
is a split-based command with dispersed locations that are manned by 
multi-component Soldiers, Civilians, and Contractors. Commands around 
the world, including USSTRATCOM, USNORTHCOM, and the GCCs, leverage our 
capabilities. Our Title 10 responsibilities include operations, 
planning, integration, control, and coordination of Army forces and 
capabilities in support of USSTRATCOM's missile defense mission. 
USASMDC/ARSTRAT also serves as the Army's global operational integrator 
for missile defense, the Army's proponent for global missile defense 
force modernization, and the Army's technical center lead to conduct 
air and missile defense related research and development in support of 
Army Title 10 responsibilities.
    Our operational function is to provide trained and ready missile 
defense forces and capabilities to the GCCs and the Warfighter--in 
other words, to address the requirements of today. For example, 
USASMDC/ARSTRAT Soldiers serving in the homeland and in remote and 
austere forward deployed locations operate the Ground-based Midcourse 
Defense (GMD) system and the Army-Navy/Transportable Radar Surveillance 
Forward-Based Mode (AN/TPY-2 FBM) radars. Highlights of the ongoing 
missile defense capabilities provided by our missile defense 
professionals include:
    Support to Global Ballistic Missile Defense (BMD): Soldiers from 
the 100th Missile Defense Brigade, headquartered in Colorado Springs, 
Colorado, and the 49th Missile Defense Battalion, headquartered at Fort 
Greely, Alaska, remain ready, 24/7/365, to defend our Nation and its 
territories from a limited intercontinental ballistic missile attack. 
Under the operational control of USNORTHCOM, Army National Guard and 
active component Soldiers operate the Ground-based Midcourse Defense 
Fire Control Systems located at the Fire Direction Center in Alaska, 
the Missile Defense Element in Colorado, and the GMD Command Launch 
Element at Vandenberg Air Force Base, California. These Soldiers, in 
conjunction with USNORTHCOM, also oversee the maintenance of GMD 
interceptors and ground system components. At the Missile Defense 
Complex at the Fort Greely site, 49th Missile Defense Battalion 
military police secure the interceptors and communications capabilities 
at the Missile Defense Complex from physical threats. This brigade will 
also soon be responsible for security at the Fort Drum, New York, In-
Flight Interceptor Communication System Data Terminal. The GMD system 
remains our Nation's only defense against an ICBM attack.
    GMD System Test and Development: In addition, Soldiers from the 
100th Missile Defense Brigade actively participate in GMD test 
activities and continue to work with MDA developers on future 
improvements to the GMD system.
    Support to Regional Capabilities: The 100th Missile Defense Brigade 
also provides GCCs with trained and certified AN/TPY-2 FBM radar 
detachments. These operational capabilities are present today at 
strategic locations around the globe.
    Ballistic Missile Early Warning: In support of the Joint Force 
Commander's theater force protection, USASMDC/ARSTRAT continues to 
provide ballistic missile early warning within various theaters of 
operations. The 1st Space Brigade's Joint Tactical Ground Station 
(JTAGS) Detachments, under the tactical control of USSTRATCOM's Joint 
Functional Component Command for Space, but operated by USASMDC/ARSTRAT 
space-professional Soldiers, monitor launch activity and other infrared 
events. They provide essential information to members of the air, 
missile defense, and operational communities. Our JTAGS Detachments are 
forward deployed around the globe, providing 24/7/365, dedicated, 
assured missile warning to USSTRATCOM and GCCs in support of deployed 
and forward-based forces.
    Our second major task is to build and mature future missile defense 
forces--our capability development function. These are the missile 
defense capabilities we will provide tomorrow. A major component of our 
capability development function is to provide relevant and updated 
training on our global missile defense systems. During the past year, 
USASMDC/ARSTRAT trained over 350 Soldiers and was recertified as an 
Army Learning Institution of Excellence for missile defense training.
    The Army uses established and emerging processes to document its 
missile defense needs and pursue Joint and Army validation of its 
requirements. As a recognized Army Center for Analysis, USASMDC/ARSTRAT 
conducts studies to determine how to best meet the Army's assigned 
missile defense responsibilities. With these insights, we develop the 
Doctrine, Organization, Training, Materiel, Leadership and Education, 
Personnel, and Facilities (DOTMLPF) domains to address evolving threats 
and potential vulnerabilities to the GMD and AN/TPY-2 FBM missile 
defense systems. This disciplined approach helps to ensure limited 
resources are applied where Warfighter operational utility can be most 
effectively served.
    In our third major missile defense task, USASMDC/ARSTRAT provides 
critical technologies to address future needs that will enhance 
Warfighter effectiveness--our materiel development function. In 
USASMDC/ARSTRAT, our technology development function is primarily 
focused on the space and high altitude domains. However, while MDA is 
the principal materiel developer for ballistic missile defense 
capabilities, USASMDC/ARSTRAT has a number of supporting missile 
defense related materiel development efforts, to include supporting 
research and development of an OSD-sponsored conventional prompt global 
strike capability to address ballistic missile threats. Following is a 
brief summary of two of our research and development efforts, as well 
as an overview of the capabilities of an essential Army testing range.
    High Energy Laser Mobile Demonstrator: The technology objective of 
the High Energy Laser Mobile Demonstrator (HEL MD) is to demonstrate a 
solid-state laser weapon system to complement kinetic energy 
capabilities in countering rockets, artillery, and mortar (RAM) 
projectiles. This directed energy weapon system will also have a 
significant capability against unmanned aerial vehicles (UAVs). 
Considerable technology developments were realized over the past year 
for the HEL MD. Successful demonstrations were conducted for a 
pathfinder 10 kilowatt-class laser at White Sands Missile Range, New 
Mexico, and Eglin Air Force Base, Florida. These demonstrations served 
as a risk reduction for future subsystem development and integration 
while advancing this technology effort to a 50 kilowatt demonstration 
in 2017. The 50 kilowatt HEL MD will consist of a ruggedized and 
supportable high energy laser installed on a tactical military vehicle 
to enhance the safety of deployed forces. Another major component of 
the HEL MD is the beam director which will provide full sky coverage 
and engage below-the-horizon targets. As technology matures, higher 
power lasers will integrate with improved pointing and tracking 
capabilities to extend range and increase system effectiveness. The 
continued positive technology advances and testing results were 
recognized by the Army's senior leadership as HEL MD was recently 
selected by the Army Science and Technology Working Group as one of 
only three Army Capability Enabler programs to be further evaluated. 
The synergy of both directed and kinetic energy systems has the 
potential to significantly enhance both regional and homeland defense 
capabilities, particularly against cruise missile and indirect fire 
threats.
    Low-Cost Target Development: The Army continues to pursue a 
technology effort to develop a suite of low-cost targets for the 
Patriot testing program. The intent is to design threat-representative 
targets at a substantially reduced cost for short-range ballistic 
missile testing. Over the past year, we completed preliminary designs 
for three new short range ballistic missile targets based on existing 
excess solid rocket motors. The Army will realize significant savings 
conducting operational test events using these new targets beginning in 
Fiscal Year 2017. In addition, the Missile Defense Agency will use our 
targets in its test program later this year. We will continue to 
leverage existing missile inventory and technology advancements to 
develop less expensive targets that are representative of real world 
threats.
    Missile Defense Testing: USASMDC/ARSTRAT operates the Ronald Reagan 
Ballistic Missile Test Site (RTS). RTS, located on the U.S. Army 
Garrison--Kwajalein Atoll in the Republic of the Marshall Islands, is 
critical to both offensive and defensive missile testing requirements, 
such as the GMD system and the U.S. Air Force strategic ballistic 
missile systems. In addition to their testing mission, personnel at the 
Reagan Test Site conduct continuous deep space surveillance and object 
identification missions. Just this past month, the U.S. Air Force began 
construction of their most advanced surveillance system--the Space 
Fence. In a few years, this improved surveillance capability will 
enable proactive space situational awareness while complementing 
existing systems at Reagan Test Site.
  joint functional component command for integrated missile defense--
 synchronizing global missile defense planning, force management, and 
                           operations support
    The Joint Functional Component Command for Integrated Missile 
Defense, or JFCC IMD, is USSTRATCOM's missile defense integrating 
element. This past January, we held a ceremony to honor the 10 year 
anniversary of the JFCC IMD. Like the other Joint Functional Component 
Commands, JFCC IMD was formed to operationalize USSTRATCOM missions and 
allow the headquarters to focus on integration and advocacy. 
Headquartered at Schriever Air Force Base in Colorado Springs, 
Colorado, the JFCC IMD is manned by professional Army, Navy, Air Force, 
Marine Corps, Civilian, and Contractor personnel.
    As the Secretary of Defense and various Combatant Commanders have 
previously testified, the Warfighter remains confident in our ability 
to protect the Nation against a limited intercontinental ballistic 
missile attack, even in the face of the changing fiscal environment. 
Over the past year, we have deployed a new forward-based sensor in 
Japan to bolster regional and homeland defense capability and, 
following the June 2014 successful ground-based interceptor (GBI) test, 
we are in the process of integrating enhanced interceptors at Fort 
Greely. Additionally, MDA is on schedule to complete construction of 
the new Aegis Ashore site in Romania to meet our commitment to our 
allies in Phase 2 of the European Phased Adaptive Approach (PAA) and we 
continue to collaborate with MDA to initiate the procurement of the 
Long Range Discrimination Radar (LRDR) and the redesign of the GBI kill 
vehicle. These developments and deployment efforts are in line with 
warfighter priorities, which consist of sensor improvements, improved 
GBI reliability and performance, and increased regional capability and 
capacity.
    On behalf of USSTRATCOM, JFCC IMD is working across our DOD 
enterprise to improve the integration of existing capabilities in order 
to maximize our efficiency and effectiveness to protect the homeland, 
deployed forces, partners, and allies. The key force multiplier is 
``integration,'' which is a critically important mission area for JFCC 
IMD and directly supports USSTRATCOM's assigned Unified Command Plan 
(UCP) responsibilities for missile defense.
    As an operational and functional component command of USSTRATCOM, 
JFCC IMD has derived five key mission tasks from the USSTRATCOM UCP 
responsibilities:

    <bullet>  Synchronize operational missile defense planning, 
security cooperation activities, and the global force management 
process for missile defense capabilities.
    <bullet>  Conduct global ballistic missile defense operations 
support, above element joint ballistic missile defense training, asset 
management, and alternative execution support.
    <bullet>  Integrate, synchronize, and conduct training, exercises, 
and test activities. As the Warfighter interface, lead the planning and 
development of operational input for execution of the Integrated Master 
Test Plan (IMTP).
    <bullet>  Advocate and coordinate for global missile defense 
capabilities, conduct analysis and assessments of current and future 
capabilities, and recommend operational acceptance.
    <bullet>  Protect information systems and provide network support 
for ballistic missile defense operations.

    To accomplish each of these five tasks, we maintain close 
collaborative relationships with the GCCs, MDA, the Services, the 
Office of the Secretary of Defense (OSD), the Joint Staff, and our 
allies. Through collaborative processes, we continually enhance our 
deployed capabilities while gaining operational experience and 
confidence in our collective ability to defend the Nation, deployed 
forces, partners, and allies. Furthermore, I will highlight some of our 
collaborative efforts to enhance missile defense planning and 
capabilities for both the homeland and regional architectures.
    Expansion and Integration of the Missile Defense Architecture: In 
response to the evolving strategic environment, we continue to bolster 
homeland and regional missile defense capabilities. In addition to the 
deployed AN/TPY-2 FBM radars and deployment of the THAAD battery to 
Guam, we are expanding our missile defense collaboration with allies. 
We continue to mature the European PAA with the forward deployment of 
Aegis BMD ships in Rota, Spain, developing the Aegis Ashore site in 
Romania, and continuing the production of the SM-3 IB interceptors used 
for ballistic missile defense. Given many of the challenges associated 
with implementation of these architectures, JFCC IMD, supporting 
USSTRATCOM as the global synchronizer for missile defense, is 
collaborating with the GCCs to assess and address the cross-regional 
gaps in the areas of planning, policy, capabilities, and operations.
    Global Planning and Assessment: Regional and global missile threats 
continue to increase in numbers and complexity. This year, JFCC IMD led 
the missile defense community in the development of the Global Missile 
Defense Concept of Operations which better articulates systemic risk 
with the likely simultaneous execution of GCC operational plans across 
multiple areas of operations. This fundamentally changes the way the 
missile defense enterprise analyzes and assesses the operational 
environment. The output of this analysis directly informs the Global 
Integrated Air and Missile Defense Assessment (GIAMDA). The GIAMDA 
serves to shape recommendations for global force management and 
advocacy efforts for future capability investments. We have completed 
the 2014 GIAMDA and are currently conducting the 2015 assessment. For 
the 2014 assessment, we continued to expand the assessment to look at 
integrating cyber, electronic warfare, and global strike in order to 
provide a more holistic set of military capabilities to counter an 
evolving adversary threat.
    Global Force Management: The increasing demand of BMD assets is 
managed by the Joint Staff and the Services. USSTRATCOM, as the 
designated Joint Functional Manager for missile defense, relies upon 
JFCC IMD to evaluate and recommend sourcing of BMD requirements based 
on assessed risk. Due to the high demand, low-density nature of missile 
defense assets, all sourcing decisions have a direct and significant 
impact to other Combatant Commanders' campaign and contingency plans. 
The Global Force Management process enables senior leaders to make more 
informed BMD sourcing decisions based on global risk.
    Multi-Regional BMD Asset Management: JFCC IMD, in coordination with 
USSTRATCOM and the GCCs, manages the availability of missile defense 
assets to balance operational readiness postures, scheduled and 
unscheduled maintenance activities, and the MDA and Services' test 
requirements. This important process allows us to continually assess 
our readiness to defend against a ballistic missile attack and to 
recommend adjustments to optimize the overall BMD architecture.
    Allied Ballistic Missile Defense Integration: JFCC IMD continues to 
focus on the integration of allies into regional missile defense 
architectures, enhanced security cooperation between missile defense 
capable nations, and shared regional deterrence and defense 
responsibilities across partner nations. One tool employed to promote 
cooperation is the Nimble Titan campaign, a biennial series of multi-
national missile defense experiments designed to explore policy and 
operational concepts required for coalition missile defense. The Nimble 
Titan campaign provides a unique venue to advance U.S. missile defense 
policies and combatant command regional security objectives. The Nimble 
Titan community of interest consists of 23 nations and 2 international 
organizations. The campaign goals for Nimble Titan are four fold:

    <bullet>  Examine national and multinational BMD decision making 
processes and their effects on planning, design, and execution.
    <bullet>  Explore the effects of policy guidance on defense design.
    <bullet>  Develop a common understanding of integrated air and 
missile defense.
    <bullet>  Examine and identify opportunities to support planning 
and execution of integrated air and missile defense operations.

    In April 2014, we concluded our fourth biennial series--Nimble 
Titan 14. Nimble Titan 14 included Ministry of Foreign Affairs and 
Ministry of Defense representatives from 21 nations and 2 international 
organizations, along with Department of State, OSD, Joint Staff, MDA, 
and combatant command representatives. In addition, 40 senior leaders 
from the United States and 13 other nations participated in a 
concurrent senior leader program. For the first time, Nimble Titan 14 
included participants from the Middle East and non-NATO aligned 
European nations. Through Nimble Titan, we continue to focus on cross-
regional coordination, sensor integration, and multinational MD 
planning solutions.
    Nimble Titan is critical to developing a common understanding of 
policy hurdles associated with combined missile defense architectures 
and to influence future U.S., ally, and partner missile defense policy 
development and cooperation. Additionally, this exercise provides 
participating nations with critical experience in information-sharing 
as well as command and control procedures that enhance synchronized 
missile defense capabilities. Conclusions derived from this exercise 
continue to inform policy decisions and multinational BMD planning. 
Planning has already begun for the next iteration of this war game--
Nimble Titan 16.
    Joint BMD Training: DOD designated USSTRATCOM as the lead for 
integrating and synchronizing Joint BMD training. In coordination with 
USSTRATCOM, the Joint Staff, Combatant Commands, and the Services, we 
have developed a comprehensive and innovative training program to close 
gaps between Service, Joint, and regional BMD training and education. 
New and updated courseware has been developed and fielded to enhance 
combatant command and warfighter training needs. Blended learning 
courseware and a Joint BMD Training Community of Practice are under 
development to improve efficiency in delivery and reduce costs. Over 
the past year, JFCC IMD provided 140 courses to over 2,300 students 
around the world via the Joint BMD Training and Education Center. 
Additionally, in keeping with Joint Vision 2020, JFCC IMD provided 
several training courses to ally and partner nations.
    Warfighter Acceptance and Integrated Master Test Plan: As the 
missile defense architectures mature, Warfighters require a credible, 
comprehensive assessment of new capabilities to inform operational 
acceptance. In 2014, we tested our new AN/TPY-2 FBM in Japan, conducted 
a successful intercept flight test of the GMD system, and flight tested 
a triple engagement of both cruise and ballistic missiles with our 
Aegis BMD system. The focus of this year's operational tests is to 
demonstrate the integrated capability of Phase 2 of the European PAA 
architecture, which will include Aegis BMD ships and Aegis Ashore. 
Additionally, JFCC IMD continues to work closely with the MDA, the 
Office of the Director, Operational Test and Evaluation, and USNORTHCOM 
to address issues future improvements of both the Capability 
Enhancement (CE)-I and CE-II variants.
    In summary, JFCC IMD serves an integrating role for missile defense 
across multiple regions as we operationalize new capabilities, enhance 
command relationships, and reinforce our missile defense partnerships 
with allies. In view of worldwide events and current fiscal challenges, 
JFCC IMD remains focused on our key mission task to collaborate with 
the GCCs and MDA to meet current and future ballistic missile threats. 
While work remains to be done, we have made significant progress in 
evolving our global missile defense capabilities, thereby strengthening 
the defense of the homeland and advancing our partnerships with allies 
in this pressing endeavor.
    army contributions to the nation's missile defense capabilities
    The Army works closely with MDA and continually supports its 
materiel development efforts to develop and field systems that are 
integral to our Nation's air and missile defense capabilities. A 
summary of the Army's major air and missile defense programs follows.

    Army Integrated Air and Missile Defense (IAMD): As we transition 
from an Army at war to one of deterrence, air and missile defense (AMD) 
units have become a key strategic enabler. AMD is an enduring Army core 
function and an essential component of the Army mission to provide wide 
area security. In addition to defense against ballistic missiles, the 
current AMD strategy seeks to develop a more comprehensive portfolio of 
IAMD capabilities to provide protection against cruise missiles, 
unmanned aerial systems, and long-range precision rocket, artillery, 
and mortar attacks.
    The IAMD Battle Management Command System (IBCS) remains an Army 
priority effort and serves as the foundation for Army AMD 
modernization. Modernization is critical in our quest to stay ahead of 
the advancement of the threat. The program will field a common mission 
command system to all echelons of Army AMD forces in order to defend 
against cruise missiles, manned and unmanned aircraft, air-to-ground 
missiles, tactical ballistic missiles, and rocket, artillery, and 
mortar attacks. IBCS will provide a common and flexible AMD mission 
command network capable of coordinating air surveillance and fire 
control across Services and with coalition partners. When fielded, IBCS 
will componentize the AMD force, breaking the current system-centric 
paradigm, which will facilitate open industry competition in support of 
the AMD community. Additional efforts are underway to integrate IBCS 
and Command and Control, Battle Management, and Communications (C2BMC) 
to support the BMD mission.
    As the lead integrator for the AMD enterprise, one area of concern 
is the ever increasing operational demand and how this demand will 
impact planned modernization. Starting next fiscal year, the AMD 
enterprise will begin its most comprehensive modernization effort ever 
undertaken as IBCS is fielded to the AMD force. IBCS will interact with 
every AMD weapon component--shooters, sensors, and C2BMC. The AMD 
convergence between the existing demand and upcoming modernization 
effort will be a major undertaking for the AMD enterprise and the Army.
    Patriot/Patriot Advanced Capability-3 (PAC-3): The Patriot air and 
missile defense system remains the cornerstone of our BMD forces 
deployed in support of GCCs. It remains the Army's premier weapon 
system against air and tactical ballistic missile threats. The Patriot 
system is now over 35 years old and, not surprisingly, the effort and 
costs associated with maintaining operational reliability rise steadily 
each year. Fortunately, several years ago, the Army embarked on a 
comprehensive modernization strategy that will completely replace 
Patriot's command and control hardware and upgrade the radar, launcher, 
and interceptor components through competitive development and 
procurement. The aim is to increase reliability, drive down operational 
and sustainment costs, and remain viable well into the future. Each 
facet of this strategy, development of IBCS, radar and launcher 
modernization and the Missile Segment Enhancement (MSE) are critical to 
our Nation's ability to provide our Combatant Commanders with more 
innovation and capabilities in the face of an ever evolving threat. 
With nearly half of all Patriot units currently deployed, operational 
tempo and stress remain high.
    A number of significant Patriot/PAC-3 capability enhancements have 
been accomplished over the past year. Among the accomplishments were 
the completion of the Army's planned PAC-3 capability upgrades of all 
15 Patriot battalions and continued successful operational flight tests 
of the next generation PAC-3 missile, the MSE. During recent successful 
testing, both tactical ballistic missiles and air breathing threats 
were simultaneously engaged. The Army remains on track for delivery of 
the MSE to the Warfighter by the fourth quarter of 2015. Additionally, 
the Patriot radar is receiving a new radar digital processor. Coupled 
with recent software upgrades, the new processor increases performance 
of the radar against evolving threats while dramatically improving 
reliability, availability, and maintainability. To make maximum use of 
the MSE missile and the radar upgrades, the Army is also preparing to 
test the next version of the Patriot software, Post Deployment Build-8. 
Successful testing and fielding of this software will advance the 
Patriot system into the next generation of hardware capability.
    Joint Land Attack Cruise Missile Defense Elevated Netted Sensor 
System (JLENS): Homeland air and missile defense is heavily reliant on 
early warning and over-the-horizon target acquisition in order to 
provide decision and battle space. In accordance with guidance from OSD 
and the Joint Staff, the Army has deployed the JLENS system to Aberdeen 
Proving Grounds, Maryland, for a three-year operational exercise. This 
exercise will demonstrate the capability to detect, track, and identify 
potential air threats to the greater Washington, D.C. area, and to 
integrate JLENS into the North American Aerospace Defense Command's 
(NORAD) air defense architecture. During the 3-year exercise window, 
JLENS capabilities will be fully explored in a real-world environment 
and evaluated for its operational utility in support of NORAD's 
homeland defense mission.
    The JLENS system leverages proven aerostat technology to provide 
situational awareness and track airborne objects such as cruise 
missiles, manned and unmanned aircraft, and large caliber rockets. The 
JLENS consists of two unmanned aerostats with radar systems for 
surveillance and fire control. Each radar system employs a separate 74-
meter tethered aerostat, a mobile mooring station, radar and 
communications payloads, a processing station, and associated ground 
support equipment.
    Terminal High Altitude Area Defense System: THAAD, a key component 
of the BMDS architecture, is designed to defend deployed and allied 
forces, population centers, and critical infrastructure against short 
and medium-range ballistic missiles. THAAD is a high demand, low-
density asset that is mobile and globally transportable. A fully 
operational THAAD battery consists of 95 Soldiers, an AN/TPY-2 radar, 
six launchers, a fire control and communications element, a battery 
support center, and a support element. THAAD has a unique intercept 
capability in both the endo- and exo-atmosphere using proven hit-to-
kill technology. There are now four activated THAAD batteries. 
Equipment training and fielding has been completed for three of the 
batteries. In April 2013, one of these batteries conducted the first-
ever operational deployment of THAAD in response to the escalation of 
tensions in the Pacific region. The fourth THAAD battery is currently 
undergoing training and will be operationally available next year. A 
fifth battery is scheduled to become fully operational the following 
year. By 2019, the THAAD force is scheduled to consist of seven 
batteries. A new training facility, which enables virtual training for 
the Soldiers who will operate the THAAD system, recently opened at Fort 
Sill, Oklahoma. The addition of THAAD capabilities to the Army's air 
and missile defense portfolio brings an unprecedented level of 
protection against missile attacks to deployed U.S. forces, partners, 
and allies.
                               conclusion
    Mr. Chairman and Ranking Member Donnelly, as a member of the Joint 
missile defense community, the Army continues to pursue enhancements to 
the Nation's missile defense system. As a Service, the Army has lead 
responsibility for GMD, AN/TPY-2 FBM, Patriot, JLENS, and THAAD. Our 
trained and ready Soldiers operating GMD elements in Colorado, Alaska, 
and California remain on point to defend the homeland against a limited 
intercontinental ballistic missile attack. As a force provider to the 
GCCs, our Soldiers provide essential regional sensor capabilities and 
ballistic missile early warning. Our regional forces continue to 
leverage ally collaboration and planning efforts in developing 
integrated and interoperable defenses against the various threat sets. 
USSTRATCOM, through the JFCC IMD, continues to integrate BMDS 
capabilities to counter global ballistic missile threats and to protect 
our Nation, deployed forces, partners, and allies.
    While the operational, doctrine, and materiel development 
enhancements of the BMDS are essential, our most essential assets are 
the Soldiers, Sailors, Airmen, Marines, Civilians, and Contractors who 
develop, deploy, and operate our missile defense system. I appreciate 
having the opportunity to address missile defense matters and look 
forward to addressing your questions.

    Chairman Sessions. Thank you.
    Mr. Gilmore?

 STATEMENT OF HON. J. MICHAEL GILMORE, DIRECTOR OF OPERATIONAL 
           TEST AND EVALUATION, DEPARTMENT OF DEFENSE

    Mr. Gilmore. Mr. Chairman, members of the committee, I will 
briefly summarize the highlights of my written testimony.
    Testing conducted during the past 5 years of the regional 
theater missile defense systems--that is Aegis, Terminal High 
Altitude Aerial Defense, and Patriot--have demonstrated their 
effectiveness under an expanding set of realistic operational 
conditions.
    During that same period, testing of the Ground-Based 
Midcourse Defense system has revealed a number of important 
engineering shortfalls that needed correction, but the 
intercept failures caused by those shortfalls precluded 
demonstration of GMDs effectiveness under a broader set of 
realistic operational conditions.
    However, if we execute the integrated master test plan that 
Admiral Syring has developed over the next several years, that 
will expand our knowledge and demonstration of the capabilities 
of GMD under a broader set of operational conditions, to 
include an upcoming test against an ICBM target, testing of 
salvos using salvos of interceptors, and testing of multiple 
simultaneous engagements, as well as testing in the presence of 
more realistic countermeasures.
    As I mentioned, several Exo-Atmospheric Kill Vehicle fixes 
that were important were demonstrated during last year's 
developmental flight test, which successfully intercepted the 
target. That is definite progress.
    Nonetheless, as Admiral Syring himself has pointed out, the 
reliability and availability of the operational ground-based 
interceptors are less than desired. That is why the Admiral is 
undertaking a reliability improvement program that is now 
funded. That is very important to improve the reliability and 
availability of the interceptors.
    Although, in the long run, the solution there is the 
Redesigned Kill Vehicle based on a more rigorous systems 
engineering process.
    The next flight test of the GMD system will take place 
later this year. It will be a nonintercept test of a Capability 
Enhancement-II kill vehicle, similar to the one that was just 
tested, to demonstrate the performance of alternate different 
thrusters, which again are supposed to help with some of the 
problems that have been demonstrated in past tests, and the 
end-to-end discrimination of a complex target scene including 
countermeasures.
    In my view, a robust ability to discriminate is critical 
for an effective homeland defense. The planning and analysis 
being conducted for this test have already revealed significant 
issues that Admiral Syring is using to plan his future program.
    In the fourth quarter of fiscal year 2016, MDA plans to 
conduct, as I mentioned just a moment ago, the first intercept 
of intercontinental ballistic missile. This is a critical 
flight test, as well as subsequent salvo tests and multiple 
simultaneous engagement tests, because those are going to be 
conducted under realistic conditions reflecting how the system 
would actually be used.
    The CE-I interceptor is the oldest in the GMD inventory. 
Its last flight test in fiscal year 2013 was a failure, so I 
recommend that we retest as soon as possible a CE-I 
interceptor, CE-I equipped interceptor, incorporating changes 
in hardware and software that are being made to correct the 
problems that were revealed in the past flight test.
    Aegis Ballistic Missile Defense with Standard Missile-3 
Block IB completed initial operational testing and evaluation 
in early fiscal year 2014. Testing has demonstrated Aegis is 
capable of defeating short-range and simple separating medium-
range ballistic missile threats and shorter range intermediate-
range threats, and its effectiveness depends upon the specifics 
of the threat and the circumstances of deployment.
    However, there have been third stage rocket motor failures 
common to the SM-3 IA and IB, and MDA has determined that a 
redesign of that Third-Stage Rocket Motor nozzle is needed to 
increase the missile's reliability. In my view, the new design 
will have to be flight tested, not just ground tested, a number 
of times before we can have confidence that those fixes and 
improved reliability is as desired.
    Later this year, we are going to do Flight Test 
Operational-02, the second operational flight test at a system 
level, of BMDS elements. That will be important. There are two 
events that are planned, one involving Aegis Ashore, the 
testing facility at the Pacific Missile Range Facility, as well 
as testing using Aegis ships in a second event. Both of those 
events will provide information that is critical to my 
evaluation of the effectiveness of European Phased Adaptive 
Approach Phase 2, which the Nation wants to declare operational 
by the end of the year.
    In the fiscal year 2015 appropriations bill, Congress 
reduced MDA's funding for testing and flight test targets. In 
response, MDA, consistent with its priorities, eliminated one 
particular Aegis BMD flight test. I would, certainly, urge that 
MDA work with the Congress, if at all possible, to restore that 
flight test because it is against a critical ballistic missile 
threat. I would be happy to elaborate on the details in the 
appropriate setting.
    THAAD, Terminal High Altitude Area Defense, has 
demonstrated effectiveness against short- and medium-range 
targets. As part of FTO-02 later this year, it will hopefully 
demonstrate effectiveness against complex separating short-
range ballistic missiles and prove the effectiveness of its 
advanced discrimination algorithms. So that test will provide 
important information not just about Aegis, but also about 
THAAD.
    In my written testimony, I discuss concerns with Patriot 
reliability and training. I certainly recommend the Services 
and MDA work to address those concerns.
    Finally, flight testing and modeling and simulation of the 
regional theater BMDS systems--that is Patriot, THAAD, and 
Aegis--are sufficient to support a quantitative assessment of 
the systems performance against short- and medium-range 
ballistic missile threats.
    I provide those estimates, they are classified, in the 
classified section of the annual report I just submitted to 
Congress.
    However, flight testing and modeling and simulation are not 
yet sufficient. In my judgment, based on current program plans 
and the pace of testing, they will not be until the beginning 
of the next decade to enable me to provide a rigorous 
quantitative assessment of GMD effectiveness.
    Thank you.
    [The prepared statement of Mr. Gilmore follows:]

                Prepared Statement by J. Michael Gilmore
    Chairman Sessions, Ranking Member Donnelly, and distinguished 
Members of the Committee, thank you for the opportunity to discuss 
missile defense testing and my assessment of the Ballistic Missile 
Defense System (BMDS) and the elements that comprise it.
    Testing conducted during the past five years of the Regional/
Theater missile defense elements has demonstrated their effectiveness 
under an expanding set of realistic operational conditions. Testing 
conducted during that period of the Ground-Based Midcourse Defense 
(GMD) element has revealed a number of important engineering shortfalls 
that needed correction, but the intercept failures caused by these 
problems precluded increased demonstration of GMD's effectiveness under 
a broader set of realistic operational conditions.
                             gmd assessment
    The Missile Defense Agency (MDA) has demonstrated GMD's capability 
to defend the United States against small numbers of simple ballistic 
missile threats launched from North Korea and Iran. Several Exo-
atmospheric Kill Vehicle fixes were demonstrated during last year's 
developmental flight test (FTG-06b), which successfully intercepted the 
target. However, the reliability and availability of the operational 
Ground-based Interceptors are less than desired and need to be 
substantially improved; MDA is taking steps that, over time, should 
yield improvement.
    The next flight test of the GMD system will take place later this 
year. Ground-based Midcourse Controlled Test Vehicle-02+ (GM CTV-02+) 
is a non-intercept test of a Capability Enhancement-II (CE-II) kill 
vehicle that will demonstrate the performance of alternate divert 
thrusters in a flight environment and the end-to-end discrimination of 
a complex target scene including countermeasures through the GMD fire 
control loop. Data collected from this test will be used to evaluate 
discrimination techniques which can help distinguish a real warhead 
from a decoy. A robust ability to discriminate is critical for an 
effective homeland defense and the planning and analysis being 
conducted for this test have already revealed issues regarding GMD's 
discrimination capabilities. The MDA is using this information to 
determine the content of the Agency's future research and development 
efforts. In the fourth quarter of fiscal year 2016, the MDA plans to 
conduct Flight Test GMD-15 (FTG-15), which will be the first intercept 
flight test for the CE-II Block 1 Ground-Based Interceptor and the 
first intercept attempt of an intercontinental ballistic missile-range 
target. This is also a critical flight test.
    The CE-I interceptor is the oldest in the GMD inventory, and its 
last flight test in fiscal year 2013 was a failure. Numerous CE-I 
interceptors remain deployed as part of the GMD system. Consistent with 
the high priority of the Homeland Defense mission, I recommend the MDA 
retest as soon as feasible the CE-I interceptor incorporating changes 
in its hardware and software made to correct the problems that caused 
the flight test failure to demonstrate the problems have actually been 
fixed.
    As documented in MDA's Integrated Master Test Plan (IMTP), GMD 
flight testing is proceeding at a pace of one test per year. For these 
expensive flight tests to add value to the GMD program, enough time 
must be given to conduct analyses of the previous flight test data, to 
make system improvements based on the previous flight test results, and 
to plan for the next test. Substantial overlaps between analysis of 
data from a just-conducted test and planning for the next test would be 
counter-productive. The pace at which all these activities can be 
conducted depends on the quality, experience, and size of MDA's 
engineering staff and the capacity of the Agency's ground-test and 
analysis capabilities, not only on the number of interceptors available 
for flight testing or the number of targets available (target 
availability and readiness continue to be problematic). So, while it 
would be possible to increase the pace of GMD testing somewhat relative 
to the current (and historical) pace of about one test per year, doing 
so would require expanding MDA's staff of competent engineers and test 
infrastructure, both of which would require substantial resources and 
time to execute.
            aegis ballistic missile defense (bmd) assessment
    The Aegis Ballistic Missile Defense (BMD) 4.0 system with Standard 
Missile-3 (SM-3) Block IB guided missiles completed Initial Operational 
Test and Evaluation in early fiscal year 2014. Testing has demonstrated 
that the Aegis BMD 4.0 system is capable of defeating short-range and 
simple-separating medium-range ballistic missiles and shorter-range 
intermediate-range threats in the midcourse phase of flight for many 
realistic operational scenarios. Analysis of data obtained during 
flight testing and the maintenance demonstration showed that the Aegis 
BMD 4.0 system is also suitable.
    However, SM-3 Third-Stage Rocket Motor failures encountered during 
flight testing have affected the reliability of the SM-3 missile. The 
MDA has determined that a re-design of the Third-Stage Rocket Motor 
nozzle is needed to increase the missile's reliability. The MDA 
generated new design concepts and began the initial ground testing of 
the redesigned parts in fiscal year 2014. The new design will have to 
be flight tested (not just ground tested) multiple times before its 
reliability can be determined with confidence.
    The MDA also demonstrated the capability of the Aegis Ashore test 
site at the Pacific Missile Range Facility to fire, establish uplink/
downlink communication, provide guidance commands, and provide target 
information to an SM-3 Block IB guided missile. The Aegis Ashore 
Controlled Test Vehicle-01 test was the first SM-3 missile firing from 
Aegis Ashore. Flight Test Operational-02 (FTO-02), scheduled for fiscal 
year 2015, is a BMDS system-level operational test, consisting of two 
events. Event 1 will provide critical data needed for my assessment of 
Aegis Ashore's capability to defend Europe as part of the President's 
European Phased Adaptive Approach (EPAA). An AN/TPY-2 radar in forward-
based mode will provide the target track data that will enable Aegis 
Ashore to conduct a launch-on-remote engagement. Space-based sensors 
and command, control, battle management, and communications systems 
will also participate. Event 1 will be the first intercept test of 
Aegis Ashore and it will be conducted against an intermediate-range 
ballistic missile target. Event 2, which will also provide data 
critical to my assessment of the EPAA's ability to integrate the 
defense provided by Aegis Ashore with the defense capabilities of Aegis 
ships, will use a U.S. European Command scenario to test the Aegis BMD 
capability to engage a medium-range ballistic missile in the presence 
of post-intercept debris while simultaneously conducting anti-air 
warfare operations against a cruise missile surrogate. To create the 
debris scene for Aegis BMD, THAAD will engage a short-range ballistic 
missile with its advanced radar algorithms and new Lot 4 interceptor.
    As a result of a successful critical design review conducted in 
2013, the design of the new and larger SM-3 Block IIA guided missile is 
now complete and the program is proceeding to product development and 
testing. In October 2013, the MDA conducted a propulsion test vehicle 
test called PTV-1. It demonstrated that the SM-3 Block IIA missile can 
launch from the Aegis BMD vertical launch system.
    In its fiscal year 2015 appropriations bill, Congress reduced MDA's 
funding for testing and flight test targets. The MDA addressed these 
funding cuts by eliminating the FTM-24 Aegis BMD flight test. In my 
view, this flight test is critical to determining the Aegis BMD system 
performance against a key ballistic missile threat. I urge MDA to work 
with the Congress to restore FTM-24 as soon as possible. I would be 
happy to elaborate further on this issue in the appropriate forum.
         terminal high altitude area defense (thaad) assessment
    The Terminal High Altitude Area Defense (THAAD) system has 
demonstrated effectiveness against short- and medium-range targets. In 
9 flight tests, beginning with FTT-06 and including one multi-
simultaneous engagement, conducted between fiscal year 2007 and fiscal 
year 2013, THAAD intercepted all 10 target ballistic missiles including 
8 short-range and 2 medium-range ballistic missiles. One flight test in 
fiscal year 2009 demonstrated a salvo engagement and another flight 
test in fiscal year 2012 demonstrated a multiple simultaneous 
engagement. Further flight testing is planned to demonstrate the 
performance of the radar's advanced algorithms against more complex 
short- and medium-range ballistic missile targets and the system's 
capabilities against intermediate-range ballistic missile threats 
(which could be employed against Guam), with the latter test now 
scheduled to occur during the fourth quarter of fiscal year 2015.
    Analyses of data from the Reliability Confidence Test and multiple 
flight tests suggest that THAAD system components are not exhibiting 
consistent or steadily increasing reliability growth between test 
events. The tools and diagnostic equipment available to Soldiers are 
insufficient to accurately emplace, maintain, and assess the 
operational status of THAAD equipment. THAAD has also demonstrated 
deficiencies during natural environment testing, which tests a system's 
ability to withstand expected temperature extremes, temperature shock, 
humidity, rain, ice, snow, sand, and dust. The deficiencies need to be 
addressed to ensure THAAD is capable of operating properly when and 
where it is needed.
    A primary concern to me is the training being offered to THAAD 
Soldiers. The high demand for operational THAAD units overseas has 
reduced the time available for operator training, and I urge both MDA 
and the Army to work together to address this issue. For example, 
during recent tests, THAAD operators commented on the lack of 
opportunities to train with THAAD in an operationally realistic 
environment alongside other missile defense systems like Aegis BMD and 
Patriot. These systems are frequently expected to operate in 
conjunction with THAAD, and operators' ability to conduct proper 
coordination among all BMD systems is necessary for these missile 
defense systems to operate together effectively.
                           patriot assessment
    Patriot is effective against many types of short-range tactical 
ballistic missiles, and has demonstrated capability against a medium-
range missile target. Patriot successfully engaged tactical ballistic 
missiles in flight tests against more than 30 short-range ballistic 
missile targets since 1999 and in one flight test against a medium-
range ballistic missile target in 2002. Sixteen flight tests since 2000 
included multiple simultaneous Patriot engagements against two targets. 
In its most recent operational test conducted between May 2012 and 
January 2013, Patriot did not meet its operational requirements for 
reliability, maintainability, or availability.
    The recent operational test highlighted the growing complexity of 
the Patriot system, which requires a higher level of operator expertise 
and more intensive training than that which the Army currently 
provides. As with THAAD, there is a high demand for operational Patriot 
units in the field. In response to this demand, the Army deactivated 
its dedicated Patriot test unit in fiscal year 2013. Soldiers from the 
Patriot Test Battalion provided valuable user insight during 
development testing and provided operationally representative Soldiers 
for operational testing. The Test Battalion helped ensure proper 
training materials were developed and tested. The deactivation of the 
Test Battalion will lengthen the duration of operational testing and 
delay the fielding decisions for the Patriot Missile Segment 
Enhancement and Post-Deployment Build-8 software. The loss of the Test 
Battalion has reduced the Army's ability to ensure Patriot unit 
Soldiers are trained to operate the system safely and effectively in 
combat, when U.S. and coalition aircraft and other BMD systems will be 
sharing Patriot's battlespace. Also, Patriot's ability to operate (or 
not) in the presence of the proliferating and increasingly effective 
capabilities for electronic attack our potential adversaries are 
developing and fielding needs to be fully characterized through robust 
testing, and key shortfalls in performance revealed by that testing 
corrected without delay. I commend the Army for its recent efforts to 
begin that characterization testing.
    command, control, battle management, and communications (c2bmc) 
                               assessment
    Effective battle management is crucial for the success of the 
integrated BMDS, and Command, Control, Battle Management, and 
Communications (C2BMC) is the primary element intended to enable battle 
management at the system level. Battle management capability is needed 
to ensure effective engagement of threat missiles in a complex 
battlespace with multiple BMD systems, and to prevent interceptors 
being wasted by firing at enemy missiles which have already been 
engaged by other systems.
    Spiral 6.4, operational since 2011, is the currently deployed 
version of C2BMC. Spiral 6.4 provides situational awareness for the 
BMDS, forwards track data between BMDS elements, and provides battle 
management and engagement monitoring. However, it does not have the 
capability to provide automated engagement direction among BMD 
elements.
    With the addition of the Global Engagement Manager Suite, Spiral 
6.4 added the capability to manage multiple AN/TPY-2 forward-based 
radars. Dual radar management by the Global Engagement Manager was 
demonstrated during distributed ground testing in the United States 
European Command in support of European Phased Adaptive Approach Phase 
1. Spiral 6.4 has participated in flight tests FTM-15, FTG-06a, FTI-01, 
and FTO-01, in which it collectively demonstrated control of a single 
AN/TPY-2 radar and track forwarding capabilities. Spiral 6.4 also 
participated in FTG-07 and FTG-06b by forwarding Aegis Weapon System 
tracks to GMD.
                             test adequacy
    The MDA conducted eight flight tests and five ground tests during 
FY/CY14. Data from a ninth flight test conducted at the end of fiscal 
year 2013, the first system-level operational test, Flight Test, 
Operational-01 (FTO-01) were also analyzed during the year. The MDA 
conducted these tests in accordance with the DOT&E-approved IMTP. In 
fiscal year 2015, the MDA plans to conduct 12 flight tests, and in 
fiscal year 2016, 7 flight tests.
    Flight testing of the Regional/Theater BMDS autonomous combat 
systems is sufficient to support a quantitative assessment of the 
systems' performance against short- and medium-range ballistic missile 
threats. However, flight testing is not adequate to provide 
quantitative assessments of effectiveness against intermediate-range 
ballistic missile threats. The classified sections of my annual report 
on BMD provide those quantitative estimates of effectiveness for the 
cases in which they are feasible.
    Homeland Defense flight test data and modeling and simulation 
(discussed subsequently) are not yet sufficient, and likely will not be 
until the beginning of the next decade, to enable a rigorous 
quantitative assessment of GMD effectiveness.
    As discussed above, MDA addressed a Congressionally-directed cut to 
the MDA test and targets programs in fiscal year 2015 by deleting FTM-
24, a critical test of the SM-3 Block IB guided missile. This test 
should be restored and conducted as soon as feasible.
                             cybersecurity
    The United States faces a growing cyber threat, and our Nation's 
ballistic missile defenses need to be secure against that threat. Over 
the last year the MDA conducted four experiments on a cyber testing 
range using independent cyber red teams provided by my office. The 
purpose of these experiments was to better understand the cyber 
robustness of BMDS capabilities to insider threats, and to address any 
cybersecurity vulnerabilities that were found. The MDA plans to 
continue to use cyber ranges to improve its cybersecurity posture, and 
plans to conduct its next cyber range experiment in May 2015.
                       thaad and patriot training
    As I mentioned previously, there are deficiencies in the training 
provided to THAAD and Patriot Soldiers. THAAD is a complex automated 
system that is designed to operate effectively with other BMD systems 
in the region where it is deployed. Training issues continue to surface 
during test events and as Soldiers rotate into and out of THAAD units. 
Some of these issues have been mitigated through the installation of a 
THAAD-specific training facility at the Ft. Sill Schoolhouse; by 
increasing the amount of training; and by developing training aids, 
devices, simulators, and simulation. However, the need to make 
additional improvements remains.
    Current Army training for THAAD emphasizes training for individual 
Soldiers. Current THAAD training does not provide the Soldier with a 
crew, team, or Joint-based operationally realistic fighting experience 
as part of an integrated BMDS. Hence, currently THAAD soldiers are not 
``trained as they will fight.''
    Current institutional training devices do not implement the latest 
system software version and do not provide the Soldier with timely 
feedback. Training devices that do not accurately emulate the system 
and prepare the Soldier to operate and maintain the system to yield the 
best system performance can result in missed intercepts.
    THAAD-specific training gaps and deficiencies continue to be 
discovered. Soldiers are assigned to a THAAD unit without THAAD-
specific training support. This impedes the Soldier's ability to 
effectively and efficiently carry out the THAAD mission, resulting in a 
greater reliance on contract support.
    An integrated, team-based, and Joint interoperability training 
environment is essential to ensuring THAAD effectiveness during a 
conflict. The Army, in coordination with the MDA, should modify its 
institutional training policy and move from an individual Military 
Occupational Specialties (MOS)-centric training approach to a systemic, 
integrated, team-based approach that includes Joint interoperability 
training.
    To properly implement such an approach, the Army should ensure the 
availability of adequate funding, training aids, software and radar 
simulator capabilities, and evaluate whether changes to career 
progression, crew rotation, and professional development programs are 
required.
    The Army should implement an objective and quantifiable Army 
training standard that reflects the level of expertise required for 
team and Joint operations, develop and fund a training plan with a 
sufficient number of training weeks to develop Soldier expertise, and 
consider the benefit of a THAAD-specific MOS.
    Patriot training is currently provided to Patriot unit Soldiers and 
as a foundation for THAAD unit Soldiers. However, the level of Patriot 
training is insufficient, given the complexity of the Patriot system 
and the fact that in combat a Patriot unit may be called upon to 
operate in a congested battlespace with friendly and enemy aircraft, 
high numbers of threat missiles, and numerous other U.S. and coalition 
BMD assets. Since my fiscal year 2010 Annual Report to Congress, I have 
recommended that the Army improve Patriot training to equip Soldiers 
with the required level of expertise to ensure a Patriot unit can 
effectively operate in a realistic combat environment. The Army should 
consider reestablishing the Patriot Test Battalion to help address both 
Patriot and THAAD training deficiencies.
                        modeling and simulation
    Realistic flight tests of BMD systems are expensive, and there is 
no practical way to conduct a flight test for all possible BMD 
scenarios. Hence, verified, validated and accredited modeling and 
simulation, grounded in flight test data, is required to ensure BMD 
systems will be effective in combat. My BMDS assessments are limited by 
the lack of properly accredited modeling and simulation. As the MDA 
executes its flight test program over the next several years and 
additional validation data are gathered, the MDA should ensure those 
data are used to improve the Agency's modeling and simulation 
capabilities. This effort will require dedicated resources and the 
support of MDA leadership.
    My BMD assessments often contain subjective content due to the 
limited amount of flight test data and the limited progress toward 
verification, validation, and accreditation of the BMDS models and 
simulations. This is especially true for the GMD program. Many of the 
models and simulations used in BMD system ground testing are still not 
accredited for performance assessment, thereby limiting quantitative 
assessments based on their results. I recommend strongly that the MDA 
work with the Congress to assure robust funding enabling timely 
development and rigorous accreditation of the models and simulations 
critical to understanding and assuring the effectiveness of all 
elements of the BMDS, including, in particular, GMD.
                            imtp assessment
    Admiral Syring leads a rigorous IMTP development process that has 
produced a well-justified set of tests within a budget-constrained 
environment. In 2014, the MDA continued to emphasize operational 
realism when planning for and conducting both ground and flight testing 
and my office continues to be involved substantively with each update 
of the IMTP. The process has enabled the IMTP to be revised in a timely 
manner consistent with policy changes, flight test results, and changes 
in budgetary resources. The IMTP continues to be a defensible and 
rigorous plan for obtaining the test information needed to assess BMDS 
performance more quantitatively over time.

    Chairman Sessions. Thank you, Dr. Gilmore. I know that you 
are the director of the Office of Test of Evaluation. You take 
pride in your independence. You might share with the committee 
how it is that you're structured as to give you independent 
analysis on what we're funding and the testing of it.
    Mr. Gilmore. Well, under the law, my office reports 
directly to the Secretary of Defense, as well as to the 
Congress, on the effectiveness, suitability, and survivability 
of weapon systems. Under subsequent NDAAs, we were given full 
access to information from the Missile Defense Agency, 
notwithstanding its removal from the normal acquisition 
oversight process in the department.
    I have worked very cooperatively with both Lieutenant 
General O'Reilly and Admiral Syring. There has been a complete 
free flow of information between our offices. I have found our 
interactions to be very useful, and I would invite Admiral 
Syring to make any comments he wants to make in that regard, 
obviously.
    But Admiral Syring and no one else in the department 
reviews or coordinates on the reports that I write, including 
the report that I just recently submitted to Congress, which is 
mandated by a past National Defense Authorization Act (NDAA), 
although they can certainly point out if we have made any 
mistakes, and so far, no one has done that.
    Chairman Sessions. That is unusual.
    Let me just say this, we have a lot to do, but I do think 
it is important that we have an independent evaluator not in 
the normal chain of command that reviews these key activities, 
because they are complex, and we need to be careful about it.
    Admiral Syring, we are going to be adding the 44 Ground-
based Midcourse Defense System (GBIs), and we have the plans to 
bring forward the newer, updated Capability Enhancement-2 (CE-
II) kill vehicle.
    But then again, you want to move forward with the 
Relativistic Kill Vehicle (RKV). The RKV will be a new and more 
advanced system that could defend against simultaneous attack 
from North Korea or Iran by 2025, as I understand it.
    So explain to us what advantages we get from the RVK. Are 
the plans moving forward technologically as you would like? Do 
you foresee any engineering problems that would be difficult or 
impossible to overcome?
    Admiral Syring. Sir, thank you.
    The plan for the RVK was started last year, and it was 
started because of the concerns that we have had with the early 
design of the EKV, which has evolved over the years with 
different versions. But essentially, the prototype nature of 
the design has remained, in terms of it was fielded very 
rapidly and without a complete system engineering turn, which I 
have testified on publicly in the past.
    The RVK will allow us to take a step back with what we have 
learned and design a kill vehicle that is modular, producible, 
testable, before we flight test. I think that is very 
important, to be able to have that modularity and test at the 
component level and find issues on the ground before you find 
them in flight, as we have experienced.
    We need to get the reliability up of the overall GBI, and 
the RVK will do that as we begin to field in 2020 with the pace 
up to 2025 not yet defined. But if that is successful, we will 
want to field that very rapidly back to the older Capability-
enhancement-1 (CE-I) fleet and some of the older CE-IIs, and 
upgrade all 44 in a very short amount of time, hopefully.
    Chairman Sessions. You have 44. We are going to 44. This 
new kill vehicle, what can you tell us in this open session 
about the advantages of making the 44 missile interceptors more 
effective and valuable with this Redesigned Kill Vehicle.
    Admiral Syring. Sir, to make the best use of the 44 that 
will be in the ground by 2017, there are two fundamental issues 
that improve our capability and capacity. One is the 
reliability of the interceptor, and two is the discrimination 
capability of the system. Those two fundamental precepts go 
into defining the Northern Command commanders shot doctrine and 
his use of interceptors to defeat more threats with more 
complexity.
    Chairman Sessions. Well, I will talk to you about that. I 
think we have had closed hearings on that. I think you are on 
the right track. I think that is a smart step. It will make 
each one of those 44 interceptors more valuable.
    What about the Multi-Object Kill Vehicle, the MOKV? You 
said in your prepared statement, ultimately, these Multi-Object 
Kill Vehicles will revolutionize our missile defense 
architecture.
    What kind of revolutionary advance would that be? How 
confident are you that it can be done? Do we have, at this 
point, the funding necessary to keep it on track?
    Admiral Syring. Sir, let me take that in parts.
    Several years ago, we explored technology and matured 
technology to a point on the Multiple-Object Kill Vehicle, the 
MKV, at the time, up to a point where the department decided 
that the technology was not maturing fast enough. The 
requirements were really not firm. For a whole bunch of reasons 
that I am not familiar with at a detailed level, that was 
terminated. Secretary Gates was eloquent in the BMDR on those 
reasons that are available.
    That said, ultimately, we want to be able to get Multiple 
Kill Vehicles into a complex discrimination scene to be able to 
shoot less interceptors that can go after multiple lethal 
objects. That is what the MKV, MOKV, can bring to us.
    Now, sir, we have asked for money in this year's budget to 
ramp that effort up. It is not a program yet. We have requested 
money to get us down the path of concept development and to 
revisit the technology and to understand where that technology 
is today, and then come back with a program plan on how best to 
achieve that.
    But I can assure you, sir, it will be done independently, 
in terms of not concurrently with what is going on with the 
RVK. The RVK will, certainly, inform our assessment of the 
feasibility of an MOKV, but it is not a new development effort 
at this point. I would characterize it as a concept development 
effort with us doing a lot of work this year to define that 
better.
    Chairman Sessions. Well, thank you. The way I understand 
this, you are talking about having a system that can identify 
more accurately the nontargets instead of junk, going after 
junk, having multiple kill vehicles on one rocket launch 
vehicle, and be more effective. So it will multiply the 
capabilities of the interceptors that we have.
    Admiral Syring. Yes, sir.
    Chairman Sessions. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman. Thanks to all 
the witnesses.
    Admiral Syring, you testified before other committees on 
this particular topic I am going to ask you about, but for the 
public record of this committee, does our current ground-based 
missile defense system cover all the United States, including 
the East Coast, against potential threats from North Korea and 
Iran?
    Admiral Syring. Yes, sir.
    Senator Donnelly. You have also stated that the greater 
priority for investment is improving your sensors, your 
discrimination capabilities, and the overall reliability of the 
GMD system. Could you describe how this will address the 
evolving threat?
    Admiral Syring. The threat is from North Korea, and let me 
just take North Korea first.
    The threat from North Korea is, at least at the short-range 
level, increasing in complexity. We have to assume that 
technology at the short- and medium-range level will eventually 
migrate to the longer range level.
    So the complexity of the threat must be accounted for, and 
the potential of that to increase, and we must be prepared for 
that. That is the whole premise of the discrimination radar, to 
be able to better defend against a more complex threat with 
fewer interceptors.
    Senator Donnelly. There has been some discussion regarding 
Defense Intelligence Agency's (DIA's) assessment of Iran's 
Intercontinental ballistic missile (ICBM) capability. Are you 
familiar with this assessment? Can you clarify a little bit for 
us?
    Admiral Syring. Thank you for the opportunity to clarify 
what I said at the hearing last week.
    The DIA's assessment is that Iran is capable of flight 
testing an ICBM in 2015. There is not a likelihood expressed 
with that assessment. Any future assessment, I will leave to 
DIA as they evaluate that this year.
    Senator Donnelly. Thank you.
    Secretary McKeon and General Mann, what is the department's 
plan for responding to the high demand for THAAD and Patriot 
systems? Are there options you are looking at to increase the 
coverage or flexibility of these systems?
    Mr. McKeon. Senator Donnelly, as you are aware, we have a 
lot of stress on the Patriot force, and we have more demand 
from the COCOMs for Patriot battalions than we have in the 
Army.
    We are working on a modernization on the Patriot, which 
will effectively allow them to deploy without the headquarters 
unit, which will allow us to have more units able to deploy. We 
will be able to significantly increase the number of deployable 
battalions. So that modernization program is going on over the 
next several years.
    General Mann. Yes, Senator. In addition to what the 
Secretary has also shared, as you know, there is a holistic 
review that is taking place. There are a lot of different 
studies that are underway, led by the Joint staff, looking at 
how we address an evolving threat.
    Quite frankly, it goes beyond just the number of active 
defense platforms, whether Ballistic Missile Defense (BMD) 
ships, or Patriot, or Terminal High Attitutude Area Defense 
(THAAD). We really need to take a broader look at it, at the 
dilemma, and really try to leverage, whether cyber, electronic 
warfare, attack operations, where instead of waiting until 
after the missile is shot, go after the archer, as Admiral 
Gortney likes to say. So that is one of the things that we are 
looking at.
    Also, we are looking at nonkinetic applications, like 
directed energy. A lot of applications, a lot of promise in 
those technologies. They are still being developed. MDA is 
looking at some of that directed energy and where it could be 
applied against ballistic missiles.
    In the Army, we are looking at how we can use directed 
energy. We have had a lot of very, very successful tests 
against mortars and unmanned aerial vehicles (UAVs), and how 
can we utilize directed energy and also our indirect fire 
protection capability to address the cruise missile threat.
    So there are a lot of modernization efforts. But also, we 
need to look more holistically versus just the number of 
platforms you put out there.
    Senator Donnelly. Okay.
    I guess, Dr. Gilmore, this would be a follow-up to that 
question, which is in your prepared statement, you expressed 
concerns with the amount and quality of training that our 
soldiers are getting on THAAD and on Patriot.
    Could you elaborate a little bit on this? Are there ways 
that this committee can help solve that problem?
    General Mann, if you would also kick in on this.
    Mr. Gilmore. It all comes down to resources. There are a 
finite number of resources, in terms of training capability, 
training aids, simulators. The Army has a plan to improve those 
training aids and training systems for both THAAD and Patriot 
over the long run.
    But as the other members of the panel have testified, there 
is a great deal of demand for the use of these assets, and 
there is a large number of deployments that are ongoing. So the 
pace of training in what we have seen in tests isn't keeping up 
with the demand and isn't keeping up with the increasing 
complexity of the capabilities of the system as they are 
modernizing. That is true, in particular, of Patriot.
    So I think it is a matter of resources. In a resource-
constrained environment, Admiral Syring and the Services have 
to make hard judgments. If there are high demands for deploying 
these systems and having a larger number of systems, it is 
possible that some of the training can be given--
    Senator Donnelly. General, I'm about out of time, if you 
want to kick in for a few seconds?
    General Mann. Yes. First of all, I just want to make sure 
that I assure this committee that our soldiers are properly 
prepared to execute operations. Naturally, it would be great to 
have a test battalion capability that we have had in the past. 
But because of the demand for this capability, we have had to 
use that test battalion to meet operational requirements. So I 
just want to make that very clear to the committee.
    We are looking at training aids and devices that we can use 
to help with the training and getting after that. We continue 
to raise the level of difficulty with our testing and our 
exercises, and continue to push the envelope in terms of 
presenting a challenging scenario for our soldiers to get 
after.
    This goes back to my earlier comments about the importance 
of sequestration. I don't want to belabor the point, but when 
you are looking at the effects of sequestration, not only does 
it have an impact on the readiness, which we are talking about, 
but on how we are able to address some of these evolving 
threats that are out there with new technologies. That is the 
reason why we are very, very concerned.
    Senator Donnelly. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman Sessions. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman, and thank you, 
gentlemen, for being here today.
    Admiral, as we look at the threats out there, what benefits 
do you see if we would deploy the Sea-based X-band Radar (SBX) 
to the East Coast, given the threats that we are looking at 
with Iran, especially in 2020 into 2025? Wouldn't additional 
sensor capabilities be beneficial, even necessary?
    Admiral Syring. Thank you for your question, ma'am.
    Let me start with the last. Yes, additional sensor 
capabilities are not just nice to have but will be necessary 
beyond what we have asked for in this budget.
    Second, SBX is fulfilling a very important role today in 
the Pacific, with all the testing that we do and for a surge 
capability that we provided to the Northern Command commander 
when the situation arises.
    That is the importance, ma'am, of what we are doing with 
the continued request of the long-range radar in Alaska, some 
thinking about additional sensor capability in Hawaii.
    I think, in that priority order, when those are complete, 
you will see us offer the option to the Northern Command 
commander to move SBX to the East Coast. That will be his 
decision, and it will be predicated on the ability to do our 
testing in the Pacific, giving comfort to him that he is 
covered in an operation, if he needs the platform.
    I think we have it right, in terms of the priority of that 
order, in terms of North Korea certainly, as the DIA has said, 
can flight test at any time. We are focused on that assessment 
and that very real threat today in the Pacific.
    Senator Fischer. If you would, though, be looking at the 
possibility of deploying it to the East Coast, how much lead 
time would you need for that?
    Admiral Syring. The approvals would have to happen, and it 
would be months, not years.
    Senator Fischer. Have you broached the topic at all with 
NORTHCOM command?
    Admiral Syring. Not on a formal level, in any way.
    Senator Fischer. Do you know how it would be paid for and 
who would man it?
    Admiral Syring. The request this year is roughly $70 
million a year for the limited test support that it provides 
today in the underway time. I assume we would assess that 
budget adequacy for the future and the operational need on the 
East Coast.
    Senator Fischer. Where you would say it would take months, 
not years, to have this completed, are you comfortable with 
that in assessing the threats that are before us?
    Admiral Syring. Yes, ma'am. I am comfortable with what I 
understand, in terms of where Iran is today and the development 
of their ICBM technology and that threat.
    Senator Fischer. Thank you.
    Mr. McKeon, has the department looked at any policy, at 
improving the sensor capabilities, as we look to the growing 
threats from Iran?
    Mr. McKeon. Well, Senator, as Admiral Syring just said, the 
SBX in the Atlantic would be an option down the line, once we 
get our long-range discrimination radar in place in Alaska to 
face the North Korean threat. That is the focus right now, 
improving our sensor capability against North Korea.
    Senator Fischer. Do you agree that we would have plenty of 
lead time with the threats from Iran that we are going to be 
facing I think in the not too far future?
    Mr. McKeon. Yes, I believe so. Our current system is still 
adequate to deal with the current Iranian threat and how we 
expect it to evolve in the next several years.
    Senator Fischer. Is the department, though, taking any 
formal policy discussions on this?
    Mr. McKeon. We have not had that at my level. If somebody 
has at a lower level, it hasn't bubbled up to me. I can double 
check for you, Senator, but I don't think we have taken a 
formal policy review of this question.
    Admiral Syring. If I may, sir, there is an extensive sensor 
angle of attack (AOA) that the department is conducting. It is 
looking at all sensor options for many different applications, 
but missile defense is part of that. It, certainly, will 
account for our need on the East Coast in the future.
    I would also add, if I can, that the work we have done with 
integrated data terminal in Fort Drum, the System Data Terminal 
(IDT) in Fort Drum that will come online in 2017, helps us a 
lot with the Iranian threat today. I'm very comfortable and the 
warfighter is very comfortable with that increasing capability 
that will be online here.
    Senator Fischer. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Sessions. Thank you.
    Senator King?
    Senator King. Gentlemen, you may have heard that there is 
an idea kicking around here to end-run the Budget Control Act 
and the sequester by pumping up the Overseas Contingency 
Operations (OCO) funds.
    Have you done any analysis of how that would actually work 
and where that money would go within the department? Would that 
help with your issues? Talk to me about this idea.
    Mr. McKeon. Senator King, I don't know that we have done a 
formal analysis. That would probably be the comptroller who 
would be looking at that. In terms of Admiral Syring's budget, 
there is not any money requested in the OCO. It is all in the 
base. So I'm not sure it would make much of a difference for 
missile defense.
    Senator King. My understanding of this idea is just to send 
a bunch of OCO money to the Pentagon and say, do with it what 
you will. I may be incorrect.
    Is that the way you are hearing it?
    Chairman Sessions. That has some truth to it. [Laughter.]
    Not completely so.
    Senator King. All right, I don't know the details, but my 
question is, if there was an additional $50 billion of OCO 
money, would it end up with you? Perhaps you just don't know at 
this point, because we don't know the details of what this 
proposal looks like.
    Admiral Syring. Sir, I don't know. I don't know the 
mechanics of that.
    Senator King. Okay.
    General Mann. Senator, if I could just add, though, because 
I think there has been discussion about the President's budget 
versus the House version of what you are alluding to. I can 
just say that it would be very, very important to really look 
at the base versus OCO. Because of predictability and making 
sure that our programs are stable over years versus episodic 
rises in the budget and falling off the next year, we would be 
recommending that the base be looked at.
    Senator King. That is a very important point. In other 
words, a one-time OCO infusion doesn't necessarily--in fact, 
given your sort of by definition long-range program, it would 
not be necessarily all that helpful. That is your testimony?
    General Mann. Obviously, we would be thankful for any 
additional resources that we would be given, but where you 
place them, again, I think placing them in the base would be a 
lot more advantageous to our programs.
    Senator King. Thank you. There are many of us trying to 
find a way to do that.
    How much does one GBI missile with kill vehicle cost?
    Admiral Syring. The budget number today, in today's costs, 
we don't have any requested this year, Senator. The request for 
additional GBI starts out in 2018. The budget number is $75 
million each, buying two per year.
    Senator King. That leads me to my next question. You 
mentioned directed energy. It seems to me that is a very 
promising development, because the cost of each missile, if you 
will, or railgun would be in the dollars instead of millions 
dollars. Is that part of your calculus?
    Admiral Syring. Yes, sir. We are requesting this year an 
increase in directed energy funding, which is detailed in the 
budget that we have submitted for continued technology 
maturation, and then demonstration of a down-select of a 
technology by 2018, and then a demonstration by 2020 of a low-
power directed energy platform.
    Senator King. Directed energy wouldn't work at the top, at 
the apogee. Where would it come into play? On the downward 
slope or on the upward slope?
    Admiral Syring. So two applications, sir, in terms of how 
we view directed energy. There are other parts of the Ballistic 
Missile Defense System (BMDS) that it will help with, and I 
will just leave it at that, in an unclassified setting.
    Senator King. Thank you.
    Admiral Syring. But there is no doubt a boost phase 
intercept concept that we pursued with airborne laser in the 
last decade, that the technology that I am working on today 
with electric lasers, solid-state lasers, would build upon that 
success in a different technology.
    Senator King. Would sequestration impact that budget for 
this development of this directed energy program?
    Admiral Syring. Yes, sir. It would impact everything in 
terms of the numbers that are being talked about. I cannot get 
all of that budget reduction out of just the new start 
programs, which are critically important. There are other parts 
of the Missile Defense Agency (MDA) budget that we would have 
to go to maintain the commitment of 44 GBIs by 2017, and our 
European commitment as well.
    So, no doubt, directed energy would be impacted.
    Senator King. That would be pennywise and pound foolish, in 
my view.
    To what extent is this whole program reliant on satellite 
information?
    Admiral Syring. I will keep it unclassified, sir.
    Senator King. To the extent you can.
    Admiral Syring. The Overhead Persistent Infrared assets, 
specifically the Small Business Innovation Research (SBIR) 
program, that brings Defense Support Program (DSP) and the Low 
Earth Orbit (LEO) and Highly Elipitical Earth Orbits (HEO) 
satellites, provide the initial detection of the lunch at the 
areas that we are interested in.
    Senator King. So the persistence and vulnerability or lack 
thereof of our satellite assets is an important part of this 
whole strategy?
    Admiral Syring. Absolutely.
    Senator King. Because we have had testimony on that subject 
as well. I think that is something we need to pay close 
attention to, in terms of where we go in our satellite 
strategy.
    Admiral Syring. I would agree.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Chairman Sessions. Senator King, I think it is still 
incumbent on the Congress, when we appropriate money for the 
Defense Department Overseas Contingency Operating and base 
budget, to set forth where those monies are going to be spent. 
So we have to pay real attention to that in our authorizing and 
Appropriations Committee. I think the numbers that they have 
asked for, for this program, at the President's budget, we 
ought to try to achieve that.
    I think there will be a way to do that, but I appreciate 
your concern. It is worth talking about.
    Senator Sullivan, we are glad to have you on the committee.
    Senator Sullivan. Thank you, Mr. Chairman.
    Chairman Sessions. You bring the Alaska perspective.
    Senator Sullivan. Yes. As a matter fact, I was going to 
talk a little bit about that to begin with.
    Senator Donnelly. We are stunned to hear that, Senator 
Sullivan. [Laughter.]
    Senator Sullivan. No rolling of the eyes, gentlemen. 
[Laughter.]
    Gentlemen, first, thank you for your service. I really, 
really appreciate it. I was looking at everybody's bio and it 
is just decades of service to our country. So I am very 
appreciative of that.
    I am going to start out a little bit, and I think this is 
important only for my constituents to hear but for the 
Congress, the American people. You may have seen the Secretary 
of Defense in his confirmation hearing was very focused after 
an exchange he had with me on agreeing with the famous quote 
from Billy Mitchell, the father of the U.S. Air Force, that 
Alaska was the most strategic location in the world.
    Can you just give me a very quick sense, because I know you 
can probably go on forever, but you are free to use 
superlatives, just how important in terms of location Alaska is 
with regard to the country's missile defense?
    General Mann. I will go ahead and start.
    First of all, Senator, I am a big fan of those missile 
defenders you have up there that provide 24/7 coverage, those 
National Guardsmen, full-time National Guardsmen. But its 
location on the Earth, its proximity to North Korea and to the 
polls, I think is critically important.
    So from a strategic homeland defense standpoint, it is 
critical, where it is located.
    Senator Sullivan. Thank you.
    Admiral?
    Admiral Syring. From a material developer, technology 
standpoint, in terms of the location of Alaska, there is a 
reason that we are there with the GBIs at Fort Greely. There is 
a reason that I am working with the NORTHCOM commander and 
STRATCOM commander on putting another radar in Alaska, because 
of that strategic importance to the threat from North Korea.
    Senator Sullivan. Great. Thank you.
    I do want to talk about the strategic threat and follow up 
on Senator Fischer's concerns.
    I am sure you have seen both classified and even public 
reports that have come out recently about both the strategic 
threats from North Korea, from Iran. Johns Hopkins had a report 
recently that, by 2020, North Korea could have as many as 100 
nuclear weapons.
    Given the concerns that we are now seeing with regard to 
Iran and the negotiations that some of us have a lot of 
concerns about, are we in danger of falling behind the evolving 
North Korean or even Iranian ICBM threat, nuclear threat? What 
would falling behind mean for cities like Anchorage or L.A. or 
New York?
    Admiral Syring?
    Admiral Syring. Sir, let me take it.
    The Secretary's announcement back in 2013 to increase GBIs 
from 30 to 44 was in direct response to the escalation that we 
see in North Korea.
    Senator Sullivan. Okay.
    Admiral Syring. Numbers matter in terms of what that was 
able to provide in a very short amount time.
    We see North Korea and Iran continuing to progress.
    Senator Sullivan. Right.
    Admiral Syring. In terms of not just the numbers of ICBMs 
they may have, but the complexity of what those threats may 
represent to us. That is why the budget request this year is so 
important, that we get the radar built and are able to stay 
ahead of the threat in terms of its complexity, and make the 
best and most efficient use of the 44 that we have in the 
ground.
    Senator Sullivan. So of course, we appreciate the 44 and 
think that is a good idea. If we see the threat continuing, 
though, is there capacity? Do you think we could possibly need 
at Fort Greely beyond the 44? Will we need it? Let's assume 
this threat gets beyond what we are anticipating today in 5 
years.
    Admiral Syring. The capacity, I will call it surge 
capacity, the extra capacity in Fort Greely does exist.
    Senator Sullivan. Okay.
    Admiral Syring. That would be assessed on how we see the 
numbers, in terms of threats from North Korea progressing. 
Certainly, that would be an option available to the Secretary 
of Defense, to use that capability. That option would be, I 
think, weighed in terms of how those would be used versus 
future discrimination radar to the East Coast as well, in terms 
of how Iran may progress, and the complexity of that threat as 
well.
    Senator Sullivan. Okay. You are talking radar. I do want to 
focus for a minute on the Long Range Discrimination Radar 
(LRDR) program.
    Can you give us just an update on the proposal, when the 
decision on the location will be made? Who actually makes that 
decision? Is that MDA? Is that contractors? What are the 
tradeoffs between the two different Alaska locations you are 
looking at?
    Admiral Syring. First, on the program, we have received 
proposals from the contractors, and our plan is to award by the 
end of this fiscal year.
    Senator Sullivan. Great.
    Admiral Syring. That said, we do need a location decision 
and we are working closely with NORTHCOM and STRATCOM on that 
location. Since I am the material developer, I need their 
warfighter input on the best location for performance. 
Certainly, cost and schedule play to that as well.
    Senator Sullivan. Okay.
    I am glad you mentioned you are working because you know 
one of the things in Alaska, we are kind of at the seams. We 
are very important militarily but we are at the seams of 
NORTHCOM, STRATCOM, PACOM, EUCOM. I mean, we kind of fall into 
all those different areas.
    Let's assume, if there were a location chosen at Clear, 
what is the power usage that we would be looking at with regard 
to that kind of significant radar system?
    There is a coal facility being shut down. A lot of us are 
questioning why that was happening, whether it was strategic or 
whether it was some kind of clean air initiative that I didn't 
think it belonged in the DOD strategic outlook.
    What would be the kind of power generation required for 
that kind of radar system? Should we be looking at shutting 
down power generation in that part of Alaska when we might need 
a surge of power generation that is obviously not happening at 
Clear right now?
    Admiral Syring. Sir, in the interest of competition 
sensitivities with the ongoing competition on the radar today, 
I would like to take that to a closed session.
    Senator Sullivan. Sure. Again, I am not at all trying to 
get involved in one way or the other, in terms of location. It 
is just a question. You probably know there was a GAO study 
that was requested on that.
    Admiral Syring. Yes, I do. I would be happy to share my 
thoughts with you privately on that.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
    General Mann. Senator, one thing, you asked about the 
decision, where it is going to be made. I can tell you that MDA 
and STRATCOM and NORTHCOM are working very, very closely 
together and will provide a recommendation to the department.
    So I am sure that at very, very high levels, that is where 
the decision is going to be made.
    Senator Sullivan. Great. That is expected soon?
    Admiral Syring. Sir, within the next several months.
    Senator Sullivan. Great. Thank you.
    Thank you, Mr. Chairman.
    Chairman Sessions. Admiral Syring, just briefly, first, I 
believe the money you requested is appropriate, and I don't 
mean to suggest otherwise. But I asked you some questions 
earlier about, could we see savings as technology matures? I 
thought it was some good news, colleagues.
    Maybe you can give us some expectations as developments of 
these systems go forward. The per copy price isn't going to 
continue to go up, but might actually drop some.
    Thank you for your focus on cost. It is important.
    Admiral Syring. Sir, it is the agency's focus, and they 
embrace it every day. It is a matter of getting the results 
that we are after.
    I think this is a good news story on where we believe, 
after evaluating three of the contractors' proposals that 
ultimately we decided to use as a team in terms of how we are 
structured, with the government as the design authority with 
support from the three major contractors.
    Chairman Sessions. What project is this you are talking 
about?
    Admiral Syring. All the prices were very----
    Chairman Sessions. What project is this?
    Admiral Syring. This is for the new kill vehicle.
    Chairman Sessions. The new kill vehicle.
    Admiral Syring. The Redesigned Kill Vehicle. Our price 
objective would be in the neighborhood of $15 million for the 
new kill vehicle. I think that is achievable. I know that is 
achievable. That would be a huge savings over what we pay 
today, which is upwards of $35 million a kill vehicle.
    Chairman Sessions. It will be a considerably improved 
vehicle, too, right?
    Admiral Syring. Yes, sir, because we have given the team 
the runway and the space to system engineer it with the right 
amount of time and the right effort from the beginning.
    Chairman Sessions. General Mann, have you seen any ideas of 
that kind, Space and Missile Defense Command (SMDC) or others, 
that save money?
    General Mann. We continue to look at directed energy, and I 
think, like Admiral Syring was saying, that has a lot of 
promise. We have a high-energy laser mobile demonstrator that 
has been very, very effective against 60 mm mortars and UAVs. 
It also has the ability capability of the tracking beyond 30 
klicks, 30 km.
    We think it has a lot of promise. Right now, it is at the 
10 kW level. We expect by 2017 to have it up to the 50 kW, 
giving us the capability to address cruise missiles more 
effectively.
    As far as from a cost savings, when you are able to use 
directed energy or something like that versus an interceptor, 
there is a significant cost savings. So we are very encouraged 
by a lot of our tests.
    Chairman Sessions. Well, good. I remember, after much 
concern, we did not advance with the airborne laser concept, 
but it looks like we're coming forward with some new ideas that 
are more plausible.
    Admiral Syring, do you want to comment on that?
    Admiral Syring. Sir, I would say that and I would say that 
Dr. Gilmore's organization has been very helpful in helping us 
strive for alternatives to reduce the cost of testing, in 
targets and test layout. We have had a close relationship on 
that. I have to say, it is across the department, in terms of 
focus on that.
    Chairman Sessions. Good. That is good news.
    We are going to have a vote at 4:45. Any other questions?
    Senator King. Just a quick question. Could you give us an 
update on the status of the Environmental Impact Statement's 
(EISs) for the ground-based sites, U.S.-based?
    Admiral Syring. Senator King, thank you. There are four 
sites that are being evaluated, one in Maine, one in Ohio, one 
in Michigan, and one in New York. Those sites are well-known.
    That activity has progressed very well. We are going to 
need another season this summer for refinement of the analysis 
that we took last summer, and we will go out with a draft by 
the end of the year for public comment. I think you will see us 
get that through the department for publication in the 2016 
timeframe.
    Senator King. If you could find some excuse, I would urge 
you to come to Maine this summer.
    Admiral Syring. Maine is beautiful in the summertime.
    Senator King. Yes, sir.
    Senator Donnelly. Does that include the entire committee, 
Mr. King?
    Senator King. An inspection trip, yes, sir.
    Senator Donnelly. I wanted to ask, is it your priority to 
fix the problems in the GMD system, and to demonstrate those 
fixes in realistic intercept tests before we build or deploy 
any additional interceptors?
    Admiral Syring. Yes, sir. That is the premise of the entire 
test plan that I have laid through the Future Years Defense 
Program (FYDP).
    Senator Donnelly. Let me ask just one other one, which is 
the Aegis Ashore site in Poland is expected to be completed by 
the end of 2018.
    Is Poland asking for additional capabilities?
    Mr. McKeon. Senator Donnelly, they have talked to us, not 
about additional capabilities along the lines of Aegis Ashore, 
but they have talked to us about Patriots.
    They are investing in a big program, a big buy upwards of 
$10 billion in integrated air and missile defense, and our 
Patriots are one of the competitors for that, and they are 
going to be making that decision in the near future. We have 
been talking to them very actively.
    What we have said to them about their request for Patriots 
is, as was discussed earlier with you, we don't have a lot of 
spares in the inventory, but we have talked to them about 
having some exercises and occasional rotations of Patriots into 
Poland. In fact, there is an exercise going on this month in 
Poland with the Patriot unit.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Chairman Sessions. Senator Sullivan?
    Senator Sullivan. Mr. Chairman, I just have two quick 
questions, follow up.
    Gentlemen, with regard to Fort Greely and the requested 
budget, it is a strategic location. As you know, it is also an 
incredibly harsh environment. It is below zero there much of 
the winter and pretty remote.
    Are there areas that are not funded in the budget or budget 
areas that you are focused on that focus on ground system 
upgrades or even just capacity upgrades at Fort Greely?
    Admiral Syring. Sir, when I talk about the need to 
modernize the GMD system, the ground system is a big part of 
that. That is included in this year's budget request.
    Senator Sullivan. Right.
    Admiral Syring. Vitally important to keep up the 
reliability of the overall system.
    Senator Sullivan. But I am talking about any facility 
upgrades or anything that is in addition, or that you see that 
is not in the budget right now.
    General Mann. Quite honestly, Senator, I have some really 
good news because the Army has made some significant 
investments in the infrastructure there at Fort Greely. We are 
about to open up later on this year a medical facility that is 
much-needed up there.
    So we are trying to bring them up, in terms of the quality-
of-life. It is a very, very harsh environment, and the Army is 
really stepping up.
    Senator Sullivan. Great. Thank you, General.
    Then finally, you have obviously a hugely important 
mission. We are talking about an austere, in some ways, budget 
environment. You have many priorities.
    Can you just list what you would say are your top three or 
four right now, so we have a real solid understanding of that?
    Admiral Syring. The homeland defense system and everything 
that is being asked for in this budget, and the need to get to 
44 GBIs by 2017 is, certainly, my top priority and the 
department's top priority for missile defense.
    A close second is the regional capacity and capability of 
the European phased adaptive approach and all the other 
regional commitments that we have made around the world.
    Senator Sullivan. Okay.
    General?
    General Mann. In addition to that, I look at it two ways. I 
look at it from homeland defense standpoint, and Admiral Syring 
has talked a lot about the different improvements to the EKV 
system. But we are also looking at the regional, so Patriot 
modernization is critically important. The battle command 
system that we have for Patriot, where we get away from 
stovepipes and we're able to bring our different systems using 
one command-and-control system, a network, we're able to 
optimize our components versus having to deploy, as the 
Secretary was talking, a full Patriot battalion. Being able to 
use a network where you can break it up into pieces, cover more 
space more effectively and more cost informed is another thing 
that we are getting after.
    Then the third modernization effort that we would really 
ask for the committee's support is the indirect fire protection 
system. That will help us really get after the cruise missile 
threats that are out there, as well as being part of the 
networks.
    So modernization efforts are critically important, upgrades 
to the Patriot radar. This is a very, very old system, as you 
well know, and heavily utilized.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman Sessions. Thank you. That is very good. I 
appreciate that.
    We may submit further questions for the record.
    Chairman Sessions. I believe that we have excellent 
leadership in these programs, and we thank you for that. The 
committee is ready to respond, if you have a new breakthrough 
that could make us more effective and you need to alter the 
course we are on. But in general, I believe the course that you 
have laid out, Admiral Syring, General Mann, is a sound course. 
Our committee has been supportive and will continue to be.
    Anything further that you would like to add before we 
break?
    Thank you very much. We are adjourned.
    [Whereupon, at 4:35 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Martin Heinrich
                            directed energy
    1. Senator Heinrich. Admiral Syring and General Mann, in the House 
of Representatives, I founded the first-ever Congressional Directed 
Energy Caucus. I am a strong supporter of directed energy and remain a 
strong supporter of directed energy applications for military purposes, 
including missile defense. Can you provide an update to the committee 
on what programs you are pursuing as it relates to directed energy and 
missile defense?
    Admiral Syring. Our vision is to shift the calculus of our 
potential adversaries by introducing directed energy into the Ballistic 
Missile Defense System (BMDS) architecture. This will revolutionize 
missile defense, dramatically reducing, if not eliminating, the role of 
interceptors.
    Our long term goal is to use megawatt-class lasers on high 
altitude; long endurance unmanned aerial vehicle platforms to destroy 
intercontinental ballistic missiles in the boost phase at long standoff 
ranges. To achieve this vision we must prove two key elements: laser 
scaling to megawatt-class with high efficiency and excellent beam 
quality; and demonstration of a high altitude, long endurance aircraft 
to carry the laser and its beam pointing and control system.
    Our President's Budget 2016 request funds a structured plan that 
includes laser power scaling in the laboratory in parallel with 
reducing the risk of integrating a laser system onto an airborne 
platform and testing it in the field. The agency is pursuing two 
promising laser technologies today: Combined fiber lasers (MIT Lincoln 
Laboratory) and diode pumped alkali lasers (Lawrence Livermore). We are 
demonstrating high electrical-to-optical efficiency with excellent beam 
quality at incrementally increasing power levels in the laboratory.
    Lincoln has demonstrated up to 34 kW, with a plan to reach 50 kW, 
in a compact form factor, by 2018. Livermore has demonstrated 5 kW, and 
is on track to demonstrate 10 kW by May of this year with a plan to 
reach 120 kW by 2018. We are also monitoring the steady gains made by 
industry both in laser power and packaging.
    This year, we are bringing industry into the game by funding six 
month study contracts with five prime integrators; Boeing, General 
Atomics, Lockheed Martin, Northrop Grumman, and Raytheon, to define 
concepts and assess the feasibility, schedule and cost of building and 
testing an airborne laser. In fiscal year 2016, we will award a 
contract to one of the five to integrate a laser into an aircraft and 
``piggyback'' BMDS tests at the Pacific Missile Range Facility in 2020 
to prove missile defense missions at lower power. In the 2025 time 
frame, our goal is to integrate a compact, efficient, high power 
(megawatt-class) laser into a high altitude, long endurance aircraft 
capable of carrying that laser and destroying targets in the boost 
phase.
    General Mann. USASMDC/ARSTRAT manages the high energy laser (HEL) 
program for the Deputy Assistant Secretary of the Army (Research & 
Technology). This program includes basic research, applied technology 
development, and advanced technology demonstration through the High 
Energy Laser Mobile Demonstrator (HEL MD) effort. The HEL MD integrates 
the laser source, power, and thermal management subsystems for the 
laser--a beam control subsystem that tracks and directs the laser 
energy to the intended target--and a command and control subsystem 
which interfaces with an external queuing radar. The HEL MD, using a 
modified 10 kilowatt (kW) commercial laser, demonstrated the ability to 
shoot down lightweight mortars and small unmanned aerial vehicles 
(UAVs) in 2013. Future demonstrations at more weapon-relevant power 
levels (50-100 kW) will occur in fiscal years 2017-2022. These 
configurations will demonstrate robust performance against rockets, 
artillery, mortars, UAVs, and a subset of the cruise missile threat. 
The demonstrations will provide valuable data to support decisions 
regarding a future program of record for a laser weapon system that is 
complementary to kinetic energy capabilities.
    A laser weapon system for ballistic missile defense applications 
will require significantly higher power levels, and we are working in 
cooperation with the Missile Defense Agency to support their directed 
energy development activities.

    2. Senator Heinrich. Admiral Syring and General Mann, Iron Dome is 
a program has been extremely successful (80 percent success rate) but 
each Iron Dome Tamir missile that Israel fires--and usually two are 
sent up to intercept each descending rocket--costs at least $50,000. 
Are we pursuing anything similar to what Israel has developed in the 
form of their directed energy Iron Beam system to protect against 
short-range rockets, artillery shells, and mortar bombs?
    Admiral Syring. The Missile Defense Agency's (MDA) efforts are 
focused on activities to defend the U.S. homeland, deployed forces, and 
international Allies and friends from ballistic missile threats. MDA is 
not focused on defense against shorter-range rockets and mortars. MDA 
is investing in directed energy technology, but only from a ballistic 
missile defense perspective. I defer to the U.S. Army on Department of 
Defense investments to address these shorter-range threats.
    General Mann. Yes, USASMDC/ARSTRAT is developing and demonstrating 
laser weapon capabilities to complement kinetic energy capabilities in 
countering rockets, artillery, mortars, unmanned aerial vehicles 
(UAVs), and cruise missiles. This work is done on behalf of the Deputy 
Assistant Secretary of the Army (Research & Technology). The 
cornerstone of our high energy laser program is the High Energy Laser 
Mobile Demonstrator (HEL MD) effort. The HEL MD, using a modified 10 
kilowatt (kW) commercial laser, demonstrated the ability to shoot down 
lightweight mortars and small unmanned aerial vehicles in late 2013. 
Future demonstrations at more weapon-relevant power levels (50-100 kW) 
will occur in fiscal years 2017-2022. These configurations are expected 
to demonstrate robust performance against rockets, artillery, mortars, 
UAVs, and a subset of the cruise missile threat.
                        Iron Dome Co-Production
    3. Senator Heinrich. Admiral Syring, in August 2013, I sent a 
letter to you and then-Secretary Hagel voicing support for co-
production of Iron Dome. I later secured an amendment in the Fiscal 
Year 2014 National Defense Authorization Act (NDAA) authorizing $15 
million for the production of the Iron Dome short-range rocket defense 
system in the United States. To date, the United States has provided 
nearly a billion dollars to Israel for Iron Dome batteries, 
interceptors, and general maintenance. Despite these significant 
investments, the United States had not shared in production of this 
missile defense system until now. What kind of progress has been made 
on Iron Dome co-production?
    Admiral Syring. The United States and Israel signed the Iron Dome 
Procurement Agreement in March 2014. This agreement provides U.S. 
fiscal year (FY) 2013-2015 funding to procure Iron Dome components for 
the defense of Israel.
    The agreement includes spending requirements for Israel to obligate 
over $260 million (M) to U.S. suppliers from DOD funding provided in 
fiscal years 2014 and 2015. Thus far, contracts for co-production in 
the U.S. have been awarded to Raytheon ($149.3 million) and Elta-North 
America ($12.6 million). I anticipate Israel will reach the $260 
million goal.
    As the prime U.S. subcontractor to Israeli industry (Rafael), 
Raytheon is on track executing the current co-production program, 
providing Iron Dome component deliveries through the end of fiscal year 
2018. Twenty of twenty-three Raytheon purchase orders were awarded and 
the remaining orders are estimated to be finalized by the end of April 
2015.
    Overall, twenty-six suppliers located in twenty different states 
are currently involved with U.S. co-production of Iron Dome 
subcomponents. An additional procurement contract for Tamir missile 
hardware is expected to fully exercise all funding through fiscal year 
2015. The terms of this contract have not been finalized. U.S. delivery 
timeline for additional quantities will be finalized with an expected 
contract award between Rafael and Raytheon by December 2015.
    Additionally, Raytheon has received all technical data packages 
required for U.S. co-production of Iron Dome components. The DOD 
closely monitors the program and receives regular Industry and Israel 
Missile Defense Organization updates on program status.

    4. Senator Heinrich. Admiral Syring, given the near-billion-dollars 
the United States has provided in assistance for this critical system, 
do you foresee a path toward eventual full production, as opposed to 
component production, in the United States to support American jobs?
    Admiral Syring. U.S. suppliers are on track to produce 70 percent 
of Iron Dome components for Israel security purposes. For the U.S. to 
produce, integrate and test the remaining 30 percent of components, 
additional factors will need to be addressed to include security, 
transportation, special equipment, and transfer of technical data 
packages. The non-recurring engineering / recurring engineering cost to 
develop the U.S. production capability to co-produce the Tamir 
Interceptor is estimated at over $175 million. In addition to the 
established costs, facilities capable of producing, integrating and 
testing the All-Up-Round in the U.S will be necessary. Depending on the 
total future procurement, this option may not be cost-effective.

    5. Senator Heinrich. Admiral Syring, do you envision co-production 
for other systems such as David's Sling?
    Admiral Syring. The Department of Defense is considering Israel's 
request for full-rate production of the David's Sling Weapon System and 
Arrow-3 interceptors and coordinating a consolidated position.
                           Electronic Warfare
    6. Senator Heinrich. Secretary McKeon, given the complexity and 
difficulty of missile defense, the enormous costs of each launch, and 
the vast number of incoming missiles that an adversary could 
potentially overwhelm U.S. missile defense systems, what steps are 
being taken in the realm of ``left of launch'' technologies such as 
electronic warfare and cyber that could blind, deceive, or burn enemy's 
sensors before they launch?
    Mr. McKeon. DOD continues to explore a wide range of technologies 
to defeat missiles in all phases of flight and ``left of launch.'' 
Ballistic missile defense systems will remain a vital component of 
protecting our territory and forces from ballistic missile attack, and 
we will continue to pursue technologies to enhance our capabilities to 
defend against such threats.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 15, 2015

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

    THE NATIONAL NUCLEAR SECURITY ADMINISTRATION PLANS AND PROGRAMS

    The subcommittee met, pursuant to notice, at 2:34 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Sessions, Fischer, 
Graham, Donnelly, King, and Heinrich.

      OPENING STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. Good afternoon. Our subcommittee will 
come to order.
    I thank all of you for being here, and we look forward to 
our good meeting.
    The Strategic Forces Subcommittee will receive testimony on 
the NNSA [National Nuclear Security Administration's] plans and 
programs for fiscal year 2016 and the Future Years Defense 
Program.
    We are pleased to have NNSA [National Nuclear Security 
Administration] Administrator Frank Klotz and his colleagues: 
Dr. Donald Cook for defense programs; Anne Harrington, Deputy 
for Defense Nuclear Nonproliferation; and Admiral John 
Richardson, Director of the Office of Naval Reactors. We are 
also pleased to have with us Mr. David Trimble, Director of 
Natural Resources and Environment for the GAO [Government 
Accountability Office].
    As I stated on March 4th at that hearing with our Nuclear 
Weapons Council Chairman, Mr. Frank Kendall, the President's 
fiscal year 2016 budget request and out-year spending profiles 
represent a good faith effort given our financial difficulties, 
an effort that can help us modernize the nuclear triad and 
address the aging Department of Energy [DOE] nuclear weapons 
infrastructure problems.
    The President's budget request for nuclear weapons 
activities, $8.9 billion, meets the funding target established 
during the 2010 New START [Strategic Arms Reduction Treaty] 
ratification process.
    Administrator Klotz, I am hopeful that though funding 
constraints and in some cases poor management over the years 
have delayed NNSA modernization plans, the course you have 
charted over the next 2 decades I think is sound. And I want to 
congratulate you on certain cost containment measures. Your 
creative building review, created some using modular designs, 
has saved as much as $3 billion on two major buildings. So that 
is the kind of smart management we like to celebrate. So I 
wanted to thank you for that.
    So moving forward, I think that we are on a path to achieve 
the requirements we have for our Nation rather than, as we have 
so often been doing in recent years, just pushing things out 
further and further into the future.
    Based on the geopolitical situation today and as far as I 
can see into the future, I believe you will have the necessary 
congressional support. We want you to be frugal, all of you, 
and manage well, but I hope today that you can assure me that 
NNSA will be able to execute without huge cost overruns or 
delays.
    Looking ahead, it is apparent that future costs will be 
significant. NNSA's estimates for three planned interoperable 
warheads in the 2020-2040 timeframe have grown substantially. 
So it raises the question, is there more cost-effective design 
and production processes that can help contain these costs in 
the future.
    Finally, I would note that this is the first time the 
Strategic Forces Subcommittee will review defense nuclear 
nonproliferation programs, Ms. Harrington. While this work 
continues to receive less attention maybe than in the past and 
our activities with weapons today, NNSA's activities to 
prevent, counter, and especially respond to the threat of 
nuclear proliferation and terrorism is extremely important.
    With that, Ranking Member Donnelly, I will turn it over to 
you for comments and thank you for your strong and effective 
contributions to this subcommittee.

               STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly. Thank you, Mr. Chairman. I want to thank 
Senator Sessions for arranging this hearing and today's 
witnesses for agreeing to take time from your schedules to 
testify on a topic that is very important to the subcommittee.
    The National Nuclear Security Administration is the busiest 
it has ever been since it was created in 2000. It is 
overhauling our entire stockpile while struggling to keep our 
weapons scientists at the forefront to hedge against future 
uncertainties. It is providing critical expertise on issues 
related to negotiations on Iran's centrifuges and reactors. It 
is servicing the Navy's nuclear fleet while designing a reactor 
plan for the Ohio replacement submarine. Most of these efforts 
are long-term with little room for slippage in milestones.
    Four years ago, the NNSA was plagued with cost and schedule 
overruns. My impression today is that the management team under 
the leadership of Administrator Klotz, Madelyn Creedon, and all 
of you seem to be making headway in getting everything back on 
track. In that regard, I hope today's hearing will help us find 
out more about what the NNSA is doing to rein in cost growth to 
ensure the programs remain on track.
    Let me again thank today's witnesses for coming, and we 
look forward to your testimony.
    Senator Sessions. Thank you, Senator Donnelly.
    I believe, Administrator Klotz and Mr. Trimble, you have 
agree that you two would have opening statements, and please 
commence, General Klotz.

 STATEMENT OF HON. FRANK G. KLOTZ, UNDER SECRETARY FOR NUCLEAR 
    SECURITY, AND ADMINISTRATOR, NATIONAL NUCLEAR SECURITY 
   ADMINISTRATION, DEPARTMENT OF ENERGY; ACCOMPANIED BY HON. 
  DONALD L. COOK, DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS, 
NATIONAL NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY; 
   HON. ANNE M. HARRINGTON, DEPUTY ADMINISTRATOR FOR DEFENSE 
      NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
     ADMINISTRATION, DEPARTMENT OF ENERGY; AND ADM JOHN M. 
RICHARDSON, USN, DIRECTOR, NAVAL NUCLEAR PROPULSION AND OFFICE 
 OF NAVAL REACTORS, NATIONAL NUCLEAR SECURITY ADMINISTRATION, 
                      DEPARTMENT OF ENERGY

    Dr. Klotz. Chairman Sessions, Ranking Member Donnelly, and 
members of the subcommittee, thank you for the opportunity to 
present the President's fiscal year 2016 budget request for the 
Department of Energy's National Nuclear Security 
Administration.
    I am pleased to be joined by my esteemed colleagues here 
today that you have already introduced.
    We have also provided the subcommittee a written statement 
and respectfully request that it be submitted for the record.
    Senator Sessions. It will be made a part of the record.
    Dr. Klotz. Thank you, sir.
    We value this committee's leadership in national security, 
as well as its robust and abiding support for the mission and 
the people of NNSA.
    Our budget request, which comprises more than 40 percent of 
the Department of Energy's budget, is $12.6 billion. This is an 
increase of $1.2 billion, or 10.2 percent, over the fiscal year 
2015 enacted level. This funding is extraordinarily important 
to NNSA's missions to provide and maintain a safe, secure, and 
effective nuclear weapons stockpile, to prevent, counter, and 
respond to the threat of nuclear proliferation and terrorism, 
and to support the capability of our nuclear-powered Navy to 
project power and protect American and allied interests around 
the world.
    By supporting growth in each of our four appropriations 
accounts, this budget represents the commitment by the 
administration to NNSA's vital and enduring mission and to 
NNSA's role in ensuring a strong national defense.
    This mission is accomplished through the hard work and 
innovative spirit of a highly talented workforce committed to 
public service. To provide them the tools they need to carry 
out their complex and challenging tasks both now and in the 
future, we must continue to maintain and modernize our 
scientific, technical, and engineering capabilities and 
infrastructure. In doing so, we are mindful of our obligation 
to continually improve our business practices and to be 
responsible stewards of the resources that Congress and the 
American people have entrusted to us.
    To this end, NNSA continues to make progress on key 
surveillance and life extension programs which directly support 
the President's direction to maintain a safe, secure, and 
effective nuclear arsenal. Funding at the fiscal year 2016 
budget request level will ensure that these key life extension 
programs stay on track.
    For NNSA's important mission to reduce nuclear dangers, the 
fiscal year 2016 budget request shifts funding for our 
counterterrorism and emergency response missions to the defense 
nuclear nonproliferation account in order to better align funds 
across the spectrum of activities related to preventing, 
countering, and responding to nuclear threats.
    Additionally, the nuclear nonproliferation programs have 
been realigned into four business lines that better reflect the 
core competencies resident across that program.
    And the request for naval reactors? mission provides 
funding for three major initiatives, the Ohio-class reactor 
plant system development, the land-based prototype refueling 
overhaul, and the spent fuel handling recapitalization project 
in Idaho.
    For all of these missions, NNSA will continue driving 
improvements in acquisition and program management practices 
and policies and Federal oversight of the enterprise.
    Those highlights are just a handful of the critical 
national security work that this budget funds. However, if our 
appropriation from Congress remains at the Budget Control Act 
level for fiscal year 2016, NNSA's ability to meet our mission 
requirements will be at risk. In developing the budget, NNSA 
was directed to request the funds we need to accomplish the 
missions we have been tasked to do. The fiscal year 2016 budget 
request reflects this guidance. Any significant reduction to 
the amount would disrupt the science, technology, and 
engineering work taking place at our laboratories and plants, 
work that underpins our National security and broader national 
security missions.
    Again, sir, I thank you for the opportunity to appear 
before you today.
    [The prepared statements of Dr. Klotz and Admiral 
Richardson follow:]

       Prepared Statement of Lt. Gen. Frank G. Klotz, USAF (Ret)
    Chairman Sessions, Ranking Member Donnelly, and Members of the 
Subcommittee, thank you for the opportunity to present the President's 
Fiscal Year (FY) 2016 Budget Request for the Department of Energy's 
(DOE) National Nuclear Security Administration (NNSA). We value this 
Committee's leadership in national security, as well as its strong and 
abiding support for the mission and people of the NNSA.
    The President's Fiscal Year 2016 Budget Request for NNSA, which 
comprises more than 40 percent of the DOE's budget, is $12.6 billion, 
up $1.2 billion or 10.2 percent over the fiscal year 2015 enacted 
level. The NNSA has a unique and special responsibility for maintaining 
a safe, secure, and effective nuclear weapons stockpile for as long as 
nuclear weapons exist; preventing, countering and responding to 
evolving and emerging threats of nuclear proliferation and terrorism; 
and, supporting the capability of our nuclear-powered Navy to project 
power and protect American and Allied interests around the world. By 
supporting growth in each of our four appropriations accounts, this 
budget request represents a strong endorsement of NNSA's vital and 
enduring mission, and is indicative of the Administration's unwavering 
commitment to a strong national defense.
    The NNSA's mission is accomplished through the hard work and 
innovative spirit of a highly talented workforce committed to public 
service. To provide them the tools they need to carry out their complex 
and challenging task, both now and in the future, we must continue to 
modernize our scientific, technical and engineering capabilities and 
infrastructure. In doing so, we are mindful of our obligation to 
continually improve our business practices and to be responsible 
stewards of the resources that Congress and the American people have 
entrusted to us. The NNSA took several significant steps toward this 
objective during the past year.
    NNSA's Fiscal Year 2016 Budget Request reflects the close working 
partnership between NNSA and the Department of Defense (DoD) in 
providing for our Nation's nuclear deterrence capabilities and 
modernizing the nuclear security enterprise. As in last year's Budget, 
DoD is carrying a separate account in its Fiscal Year 2016 Budget 
Request for the out years, fiscal year 2017 and beyond, which 
identifies funds for NNSA's Weapons Activities and Naval Reactors. We 
urge this Subcommittee's support for alignment of its appropriations 
process and national defense or ``050'' allocations, including the 
subcommittee 302(b) allocations, with the President's Budget. The 
requested allocation supports NNSA and DoD priorities.
    Tough decisions and trades in fiscal year 2016 have been made to 
meet military commitments and nuclear security priorities. If the 
request is not fully supported, modernization of our nuclear enterprise 
and implementation of our long-term stockpile sustainment strategy 
could be put at risk. The program we have proposed is highly integrated 
and interdependent across the stockpile management, science and 
infrastructure accounts.
    Apart from the need for national defense allocation alignment, the 
looming possibility of sequestration is a major threat to all NNSA 
missions. The NNSA Fiscal Year 2016 Budget Request exceeds the caps set 
on national security spending in the Budget Control Act (BCA); but is 
necessary to meet our national security commitments. Reduced funding 
levels will place these commitments at risk. We have made some tough 
resource decisions across the NNSA, but the Secretary of Energy and I 
believe that our enduring missions are too vital to the Nation's 
security to be further constrained by the current BCA spending caps.
    Details of the Fiscal Year 2016 President's Budget Request for the 
NNSA follow:
                    weapons activities appropriation
    The Fiscal Year 2016 Budget Request for the Weapons Activities 
account is $8.8 billion, an increase of $666.6 million or 8.1 percent 
over fiscal year 2015 enacted levels. It is comprised not only of the 
Defense Programs portfolio, which is responsible for all aspects of 
stockpile stewardship and management; but also the enterprise-wide 
infrastructure sustainment activities managed by our Office of Safety, 
Infrastructure and Operations, as well as our physical and 
cybersecurity activities. It should be noted that in this budget 
request we have moved NNSA's on-going emergency response and 
counterterrorism and counterproliferation capabilities out of the 
Weapons Activities account and into the Defense Nuclear 
Nonproliferation account. This action aligns activities for preventing, 
countering and responding to global nuclear threats into a single 
account.
Maintaining the Stockpile
    Last year, we again successfully used science-based stockpile 
stewardship to certify to the President that the American nuclear 
weapons stockpile remains safe, secure, and effective--without the need 
for underground nuclear testing. It is important to periodically remind 
ourselves that we have been able to do this every year largely due to 
the investments we have made and continue to make in state-of-the-art 
diagnostic tools, high performance computing platforms, and modern 
facilities staffed by extraordinarily talented scientists, engineers 
and technicians.
    For Directed Stockpile Work (DSW), the fiscal year 2016 request is 
$3.2 billion, a $494.7 million increase over fiscal year 2015 enacted 
levels, or about 18.4 percent. Approximately $133 million of this 
increase reflects a restructuring of the accounts when compared to the 
fiscal year 2015 budget request. These changes are discussed below.
    With respect to the major life extension programs (LEP), we have 
now passed the halfway mark in the production phase of the W76-1 LEP. 
This LEP, which directly supports the Navy, is now on track and on 
budget. Our fiscal year 2016 Request of $244.0 million will keep us on 
track to complete production in fiscal year 2019.
    We are also making significant progress in the engineering 
development phase of the B61-12 LEP. The B61 is a gravity bomb 
associated with Air Force long-range nuclear-capable bombers, as well 
as dual-capable fighter aircraft. Working with the Air Force, we 
successfully completed environmental flight tests on the F-15, F-16, 
and B-2 aircraft on or ahead of schedule. The B61-12 LEP will enter 
Phase 6.4 Production Engineering in 2016; and, with the $643.3 million 
requested, we will remain on track to deliver the First Production Unit 
(FPU) in fiscal year 2020.
    Based on results from the ongoing surveillance of the nuclear 
weapons stockpile performed by NNSA's laboratories and plants, the 
Nuclear Weapons Council decided that it was prudent to expand the 
planned W88 Alteration (ALT) 370 to now include replacement of the 
conventional high explosive in the warhead. The budget request reflects 
this decision and includes $220.2 million to support the FPU in fiscal 
year 2020.
    The budget request also includes $195.0 million to support the 
Nuclear Weapons Council decision to accelerate by two years an LEP of 
the W80 to serve as the warhead for the Air Force's Long Range Stand-
Off system (LRSO). FPU is now slated for 2025.
    This budget request also supports our goal of dismantling all 
weapons retired prior to fiscal year 2009 by fiscal year 2022. In fact, 
we have already dismantled more than 42 percent of these weapons in 38 
percent of the time allotted. This funding will ensure that we stay on 
track to meet our dismantlement commitment.
    Within DSW, the budget request also includes $415.0 million for a 
new ``Nuclear Materials Commodities'' subprogram to support the 
investment needed in nuclear materials to maintain the viability of the 
enduring stockpile. Included in this subprogram are Uranium 
Sustainment, Plutonium Sustainment, and Tritium Sustainment which are 
all crucial to sustain our stockpile, even as we move to lower levels 
in our nuclear stockpile. Since last year, we have created and 
empowered new program manager positions to oversee each of these 
nuclear materials programs. Also included within DSW, is a subprogram 
for Domestic Uranium Enrichment. Ensuring we have a domestic uranium 
enrichment capability for national security needs is particularly 
important in maintaining a domestic source of LEU to produce tritium 
and for research reactor conversion program and eventually to produce 
HEU for Naval Reactors fuel.
    Consistent with the Consolidated and Further Continuing 
Appropriations Act for Fiscal Year 2015, activities formerly carried 
out under Campaigns are now included under Research, Development, Test, 
and Evaluation (RDT&E). The funding request for RDT&E is about $1.8 
billion, essentially the same as the fiscal year 2015 enacted level. 
This includes $623.0 million for the Advanced Simulation and Computing 
(ASC) Program, an increase of $25.0 million for the Advanced Technology 
Development and Mitigation (ATDM) subprogram that supports high 
performance computing; $130.1 million for Advanced Manufacturing 
Development, an increase of $22.9 million. This funding will support 
work related to electronics-based arming, fusing, and firing, as well 
as other technologies that require significant technical effort to 
ensure production readiness for manufacturing technologies needed to 
replace sunset technologies. We continue to develop and mature additive 
manufacturing technologies that can provide significant cost avoidance 
by reducing costs to prototype and manufacture tooling and certain 
weapons components. These increases are largely offset by relatively 
small decreases in the Science (-$22.5 million for a total request of 
$389.6 million), Inertial Confinement Fusion Ignition and High Yield 
Program (-$10.4 million for a total request of $502.5 million), and 
Engineering (-$4.6 million for a total request of $131.4 million) 
Programs.
    The Inertial Confinement Fusion Ignition and High Yield program has 
spearheaded ongoing improvements in both management and operational 
efficiencies at NNSA's major high energy density (HED) facilities, 
including the National Ignition Facility (NIF) at Lawrence Livermore 
National Laboratory (LLNL). As a result of these improvements, LLNL has 
been able to increase the shot rate at NIF. NNSA recently completed a 
10-year HED Science Strategic Plan to guide work in this important 
field.
    Partnering with the DOE Office of Science, NNSA continues to make 
much needed investments in exascale computing. NNSA's ASC Program 
provides leading edge, high-end modeling and simulation capabilities to 
sustain and modernize the stockpile today and into the future. The 
fiscal year 2016 Request includes $64 million for the ASC's Advanced 
Technology Development and Mitigation subprogram to pursue long-term 
simulation and computing goals relevant to the exascale computing 
needed to support the broad national security missions of the NNSA. 
Both the NNSA and DOE's Office of Science continue to collaborate with 
the Office of Science providing $209 million towards the development of 
capable exascale systems.
    Defense Programs also supports the vitality of the broader National 
Security Enterprise. An important aspect of this is investing in 
Laboratory-, Site- and Plant-Directed Research and Development (LDRD). 
Independent reviews have consistently affirmed the importance of the 
program to the long-term vitality of the labs. LDRD provides basic 
research funding to foster innovation and to attract and retain young 
scientific and technical talent. Congressional support is essential to 
sustaining this essential national capability.
    Finally, another important accomplishment within Weapons Activities 
in 2014 was the renewal of the Mutual Defense Agreement with the United 
Kingdom. Since 1958, this enduring agreement has enabled mutually 
beneficial exchange of nuclear expertise between the United States and 
UK, contributing to a long and proud history of defense cooperation 
between our two nations. In this case, the Administration and the 
Congress worked closely together to achieve a shared goal. We are truly 
grateful for your support.
Improving Safety, Operations and Infrastructure
    In order to support all of these critical programmatic activities, 
we are making important strides in recapitalizing our aging 
infrastructure throughout the enterprise. In August 2014, DOE and NNSA 
formally dedicated the new National Security Campus (NSC) in Kansas 
City, Missouri. The former Kansas City Plant was relocated from the 
Bannister Federal Complex, a 70-year-old facility, to the NSC with half 
the footprint and a modern operating environment. The move was safely 
and securely completed one month ahead of schedule and $10 million 
under budget. The NSC manufactures or purchases 85 percent of the non-
nuclear components that make up our nuclear weapons, and thus plays a 
major role in keeping the Nation's nuclear stockpile safe, secure and 
effective.
    The fiscal year 2016 request restructures many of the activities 
formerly conducted under the Readiness in Technical Base and Facilities 
(RTBF) into the Infrastructure and Safety program. This new program 
will maintain, operate and modernize the NNSA general purpose 
infrastructure in a safe, secure, and cost-effective manner. 
Infrastructure and Safety efforts are organized around five elements--
Operations of Facilities; Safety Operations; Maintenance; 
Recapitalization; and, Line Item Construction. Together, these elements 
provide a comprehensive approach to arresting the declining state of 
NNSA infrastructure. The fiscal year 2016 request for Infrastructure 
and Safety is $1.5 billion and reflects an increase of $79.4 million 
for comparable activities from the fiscal year 2015 enacted level. This 
funding will allow NNSA to modernize and upgrade aging infrastructure 
and address safety and programmatic risks.
    We are developing a 10-year strategic plan that identifies the 
activities NNSA is undertaking to arrest the declining state of NNSA 
infrastructure, reduce Deferred Maintenance (DM), and dispose of excess 
facilities. The major elements of the plan include improving 
infrastructure decision-making with implementation of new, risk-
informed analytical methods to better evaluate the ability of an asset 
to support program core capabilities; improving program management 
tools through implementation of standardized and automated processes 
and systems for scope, cost, and schedule management; accelerating 
recapitalization and construction efforts to revitalize infrastructure 
and make better use of the resources by strategically procuring common 
systems and components used across the enterprise; and shrinking the 
NNSA footprint by deactivating and disposing of excess facilities, with 
increased focus on timely deactivation and on repurposing and reuse as 
a strategy to avoid new construction. Within this 10-year plan, the 
transferring of the old Kansas City Bannister Road facility to a 
private developer to repurpose the site for local community use will 
eliminate $250 million in DM. We recognize that these goals will not be 
met quickly, and that arresting the declining state of NNSA 
infrastructure will require steady commitment at all levels of the 
organization over many years. We believe that the tools and processes 
we are developing and implementing, along with sustained investment in 
our infrastructure, will set NNSA on the right path to ensuring a 
viable, safe, and effective nuclear security enterprise well into the 
future.
    The Infrastructure and Safety program addresses the needs of 
program specific infrastructure, primarily the Uranium Processing 
Facility (UPF) and the Chemistry and Metallurgy Research Replacement 
(CMRR) project. RTBF provides a defined level of readiness and 
capability through infrastructure investments and strategy development 
that are dedicated to special nuclear material processing and inventory 
management. The RTBF program accomplishes this mission by modernizing 
stockpile stewardship and management infrastructure through capability 
investments, strategic development, and line-item construction projects 
for the sustainment or enhancement of capabilities. The fiscal year 
2016 request is $1.1 billion, with a reduction of $1.4 billion, due to 
the transfer of select activities to Infrastructure and Safety. For 
comparability purposes, the fiscal year 2016 request for RTBF is 
increased more than 50 percent to support a new source of high-purity 
depleted uranium, to realign recapitalization of Defense Programs 
capabilities through the Capabilities Based Investments (CBI), and to 
increase funding for the UPF at Y-12 to $430.0 million and the CMRR 
Project at the Los Alamos National Laboratory (LANL) to $156.0 million.
    Last year, NNSA successfully executed one of the largest and most 
complex contract transitions in the history of the Department with the 
award of a contract to Consolidated Nuclear Security to operate and 
manage both the Pantex Plant and the Y-12 National Security Complex. 
The consolidated contract was written to require efficiencies and 
improved operations as a requirement for continued performance beyond 
the initial five-year base period. This is a departure from other 
management and operating contracts where efficiencies and effectiveness 
are considered but are not mandatory.
    Our Office of Secure Transportation (OST) provides safe, secure 
movement of nuclear weapons, special nuclear material, and weapon 
components to meet projected DOE, DoD, and other customer requirements. 
It continues to modernize assets by extending the life of the 
Safeguards Transporter and is currently looking at options for the next 
generation transporter, the Mobile Guardian Transporter. To meet an 
increasing workload, OST is planning a small increase in the number of 
federal agents.
    The primary mission of NNSA's Office of Defense Nuclear Security 
(DNS) and the Chief Security Officer is to develop and implement sound 
security programs to protect Special Nuclear Material (SNM), people, 
information, and facilities throughout the nuclear security enterprise. 
The NNSA's Defense Nuclear Security Fiscal Year 2016 request is $632.9 
million. The request manages risk among important competing needs even 
as NNSA continues to face the challenges associated with an aging 
physical security infrastructure that must be effectively addressed in 
the coming years. The request includes $13 million to initiate 
installation of Argus at the Device Assembly Facility at the Nevada 
National Security Site. Argus is the enterprise security system for 
Category 1 SNM facilities that integrates access control, intrusion 
detection, and video assessment of alarms to protect and control high-
consequence assets. DNS also has a prioritized list of smaller 
infrastructure upgrade projects it will execute as General Plant 
Projects within available O&M funding, for example, lighting systems 
supporting perimeter camera assessment, replacement and upgrades to 
Argus Field Processors, replacement of ported coax cables and buried 
cable electronics that will extend lifecycles and delay total system 
replacements. DNS initiated an Enterprise Vulnerability Assessment 
process across the enterprise with a focus on standardizing how 
vulnerability assessments are conducted and site protection strategies 
are formulated.
    The Information Technology and Cybersecurity fiscal year 2016 
request is $157.6 million, a decrease of $22.1 million or about 12.3 
percent from fiscal year 2015 enacted levels. The difference is 
attributed to a one-time investment in fiscal year 2015 in the 
Infrastructure Program to implement a more secure classified computing 
environment. All activities related to the one-time increase were 
completed. Information Technology and Cybersecurity supports the 
nuclear security enterprise. This work includes continuous monitoring 
and enterprise wireless and security technologies (i.e., identity, 
credential, and access management) to help meet security challenges. In 
fiscal year 2016, NNSA plans to complete the recapitalization of the 
Enterprise Secure Network, modernize the Cybersecurity infrastructure, 
implement the Identity Control and Access Management project at NNSA 
Headquarters and site elements, and implement and coordinate all 
Committee on National Security Systems and Public Key Infrastructure 
capabilities. In addition, we will leverage the NNSA Network Vision 
framework to increase the efficiency and cost-effectiveness of NNSA 
Information Technology (IT) services.
             defense nuclear nonproliferation appropriation
    In fiscal year 2016, we have realigned the NNSA programs that 
continue to support the President's Prague Agenda to address the threat 
of nuclear proliferation and terrorism into the Defense Nuclear 
Nonproliferation (DNN) appropriation. NNSA's activities work across the 
spectrum to prevent, counter and respond to the threat of nuclear and 
radiological proliferation and terrorism. We work to prevent the 
acquisition of nuclear or radiological materials, technology, and 
expertise; we actively counter efforts to develop the materials and 
scientific knowledge needed to construct a nuclear threat device; and 
we are poised to respond to terrorist acts by searching for and 
rendering safe any such devices.
    The Defense Nuclear Nonproliferation (DNN) account request is $1.9 
billion, an increase of $325 million or about 20.1 percent from fiscal 
year 2015 enacted levels. At first glance, this figure looks like a 
very big increase but the number actually reflects a reorganization of 
our budget to include the Nuclear Counterterrorism Incident Response 
(NCTIR) and the Counterterrorism and Counterproliferation (CTCP) 
Programs from the Weapons Activities account. For comparability 
purposes, the DNN account increase is $101.0 million or over 5 percent 
above fiscal year 2015 enacted levels. Additionally, we have combined 
the NCTIR and CTCP programs into a single budget program line to 
eliminate confusion about NNSA nuclear counterterrorism programs and 
activities. We also changed the NCTIR name to Nuclear Counterterrorism 
and Incident Response Program, reflecting this realignment. The DNN 
Appropriation will now support two enduring mission areas: 1) The 
Defense Nuclear Nonproliferation Program and 2) The Nuclear 
Counterterrorism and Incident Response Program. The Nuclear 
Nonproliferation Program is also restructuring to place more emphasis 
on capabilities as opposed to specific programs. This organizational 
restructuring is reflected in the DNN budget restructuring.
    To achieve all of these mission objectives, NNSA has restructured 
the budget request under the Defense Nuclear Nonproliferation account 
as follows:

    <bullet>  Material Management and Minimization
    <bullet>  Global Material Security
    <bullet>  Nonproliferation and Arms Control
    <bullet>  Defense Nuclear Nonproliferation R&D
    <bullet>  Nonproliferation Construction
    <bullet>  Nuclear Counterterrorism and Incident Response Program.

    Together, this restructuring aligns funding for preventing, 
countering, and responding to global nuclear dangers in one 
appropriation.
Nonproliferation Efforts
    The fiscal year 2016 request for the DNN Program, excluding NCTIR 
and Legacy Contractor Pensions, is $1.6 billion, an increase of $67.9 
million or about 4.4 percent above fiscal year 2015 enacted levels. 
This past year was a big year for our nonproliferation efforts. Our 
Defense Nuclear Nonproliferation organization was responsible for many 
of the significant deliverables at the third Nuclear Security Summit 
held in The Hague last spring. Of particular note, Japan announced at 
the Summit that it would work with us to remove and dispose of all 
highly-enriched uranium (HEU) and separated plutonium from its Fast 
Critical Assembly. NNSA is currently working with its counterparts in 
Japan to resolve technical and logistical issues to complete this 
effort in a timely manner.
    Also during the Summit, the United States joined 22 countries in 
signing up to a ``Gift Basket'' to secure all Category 1 radioactive 
sealed sources by 2016. In the United States, there are approximately 
465 buildings with Category 1 devices. Of these, NNSA has completed 
security enhancements at 300 and is currently involved in a targeted 
outreach campaign to engage the remaining 165 buildings by the end of 
spring 2015.
    And finally, NNSA partnered with five countries to remove 190 kg of 
HEU and plutonium from civilian facilities; which brings our cumulative 
total at the end of fiscal year 2014 to an impressive 5,207 kg; this is 
more than enough material for 200 nuclear weapons. While relations with 
Russia are severely strained, we anticipate that we will continue to 
cooperate in efforts to repatriate Russian-origin weapons-usable HEU 
material to Russia.
    The Material Management and Minimization (M3) program presents an 
integrated approach to addressing the persistent threat posed by 
nuclear materials through a full cycle of materials management and 
minimization efforts. Consistent with the priorities articulated in the 
National Security Strategy of the United States and the Nuclear Posture 
Review, the primary objective of the program is to achieve permanent 
threat reduction by minimizing and, when possible, eliminating weapons-
usable nuclear material around the world. This program includes 
elements of the former Global Threat Reduction Initiative (GTRI) and 
Fissile Materials Disposition Programs. The fiscal year 2016 request 
for this program is $311.6 million. For comparability purposes, the 
request reflects an increase of $38.7 million or about a 14.2 percent 
increase above the fiscal year 2015 enacted levels. The funding 
increases are primarily for the removal of HEU from miniature neutron 
source reactors in Africa as well as preparatory activities for future 
shipments from Europe and Japan, which will proceed with appropriate 
cost-sharing.
    The Global Material Security (GMS) program supports the President's 
nuclear and radiological security agenda and the Secretary's goal of 
enhancing nuclear security through nonproliferation. We work with 
partner countries to increase the security of vulnerable stockpiles of 
nuclear weapons, weapons-usable nuclear materials, and radiological 
materials, and to improve partner countries' abilities to deter, 
detect, and interdict illicit trafficking. Elements of the former GTRI 
program, International Material Protection and Cooperation (IMPC) 
program, and Nonproliferation and International Security (NIS) program 
are being combined in GMS, in order to better integrate capabilities 
required to support DNN's enduring mission. The fiscal year 2016 
request for this program is $426.8 million. For comparability purposes 
the request reflects a slight increase of $2.5 million above the fiscal 
year 2015 enacted levels. This increase will accelerate the protection 
of International Atomic Energy Agency Category 1 radiological sources 
in order to meet the 2014 Nuclear Security Summit commitment to secure 
these sources by 2016.
    The Nonproliferation and Arms Control (NPAC) program supports the 
President's nonproliferation agenda and NNSA efforts to prevent the 
proliferation or use of weapons of mass destruction by state and non-
state actors. To carry out the goals of this program, we work with the 
International Atomic Energy Agency (IAEA) and foreign partners to build 
global capacity to safeguard nuclear materials and prevent illicit 
transfers of dual-use materials, equipment, technology and expertise. 
We also work with our partners and the IAEA to develop technologies and 
approaches to verify and monitor current and future arms control 
treaties and agreements. This funding also supports statutorily 
mandated activities such as technical reviews of export licenses and 
interdiction cases, and technical support for the negotiation and 
implementation of civil nuclear cooperation agreements (123 
Agreements), as well as international export control outreach 
activities, and activities to support and improve the execution of the 
NPAC 10 CFR Part 810 application process. The fiscal year 2016 request 
for this program is $126.7 million, and reflects a slight increase of 
$0.8 million above the fiscal year 2015 enacted level.
    The Defense Nuclear Nonproliferation Research and Development (DNN 
R&D) program supports innovative, unilateral and multi-lateral 
technical capabilities to detect, identify, and characterize: 1) 
foreign nuclear weapons programs, 2) illicit diversion of special 
nuclear materials, and 3) nuclear detonations. To meet national and 
Departmental nuclear security requirements, DNN R&D leverages the 
unique facilities and scientific skills of the Department of Energy, 
academia, and industry to perform research, including counterterrorism-
related R&D. DNN R&D conducts technology demonstrations, and develops 
prototypes for integration into operational systems. The fiscal year 
2016 request for this program is $419.3 million, a $25.9 million 
increase or about 6.6 percent above fiscal year 2015 levels. Increased 
funding is requested for nuclear and energetic materials 
characterization experiments and development of advanced diagnostic 
equipment capabilities, for long-range nuclear detonation detection, 
and technical forensics research. This increase over fiscal year 2015 
levels is partially offset by a return to baseline funding for the 
Proliferation Detection subprogram after a one-time Congressional 
increase in fiscal year 2015 for test bed development and field 
experiments.
    Nonproliferation Construction consolidates construction costs for 
DNN projects previously contained within each program budget. 
Currently, the MOX Fuel Fabrication Facility (MFFF) is the only project 
in this program. The fiscal year 2016 request for MFFF is $345 million 
which is the same as the fiscal year 2015 enacted level. The National 
Defense Authorization Act for Fiscal Year 2015 and the Consolidated and 
Further Continuing Appropriations Act for Fiscal Year 2015 directed the 
Department to conduct additional analyses of the MFFF construction 
project. These analyses will include independent cost and schedule 
estimates, and examination of alternative approaches for disposition of 
the 34 metric tons of weapon-grade plutonium and their relationship to 
the Plutonium Management Disposition Agreement (PMDA). The Department 
has requested Aerospace Corporation, a federally funded research and 
development center, to perform these analyses. They will be completed 
during fiscal year 2015, and will inform a final decision on the path 
forward. The fiscal year 2016 request emphasizes that while the 
Department continues to evaluate disposition paths (including the MFFF) 
to determine the most responsible path forward, any viable alternative 
will require a significant amount of funds to implement.
Nuclear Counterterrorism and Emergency Response
    The fiscal year 2016 Request consolidates counterterrorism and 
emergency response funding into a single Nuclear Counterterrorism and 
Incident Response line in the amount of $234.4 million.
    Within NCTIR, the Nuclear Counterterrorism Assessment program 
represents the primary scientific program to assess the threat of 
nuclear terrorism and develop technical countermeasures against it. The 
knowledge generated under this program ensures that NNSA's technical 
expertise on nuclear threat devices informs DoD and FBI emergency 
response capabilities. We have taken steps to address funding 
reductions to the nuclear counterterrorism activities. Over the last 
two years these activities, formerly known as Counterterrorism and 
Counterproliferation within the Weapons Activities appropriation, have 
been funded at a level significantly below the requested amount--70 
percent of the Request in fiscal year 2014 and 60 percent in fiscal 
year 2015. The fiscal year 2016 request would dedicate $57.8M to 
Nuclear Counterterrorism Assessment in support of improvised nuclear 
device analysis. Additionally, the request includes funds within 
Defense Nuclear Nonproliferation R&D for materials characterization 
experiments and other research, which supports nuclear counterterrorism 
and incident response missions. Full funding of both lines will make it 
possible to continue NNSA's vital counterterrorism work at the national 
laboratories.
    NCTIR continues to work domestically and around the world to 
improve preparedness and emergency response capabilities. Its expert 
scientific teams and equipment provide a technically trained, rapid 
response to nuclear or radiological incidents worldwide. NCTIR assesses 
nuclear or radiological threats and leverages that knowledge to provide 
contingency planning and training to support national and international 
counterterrorism and incident response capabilities. In 2014, NNSA's 
emergency response teams deployed more than 100 times in support of law 
enforcement and for major public events, such as the Super Bowl, and 
conducted five large-scale field exercises with partners from the FBI, 
DoD, and FEMA In addition, they deployed over 70 times in support of 
DHS Domestic Nuclear Detection Office support to state and local first 
responders. Internationally, NNSA conducted 16 training courses to 
improve its foreign partners' emergency management capabilities and 
continued to work bilaterally with Israel, Vietnam, Cambodia, Thailand, 
Chile, China, Mexico, Argentina, Brazil, Taiwan, Canada, France, 
Jordan, the Nordic countries, Armenia and Kazakhstan. New programs were 
also started with Romania, Belarus and the Philippines. These 
initiatives represent our effort to create a truly global defense 
against the threat of nuclear terrorism.
    NCTIR will also continue the initiative to equip cities with 
stabilization equipment and training, to ensure a prompt and effective 
response to nuclear terror threats.
    NCTIR also executes the DOE's Emergency Management and Operations 
Support program that manages the Emergency Operations Centers, 
Emergency Communications Network, and Continuity Programs for all of 
DOE, including NNSA.
                      naval reactors appropriation
Advancing Naval Nuclear Propulsion
    During the past year, NNSA helped celebrate the 60th Anniversary of 
the USS Nautilus first getting underway on nuclear propulsion. The 
Naval Nuclear Propulsion program pioneered advances in nuclear reactor 
and warship design--such as improving reactor lifetimes, increasing 
submarine stealth, and reducing propulsion plant crewing. An example is 
the technology being developed by Naval Reactors that will enable the 
Ohio-class Replacement submarine to be designed for a 40-plus year 
operational life without refueling, resulting in significant savings.
    During 2014, Naval Reactors continued its record of operational 
excellence by providing the technical expertise required to resolve 
emergent issues in the Nation's nuclear-powered Fleet, enabling the 
Fleet to steam more 2 million miles. Through the work of its laboratory 
and highly skilled personnel, Naval Reactors also advanced the Ohio-
class Replacement and the S8G Prototype Refueling projects as well as 
initiating integrated testing of the lead A1B reactor plant for the 
next generation Ford-class aircraft carrier.
    It is generally not well-known that if anything goes wrong with a 
reactor on one of the Navy's nuclear carriers or submarines while they 
are at sea, Naval Reactors' cadre of experts provide around-the-clock 
technical support, and can often resolve the problem and prevent the 
ship from having to return to port to be checked out and repaired-- 
which would be quite costly and disruptive to the Navy's deployment 
schedules.
    The budget request for Naval Reactors is $1.4 billion, an increase 
of $141.6 million, about 11.5 percent from the fiscal year 2015 enacted 
level. The request includes the base funding required to safely 
maintain, operate and oversee the Navy's 83 nuclear-powered warships, 
constituting over 45 percent of the Navy's major combatants. The 
increase supports three high priority activities: $186.8 million to 
continue development of the advanced Ohio-class Replacement reactor; 
$133 million to continue preparations for the refueling and overhaul of 
the Land-Based Prototype reactor plant; and $86 million to continue the 
design work of the Spent Fuel Handling Recapitalization Project started 
in fiscal year 2015. To this end, we would like to thank the 
Subcommittee's support for appropriating $70 million for Spent Fuel 
Handling Recapitalization Project in the fiscal year 2015 enacted 
budget. These activities are essential to maintaining a credible sea-
based strategic deterrent, to maintain the research and training 
capabilities of the Land-based Prototype, and to maintain the 
capability to safely inspect, store and package naval spent nuclear 
fuel.
            nnsa federal salaries and expenses appropriation
    NNSA Federal Salaries and Expenses (FSE) Request is $402.7 million, 
essentially equal to the rate of operations in fiscal year 2015, but 
8.9 percent above the fiscal year 2015 enacted level. The Request 
provides funding for 1,690 full-time equivalents (FTEs) and support 
expenses needed to meet mission requirements. We are actively engaged 
in hiring to that number in a thoughtful and strategic manner. I would 
note that the Request represents an increase of only $1.5 million from 
the fiscal year 2015 planned execution level of $401.2 million. This is 
due to the fact that the fiscal year 2015 enacted level was 
significantly below the request and we will need to use over $30 
million of planned carryover to sustain the currently projected 
operations of the NNSA federal workforce. We built up that reserve 
through prudent planning and execution to enable us to pay for large 
one-time costs, such as the movement of much of our federal workforce 
in Albuquerque into newer leased space. The increase includes a 1.3 
percent cost of living adjustment and benefits escalation, additional 
support to stand up the Office of Cost Estimation and Program 
Evaluation (CEPE) office in accordance with Section 3112 of the fiscal 
year 2014 National Defense Authorization Act (NDAA), and funding to 
improve financial systems integration within the nuclear security 
enterprise in accordance with Section 3128 of the fiscal year 2014 
NDAA.
    In fiscal year 2016, NNSA will continue its on-going efforts to 
plan strategically to meet current and future workforce needs by 
analyzing how evolving missions are affecting job requirements. 
Reshaping of the workforce over the next several years will be 
essential, including obtaining both the right staffing size and skill 
sets. NNSA will also continue to identify efficiencies, particularly in 
travel and support services, to provide a lean and efficient 
organization and to support the President's Executive Order ``Promoting 
Efficient Spending''.
                        management & performance
    To enhance our ability to carry out our mission and execute this 
budget request, we will continue to focus on improving our project 
management and cost estimating capabilities. In keeping with the 
Secretary of Energy's increased focus on Management and Performance, 
the NNSA is committed to manage its operations, contracts and costs in 
an effective and efficient manner. The NNSA's Office of Acquisition and 
Project Management (APM) is driving continued improvement in contract 
and project management practices. APM is leading the NNSA's effort to 
deliver results by instituting rigorous analyses of alternatives, 
providing clear lines of authority and accountability for federal and 
contractor program and project management, and improving cost and 
schedule performance. NNSA participates in the Secretary's Project 
Management Risk Committee as a means to institutionalize and share best 
practices across the Department.
    We have used strategic partnerships with the National Laboratories 
to rethink some of our most challenging projects. As a result of the 
Red Team review of the UPF at the Y-12 National Security Complex, led 
by the director of the Oak Ridge National Laboratory, and a similar 
approach to the Chemistry and Metallurgy Research Replacement (CMRR) 
Facility capability at Los Alamos National Laboratory, we are 
developing a disciplined, modular approach for both sites that will 
remove risks early in the process, and establish a well-defined cost 
and schedule, both of which were lacking in earlier efforts. This 
process will be an important and recurring project management theme at 
the NNSA and across the Department of Energy.
    The CEPE was established in September 2014 pursuant to the fiscal 
year 2014 National Defense Authorization Act. This legislation 
recognized the effort to improve cost estimating that the NNSA had 
already started. The CEPE office is a prime example of actions taken to 
improve our cost estimation efforts. Forging a strong partnership with 
the Department of Defense (DoD) Office of Cost Assessment and Program 
Evaluation (CAPE), including joint training activities with CAPE, we 
have made good progress in establishing CEPE as an independent office. 
CEPE will provide independent cost estimating leadership, rigorous 
program analysis, and prudent fiscal guidance. Getting CEPE fully 
functional is a high priority for NNSA, and we will closely monitor its 
progress as it grows into its full potential over the next few years.
                               conclusion
    The NNSA executes vital missions to ensure nuclear security at home 
and abroad. We do this by delivering the technology, capabilities and 
infrastructure essential to a 21st century national security 
organization. Our workforce continues to rise to the challenge and 
deliver mission effective and cost efficient nuclear security solutions 
critical for the NNSA to succeed in today's fiscal climate.
    In closing, I would also like to mention that the President's 
Budget Request is just the first in a series of documents slated for 
release this spring. The most important of those yet to be released is 
the NNSA Strategic Plan, last updated in May 2011. The goal of this 
document is to provide a single integrated guidepost for NNSA's 
leaders, our partners at the labs and plants, and Congress and our 
external stakeholders. The new strategic plan will articulate a clear 
direction and mission to everyone--no matter their rank or position. 
Also to be released is the Congressionally-mandated Stockpile 
Stewardship Management Plan (SSMP) which details NNSA's multi-year plan 
for delivering a safe, secure and effective nuclear stockpile. And for 
the first time, we plan to release a companion plan to the SSMP, 
tentatively titled, ``Prevent, Counter and Respond'' to address our 
plans for nonproliferation, counterterrorism and emergency response 
programs. Finally, a report is being prepared for Congress in response 
to the Final Report from the Congressional Advisory Panel on the 
Governance of the Nuclear Security Enterprise, co-chaired by Norm 
Augustine and Admiral Rich Mies.
    Again, thank you for the opportunity to appear before you today.

             Prepared Statement of Admiral John Richardson
    Since my last testimony before this subcommittee, U.S. Nuclear 
Powered Warships - 10 aircraft carriers, 14 ballistic missile 
submarines, 53 attack submarines, and 4 guided missile submarines - 
operated for another year safely and effectively, steaming more than 2 
million miles in support of our nation's interests. Some highlights of 
those operations include the nuclear-powered aircraft carrier, USS 
George H.W. Bush (CVN 77), the only coalition strike option in the 
fight against ISIL militants for 54 days, executing 20-30 sorties each 
day. Our ballistic missile submarine force completed their 4000th 
strategic patrol, continuing over 50 years of peacekeeping capability 
through strategic deterrence. The USS Gerald R. Ford began her 
propulsion plant test program and will proudly set sail for the first 
time next year. The attack submarine USS North Dakota (SSN 784) was 
commissioned in November. We christened the USS John Warner, a 
submarine named after a truly great member of the Senate. We laid the 
keel for the USS Illinois, our thirteenth Virginia-class submarine. 
Finally, this past January, we commemorated a truly historic event for 
Naval Reactors and the Nation. We celebrated the 60th anniversary of 
the submarine USS Nautilus (SSN 571), the world's first nuclear-powered 
ship.
    Additionally, we finally completed construction and infrastructure 
projects, some deferred from 2010, to maintain and upgrade the 
facilities our engineers require to attain these important successes in 
the fleet. The $75 million Cask Shipping and Receiving Facility in 
Idaho completed and opened this year under budget and will soon begin 
receiving shipments of Naval Spent Nuclear Fuel in support of the USS 
Enterprise defueling.
    This progress and service to the fleet is only possible through the 
firm support of this subcommittee. Naval Reactors' request for fiscal 
year 2016 allows us to continue this work. The funding request is for 
$1.375 billion, an increase of $136 million (11 percent) over the 
fiscal year 2015 enacted funding level. The requested funding permits 
Naval Reactors to continue to support today's operational fleet, as 
well as deliver tomorrow's fleet by funding three national priority 
projects. The projects are:

    <bullet>  Designing a new reactor plant for the replacement for the 
Ohio-class SSBN
    <bullet>  Refueling a Research and Training Reactor in New York
    <bullet>  Build a new spent fuel handling facility in Idaho

    The fiscal year 2016 request adequately funds all of our 
requirements: the highly-qualified people, equipment, facilities, and 
technology development needed to support today's nuclear-powered fleet, 
and the three projects in support of tomorrow's fleet.
    Uncompromising and timely support for safe nuclear fleet operation 
will always be the highest priority for Naval Reactors. $973 million of 
my budget request funds the technical support base for the 96 operating 
reactors at sea on ships and at our training and research sites. The 
extremely talented men and women, along with the equipment and 
facilities upon which they depend, stand ready 24 hours per day, 365 
days per year to respond to advance the mission and respond to emergent 
fleet needs for assistance. They are the principal reason that the 
Program has delivered 60 years of safe and effective operations by 
ships on station supporting our national interests. The teams at our 
four Program sites - the Bettis Laboratory in Pittsburgh, the Knolls 
Laboratory and Kesselring Site in greater Albany, and our spent nuclear 
fuel facilities in Idaho - perform the research and development, 
analysis, engineering and testing needed to both support today's Fleet 
and develop future nuclear-powered warships. Importantly, they perform 
the technical evaluations that enable me to thoroughly assess emergent 
issues and deliver timely responses that both ensure nuclear safety and 
maximize operational flexibility. This technical support base is 
essential to enabling our submarines and aircraft carriers to deploy.
    Funding reductions in fiscal year 2015 most directly impacted this 
technical support base. The funding levels provided in fiscal year 2015 
will result in a delay to the start of the Engineroom Team Trainer 
facility in upstate New York, a structure that will host a first-of-a-
kind nuclear simulation technology. This training simulation 
technology, when built, will lower the cost and improve the 
effectiveness of providing nuclear-trained sailors in the future. The 
delay in building this technology also reduces our future training 
capacity and will limit the number of nuclear-trained sailors provided 
to the fleet. I have again requested funding for this essential 
facility in my fiscal year 2016 request. fiscal year 2015 funding 
levels also prevented construction of the Central Office and Prototype 
Staff Buildings in New York. These buildings were planned to 
accommodate the over 200 engineers and training staff that will arrive 
at the site in fiscal year 2017-21 to conduct the S8G Prototype 
Refueling Overhaul discussed below. As a result, I will have to 
procure, at nearly the same total cost, temporary office spaces and 
trailers, reducing worker efficiency, effectiveness, and quality of 
life.
    In addition to funding the technical support base, my request in 
fiscal year 2016 includes $186 million to continue Naval Reactors' 
efforts in designing a new reactor plant for the Ohio-class 
Replacement. Activity this year includes reactor plant design and 
component development to support procurement of long lead components 
starting in fiscal year 2019. Progress in these areas in fiscal year 
2016 will ensure that the advanced capability that the life-of-the-ship 
reactor core provides is delivered in a technically satisfactory and 
cost effective manner in time to support lead ship construction 
beginning in fiscal year 2021.
    Related to the Ohio-class Replacement, the fiscal year 2016 request 
includes $133 million in funding for the Land-based Prototype Refueling 
Overhaul in upstate New York. Refueling this reactor supports two major 
purposes: reducing cost and schedule risk to the life-of-ship core for 
Ohio-class Replacement project and supporting training of about 1000 
Sailors per year for the next 20 years. In fiscal year 2015 and fiscal 
year 2016, Naval Reactors continues the core manufacturing development 
work needed for the Refueling Overhaul and the plant service life 
engineering design to ensure that the Land-based Prototype plant 
overhaul is performed concurrently with the refueling that starts in 
fiscal year 2018.
    Finally my fiscal year 2016 request contains $86 million to 
continue the Spent Fuel Handling Recapitalization Project (SFHP). 
Thanks to the support Congress provided in fiscal year 2015, we will 
complete the facility conceptual design and issue a draft Environmental 
Impact Statement this year. The fiscal year 2016 request will allow us 
to publish the final Environmental Impact Statement, set key facility 
dimensions, and continue to advance the design. Continued support in 
fiscal year 2016 and beyond is essential to ensure the facility can 
begin receiving spent fuel from the fleet in fiscal year 2025. Further 
delays to the project schedule incur costs of approximately $150 
million per year to procure shipping containers to temporarily store 
the spent fuel from aircraft carrier refuelings. Delays to date have 
incurred over $500M in costs for temporary containers. More of these 
containers will not be necessary if the project stays on track.
    In developing our request, I have worked closely with the 
leadership of the National Nuclear Security Administration (NNSA), the 
Department of Energy (DOE), Office of Management and Budget and the 
Department of Defense. This budget not only reflects my priorities for 
Naval Reactors but also integrates them with the other important work 
of my colleagues at NNSA. There is clear recognition of the valuable 
capabilities Naval Reactors provides and our history in effectively 
meeting our obligations. I understand the difficult budget environment 
in which Congress must craft legislation and I respectfully urge your 
support for aligning allocations with the fiscal year 2016 Budget 
Request.
    Naval Reactors' fiscal year 2016 budget request will ensure that I 
can meet my statutory responsibilities to maintain a safe and effective 
nuclear-powered Fleet, continue environmental stewardship at my program 
sites, and progress Ohio-class replacement, Land-based Prototype 
Refueling Overhaul and the Spent Fuel Handling Recapitalization 
Project.
    With the help of Congress, Naval Reactors is committed to executing 
our projects on time and on budget, and I to continue to search for the 
most cost effective way to support safe operations of the nuclear 
fleet.

    Senator Sessions. Mr. Trimble?

STATEMENT OF DAVID C. TRIMBLE, DIRECTOR, NATURAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Trimble. Thank you. Chairman Sessions, Ranking Member 
Donnelly, and members of the subcommittee, my testimony today 
is based on our past work and will address NNSA's modernization 
plans, difficulties in managing programs to cost and schedule, 
management and governance of the enterprise, and NNSA's 
nonproliferation programs.
    Regarding modernization, GAO annually reviews NNSA's plans 
and budget estimates for the modernization of the nuclear 
secured enterprise, and every year that we have reviewed it, 
significant changes have occurred. The Augustine-Mies Panel 
also observed that the SSMP has varied from year to year in the 
cost and schedules for the delivery of LEP's and nuclear 
facilities, concluding that the lack of a stable, executable 
plan for modernization is a fundamental weakness for NNSA.
    In our 2014 work, we also noted such changes. For example--
    Senator Sessions. A stable what kind of plan?
    Mr. Trimble. I am sorry. I am sorry. Concluding that the 
lack of a stable, executable plan for modernization is a 
fundamental weakness for NNSA.
    Senator Sessions. Okay.
    Mr. Trimble. That is from the Augustine-Mies report.
    In our 2014 work, we also noted such changes.
    Senator Sessions. That is the August of 2014 report?
    Mr. Trimble. The Augustine-Mies report on governance.
    Senator Sessions. When was it?
    Mr. Trimble. 2014.
    Senator Sessions. Go ahead.
    Mr. Trimble. In our 2014 work, we also noted such changes. 
For example, in fiscal year 2014, production of the 
interoperable W78/88 warhead was pushed back 2 years and 
production of the B61-12 and W88 Alt 370 were also delayed. By 
fiscal year 2015, the W78/88 LEP was pushed back another 5 
years, and the B61 and W88 were each pushed back another year.
    NNSA has, however, taken actions to improve its plans. In 
the fiscal year 2015 plan, NNSA incorporated estimates 
previously omitted for UPF [the Uranium Processing Facility] 
and CMRR [the Chemistry and Metallurgy Research Replacement], 
improved the transparency of some budget estimates and based 
its LEP estimates on more current data.
    Regarding NNSA's contract and project management 
challenges, much work remains to be done. Modernization plans 
require NNSA to design and build new large nuclear facilities 
on time and on budget. Such projects have historically posed a 
challenge for DOE [the Department of Energy] and NNSA. DOE has 
shown progress in managing smaller projects, and DOE leadership 
continues to demonstrate a strong commitment to address its 
longstanding contract and project management challenges.
    However, our recent high risk report noted that DOE's cycle 
of identifying root causes and corrective actions raises 
concerns that DOE has not fully identified the root causes 
behind its problems. In 2008, DOE issued a corrective action 
plan which identified root causes, including front-end 
planning, project funding, accountability, cost estimating 
management workforce, and project oversight. In 2010, DOE 
identified six additional barriers and new corrective actions. 
In 2011, DOE stated that its corrective actions had mitigated 
most of the root causes of its issues. Most recently in 2014, 
DOE identified four factors that contribute to project 
management success or failure. Notably, all four are discussed 
in DOE's 2008 report and among those that DOE said in 2011 it 
had at least partially mitigated.
    Our recent reports have made numerous recommendations to 
help DOE in this area, but in some cases, DOE has appeared 
hesitant to implement them. In our 2014 report on MOX [mixed 
oxide fuel], we recommended that DOE require a root cause 
analysis for projects that experience cost increases or 
schedule delays exceeding a certain threshold, similar to a 
requirement that DOD [the Department of Defense] has. DOE 
disagreed with our recommendation.
    In 2014, we found that DOE and NNSA requirements for cost 
estimating and conducting analyses of alternatives generally do 
not reflect best practices. While DOE agreed with our 
recommendations to incorporate best practices into 
requirements, it did not specify a timeline for implementation.
    NNSA is embracing a new modular approach to address the 
mission of both UPF and CMRR. While this approach may simplify 
the challenge of managing a large construction project, it 
creates other challenges, including the need to coordinate 
activities across multiple facilities and the need to renovate 
facilities that were once expected to close. We plan to examine 
NNSA's new approaches to both UPF and CMRR this year.
    Regarding governance, the Augustine-Mies report highlighted 
many of the same issues we have reported on, including the 
management of capital projects, cost estimating, and workforce 
planning.
    The panel also examined NNSA's oversight of its M&O 
contractors and raised questions regarding the effectiveness of 
contract requirements and performance metrics on mission 
execution. We have ongoing work examining NNSA's contract 
oversight policies and the extent to which it relies on 
contractor assurance systems for evaluating and rewarding 
performance. We should complete this work in May of this year.
    Finally, regarding nonproliferation, NNSA has made progress 
in the President's 2009 initiative to secure all vulnerable 
nuclear material around the world.
    Senator Sessions. Mr. Trimble, if I could interrupt you. We 
think it is appropriate, Senator Donnelly and I, that we have a 
moment of silence for the Boston Marathon bombing. The time is 
now. So if you would join us in a moment of silence.
    [A moment of silence was observed.]
    Senator Sessions. Okay, move on.
    Senator Donnelly. One other thing that I think Senator 
Sessions and I would both like to join in on is this is a 
special day. At 3 o'clock, they are going to give the 
Congressional Gold Medal to Doolittle Raiders just down the 
hall. They set a pretty good standard for all of us, and we 
would like you to keep them in your thoughts today for 
everything they did for our country.
    Senator Sessions. That is a good point. I remember as a 
young kid reading about those brave Americans and that critical 
event in our history.
    All right. Mr. Trimble, I am sorry to interrupt you. You 
may continue.
    Mr. Trimble. I am almost done. No problems.
    So finally regarding nonproliferation, NNSA has made 
progress in the President's 2009 initiative to secure all 
vulnerable nuclear material around the world, but challenges 
remain. In 2011, we reported that DNN faced difficulties in 
ensuring the security of U.S. weapons usable nuclear materials 
that have been transferred to other nations. DNN's programs 
heavily depend on the cooperation of other countries. Notably, 
the decision by the Russian Government to cease joint 
cooperation with NNSA raises questions about the sustainability 
of past progress. Last year, NNSA reorganized DNN and has been 
assessing over-the-horizon nuclear and radiological 
proliferation threats. We have ongoing work directed by this 
committee looking at NNSA's long-term nonproliferation planning 
efforts.
    Thank you. I would be happy to answer any questions.
    [The prepared statement of Mr. Trimble follows:]

  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  
  
       

    Senator Sessions. Thank you.
    Yes, Senator King?
    Senator King. Mr. Chairman, I apologize. I want to 
apologize to the witnesses. I have an unusual Wednesday 
afternoon Intelligence meeting on overhead architecture which 
is also related to this, and I have to excuse myself. But we 
will be submitting questions for the record.
    Senator Sessions. Thank you. And if you would like to ask a 
few questions before you leave----
    Senator King. No. That is all right. I will submit the 
questions for the record.
    Thank you all very much and thanks for the work that you 
do. Senator Fischer and I had the opportunity to visit two of 
the labs, and Dr. Klotz, it was very impressive what the people 
are doing out there. I commend to you gentlemen a visit to 
those labs in New Mexico. Where are they? They are in New 
Mexico.
    [Laughter.]
    So I follow with interest what you are doing and apologize 
for having to absent myself. The Intelligence Committee very 
rarely meets on a Wednesday, but this is an important issue. So 
thank you.
    Senator Sessions. Thank you, Senator King. And thanks for 
your faithful attendance and interest in this subcommittee.
    So, General Klotz, let me just sort of ask you quickly a 
serious of questions about projects that are ongoing that we 
need to keep on track at cost and schedule. My overall question 
is I believe it would be appropriate and necessary for you to 
let us know if there are problems in these areas that you know 
are going to be there or may be there. So give us a heads-up 
warning. So can you give us a quick update on the life 
extension programs in general? Dr. Cook, you contribute to this 
as you all agree. Are they on schedule? Are we having any cost 
overruns? Are they synchronized with the respective DOD 
delivery systems? Can you give us insight into that and how are 
we doing?
    Dr. Klotz. Yes, sir, I can. And I would welcome Dr. Cook, 
who has----
    Senator Sessions. I have about six of these I am going to 
ask. I would kind of like to just be on the record if you see a 
problem, and then maybe we can pursue that after we run the 
list to kind of give us a perspective of where we are.
    So let me start this way then. The W76-1, submarine-
launched ballistic missile warhead. In production, it was 
expected to be complete by the end of 2019. How are we doing on 
that?
    Dr. Klotz. W76-1 is currently in the production phase. This 
past year, 2014, we past the halfway point. Everything is on 
track for completing the program in fiscal year 2019.
    Dr. Cook. It is meeting its full cost, schedule, and scope 
objectives, right now on track.
    Senator Sessions. Good.
    What about the B61-12, the tactical strategic bomb?
    Dr. Klotz. The B61-12 is in engineering development or 
development engineering. We had a very good year last year in 
terms of the initial tests and in terms of the funding, and it 
is on track to deliver the first production unit in 2020.
    Dr. Cook. Additionally, it is now in its fourth full year 
of full-scale engineering development and again meeting all 
cost, schedule, and scope milestones.
    Senator Sessions. Good.
    The W88 alternate 370, the submarine-launched ballistic 
missile warhead.
    Dr. Klotz. Senator, this is one of the significant changes 
in this year's budget submission. We had originally intended to 
do an alteration to the W88 affecting its arming, fusing, and 
firing assembly, as well as some other limited life component 
changes to the warhead. Based upon ongoing surveillance 
conducted by our laboratories and our plants, we detected an 
aging issue, and it made sense to us and to the United States 
Navy that when we bring these warheads back for this 
alteration, that we also change out the conventional high 
explosive, which is one of the components within the warhead. 
So that has required a cost increase in this year's budget 
submission. Yet we are still on track for doing the alteration 
and having the first production unit available in fiscal year 
2020.
    Dr. Cook. This one is in its third year of full-scale 
engineering development, and as Under Secretary Klotz said, we 
are adding new scope that results in new cost. But all of the 
existing scope is meeting cost and schedule requirements.
    Senator Sessions. Well, tell me about what do you expect--
my understanding from previous discussions with General Klotz, 
this is a necessary thing. It is an appropriate, wise decision 
to do the explosive replacement at the same time. What kind of 
cost are we looking at? Is that in the budget?
    Dr. Cook. The cost estimate that we have for the whole 
refresh of the explosive is $530 million. We have expended 
about $30 million of that if you look through last year and you 
project this year to the end. It is in the budget. We have 
worked thoroughly with DOD and with U.S. Strategic Command 
[STRATCOM], and we have decided to cut out some other parts of 
the budget giving this higher priority, not requesting 
additional money.
    Dr. Klotz. Senator, if I could just stress, though, the W88 
warhead is a safe, secure, and effective warhead. This is the 
reason why we have a scientifically based stockpile stewardship 
program. We surveil these systems as they age, and we are 
trying to prudently head off a problem down the road while we 
are doing the already scheduled work on the W88. This decision 
was endorsed by the Nuclear Weapons Council and by the Navy. So 
we are going forward as a joint team on this.
    Senator Sessions. Good.
    And one more and I will go to Senator Donnelly. The W80-4, 
the air-launched cruise missile warhead.
    Dr. Klotz. Another change, Senator, to our budget 
submission this year. In the last year's budget submission, we 
had forecasted providing the first production unit in fiscal 
year 2027. That is how the budget was built. Again, because of 
discussions with DOD and STRATCOM and the Air Force over its 
requirements for a follow-on to the air-launched cruise 
missile, a system that has been in the Air Force for decades 
now, they wanted to deliver that capability earlier, and so we 
have moved up the delivery of the first production unit from 
2027 to 2025 with this budget request. And again, the 
additional cost for that acceleration is covered within our 
budget submission.
    Dr. Cook. This W80 Mod 4, as it is now called, is in the 
first phase 6-1, where we get the requirements right. We lay 
out the approaches to be taken. We are doing that analysis. We 
will conclude that work by June of this year, so just a couple 
of months. And then we will begin the phase 6-2. Again, it is 
meeting cost, scope, and schedule requirements and is strongly 
joined by the Air Force, STRATCOM, and NNSA. And given a down-
selection to the W80 family made by Nuke Weapons Council last 
year, that is progressing well.
    Senator Sessions. Good.
    Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    Administrator Klotz, in regards to the cost analysis and 
program evaluation office that was created in the NDAA 
[National Defense Authorization Act] for Fiscal Year 2014, are 
you still fully committed to filling that out?
    Dr. Klotz. Yes, Senator Donnelly, we are. We have worked 
very closely with the DOD Cost Assessment and Program 
Evaluation (CAPE) organization in putting together a staffing 
plan, as well as a training plan to have a similar capability 
within NNSA. We formally chartered that in September of this 
past year, and we are beginning to build out the number of 
people in the organization. We ultimately expect to have 18 
people, Federal employees, in the organization by 2017, and 
nine people by the end of this year. We currently stand at 
seven Federal officials in the office.
    Senator Donnelly. Well, that kind of leads into last year 
we upped the number of personnel to 1,690 positions. I was 
wondering what your long-term projections are for personnel, as 
well as the skill mix that you see.
    Dr. Klotz. Well, first of all, Senator, I would like to 
actually thank this committee for their help and assistance in 
preventing the cap which was set at 1,690 last year from being 
even lower than we feared it might by in the fiscal year 2015 
legislative cycle.
    NNSA staff has decreased by 10.4 percent since 2012. Yet at 
the same time, the scope and scale of our work has greatly 
expanded. As Senator Sessions just led us through, we have four 
ongoing life extension programs. We have three major capital 
construction projects. Yet the NNSA manpower to oversee this 
work and to look out for the Government and the taxpayers? 
interest is decreasing.
    By the way, this is not the way in which DOD does work. For 
instance, in the B61-12 life extension program, NNSA's 
responsibility for that joint program is $8.1 billion, and the 
Air Force is $1.6 billion. But to do our work, we have 20 
people for $8.1 billion, whereas the Air Force has 93 Federal 
officials and contractors for $1.6 billion. So our people are 
stretched. We are asking them to do a lot. So the 1,690 cap--we 
would hate to see that go any lower this year. In fact, we 
would actually like to see it lifted a bit.
    Senator Donnelly. Ms. Harrington, the NNSA is a world 
leader in emergency response to nuclear incidents. What are we 
doing to help build capacity around the world so other 
countries can deal with the same kind of events that we are 
training for constantly?
    Ms. Harrington. Thank you for that question.
    The international emergency response programs have 
leveraged what we do here domestically in emergency response. 
Our International Emergency Response Cooperation (IEMC) 
program, has adapted our domestic emergency training programs 
and other capacity-building programs, including development of 
plans and procedures, drills. Particularly important are the 
exercises. We help other countries organize and other 
assistance as requested worldwide.
    We use the same personnel for these international programs 
and to train people internationally that we use here in the 
United States to do the same thing. So we take the best of the 
best. And most importantly, we are working with the 
International Atomic Energy Agency to help build their 
capacity.
    Senator Donnelly. Let me ask you. One of the major programs 
you work with is installing radiation detectors at ports and 
border crossings and similar things. And some have said maybe 
this does not have as much value because it is easy to simply 
smuggle the materials around these sites. What do you think of 
that claim?
    Ms. Harrington. I have to confess that when I hear that 
sort of thing, I wonder what else would you do. Every one of 
us, when we go through an airport, has to walk through a 
detector, and that is there for a purpose because if you try to 
go around it, the TSA will not think kindly of it and will 
probably escort you aside to give you a secondary inspection. 
The same is true when you look at border crossings, airports, 
seaports.
    But what is important here, just like in an airport, a 
detector is not effective on its own. It takes people. It takes 
training. It takes other capabilities along with it. For us, 
that means mobile units. That means handheld units. That means 
reaching out to local law enforcement, local intelligence, and 
bringing them all together as a community to work together on 
this counter-smuggling effort.
    So when people try to say, well, you just stick one piece 
of equipment someplace, it is not going to work. We would agree 
with that. But that is not what we do. That is not how we 
design our programs. And we just actually had--I did not bring 
this for this reason, but we have a little quarterly 
newsletter, and a couple of the articles in here happen to be 
about how we work with the Federal Bureau Of Investigation to 
develop training programs because we believe that that is an 
essential element of how we actually are successful in 
preventing smuggling.
    Senator Donnelly. Thank you.
    Senator Sessions. Senator Fischer?
    Senator Fischer. Thank you, Mr. Chairman.
    Thank you all for being here today.
    General Klotz, it is great to see you again. I really 
appreciated the tours we had of the two facilities in New 
Mexico but also Lawrence Livermore. It was very educational. 
And again, thank you for doing that.
    General, there is concern that investment in the 
laboratories is really too limited right now to be able to 
support any kind of balanced portfolio. You know, we are 
looking at production and modernization, which should be, I 
think, the first priority, but you also have to meet necessary 
scientific capabilities. We need to look at infrastructure. We 
have to look at attracting creative minds that are able to not 
just refurbish the weapons that we have but have an 
understanding of how to create those weapons as well if we are 
going to, I think, continue to be prepared in the future.
    How do you approach that necessary need to balance?
    Dr. Klotz. Well, thank you very much, Senator, for that 
question. And I will give, if I could, a broad, general 
comment, and then, of course, Dr. Cook, who is the scientist 
here, might like to add something.
    You are absolutely right. The scientific, technical, 
engineering base that we have to do this work is essential not 
only for production but for maintaining our capability over the 
longer term, but also addressing other pressing national 
security needs which all of our laboratories do. So we need to 
make sure that we attract the very best minds out of technical 
schools, the very best minds our of graduate schools.
    The work that they are given at the laboratories, as you 
had an opportunity to see firsthand, is leading edge physics. 
It is leading edge chemistry. It is leading edge materials 
science. And by attracting people in to do that work, giving 
them projects to do under our lab-directed research and 
development, which is an extraordinarily important part of our 
recruitment and retention capability, in many respects draws 
them in and keeps them there to work in this laboratory.
    I have always thought that in addition to the actual 
weapons systems themselves and all the people that organize, 
train, and equip those weapons systems, that our scientific, 
technical, and engineering base is also an essential pillar of 
our overall national deterrence policy and the power that we 
project to nations across the world.
    Senator Fischer. Do you think you are able to then achieve 
that balance right now with the programs you have in place, or 
do you think that it is going to have to be phased in in the 
future, that we take care of the number one priority now and 
then worry about it in the future? Can we do it now?
    Dr. Cook. So we can do some of the balance now. The balance 
will always change. There is no question that the labs and 
plants along with them are under the mission assignment of 
changing the oldest stockpile we have ever had and the smallest 
since the Eisenhower administration to one that is both smaller 
and younger. It has to be just as effective. Labs are not 
developing new nuclear explosive packages, but they are 
absolutely changing things within those packages and they are 
doing it with the best simulation that has ever existed, a 
factor of a million increase since the end of underground 
testing.
    And to give you one example of where excitement is--and it 
comes right directly to the comment by the chairman about cost 
reduction and schedule constraint--it is additive 
manufacturing. So there are ways of really getting right into 
the science of materials, of making parts.
    On the unclassified side, a lot can be published about 
application to non-weapons products. On the classified side, we 
are doing some exceptional work at the Lawrence Livermore Lab, 
Sandia Lab, Los Alamos Lab, and the Kansas City plant. And I 
would invite you to go through any one of those with us. When 
you do that, you can see that excitement is palpable, and it 
drives right to the issue of constraining cost.
    And another very quick example, a very important part of 
additive manufacturing--
    Senator Fischer. I have another question, if I could.
    Dr. Cook. All right. You can see the enthusiasm.
    Senator Fischer. I see the enthusiasm. [Laughter.]
    I am going to pick up on your comment about the smallest 
arsenal since Eisenhower. When you look at the size and the 
cost that is associated with that arsenal, you have commented 
in the past that those two items do not directly correspond to 
each other. Nevertheless, we have some that are calling for 
more reductions, particularly in the hedge that we have, and 
they view that as a way that we can pursue more cost savings.
    First, can you tell me why we have a hedge? Those old 
weapons--they do not have capabilities. I would like you 
publicly to be able to address that. And do you believe that 
reductions in that hedge are going to produce any kind of 
sizable cost savings?
    Dr. Cook. I will try to give you a couple of simple 
concepts.
    We believe that we have to go to the New START force 
balance by 2018. So deployed weapons will come down to the 
central limits of the treaty. In doing so, we also believe that 
we can reduce the hedge, which is the technical hedge, and the 
way we will get there is through the program of life 
extensions. What is not so often understood is that the path to 
reduction of the technical hedge is the path of life 
extensions. That gets us increased confidence. It gets us a 
newer set of weapons. We use parts that we have in the 
technical hedge because we are doing high reuse life extension 
programs. But these too are moving to a smaller, more trusted 
deterrent, which is also newer and has a higher ratio of 
deployed to total, and is entirely within reason.
    Senator Fischer. But would you say cost savings is a false 
narrative when it comes to the hedge?
    Dr. Cook. I would say that with any counting of the weapons 
only, it is a false narrative to think if you cut the numbers, 
you are going to save money. The cost is dependent on many 
other things, and there are large fixed costs.
    Senator Fischer. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Heinrich?
    Senator Heinrich. Well, I want to start out and just thank 
Senator Fischer for making it eminently clear that there is not 
a linear relationship between the number of devices and the 
budget ramifications here. I want to thank you as well for 
coming out to New Mexico to those two facilities, as well as 
the one in California, and invite any of you any time. I know 
many of you have visited those in the past, but please come 
back often.
    Admiral Klotz, I was really pleased to hear you talk a 
little bit about LDRD [Laboratory Directed Research and 
Development] and its importance for long-term retention. I want 
to say that the success I think of the ongoing life extension 
programs generally are largely dependent on the previous 
investments that we have made in programs like stockpile 
stewardship that help maintain the unique capabilities at our 
National labs. And as you know, these capabilities support many 
other Government agencies in addressing not just nuclear but an 
entire variety of national security challenges.
    I would like your thoughts on whether you think NNSA is 
doing enough now to ensure that we continue to have the 
expertise and the technical capabilities to anticipate and 
respond to future security challenges. And in particular, I am 
concerned about the labs? continued ability to attract and to 
retain that top talent that you talked about.
    Dr. Klotz. I think we do, but it is a challenge. As you 
well know, Senator, at all of our laboratories and our 
production facilities as well, a significant portion, in some 
cases more than half in some locations, of our enterprise, more 
than 50 percent of the workforce is eligible for retirement on 
both the Federal side, as well as on the management and 
operation contractor side. So again, attracting those people 
into replace them in a timely fashion is something that we have 
to deal with in many cases in a marketplace where the same 
science and engineering and technical skills are highly sought 
after by startups and high-tech industry.
    So it is important, one, I think that we continue to stress 
to our workforce that what they do is important and it is of 
enduring importance to the security of this country, and that 
they are making a contribution to that.
    Additionally, it is important that we have consistent, 
predictable funding in the work they do. Nothing is more 
dispiriting and demoralizing I think to our workforce than fear 
of whether what they are working on is going to be seen through 
to completion.
    Senator Heinrich. Thank you.
    As you know, technology transfer is incredibly important to 
me. It is a primary issue for me. It is not just a secondary 
one. And this year I introduced a bill, Senate bill 784, with 
Senator Gardner of Colorado to accelerate tech transfer by 
establishing an off-campus micro-lab that would serve sort of 
as a front door for national laboratories. Our 17 national labs 
annually conduct more than $12.5 billion in publicly funded 
research, but often times that is behind the fences. While it 
has proven to deliver a number of spin-off technologies, that 
is a real challenge for the kind of collaboration that we have 
really seen effectively accelerate those things. So the goal of 
this legislation is to give business owners and regional 
academia, even local government greater ability to interface 
with those resources.
    As NNSA Administrator overseeing three of the largest labs 
in the country, I would love your thoughts on this concept 
generally and if the Federal share of funding were available 
from existing tech transfer funds, would you be willing to 
carry out a pilot program at one of the labs to explore this 
concept further and to be able to evaluate the results?
    Dr. Klotz. Thank you, Senator, and thank you for your 
personal interest on this as well. As you know, the NNSA labs 
have already transferred a lot of their innovations to 
industry, a lot of it in the engineering area, but also in 
medicine, in climate prediction, a whole host of issues.
    An ongoing challenge, as you pointed out, has been how do 
you have an interface between the entrepreneurial community and 
the broader academic community when a lot of our work is done 
behind the wire, behind the fence, and there are security 
barriers to doing that.
    So we are very supportive of the efforts that you have 
outlined to accelerate technology transfer within the statutory 
and appropriations constraints that we have to live with. And 
we support the notion of a pilot plant. And as you know, Sandia 
Laboratories has been in the lead in setting up a center for--
or proposing a center for collaboration and commercialization 
in Albuquerque, as well as joining with Livermore National 
Laboratory in setting up the Livermore Valley Open Campus 
concept. So these are things which I know Secretary Moniz is 
very interested in pursuing. In fact, he has set up an office 
especially to do tech transfer, and we in NNSA fully support 
that and will be doing that in our own mission space.
    Senator Heinrich. I look forward very much to working with 
you on that.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    What is the effect of sequestration on your ability to do 
your job if it goes back into effect?
    Dr. Klotz. Thank you, Senator. We think that it would be--
pick your adjective--devastating. It would certainly force us 
to take a look at the programs and projects that we have laid 
out. Clearly many of those programs and projects would have to 
be delayed, which would drive costs even higher for those 
programs, and in some cases might actually have to be 
eliminated.
    Anything that we did in terms of our weapons programs would 
have to be something we would do collaboratively with DOD and 
STRATCOM because we develop a warhead to go on one of their 
delivery systems, and to the extent that that was impacted by 
limits of the Budget Control Act, it would inform how we would 
proceed with our own life extension programs and the scientific 
programs that support those.
    Senator Graham. Would you say it would seriously compromise 
your ability to perform your duties for the country?
    Dr. Klotz. It would have a serious impact, yes, sir.
    Senator Graham. MOX.
    Dr. Klotz. Yes, sir.
    Senator Graham. Okay, our favorite subject. [Laughter.]
    About 60-plus percent built. Do you agree with that?
    Dr. Klotz. There are a number of ways in which you can say 
``percent built.'' I will not argue with you over 60 percent.
    Senator Graham. Some say 67. I say 60. It is over half 
built.
    Dr. Klotz. We agree with that, over half built.
    Senator Graham. The treaty with Russia regarding the MOX 
program takes 30-something tons of weapons-grade plutonium off 
the market in Russia and the United States. That is a good 
thing. Right?
    Dr. Klotz. Absolutely.
    Senator Graham. Maybe one of the best nonproliferation 
agreements we have negotiated with anybody.
    Dr. Klotz. Yes, sir.
    Senator Graham. We do not want to lose that.
    Dr. Klotz. No, sir.
    Senator Graham. In 2010 in the last update of the treaty, 
the United States said that we would use MOX as the disposition 
method. Is that correct?
    Dr. Klotz. That is correct.
    Senator Graham. So over half built, 60 percent. At the end 
of the day, they are studying alternatives. I have been looking 
at this since the 1990s. I do not see an alternative that is 
workable, that saves money, but I guess we will wait and see.
    From your point of view, to abandon the disposition of this 
material, would that be wise?
    Dr. Klotz. Senator, like you, we will be very interested in 
the results of the reports, which were mandated by Congress. 
The first one is due now and will be out within a matter of 
days. It will look at two alternatives: the MOX alternative, 
the one we have now, as well as an alternative that is referred 
to as----
    Senator Graham. Right. I guess my question is you would not 
suggest that we just basically withdraw from the treaty.
    Dr. Klotz. No, sir.
    Senator Graham. So we are going to do something with this 
material.
    Dr. Klotz. We should do something with this material.
    Senator Graham. If we do not, we are making a huge mistake.
    Dr. Klotz. I would not disagree with that.
    Senator Graham. The last thing you want to do right now 
with the Russians is break a treaty with them over reducing the 
amount of weapons-grade plutonium they possess.
    Dr. Klotz. Yes, sir.
    Senator Graham. So all I ask of the NNSA is that when we 
look at these alternatives, we understand that the goal is 
still the same, which is to alleviate the material. We have 
made a treaty with the Russians to go the MOX route. I have no 
interest in going back to the Russians and saying, hey, would 
you work with us to change this because I do not think that is 
particularly smart right now. We will stay on top of the cost, 
and when we get these reports, I look forward to talking to 
you.
    But at the end of the say, South Carolina, Mr. Chairman, 
has agreed to accept this weapons-grade plutonium years ago, 34 
tons, enough to build thousands of warheads. Is that fair to 
say?
    Dr. Klotz. Yes.
    Senator Graham. How many would you say, Ms. Harrington?
    Ms. Harrington. 34 tons divided by 8 kilograms per weapon.
    Senator Graham. So what does that come out to? Thousands.
    Ms. Harrington. Thousands.
    Senator Graham. Okay. So we got thousands of warheads that 
can be made from this material, 60 percent completion of the 
disposition method. South Carolina signed up for this a long 
time ago understanding certain things would happen. From the 
Department's point of view, the last thing you want to do in my 
view is to tell the State that you are going to do something, 
get the State to sign up for a mission that is--you know, this 
is pretty tough stuff, taking weapons-grade plutonium in your 
own State--and bail out on them. You do not want to bail out on 
the Russians. You do not want to bail out on South Carolina. So 
please understand that how we deal with the MOX program is 
going to affect a lot of things in the future.
    Dr. Klotz. Yes, sir.
    Senator Graham. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Sessions. Thank you.
    If the sequester remains in effect, which the budget we 
passed does not--or at least provides more money for the 
Defense Department, what percentage of reduction in your 
numbers--was it $8.9 billion we are scoring you to have next 
year? Can you give an exact figure or would you know what it 
would be if the sequester stayed in place?
    Dr. Klotz. Our overall budget request was for 12.6.
    Senator Sessions. I have 8.9. What is the difference? What 
are we talking about?
    Dr. Klotz. So in the weapons activities, that is the 8 
percent, that portion of it. Again, it would depend on how--
since we and the rest of the Defense Department all draw from 
the 050 budget account, it would depend on how things were 
allocated--
    Senator Sessions. DOD would make some allocation choices.
    Ms. Harrington, Mr. Trimble mentioned the Russians and the 
ceasing of cooperation. We just have a few minutes, but can you 
give us briefly where we are with cooperation with the Russians 
on nonproliferation and what that means for us?
    Ms. Harrington. Certainly, Mr. Chairman.
    As you know, we have over 2 decades very close cooperation 
with the Russians, and we are very disappointed to see that 
Russia has chosen not to continue to work with us. We continue 
to view Russia as still being one of the highest risk countries 
in the world. They have huge stockpiles of highly enriched 
uranium and plutonium, and despite the fact that we, in 
partnership with our labs, have helped them improve their 
practices, improve their security, develop training programs, 
even helped them set up their own training center for security, 
we still lack the confidence that they recognize the scope of 
the problem, the issue of dealing with insider threats, and 
quite frankly, the materials that we have seen being smuggled. 
Real nuclear materials smuggled have all come out of the former 
Soviet Union.
    Senator Sessions. What kind of history can you share with 
us of actual smuggling of nuclear materials out of Russia?
    Ms. Harrington. We would be happy to come back in a 
classified setting and share that detailed information with 
you.
    Senator Sessions. Okay.
    Now, when you say they have ceased to cooperate, to what 
extent does that create risk? Can you give specific examples in 
this public setting?
    Ms. Harrington. Well, for example, one of our primary 
efforts in Russia--and it was a very unique opportunity--was to 
work with them not just on stockpiles, but actually work with 
them on the security of the facilities where they store their 
warheads. So extremely important in terms of maintaining 
control over the most single largest threat that could be posed 
against us. So that kind of work we are no longer able to do 
directly with them.
    Senator Sessions. They said no longer can you come to our 
facilities?
    Ms. Harrington. Correct.
    Senator Sessions. Did they explicitly state the reason for 
that?
    Ms. Harrington. They have stated that in the future they 
will be able to fully support all of the security programs that 
we had developed with them by themselves. They will support it 
out of their budget, and because they will be funding it, they 
do not see a need for us to be on site.
    Senator Sessions. General Klotz, the January 15 STRATCOM 
report on balance in nuclear weapons programs suggests that due 
to the current funding emphasis on certifying the nuclear 
stockpile and performing life extension programs on aging 
weapons, there may be insufficient funding and science activity 
to, ``prepare to respond to future uncertainties.'' And there 
is concern about losing, quote, a full design and production 
capability. Close quote.
    What can you do to ensure our labs maintain a responsive 
design capability to address future uncertainties?
    Dr. Klotz. Thank you, Mr. Chairman.
    That is also a concern we share. As Dr. Cook mentioned 
earlier--I will let him amplify if he would like--striking a 
balance between the production that we need to do today, which 
depends an awful lot, obviously, on science and engineering, 
and for the future is one that we have to pay attention to and 
that we worry about, particularly with an aging workforce both 
on the Federal and the laboratory and plant production sides. 
But the work that our scientists, technicians, and engineers do 
at the laboratories and in the production facility really is 
leading edge physics, chemistry, materials science, computing 
science, and I think that the skill that they developed in 
terms of working with the existing systems and keeping them up 
to date provides the basic necessary requirements they would 
have to have for any future contingencies that would arise.
    Dr. Cook. If I were to add to that----
    Senator Sessions. Please, go ahead.
    Dr. Cook. Briefly, in the 2 decades since we stopped 
underground testing, it took about a decade to put the 
facilities in place for stewardship. It took about another 
decade to really get them under control, get the diagnostics 
there, get the people trained. We have achieved that now. There 
are still refinements to be made, but at all of the labs, they 
each now have facilities that are driven to get uncertainties 
down in the simulations that we have. And over the last 2 
years, with stable budgets and your support, we have achieved 
the level of experimental productivity in laser experiments and 
accelerated experiments and hydrodynamic experiments, explosive 
experiments that are really challenging the people and driving 
the codes. That comes right to the issue of challenging people. 
A lot of good training of people who have university 
backgrounds, but they are not trained in the weapon program 
until they get in the labs. All of that really is going on. And 
that is a part of the program that is not often seen.
    Senator Sessions. Thank you. I do think good, challenging 
work that is important to America is a motivating factor and 
keeping people busy is better than not being busy. Do you not 
agree?
    Mr. Trimble. Absolutely.
    Senator Sessions. This is important work and we need to 
make sure our people are properly challenged.
    Senator Donnelly?
    Senator Donnelly. I just have a couple of questions I would 
like to follow up with, somewhat along the same line, Dr. Cook. 
Much has been commented regarding balancing, overhauling the 
aging stockpile, and keeping our scientists at the forefront to 
hedge against uncertainty. So how do you work that nuance of 
achieving the balance between the two?
    Dr. Cook. The short answer is through appropriate 
challenges. An immediate example right now is with the W80 Mod 
4. In a modern way of looking at the alternatives we have, we 
are really challenging the labs to use their best codes, their 
best people, and get into some experimental data instead of 
guessing about what the results are with regard to a materials 
model, the behavior of materials, for example.
    Another way is looking at all the concepts and the ways 
that we could run the interoperable weapons for the Air Force 
and the Navy. While that effort is delayed, we have got some 
time to really go through in a more formal way challenging the 
people to look at some things that would otherwise be 
considered out-of-the-box and too risky. And so I am back to 
the experiments again. Experiments are being done with 
explosives driving both surrogate material and then in Nevada 
now plutonium to determine whether some of the ideas for 
improving things, including stuff like additive manufacturing 
and less toxic materials, can actually pay off. That is the way 
we get the balance. The engineering side very heavily taxed, 
but as the chairman just said, we are absolutely keeping the 
design side as challenged as we can.
    Senator Donnelly. Thank you.
    Mr. Trimble, follow up a little bit on MOX. What do you see 
as the root causes of the large cost overruns that have 
happened there?
    Mr. Trimble. In I think it was 2014, we did a report 
looking at MOX and the cost increases. We were trying to get at 
that issue of what were the cost drivers. At the time, DOE had 
not done a formal root cause analysis. They had identified some 
areas that they believed are the reasons for their cost 
increases such as unanticipated safety requirements from the 
NRC and other things. As a result of that work we did, we 
recommended they conduct a formal root cause analysis.
    In January 2015, DOE came out with their root cause 
analysis. They identified three key areas driving those cost 
increases. One was the lack of experienced staff. One was the 
lack of alignment of contract incentives with performance, and 
one was the atrophy of the supply chain.
    We have now gone back to look at that analysis that they 
have done to see how thorough it was, or sometimes in the past, 
we have had concerns that what have been identified as causes 
are not really necessarily a reason, for example, if you had 
lack of experienced staff. The real cause is what led you to 
have inexperienced staff on that case. So those are the kind of 
questions we would look at.
    I think one of the things that was interesting was that out 
of that root cause study, they came up with a number of 
recommendations. 11 recommendations came out of DOE's root 
cause study. I think that speaks to another recommendation we 
had in that report, which was for DOE to establish a 
requirement to always conduct a root cause analysis when your 
cost increase or your schedule delayed by about 25 percent. 
This is like on the DOD side. I think it is the Nunn-McCurdy 
breach, if I am remembering correctly. We had a recommendation 
for DOE to pursue the same thing when they had a similar kind 
of overrun in their programs. Unfortunately, DOE disagreed with 
that recommendation.
    Senator Donnelly. Thank you.
    Admiral, we would not want you to come all the way over 
here without throwing a pitch your way. So you are building a 
new spent fuel rod--a new spent fuel pond--I am sorry--at the 
Idaho National Lab. It has gone backwards a little bit due to 
the lack of appropriations. And I was wondering if you can 
explain the importance of this effort and what the delay has 
cost the program and what the cost will be if it continues this 
way.
    Admiral Richardson. Senator, thanks for the question, and 
thank you very much to everybody on the committee for their 
firm support of naval reactors.
    As I begin to answer the question, I would just like to 
compliment General Klotz and my colleagues in articulating the 
challenges that they share. And naval reactors, by virtue of 
managing the naval nuclear propulsion program from cradle to 
grave, shares all of those challenges whether it has attracted 
the right people, maintaining the right tools and equipment, 
and the infrastructure. All of those challenges, including tech 
transfer--we share those inside the naval nuclear propulsion 
program.
    Part of our challenge today is to recapitalize a spent fuel 
handling facility. To call it a pond is really to oversimplify 
it.
    Senator Donnelly. That would be my specialty. [Laughter.]
    Admiral Richardson. It is an absolutely critical node in 
our management of our program. All of the naval nuclear spent 
fuel goes to that facility for eventual processing and 
transition into dry storage, awaiting shipment to a national 
repository when ready. Without a facility that manages that 
production line efficiently to meet fleet needs, we would 
quickly become backed up and we would have to bring aircraft 
carriers and submarines and leave them next to the pier rather 
than underway.
    By virtue of the delays, we have incurred some costs, and 
before I describe those, I would like to say, though, that 
particularly in the last year, we got a tremendous signal from 
Congress to start funding of that facility in a serious manner, 
and we have come out of the blocks at a sprint to reach 
critical decision one. We are ready to publish our 
environmental impact statement this year. And so we are moving 
out briskly to move this down the track.
    It has cost us some. We have been delayed about 5 years 
from our original plan. That has resulted in about $400 million 
in escalation and inefficiency costs just moving the facility, 
as well as $500 million to buy temporary storage containers to 
store aircraft carrier fuel until the new facility is built. So 
we had a plan in place to recycle those containers. With the 
delay in the facility, there is no place to recycle them 
through, and we have to just store it and build temporary 
facilities.
    Going forward, we would see the same thing if it was 
delayed further. But as I said, I think we are off and running 
on that. We anticipate starting construction on that after 
getting the design very mature in about 2019, bringing the 
facility online in 2024, fully operational in 2025.
    Senator Donnelly. Thank you, Admiral.
    Senator Sessions. Senator Heinrich?
    Senator Heinrich. Thank you, Mr. Chairman.
    Dr. Cook, I understand that there may be a need in the 
future for a new source for tritium production. As you know, 
that only has a 12-year half-life. To produce tritium in a 
commercial power reactor and provide a new domestic facility to 
enrich the uranium fuel could literally cost taxpayers several 
billion dollars. In your view, could we secure enriched uranium 
instead from our allies such as in the UK to be used for 
tritium production instead of spending this very large amount 
of money, which inevitably would come out of the weapons 
budget?
    Dr. Cook. I will answer the first part of this, and then I 
will turn to Under Secretary Klotz for the second part.
    The first part is for the current supply of unobligated 
uranium, we are good for a period time. We know what the time 
is. And we actually provide tritium to the entire stockpile. So 
we know what the needs are.
    With regard to other sources of uranium, we are doing an 
in-depth study, but that might only get us down a period of 
time. Eventually the country needs a domestic source of uranium 
enrichment not only for tritium production, which we do with 
low-enriched uranium, but also for naval propulsion, which 
requires a higher level of enrichment. So we will not dodge 
that bullet, but we might extend the time if we find some more 
material. Nevertheless, we are adhering to the State Department 
and its obligations, our obligations, under existing treaties.
    Is there anything you wish to add?
    Dr. Klotz. The only thing I would add is we have to ask 
ourselves if we a major nuclear power--and we are--do we need 
the capability to do some of the basic things associated with 
being a major nuclear power, and that is providing low-enriched 
uranium to produce our own tritium as opposed to relying upon 
even our closest allies and friends, and over the longer term, 
developing highly enriched uranium ultimately for the U.S. 
Navy, which uses it in over 40 combatant ships.
    So this is an issue which the Congress has asked us to 
provide a report on in terms of what our tritium needs are, 
what our low-enriched uranium needs are in order to produce 
tritium, and that should be coming out very, very shortly.
    But again, I think the fundamental question is what do we 
as a Nation need in terms of capability in this regard.
    Senator Heinrich. Well, I would certainly suggest we should 
also look at the cost/benefit analysis there as well.
    Thank you.
    Let us see. One last question I guess for Administrator 
Klotz. Can you speak to whether there are any plans for the 
National labs to work with IAEA [International Atomic Energy 
Agency] in order to make sure if there is potential for adding 
additional trust and confidence to the inspections that are 
planned under the recent framework that was announced with 
Iran? Can you speak at all to whether or not there would be 
opportunities there for adding additional levels of security to 
that arrangement?
    Dr. Klotz. Let me just say at this stage, Senator, that as 
Secretary Moniz has said in his public statements and I believe 
in his briefings to Members of both houses, that a lot of the 
policy decisions that were part of the negotiation process were 
informed by the technical knowledge, expertise, and analysis 
that was done within our labs and within our production 
facilities. And I would expect that that would be an important 
part of further steps in bringing about an agreement and, if an 
agreement, implementing that agreement.
    Senator Heinrich. Well said. Thank you.
    Senator Sessions. Thank you.
    We thank you all.
    I would ask General Klotz. On the basis of money expended 
and the estimated cost of the MOX lab, what percentage of the 
money expended are we at at this point?
    Dr. Klotz. Senator, that depends upon your assumption of 
how long--what the annual appropriation will be, what we will 
spend on that, and how long it would take to finish the 
project. The longer we take to do it, the more the cost will 
be, and therefore, our cost to go would vary. I do not know if 
there is anything we would add to that.
    Senator Sessions. So you do not have a percentage.
    Dr. Klotz. I do not have a percentage. It depends on your 
assumption of how much we are going to fund that. You know, 
funding it at the current level, as Secretary Moniz has said, 
is not optimal funding, if what you are trying to do is to 
bring the project to closure. The less you spend, the longer it 
takes to bring the project home and the more expensive that is. 
So what we have spent to date would be a function of how long 
we expect that we would take to complete the project.
    Senator Sessions. The criticism at NNSA has been that you 
have been unable to plan, manage, or oversee and hold 
accountable a nuclear weapons expertise on time, within cost. 
The Mies-Augustine congressional advisory panel on the 
governance of the nuclear security enterprise found 
mismanagement at DOE and NNSA to be largely to blame for these 
flaws. The NDAA for Fiscal Year 2015 directed you, 
Administrator Klotz, to provide views on this panel's 
recommendations. We have not received those yet I believe. Do 
you expect to have your reviews on that?
    Dr. Klotz. Yes. I hope that this will come up here very, 
very soon. It is still in the coordination process within our 
own Department.
    Senator Sessions. So, Mr. Trimble, do you have anything to 
add to that discussion of where we are and any ideas for 
corrective action?
    Mr. Trimble. Well, I think in my opening statement, my 
general comment is I think there are some areas where we have 
made specific recommendations where I think progress could be 
made in terms of cost estimating and analysis of alternatives, 
looking at programs. I think work we have ongoing that will be 
out later this year looking at contract management and reliance 
on contractor assurance systems will also dovetail nicely with 
the Mies report.
    Senator Sessions. With regard to, I think, Senator 
Heinrich's question, maybe to follow up on that, General Klotz 
what is NNSA's assessment concerning the ability of Iran to 
mount a future nuclear weapon atop an ICBM or cruise missile? 
And do the National labs have expertise that contributes to 
that discussion and analysis?
    Dr. Klotz. Well, in terms of specific capabilities of Iran 
or any country, I think we would have to discuss that in a 
smaller setting. But again, as responded to the Senator from 
New Mexico, there is extraordinary capability within our 
laboratories to do the types of research and analysis that can 
help inform our policymakers as they deal with----
    Senator Sessions. And they are doing that now? And there 
are no prohibitions that you are aware of in that cooperative 
effort--law or policy.
    Dr. Klotz. In terms of informing policy, no.
    Senator Sessions. Well, thank you all. It is an important 
hearing. You have a very important role in the National 
security. My impression, I will state again, is that some of 
the complaints that have been outlined, GAO and others, are 
being addressed effectively, and I have a sense that there is a 
tighter control and a more focused operation ongoing under your 
leadership, General Klotz. And we thank all of you for what you 
do. We appreciate your cooperation and service.
    We are adjourned.
    [Whereupon, at 3:46 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
           Questions Submitted by Senator Angus S. King, Jr.
                        ohio replacement program
    1. Senator King. Admiral Richardson, can you explain how you are 
synchronizing the development of the new reactor plant for the Ohio-
class replacement submarine, with the development of the submarine 
itself?
    Admiral Richardson. Naval Reactors is advancing the design of the 
Ohio-class Replacement propulsion plant on the schedule laid out in 
2010. The only change to the original schedule stems from the Navy's 
decision to delay construction of the first ship from fiscal year 2019 
to fiscal year 2021; Naval Reactors adjusted the propulsion plant 
development timeline to maintain alignment with the Navy following the 
schedule shift.
    Naval Reactors' Departments of Energy and Navy efforts are directed 
at supporting this schedule, including development of the propulsion 
plant design to support procurement of long-lead components in fiscal 
year 2019 to enable a construction start in fiscal year 2021 and ship 
delivery in fiscal year 2028. After completing ship operational 
testing, the first Ohio-class Replacement must be on strategic patrol 
by 2031 to meet STRATCOM force level requirements. Given that the first 
Ohio-class Replacement submarine, a ship twice the size of the 
Virginia-class submarine, is planned to be constructed within the same 
span of time, this schedule is aggressive and requires close coupling 
of Department of Energy and Department of Navy activities to ensure on 
time ship delivery.
    To achieve this alignment, the design team has been in close 
coordination with the Lead Design Yard (Electric Boat) and Navy 
Leadership. The Chief of Naval Operations, in coordination with the 
Joint Staff, sets the ship requirements that drive decisions on reactor 
plant size and performance. The Navy's Program Executive Officer for 
Submarines and Naval Sea Systems Command coordinate with the Ohio-class 
Replacement Lead Design Yard, who is responsible for translating ship 
capability requirements into the overall submarine design 
specifications. As part of this overall coordination, Electric Boat 
developed a detailed construction schedule that specifies the required-
in-yard dates for reactor heavy equipment, which is needed early in the 
build period, to support the construction timeline. These required-in-
yard dates feed back into the design schedule to ensure that the design 
and follow-on component fabrication schedules are also aligned.
    In addition to the coordination between Naval Reactors and the 
Navy's shipbuilders, the design and construction of Ohio-class 
Replacement requires extensive coordination and alignment with the 
Navy's Strategic Systems Programs that are responsible for the missile 
systems and the British Navy, who will use the Common Missile 
Compartment design in their upcoming fleet ballistic missile submarines 
(SSBNs). Because they each depend so heavily on each other, these four 
design efforts must all remain tightly aligned and in close 
collaboration to retire risk early and minimize construction costs.
    Given the criticality of Naval Reactors' Department of Energy 
activities which are aligned to Navy priorities and mission, strong 
support for Naval Reactors' Department of Energy budget is absolutely 
critical to this facet of the nation's security.

    2. Senator King. Admiral Richardson, are there any points of risk 
that this subcommittee should be aware of as the Navy undertakes this 
massive project?
    Admiral Richardson. The Program remains on track to support reactor 
plant heavy equipment procurement of long-lead components in fiscal 
year 2019 enabling the lead ship construction start in fiscal year 2021 
and ship delivery in fiscal year 2028. After completing ship 
operational testing, the first Ohio-class Replacement must be on 
strategic patrol by 2031 to meet STRATCOM force level requirements. 
Within this aggressive program, two areas warrant special attention: 
ensuring the integration of the electric drive components into a fully 
functioning system meeting the Ohio-class Replacements' stealth 
requirements; and the manufacturability of the new cladding material 
for the life-of-the-ship reactor. My staff is focused on ensuring Naval 
Reactors delivers both of these technologies to the Navy. The risks are 
well known and a plan is in place to retire them, but it is a multi-
year plan that requires firm funding support. With that support, 
combined with our past record and experience, these integration 
challenges are manageable and currently support the construction of the 
lead ship starting in f 2021.

              nnsa management and modernization challenges
    3. Senator King. Mr. Trimble, the Government Accountability Office 
(GAO) has identified a number of challenges the National Nuclear 
Security Administration (NNSA) faces in its plans to modernize the 
nuclear security enterprise. How many of those challenges are a result 
of unpredictable budgets versus structural problems?
    Mr. Trimble.
    GAO has not conducted work specifically focused on the extent to 
which unpredictable budgets or structural problems present challenges 
to NNSA's modernization plans.
    Our work on budget estimates for modernization has shown that at 
the top line, funding for NNSA modernization activities has been fairly 
close to the levels originally planned in 2010 for budgets through 
2019. However, there have been more significant changes from year to 
year at the individual program level, including instability in the 
schedules for major modernization efforts:

    <bullet>  The schedules for life extension programs have changed 
every year that GAO has evaluated them, which results in budgetary 
shifts.
    <bullet>  The schedules for construction of replacement plutonium 
and uranium facilities have significantly shifted and the scopes of 
these projects remain in flux.

    Our work has also shown weaknesses in cost and budget estimation 
processes that inform plans to modernize the nuclear security 
enterprise.

    <bullet>  GAO has made numerous recommendations to correct NNSA's 
project management problems--for example, for improving cost estimating 
capabilities and employing a rigorous analysis of alternatives to 
ensure that key capital asset and program decisions will both meet 
mission needs and be cost-effective. While NNSA has initiated some 
actions and made some progress, the agency has not taken action on many 
of these recommendations, which suggests a lack of urgency or 
commitment on DOE's part to address identified challenges.

    Also, as we noted in our high risk update (February 2015), NNSA 
does not have the capacity (people and resources) to resolve contract 
and project management problems. NNSA has taken some actions to address 
capacity issues, but these actions have not yet ensured that the 
department has the capacity to fully address its contract and project 
management challenges.
                                 ______
                                 
             Questions Submitted by Senator Martin Heinrich
                      los alamos transuranic waste
    4. Senator Heinrich. Dr. Klotz, my understanding is that the 
Department of Energy's (DOE) Office of Environmental Management is 
taking over management of the cleanup and disposal of transuranic 
wastes at Los Alamos National Laboratory (LANL). Much of the waste to 
be disposed of is legacy waste; however, how will the NNSA coordinate 
with the Office of Environmental Management for disposal of plutonium 
waste that is generated in future LANL operations?
    Dr. Klotz. The Secretary of Energy has directed NNSA and EM to 
transition the acquisition and management of EM-funded legacy cleanup 
work at Los Alamos from NNSA to EM. EM will assume direct management of 
prime contracts established for EM-funded cleanup work at Los Alamos. 
The Secretary has further directed that the two organizations work 
collaboratively to accomplish the transition so as to avoid gaps in 
responsibilities and minimize to the extent practicable duplication of 
effort or overlapping responsibilities. Since 2001, the National TRU 
Waste Corporate Board serves as a consensus-building and advisory body 
to the Assistant Secretary of Environmental Management to integrate DOE 
TRU Waste Complex disposition activities. NNSA and EM have protocols to 
facilitate coordination specifically on facilities and infrastructure 
issues related to TRU waste management at LANL to supplement existing 
coordination mechanisms. This includes legacy TRU waste and the newly 
generated waste from future operations. EM and NNSA employees at LANL 
and at Headquarters are in near-daily contact and participate on 
integrated project teams, review committees, and working groups 
together. NNSA and EM interact on a daily basis through our respective 
staffs in the Field and Headquarters with the more-formal coordination 
mechanisms discussed above, and in participation with integrated 
project teams, review committees, and working groups. We will continue 
with this approach as the contract transition activities progress over 
the next 18-24 months.
             replacement of the cmr building at los alamos
    5. Senator Heinrich. Dr. Klotz, my understanding is that Los Alamos 
is starting to transfer operations from the old Chemistry and 
Metallurgy Research (CMR) building into PF-4 and the new Radiological 
Laboratory, Utility and Office Building (RULOB). Once the transition is 
complete, which office will assume responsibility for managing the 
demolition and disposal of the old CMR building--the NNSA or the Office 
of Environmental Management?
    Dr. Klotz. Facilities transfer to the Office of Environmental 
Management (EM) only after an EM review has confirmed the facilities 
meet the transfer criteria in accordance with DOE Order 430.1B, Real 
Property Asset Management. The program ultimately responsible for 
demolition cannot be presumed until after EM has conducted its review. 
The Department's management of excess facilities such as CMR is the 
subject of an ongoing Department level review. Plans for CMR will be 
finalized within the framework of the results of that review.
                   doe's emergency operations center
    6. Senator Heinrich. Ms. Harrington, you are responsible for 
maintaining the Department's Emergency Operations Center for nuclear 
terrorist incidents as well as incidents such as fires and releases of 
radiation at DOE facilities, such as the Waste Isolation Pilot Plant 
(WIPP) in New Mexico. Have you conducted an internal review of how well 
the emergency operations center responded during the two incidents at 
WIPP in February 2014 and were you satisfied with the performance?
    Ms. Harrington. The NNSA Office of Emergency Operations manages the 
Department of Energy's (DOE) Emergency Operations Center (EOC), which 
maintains situational awareness of the DOE complex. In addition to 
providing situational awareness, the DOE EOC provides headquarters 
awareness and expertise for incidents requiring departmental decision, 
including performing notifications, disseminating information, and 
providing subject matter support. The emergency response to the 
incident at the Waste Isolation Pilot Plant was managed on the ground 
by the Nuclear Waste Partnership LLC. A review of the incident found 
there were delays in notification to the DOE EOC. In accordance with 
DOE Order 151.1C, Comprehensive Emergency Management System, State and 
local officials, the Cognizant Field Emergency Operations Center (EOC) 
and the Headquarters Operations Center must be notified within 15 
minutes and all other organizations within 30 minutes of the 
declaration of an emergency. By design and in practice, the DOE EOC is 
the first government official to be notified by the LLC. Once notified, 
the DOE EOC responded in accordance with Departmental policies. While 
the EOC acted in accordance with policy, there is room for improvement 
in terms of coordination with the sites to ensure timely notifications. 
DOE continues to work with all its Sites and Facilities to ensure 
reporting requirements are fully understood; communications gaps are 
identified and resolved; and enterprise-wide situational awareness and 
emergency management are enhanced. To address gaps, DOE is currently 
working to revise DOE Order 151.1C on emergency management to alleviate 
inconsistent interpretation and implementation of requirements at some 
DOE sites and incorporate lessons learned.
                 schedule to restart operations at wipp
    7. Senator Heinrich. Mr. Trimble, I understand the GAO has been 
reviewing the plans and schedule to restart limited operations at the 
Waste Isolation Pilot Plant as soon as fiscal year 2016. What are GAO's 
observations about the current schedule to resume normal operations and 
the planned restart process?
    Mr. Trimble. As you noted, we are conducting an ongoing review for 
this committee on DOE's plans to restart the WIPP facility. In 
particular, we are assessing (1) actions DOE is taking to improve the 
oversight of the contractor responsible for operating the WIPP 
facility, (2) the extent to which DOE has reliable cost and schedule 
estimates for restarting the facility, and (3) whether DOE used a 
reliable process for selecting its proposed solution for upgrading the 
WIPP ventilation system. We plan on briefing the committee within the 
next several months on the results of our review.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2016 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 22, 2015

                               U.S. Senate,
                  Subcommittee on Strategic Forces,
                               Committee on Armed Services,
                                                    Washington, DC.

 AIR FORCE AND NAVY NUCLEAR PROGRAMS AND THE IMPLEMENTATION OF NUCLEAR 
                   ENTERPRISE REVIEW RECOMMENDATIONS

    The subcommittee met, pursuant to notice, at 3:00 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jeff 
Sessions (chairman of the subcommittee) presiding.
    Committee members present: Senators Inhofe, Sessions, 
Donnelly, King, and Heinrich.

           OPENING STATEMENT OF SENATOR JOE DONNELLY

    Senator Donnelly [presiding]. I would like to thank all the 
witnesses for being here, and you can take a seat.
    Senator Sessions will be here in just a moment. He is on 
his way over.
    I will read my opening statement, and we will keep rolling 
along until Senator Sessions gets here. Thank you all very 
much.
    I want to thank Senator Sessions for holding this important 
hearing. Over a year ago, we had a failure in ethics for both 
the Air Force and Navy nuclear missions. For the Air Force, 
this involved cheating on Intercontinental Ballistic Missile 
(ICBM) proficiency exams. For the Navy, it involved cheating on 
naval reactors proficiency exams. While integrity of the Air 
Force nuclear weapons was never compromised, it pointed to a 
readiness and morale problem associated with the demanding 
mission that Strategic Command requires and how the Department 
of Defense (DOD) has paid a lesser amount of attention to its 
nuclear mission.
    One may have varying opinions of nuclear weapons, but as 
long as they exist and other nations have them, it will remain, 
as Secretary Carter termed, as the bedrock of our defense 
posture. We cannot let this mission lapse.
    I am gratified the Department has taken a head-on approach 
to correcting these issues with the nuclear mission, and we are 
anxious to help support the readiness of our deterrence posture 
now and in the future.
    Again, let me thank everyone for their attendance today. I 
look forward to your testimony, and Senator Sessions should be 
here with us in just a few minutes. And we will go left to 
right. Ms. Creedon, thank you.

   STATEMENT OF HON. MADELYN CREEDON, DEPUTY ADMINISTRATOR, 
            NATIONAL NUCLEAR SECURITY ADMINISTRATION

    Ms. Creedon. Thank you, Senator.
    I would also like to thank Chairman Sessions, obviously 
when he gets here----
    Senator Donnelly. He gets thanked more while he is not here 
than when he is here.
    [Laughter.]
    Ms. Creedon.--as well as the other members of the 
subcommittee.
    Thank you very much for the opportunity to discuss with you 
today the report of the Department of Defense internal nuclear 
enterprise review team. My co-chairs on the review were Rear 
Admiral Peter Fanta, former Deputy for Resources and 
Acquisition, Joint Chiefs of Staff; and Sergeant Major Patrick 
Alston, the command's senior enlisted leader of the U.S. 
Strategic Command.
    Our internal review of the Department of Defense nuclear 
enterprise started in February 2014 at the direction of former 
Secretary of Defense Chuck Hagel. He started this after a 
series of troubling events involving the Nation's deterrent 
forces and their senior leadership when he directed both an 
internal and an external review of the health of the nuclear 
enterprise.
    The external review was conducted by former Air Force Chief 
of Staff and Commander of the Strategic Air Command, General 
Larry Welch, and former Commander of Fleet Forces Command, 
Admiral John Harvey. Their report, the Independent Review of 
the Department of Defense Nuclear Enterprise, as well as the 
report of the internal review team, were provided to Congress 
this past November.
    For the most part, the findings of both the internal and 
the external reviews were very much in line. There were, 
however, some differences in the recommendations. Our internal 
team's report is a classified report. As such, I have attached 
to my written statement an unclassified summary describing the 
findings and the recommendations of the internal review team's 
report. The fact sheet was also provided to Congress in 
November, along with our report.
    One of the key findings of our internal review team was 
that in spite of the shortcomings in the enterprise--and there 
were many--the men and women of the nuclear enterprise are 
dedicated and committed to the mission and the work. And they 
work exceedingly hard to ensure the safety and the security of 
the U.S. deterrence forces. On balance, the forces, including 
the civilians, were understaffed, under-supported, under-
appreciated, and in many instances were working with out-of-
date equipment, a shortage of parts, and inadequate facilities.
    We also found that some of the fixes of the past had 
actually made things worse. As a result, we stressed in our 
report that an approach that simply checks the box and moves on 
is not the correct approach. This sort of approach will fail to 
recognize the interconnected nature of many of the problems and 
that many of the solutions are often long-term, organizational, 
and cultural.
    We had a fairly long list of key findings in our report, 
which are summarized, as I mentioned, in my written statement. 
But I wanted to take the opportunity to highlight that the most 
important of our recommendations are those that will help the 
people who work in the nuclear enterprise every day get their 
job done. These men and women are our most important asset in 
the nuclear enterprise.
    I want to close now by not only thanking the entire 
internal review team for their work, but also former Secretary 
Hagel for caring enough about the enterprise to bring his 
personal attention and credibility to its problems. He got the 
attention of the senior leaders in the DOD and the services. 
Already, there are some good results and some good efforts, and 
you will hear more about these from my colleagues on the panel 
here today. The real challenge, however, is to maintain that 
focus, energy, and attention for the long term.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Ms. Creedon follows:]

            Prepared Statement by Honorable Madelyn Creedon
    Chairman Sessions, Ranking Member Donnelly, and members of the 
subcommittee, thank you for the opportunity to discuss with you today 
the report of the Department of Defense Internal Nuclear Enterprise 
Review team. My co-chairs on the review were Rear Admiral Peter Fanta, 
former Deputy for Resources and Acquisition, Joint Chiefs of Staff, and 
Sergeant Major Patrick Alston, Command Senior Enlisted Leader, U.S. 
Strategic Command.
    Our internal review of the Department of Defense (DOD) nuclear 
enterprise was undertaken beginning in February 2014 at the direction 
of former Secretary of Defense Chuck Hagel, after a series of troubling 
events involving the nation's nuclear deterrent forces and their senior 
leadership. In addition to the internal review team's report: Internal 
Assessment of the Department of Defense Nuclear Enterprise, Secretary 
Hagel also directed an external review and report. The external review 
was conducted by former Air Force Chief of Staff and Commander of the 
Strategic Air Command, General Larry Welch, and former Commander of 
Fleet Forces Command, Admiral John Harvey. Their report: Independent 
Review of the Department of Defense Nuclear Enterprise, and the report 
of the Internal review team were provided to Congress this past 
November.
    Our internal team's report is a classified report. As such, I have 
attached an unclassified summary describing the findings and 
recommendations of the internal review team's report, as well as a fact 
sheet developed by DOD that sets out a description of the 
implementation plans for changing the nuclear enterprise. Both the fact 
sheet and the summary were also provided to the Congress in November.
    Over the course of three months, a team of 96 professionals, drawn 
from the relevant components of the Office of the Secretary of 
Defenses, the Joint Staff, Military Services, and the Defense Agencies, 
visited all of the operational nuclear facilities and most of the 
supporting facilities in CONUS, and a representative sampling of the 
nuclear forces in Europe. We established three sub-teams: Personnel, 
Performance, and Investment, to facilitate our review. We talked to 
over 1,500 people--offices, enlisted, civilian, and contractors who 
were directly involved in or provide training, education and support to 
the DOD nuclear enterprise.
    We talked with aircraft, missile, and warhead maintainers, shipyard 
workers, civil engineers, submariners, missileers, pilots, teachers and 
instructors, supply, sustainment and parts specialists, engineers, 
personnel specialists, doctors, nurses and medical technicians, 
security forces, financial managers and budget specialist, at all 
levels and ranks. Conversations were held individually and in small 
groups without supervisors present. These conversations were candid, 
honest, and direct. In addition, the team received extensive briefings 
from each of the services, reviewed hundreds of documents, and reviewed 
the findings of the previous reviews and reports.
    We also received extensive support from the historians of the Air 
Force Global Strike and other Commands, who provided a wealth of 
valuable historical documents dating back to the earliest days of the 
Air Force Nuclear Enterprise.
    We found that in spite of the various shortcomings in the 
enterprise, the men and women of the nuclear enterprise are dedicated 
and committed to the mission, and work exceedingly hard to ensure the 
safety and security of the United States.
    Our review focused on current operational issues of the DOD nuclear 
enterprise and what is needed to sustain the force until the various 
elements of the Triad are replaced. We did not evaluate any of the 
replacement programs themselves other than to note that it will be 
years before the new systems are fielded, and in the meantime, the 
existing systems must be maintained. Similarly the internal team did 
not review the nuclear warheads and the life extension programs being 
developed by the National Nuclear Security Administration to sustain 
them.
    One of the most important findings of the internal review team was 
the realization that the problems of the nuclear enterprise do not 
exist in isolation. The problems are inextricably interrelated. One 
problem begets another which begets another. This interdependence 
between and among the shortfalls and deficiencies requires a 
coordinated, holistic approach to resolving the issues. The 
interdependent relationship of the problems identified within each 
Service, but particularly the Air Force, led to our conclusion that in 
many instances the ultimate solutions would have to be cultural and 
structural, and sustained over the long term. In other words, although 
money is needed to solve many of the problems, money is certainly not 
the only solution to the problems. And while there are many things that 
can and need to be fixed in the near term, the solutions in many 
instances are long-term.
    For the most part, the findings of both the internal and external 
reviews were very much in line with one another. The external review 
team placed greater emphasis on the Office of the Secretary of Defense 
(OSD) while the internal review team focused primarily on the Services. 
There were also some differences in the recommendations and approach to 
addressing the problems, but in the end it is up to OSD and the 
Services ultimately to identify appropriate changes and put them into 
place.
    The key recommendations contained in the internal review teams 
report are:

    <bullet>  Allow leaders to learn from mistakes;
    <bullet>  Provide the necessary manning and skills and address 
skill level gaps throughout the forces;
    <bullet>  Develop nuclear professionals and the career management 
to develop a broad nuclear career field;
    <bullet>  Overhaul the nuclear inspections process and reinforce 
distinctions between inspections, reviews, technical assistance, and 
exercises;
    <bullet>  Develop and use a rigorous self-assessment program to 
highlight and fix problems at all levels of command;
    <bullet>  Simplify administration of the personnel reliability 
program;
    <bullet>  Provide long-term sustainment and plan for parts 
obsolescence;
    <bullet>  Ensure future investments include Navy shipyard and shore 
installations and new facilities needed by the Air Force, including 
support and alert facilities;
    <bullet>  Direct the Air Force to upgrade Air Force Global Strike 
Command to a 4-star command
    <bullet>  Increase Air Force Global Strike Command, Navy Strategic 
Systems Programs, and Naval Reactors oversight and say in essential 
support functions;
    <bullet>  Direct the Air Force to upgrade Headquarters Air Force A-
10 position to a 3-star position
    <bullet>  Create a senior position reporting to the Secretary for 
oversight of the Nuclear Enterprise.
                               conclusion
    Although not directly involved in the DOD's efforts to address the 
conclusions of the review teams and to implement the recommendations to 
address the problems in the enterprise, I am aware that much is being 
done to bring change to the nuclear enterprise. I also want to thank 
former Secretary of Defense Hagel for taking the initiative and 
providing the support to identify and resolve the problems that have 
been ongoing in the nuclear enterprise for many years. As one Air Force 
NCO said to our team, ``There have been a lot of studies, but nothing 
ever changes. We want this study to be worth it this time.''
           summary of dod internal nuclear enterprise review
    Earlier this year, after a series of missteps involving the 
nation's nuclear deterrent forces and their senior leadership, 
Secretary Hagel directed both an internal Department of Defense (DOD) 
review and an external, independent review of the DOD nuclear 
enterprise. This includes Air Force Intercontinental Ballistic Missiles 
(ICBMs), nuclear-capable bombers and tactical fighters, Navy ballistic 
missile submarines, and the supporting infrastructure to build, 
maintain, and control these assets. The internal review led by then-
Assistant Secretary of Defense Madelyn Creedon, Rear Admiral Peter 
Fanta formerly from the Joint Staff, and Command Sergeant Major Patrick 
Alston from U.S. Strategic Command. The external review was led by 
former Air Force Chief of Staff and Commander of Strategic Air Command, 
General Larry Welch (retired), and former Commander of Fleet Forces 
Command, Admiral John Harvey (retired).
    The review leaders and their staffs visited all of the operational 
U.S. nuclear bases and key supporting facilities. They interviewed more 
than a thousand officers, enlisted personnel, civilians, and 
contractors from across the armed services. Both review teams found 
participants that were open, candid, and eager to engage in dialogue 
regarding their ability to perform their mission.
    The internal review was specifically asked by the Secretary of 
Defense to examine the nuclear mission regarding personnel, training, 
testing, command oversight, mission performance, and investment. This 
review also looked into mission readiness and other operational issues 
and therefore remains classified. The internal report is consistent 
with the findings and conclusions of the external review.
    The internal review disclosed systemic problems across the nuclear 
enterprise. In general, these problems can be divided into several 
categories: longstanding, known problems that remained unaddressed and 
so became, over time, under-reported; known problems that were 
addressed but the corrective actions made the problem worse (or created 
new problems); and problems that were common knowledge in the field but 
which were never communicated to leadership. Significantly, the review 
determined that many of these problems were inextricably interrelated, 
with one problem begetting another. While many issues will need 
additional investments, in many cases the necessary corrective actions 
are cultural and structural. These measures will take time to 
implement, and must also be sustained over the long-term.
    The review provided a number of recommendations for both short- and 
long-term action; some are service-specific, some are at the 
departmental level and others are relevant to the entire enterprise. 
The review team made clear that this essential mission requires 
refocused attention and resources at all levels of the Department. The 
review organized its inquiry, findings, and recommendations into four 
categories: personnel, inspections, investment, and organization.

    <bullet>  The review of personnel issues identified issues with 
accountability, manning and skills mix, career development, morale and 
recognition, the personnel reliability program, and security forces. 
Within these areas, some issues manifested at the departmental level, 
in both services, or in a specific service. Key findings include:
      -  A blurring of the lines between accountability and perfection 
in the Air Force;
      -  Inadequate facilities and equipment, including IT systems, for 
the civilian workforce;
      -  A rapidly aging civilian workforce in Navy shipyards, with a 
significant mid-career gap;
      -  Lack of promotion opportunities generally in the nuclear 
career field and lack of a defined, sustainable career path for nuclear 
officers in Air Force, and career constraints resulting from nuclear 
specialization for both officers and enlisted personnel;
      -  Stress on submarine crews created by shipyard shortfalls in 
the Navy;
      -  Unduly burdensome, overly technical, and excessively risk-
averse implementation of the personnel reliability program.
    <bullet>  The internal review's inquiry into inspections found that 
the nuclear enterprise is subject to a culture of excessive 
inspections. The problem is particularly acute in the Air Force, in 
part owing to the relative scope of inspections (a submarine inspection 
involves 180 sailors, a missile wing inspection involves 84,000 airmen) 
and in part owing to important cultural differences between the 
services; in particular, the demand for perfection and lack of a 
meaningful self-assessment program.
    <bullet>  Regarding investment, the review surveyed an aging 
nuclear enterprise with a focus on sustainment, operations and 
maintenance (O&M) funding, and infrastructure issues. The review 
determined that as this infrastructure continues to age, sustainment 
will become increasingly more difficult, time-consuming and expensive. 
Findings included:
      -  The lack of ``weapon system'' approach to the ICBM force, 
leading to disparate and inefficient sustainment and investment 
decisions for different system components;
      -  Component issues resulting from an aging, unique, and 
(relative to other weapons programs) small-sized, programs and systems;
      -  Serious shortfalls in basic O&M requirements; and
      -  Shipyard inefficiency caused by use of obsolete and/or 
temporary facilities.
    <bullet>  Finally, looking at the organization of the nuclear 
enterprise, the internal review echoed the finding of the external 
review regarding the absence, at the departmental level, of an 
integrated ``nuclear enterprise.'' This absence led to reduced 
awareness of issues in the nuclear field, particularly those issues 
that cut across individual stovepipes.

    Collectively, the internal and external reviews found a nuclear 
workforce that was dedicated, capable, and performing well in spite of 
challenges resulting from being understaffed, underresourced, and 
reliant on an aging and fragile supporting infrastructure in an over-
inspected and overly risk-averse environment. Both reports identified 
serious issues with potential real world consequences if not 
addressed--some of which require long term and permanent cultural and 
structural changes.
    As a result of these reports, the Department is undertaking a 
comprehensive effort to revitalize and integrate the nuclear 
enterprise. As long as the need for effective U.S. nuclear deterrence 
endures, the United States must operate its nuclear forces with world-
class professionalism, ensure its plans and capabilities are tailored 
to emerging nuclear threats, and retain the human capital and 
infrastructure to adapt as the strategic landscape changes. The 
Department is using this opportunity to refocus attention and resources 
to continue to ensure the safety, security and effectiveness of our 
nuclear enterprise.

    Senator Sessions [presiding]. Dr. Brumer?

   STATEMENT OF DR. YISROEL E. BRUMER, DIRECTOR, STRATEGIC, 
   DEFENSIVE AND SPACE PROGRAMS, OFFICE OF THE SECRETARY OF 
        DEFENSE, COST ASSESSMENT AND PROGRAM EVALUATION

    Dr. Brumer. Chairman Sessions, Ranking Member Donnelly, and 
distinguished members of the committee, I am honored to be here 
today. I appreciate the opportunity to testify about how my 
team is executing tasks resulting from these recent internal 
and external nuclear enterprise reviews.
    These reviews concluded that without intervention, issues 
related to resourcing, personnel, organization, and culture put 
the nuclear enterprise on a path to more frequent and greater 
problems than we have previously witnessed.
    Former Secretary Hagel directed the Department to place a 
renewed emphasis on the nuclear force. He specifically charged 
the Director of Cost Assessment and Program Evaluation to 
track, monitor, and independently assess the implementation of 
the reviews' recommendations with particular focus on assessing 
the health of the nuclear enterprise. He also tasked us to 
provide monthly updates to the Deputy Secretary of Defense and 
regular updates to the Secretary.
    Our eight-member team includes active duty ICBM and 
ballistic missile submarine military officers, as well as 
scientists and data experts to support technical assessments. 
This team has shown unwavering dedication to improving the 
enterprise by delivering the most honest and objective analysis 
of data on assessment as possible. Senior leadership has been 
keenly interested in comprehensive and sustainable solutions 
rather than short-term efforts that merely check boxes without 
placing the enterprise on a more solid footing.
    This charge has proven to be both the most important and 
the most difficult aspect of our task. It is easy to verify 
that an instruction has been modified to relieve the force of 
an unnecessary burden or that needed equipment and gear has 
been delivered. It is much more difficult to measure changes in 
culture or personal attitudes towards the mission. We believe 
this kind of analysis is important to facilitate real change 
while also remaining vigilant to identify unintended second- 
and third-order effects.
    Our team has made significant strides in a short time. 
Since September, we have distilled every possible 
recommendation from the reviews. We have held meetings with all 
the stakeholders and formulated problem statements identifying 
the root causes of each issue. We have worked with each 
responsible organization to develop detailed approaches and 
milestones. Finally, to go beyond box checking, we developed 
metrics to determine whether we are achieving the desired 
intent to improve the overall health of the enterprise. 
Additionally, we are visiting key locations to become more 
familiar with the unique mission and quality-of-life 
challenges, as well as hold non-attributional discussions to 
gather empirical data on knowing what issues are most pressing.
    Assessing the overall health will prove challenging, and we 
do recognize it will take years of dedicated efforts to restore 
the risk margin that has been lost. We intend to provide 
leadership with our best analysis and advice to help them guide 
these efforts to completion. Our team has embraced this 
challenge, and we are proud to have been entrusted with the 
role of ensuring issues are addressed to provide the Nation 
with a safe, secure, and effective strategic deterrent that is 
so critical to our National security.
    I will continue to report our progress to this committee on 
a regular basis. You have my assurance that we will remain 
vigilant and we will maintain our honesty and integrity for as 
long as the Secretary of Defense and this committee deem our 
services worthy and necessary.
    I thank you for your time, and I do welcome your questions.
    [The prepared statement of Dr. Brumer follows:]

                Prepared Statement by Dr. Yisroel Brumer
                              introduction
    Mr. Chairman and distinguished members of the subcommittee, I am 
honored to join you today. I appreciate the opportunity to testify 
about how my team is executing the Secretary of Defense's direction to 
track, monitor, and independently assess the implementation of 
recommendations from recent internal and external reviews of the 
Nuclear Enterprise and to support efforts to ensure the viability of 
our Nation's strategic deterrence in the 21st century.
    In February 2014, former Secretary Hagel directed both internal and 
external reviews of the entire Nuclear Enterprise. These reviews were 
conducted over the course of several months by highly esteemed nuclear 
professionals, including civilians as well as active duty and retired 
military. The review teams conducted hundreds of field interviews with 
individuals whose experiences spanned the Nuclear Enterprise, from 
first-term airmen, sailors, and marines to the most senior commanders. 
Both reviews concluded that without intervention, issues related to 
resourcing, personnel, organization, and culture have the Nuclear 
Enterprise on a path to more frequent and greater problems than we have 
previously witnessed.
    As you are aware, these were not the first studies detailing the 
shortfalls within the Nuclear Enterprise, and several had noted very 
similar, if not identical, findings. With that in mind, the Secretary 
of Defense directed that the Department must place a renewed emphasis 
on improving the health of the nuclear force.
    To enhance senior leader visibility and ensure effective 
implementation that addresses root causes, Secretary Hagel directed the 
Director of Cost Assessment and Program Evaluation (CAPE), with the 
support of the Joint Staff, Air Force, Navy, the Office of the 
Secretary of Defense, and U.S. Strategic Command, to:

    (1)  Track, monitor, and independently assess the implementation of 
the reviews' recommendations.
    (2)  Conduct analysis to determine if corrective actions are having 
the desired effect and yield long-term sustainable solutions.
    (3)  Assess the health of the nuclear enterprise.
    (4)  Provide monthly updates to the Deputy Secretary of Defense.
    (5)  Provide quarterly updates to the Secretary of Defense.

    My division within CAPE is charged with this task because our 
portfolio includes program assessment and evaluation of the Nuclear 
Enterprise.
    In his tasking letter to CAPE, Secretary Hagel directed the 
Military Departments and other DOD components to provide CAPE 
everything necessary to conduct robust, complete, rigorous, and timely 
assessments. I am pleased to report we now have nuclear-specialized 
representatives from the Air Force, Navy, and STRATCOM on our team. 
Additionally, we have been granted access to the Joint Staff, STRATCOM, 
and Service agencies to gather pertinent data to meet the Secretary's 
charge of robust, complete, rigorous, and timely assessment.
    Our eight-member team includes Active Duty military officers that 
have served in the ICBM and ballistic missile submarine career fields, 
as well as scientists and data experts to support technical 
assessments. Additionally, we utilize a contractor team to conduct deep 
dive data analyses and leverage subject matter expertise. The diversity 
of the team, including expertise in nuclear operations, social science, 
data analysis, and more, has provided a broad understanding of the 
reviews' recommendations so we can properly assess the wide range of 
subjects brought forward. I am extremely proud of the team, which has 
been willing to put in the intensity and the hours necessary to do the 
job right. They have shown unwavering dedication to improving the 
Nuclear Enterprise by delivering the most honest and objective 
analysis, data, and assessments possible.
                          beyond box checking
    Department of Defense (DOD) senior leadership has been very clear 
that the Secretary was keenly interested in comprehensive and 
sustainable solutions, rather than short-term efforts that merely meet 
recommendations by checking boxes without placing the enterprise on 
more solid footing. The Secretary charged our team to go beyond 
ensuring that tasks are completed and to answer questions like ``Are 
DOD efforts having the intended effect?'', ``Are unanticipated risks 
arising?'' and most critically, ``Is the Nuclear Enterprise getting 
healthier?''
    This charge has proven to be both the most important and most 
difficult aspect of our task. It is comparatively easy to verify that 
an instruction has been modified to relieve the nuclear force of an 
unnecessary burden or that needed equipment and gear has been delivered 
to the force. It is much more difficult to measure changes in culture 
or personal attitudes toward the mission. For this reason, we added a 
social scientist to the team and have leveraged the expertise of the 
Defense Equal Opportunity Management Institute, which conducts surveys 
of the command climate in units across all the Services, to help us 
gather the pertinent data for accurate assessments of the overall 
health of the Nuclear Enterprise. Additionally, we remain vigilant to 
identify unintended second- and third-order effects of changes driven 
by the recommendations.
    We have also initiated efforts to ensure that we are capable of 
independently verifying the accuracy of the reports we are receiving, 
without becoming another inspection agency that places an additional 
burden on the force. We are gathering a broad array of data and are 
creating relationships with key agencies to obtain on-the-ground data 
from existing inspections to support our assessments. Lastly, we plan 
to regularly interact with forces in the field at all ranks, on a non-
attribution basis, to better understand the challenges they are facing 
and the changes they are seeing.
                            progress to date
    I am proud to report to this Committee that our team has made 
significant strides in a short time. Since September, we have combed 
every possible recommendation from the two reviews, nearly 200 in all. 
We held meetings with all stakeholders and formulated problem 
statements in an effort to identify the root cause of each issue. We 
worked with each responsible organization to develop detailed 
approaches to correct the root problems. Finally, metrics and 
milestones were developed to provide mechanisms for moving the various 
efforts forward and for assessing their effects. In keeping with the 
spirit of the task to go ``beyond box checking,'' the team developed 
both process metrics to determine whether a particular task is 
completed, as well as outcome metrics to assess whether the cumulative 
effects of the tasks are achieving the desired intent of the 
recommendations and improving the overall health of the Enterprise.
    In line with the Secretary's charge for complete, rigorous, and 
timely assessment, the CAPE Director and our team has visited and will 
continue to visit key Nuclear Enterprise locations. During these 
visits, the team becomes more familiar with the unique mission and 
quality-of-life challenges of that particular location. Additionally, 
the team holds individual and group non-attributional discussions to 
gather empirical data to determine what issues are most pressing to 
those individuals or groups, and solicits feedback on whether personnel 
in the field think our metrics are appropriate for tracking the health 
of the Enterprise.
    As stated earlier, we recognize the outcome metrics will be the 
most challenging to assess. We also recognize these are the most 
challenging for those in the field to execute, and it will take years 
of dedicated efforts to restore the risk margin that has been lost. We 
intend to provide leadership with our best analysis and advice to help 
them guide these efforts to completion.
                               conclusion
    The DOD leadership, from Secretary Carter on down, has been clear 
that the nuclear enterprise--and the deterrent effect it provides--is a 
high priority and will remain so as long as nuclear weapons exist. My 
team has embraced that challenge and they are proud to have been 
entrusted with the role of ensuring appropriate resourcing, personnel, 
organizational, and policy issues are addressed to provide the Nation 
with the safe, secure, and effective strategic deterrent that is so 
critical to our national security. The CAPE team will continue to 
report our progress to this committee on a regular basis. You have our 
assurance that we will remain vigilant and will maintain our reputation 
for rigor, honesty, and integrity in this important mission.

    Senator Sessions. Admiral Benedict?

 STATEMENT OF VADM TERRY J. BENEDICT, USN, DIRECTOR, STRATEGIC 
                        SYSTEMS PROGRAMS

    Admiral Benedict. Yes, sir. Chairman Sessions, Ranking 
Member Donnelly, distinguished members of the committee, thank 
you for the opportunity to testify before the Subcommittee on 
Strategic Forces.
    I represent the men and women of the Navy's Strategic 
Systems Programs (SSP).
    Your continued support of our deterrence mission is 
appreciated, and I thank you for that.
    My mission as the Director of Strategic Systems Programs is 
to design, develop, produce, support, and ensure the safety and 
security of our Navy's sea-based strategic deterrent 
capability, the Trident III (D5) strategic weapon system.
    My written statement, which I respectfully request be 
submitted for the record, addresses all of my top priorities. 
Due to time constraints, I would like to briefly address three: 
nuclear weapons safety and security, the Trident II (D5) life 
extension efforts, and the solid rocket motor industry.
    First, my top priority is the safety and security of our 
Navy's nuclear weapons. Custody and accountability of the 
nuclear assets entrusted to the Navy are the cornerstone of 
this program. Our approach to the nuclear weapons mission is to 
maintain a culture of excellence and self-assessment that 
produces the highest standards of performance and integrity.
    Second, the Navy is proactively taking steps to address 
aging and technology obsolescence. SSP is life-extending the 
Trident II (D5) SWS strategic weapon system to match the Ohio-
class submarine service life and to serve as the initial 
baseline mission payload for the Ohio replacement submarine 
platform. This is being accomplished through a life extension 
program for all of the Trident II (D5) subsystems, to include 
launcher, navigation, fire control, guidance, missile, and 
reentry.
    Finally, I remain concerned with the decline in demand for 
the solid rocket motor industry. While the Navy is maintaining 
a continuous production of solid rocket motors, the demand for 
both National Aeronautics and Space Administration (NASA) and 
the Air Force has declined. This has put the entire specialized 
industry at risk. While the efforts of our industry partners 
and others have created short-term relief, a long-term support 
of the solid rocket motor industry remains a national problem.
    Thank you for the opportunity to testify today, and I am 
pleased to answer any of your questions, sir.
    [The prepared statement of Admiral Benedict follows:]

             Prepared Statement by VADM Terry Benedict, USN
                              introduction
    Chairman Sessions, Ranking Member Donnelly, distinguished members 
of the subcommittee, thank you for this opportunity to discuss the 
Navy's strategic programs. It is an honor to testify before you this 
afternoon representing the Navy's Strategic Systems Programs (SSP).
    SSP's mission is to design, develop, produce, support, and ensure 
the safety of our Navy's sea-based strategic deterrent, the Trident II 
(D5) Strategic Weapons System (SWS). The men and women of SSP and our 
industry partners remain dedicated to supporting the mission of our 
Sailors on strategic deterrent patrol and our marines, sailors, and 
coast guardsmen who are standing the watch, ensuring the security of 
the weapons we are entrusted with by this nation.
    The Navy provides the most survivable leg of the U.S. nuclear triad 
with our ballistic missile submarines (SSBNs) and the Trident II (D5) 
SWS. A number of factors have contributed to an increased reliance on 
the sea-based leg of the triad. The 2010 Nuclear Posture Review 
reinforced the importance of SSBNs and the Submarine Launched Ballistic 
Missiles (SLBMs) they carry. SLBMs will comprise a significant majority 
of the Nation's operationally deployed nuclear warheads, thus 
increasing the Nation's reliance on the sea-based leg of the nuclear 
triad. The Chief of Naval Operations (CNO) and Vice Chief of Naval 
Operations have recently testified that the Navy's number one priority 
is to maintain a credible, modern, and survivable sea-based strategic 
deterrent. Maintaining our Nation's capability in this key mission area 
includes the proper funding of the Ohio Replacement Program--along with 
the propulsion and the SWS--it is ``The Navy's #1 acquisition 
program.''
    Ensuring sustainment of the sea-based strategic deterrent 
capability is a vital national requirement today and into the 
foreseeable future. Our PB-16 budget request provides required funding 
to support the program of record in fiscal year 2016 for the Trident II 
(D5) SWS. To sustain this capability, I am focusing on my top 
priorities: Nuclear Weapons Safety and Security; the Trident II (D5) 
SWS Life Extension Program; the Ohio Replacement Program; the Solid 
Rocket Motor (SRM) Industrial Base; the implementation of the Nuclear 
Enterprise Review recommendations; the newly codified Navy Nuclear 
Regulatory responsibility; and Collaboration with the Air Force.
                  nuclear weapons safety and security
    The first priority, and the most important, is the safety and 
security of the Navy's nuclear weapons. Accordingly, Navy leadership 
clearly delegated and defined SSP's role as the program manager and 
technical authority for the Navy's nuclear weapons and nuclear weapons 
security.
    At its most basic level, this priority is the physical security of 
one of our Nation's most valuable assets. Our Marines and Navy Masters 
at Arms provide an effective and integrated elite security force at our 
two Strategic Weapons Facilities and Waterfront Restricted Areas in 
Kings Bay, GA, and Bangor, WA. U.S. Coast Guard Maritime Force 
Protection Units have been commissioned at both facilities to protect 
our submarines as they transit to and from their dive points. These 
Coast Guardsmen and the vessels they man provide a security umbrella 
for our Ohio-class submarines. Together, the Navy, Marine Corps, and 
Coast Guard team form the foundation of our Nuclear Weapons Security 
Program, and my headquarters staff ensures that our nuclear weapons 
capable activities continuously meet or exceed security, safety, and 
compliance criteria.
    SSP's efforts to sustain the safety and improve the security of 
these national assets continue at all levels of the organization. The 
Navy's nuclear weapons enterprise maintains a culture of self-
assessment in order to sustain safety and security. This is 
accomplished through biannual assessments by SSP headquarters staff, 
periodic technical evaluations, formal inspections, and continuous on-
site monitoring and reporting at the Strategic Weapons Facilities. 
Technical evaluations, formal inspections, and on-site monitoring at 
the Strategic Weapons Facilities provide periodic and day-to-day 
assessment and oversight. Biannual assessments evaluate the ability of 
the organization to self-assess the execution of the assigned strategic 
weapons mission and compliance with requirements. The assessments 
leverage information gained from these oversight activities. The 
results of these biannual assessments are critically and independently 
reviewed through the Navy Nuclear Weapons Assessment and provided to 
the Secretary of the Navy and the CNO.
    We also strive to maintain a culture of excellence to achieve the 
highest standards of performance and integrity for personnel supporting 
the strategic deterrent mission. We continue to focus on the custody 
and accountability of the nuclear assets that have been entrusted to 
the Navy. SSP's number one priority is to maintain a safe, secure, and 
effective strategic deterrent.
                       d5 life extension program
    The next priority is SSP's life extension efforts to ensure the 
Trident II (D5) SWS remains an effective and reliable sea-based 
deterrent. The Trident II (D5) SWS continues to demonstrate itself as a 
credible deterrent and exceeds the operational requirements established 
for the system over 30 years ago. The submarine leg of the U.S. 
strategic deterrent is ready, credible, and effective, thereby assuring 
our allies and partners and deterring potential adversaries. However, 
we must remain vigilant about age-related issues to ensure a continued 
high level of reliability.
    The Trident II (D5) SWS has been deployed on our Ohio-class 
ballistic missile submarines for 25 years and is planned for a service 
life of 50 years. This is well beyond its original design life of 25 
years and more than double the historical service life of any previous 
sea-based strategic deterrent system. As a result, effort will be 
required to sustain credible SWS from now until the end of the current 
Ohio-class SSBN in the 2040s, as well as the end of the service life of 
the Ohio Replacement SSBN in the 2080s.
    The Navy is proactively taking steps to address aging and 
technology obsolescence. SSP is extending the life of the Trident II 
(D5) SWS to match the Ohio-class submarine service life and to serve as 
the initial baseline mission payload for the Ohio Replacement submarine 
platform. This is being accomplished through an update to all the 
Trident II (D5) SWS subsystems: launcher, navigation, fire control, 
guidance, missile, and reentry. Our flight hardware--missile and 
guidance--life extension efforts are designed to meet the same form, 
fit, and function of the original system to keep the deployed system as 
one homogeneous population, control costs, and sustain the demonstrated 
performance of the system. We will remain in continuous production of 
large energetic components such as solid rocket motors and Post Boost 
Control System Gas Generators, and are starting an age management 
replacement effort for missile small ordnance and control components. 
We have also started initial planning on the timing of when a follow-on 
to Trident II (D5) will be needed. These efforts will provide the Navy 
with the missiles and guidance systems we need to meet operational 
requirements through the introduction and deployment of the Ohio 
Replacement SSBNs through the 2080s.
    While budgetary pressures and impacts of sequestration have 
resulted in some deferred or delayed efforts, strategic deterrence 
remains the Navy's highest priority. As such, the Navy is committed to 
minimizing, to the maximum extent possible, impacts to this program in 
order to meet strategic requirements.
    One impacted effort is the change to our flight test program. In 
accordance with U.S. Strategic Command (STRATCOM) requirements, the 
Navy is required to flight test a minimum of four Trident II (D5) 
missiles per year in a tactically-representative environment. The 
purpose of flight testing is to detect any change in reliability or 
accuracy. The fiscal year 2016 budget request reflects a reduction of 
one planned flight test for affordability. The Navy has coordinated 
with STRATCOM to determine that this temporary reduction is manageable 
in the short-term, contingent upon our plan to ramp back up to four 
flight tests per year later in the Future Years Defense Program (FYDP). 
A prolonged reduction beyond what is planned in fiscal year 2016 would 
impact our ability to detect changes in reliability and accuracy of an 
aging system with the required degree of statistical confidence to meet 
STRATCOM requirements. I am strongly committed to ensure our flight 
testing returns to four flight tests per year.
    Despite budgetary pressures, the Navy's D5 life extension program 
remains on track. In June 2014, the USS West Virginia (SSBN 736) 
successfully conducted her Demonstration and Shakedown Operation (DASO 
25) by launching two missiles. One missile marked the third flight test 
of the D5 life-extended (LE) guidance system and the second flight test 
of the D5 LE Command Sequencer. The second missile was the first flight 
of the D5 LE Flight Controls Electronics Assembly and Interlocks 
packages. Additionally, the first flight test of the D5 LE guidance 
system with the D5 LE Flight Controls Electronics Assembly and 
Interlocks packages is scheduled for DASO 26 in fiscal year 2016. The 
D5 LE Command Sequencer met its initial fleet introduction earlier this 
year. The life extension efforts for the remaining electronics packages 
are on budget and on schedule. The life-extended missiles will be 
available for initial fleet introduction in fiscal year 2017.
    Another major step to ensure the continued sustainment of our SWS 
is the SSP Shipboard Integration (SSI) Programs, which address 
obsolescence management and modernization of SWS shipboard systems 
through the use of open architecture design and commercial off-the-
shelf hardware and software. The first increment of this update was 
installed on the final U.S. SSBN in April of last year. This completed 
installation on all 14 U.S. SSBNs, all 4 UK SSBNs and all U.S. and U.K. 
land-based facilities. Subsequent increments of this program begin 
installation this summer. The SSI Program includes refreshes of 
shipboard electronics hardware and software upgrades, which will extend 
service life, enable more efficient and affordable future maintenance 
of the SWS and ensure we continue to provide the highest level of 
nuclear weapons safety and security for our deployed SSBNs while 
meeting STRATCOM requirements.
    To sustain the Trident II (D5) SWS, SSP is extending the life of 
the W76 reentry system through a refurbishment program known as the 
W76-1. The W76-1 refurbishment maintains the military capability of the 
original W76 for an additional 30 years. This program, which is being 
executed in partnership with the Department of Energy, National Nuclear 
Security Administration (NNSA), has completed over 50 percent of the 
planned warhead production. The Navy will continue to work with NNSA to 
closely monitor production and deliveries to ensure there are no 
operational impacts.
    In addition, the Navy continues the design work to refurbish the 
aging electronics in the W88 reentry system. The Navy is collaborating 
with the Air Force to reduce costs through shared subsystems suitable 
for the W88/Mk5 and the W87/Mk21. Additionally, the Nuclear Weapons 
Council (NWC) has approved the inclusion of conventional high explosive 
refurbishment as part of this effort which will support deployment of 
the W88/Mk5 into the early 2040s. As directed by the NWC, we have 
submitted funding requests to support the initial concept studies (6.2/
6.2A) for an Interoperable Warhead (IW) to begin in 2020. The Navy 
believes that the NWC is effective at managing and identifying 
priorities for the nuclear weapons stockpile. Moreover, the Navy is 
fully represented at the NWC and has every opportunity to raise any 
issues directly with the NWC when necessary. Therefore, I do not 
recommend a separate Service vote at the NWC.
                        ohio replacement program
    The Navy's highest priority acquisition program is the Ohio 
Replacement Program, which replaces the existing Ohio-class submarines. 
The continued assurance of our sea-based strategic deterrent requires a 
credible SWS, as well as the development of the next class of ballistic 
missile submarines. The Navy is taking the necessary steps to ensure 
the Ohio Replacement SSBN is designed, built, delivered, and tested on 
time with the right capabilities at an affordable cost.
    To lower development costs and leverage the proven reliability of 
the Trident II (D5) SWS, the Ohio replacement SSBN will enter service 
with the Trident II (D5) SWS and D5 LE missiles onboard. These D5 LE 
missiles will be shared with the existing Ohio-class submarine until 
the current Ohio-class retires. Maintaining one SWS during the 
transition to the Ohio-class replacement is beneficial from a cost, 
performance, and risk reduction standpoint. A program to support long-
term SWS requirements will have to be developed in the future to 
support the Ohio-class replacement SSBN through its entire service 
life.
    The Navy continues to leverage from the Virginia-class program to 
implement lessons-learned and ensure the Ohio Replacement Program 
pursues affordability initiatives across design, construction, and life 
cycle operations and support. Several critical milestones and decisions 
were achieved by the SSBN design team as they progress the design of 
the Ohio Replacement. Maintaining the pace of design and submarine 
industrial capability is critical to the continued success of our sea-
based strategic deterrent now and well into the 2080s.
    A critical component of the Ohio Replacement Program is the 
development of a Common Missile Compartment (CMC) that will support 
Trident II (D5) deployment on both the Ohio-class replacement and the 
successor to the U.K. Vanguard-class. As the United Kingdom will be the 
first to test, launch, and deploy the Trident II (D5) system in a CMC, 
the U.S.-led design team is progressing at pace to support the U.K. 
Successor lead ship construction timeline. In 2014, the United States 
contracted for the first joint procurement of missile tubes to support 
building the U.S. prototype Quad-pack module, the Strategic Weapons 
System-Ashore (SWS Ashore) test site, and the U.K.'s first SSBN. The 
joint CMC effort is shifting from design to construction that will 
support production in both United States and United Kingdom build 
yards. Any delay to the common missile compartment effort has the 
potential to impact the U.K.'s ability to maintain a continuous at sea 
deterrent posture.
    To manage and mitigate technical risk to both the U.S. and U.K. 
programs, SSP is leading the development of SWS Ashore integration test 
site at Cape Canaveral, FL. This is a joint effort with the Navy and 
the State of Florida investing in the redevelopment of a Polaris site 
to conduct integration testing and verification for Ohio replacement 
and U.K. Successor programs. Refurbishment of the Polaris site and 
construction of the infrastructure and building is proceeding at a 
rapid pace. Trident II (D5), Ohio-class, and Ohio replacement new 
design hardware will be co-located and integrated to prove the 
successful re-host and redeployment of the Trident II (D5) SWS on the 
new submarines. To mitigate the restart of launch system production, 
SSP recently broke ground on a surface launch facility at the Naval Air 
Station, China Lake, CA. This facility will prove that the launcher 
industrial base can replicate the performance of the Ohio-class Trident 
II (D5) launch system. We will be launching the refurbished Trident II 
(D5) test shapes we used in the 1980s starting in fiscal year 2017. 
Launch performance is a critical factor we must understand at the 
systems level to ensure we maintain high reliability as we transition 
the weapon system to the next class of SSBNs.
    The United States and the United Kingdom have maintained a shared 
commitment to nuclear deterrence through the Polaris Sales Agreement 
since April 1963. As the Director of SSP, I am the U.S. Project Officer 
for the Polaris Sales Agreement. Our programs are tightly coupled both 
programmatically and technically to ensure we are providing the most 
cost effective, technically capable nuclear strategic deterrent for 
both nations. Last year, marked the 51st anniversary of this agreement, 
and I am pleased to report that our longstanding partnership with the 
United Kingdom remains strong. The United States will continue to 
maintain its strong strategic relationship with the United Kingdom as 
we execute our Trident II (D5) LE Program and develop the common 
missile compartment. Our continued stewardship of the Trident II (D5) 
SWS is necessary to ensure a credible and reliable SWS is deployed 
today on our Ohio-class submarines, the U.K. Vanguard-class, as well as 
in the future on our respective follow-on platforms. This is of 
particular importance as the New START treaty reductions are 
implemented, increasing the reliance on the sea-based leg of the Triad. 
The Ohio replacement will be a strategic, national asset whose 
endurance and stealth will enable the Navy to provide continuous, 
uninterrupted strategic deterrence well into the 2080s.
                solid rocket motor (srm) industrial base
    A priority is the importance of the defense and aerospace 
industrial base, in particular, the solid rocket motor industry. I 
remain concerned with the decline in demand for solid rocket motors. 
While the Navy is maintaining a continuous production capability at a 
minimum sustaining rate of 12 rocket motor sets per year, the demand 
from both NASA and Air Force has precipitously declined. Not only did 
this decline result in higher costs for the Navy, as practically a sole 
customer, but it also put an entire specialized industry at risk for 
extinction--or at least on the ``endangered species list.'' To allow 
this puts our National security at risk. The Navy cannot afford to 
singularly carry this cost, nor can our Nation afford to lose this 
capability. While the efforts of our industry partners and others have 
created short-term cost relief, the long-term support of the solid 
rocket motor industry remains an issue that must be addressed at the 
national level. To date, this has not happened. At SSP, we will 
continue to work with our industry partners, DOD, senior NASA 
leadership, Air Force and Congress to do everything we can to ensure 
this vital national security industry asset is preserved.
                       nuclear enterprise review
    The recent Secretary of Defense-directed Nuclear Enterprise Review 
(NER) and the Program and Budget Review for the fiscal year 2016 budget 
formulation focused significant attention on the recapitalization, 
sustainment, and modernization of our nuclear deterrence systems and 
infrastructure. The NER provided the Navy a thorough and unbiased look 
at our nuclear forces. Overall, the report found that the nuclear 
enterprise is safe, secure, and effective today but it also found 
evidence of systemic problems that, if not addressed, could undermine 
the safety, security, and effectiveness of elements of the force in the 
future. Fortunately the Navy's internal Nuclear Weapons Assessment and 
the SSP Comprehensive Self-Assessment identified most of the issues 
underscored during the NER. In fact, the report validated numerous 
efforts already underway.
    The Navy has taken active steps to address the more than 68 
recommendations with Navy equity contained in the report. Significant 
action has been taken to implement each recommendation, generally 
focused on a few key areas, including: oversight, investment, and 
personnel and training improvements. These implementation actions have 
been funded with an additional budget request of $407 million in fiscal 
year 2016 and $2.2 billion across the FYDP. With respect to oversight, 
the Navy is clarifying the nuclear deterrent enterprise leadership 
structure and reducing administrative burdens imposed on the forces. 
The Nuclear Deterrent Enterprise Group (NDERG), formed and led by the 
Secretary of Defense will provide regular oversight of the nuclear 
enterprise. The Navy Nuclear Weapons Oversight Council has become the 
Navy's mechanism to ensure NDERG recommendations and guidance are 
properly implemented and that investments achieve the intended effect.
    Regarding training and personnel the Navy is planning a significant 
investment to build a margin in the deterrence force and clear the SSBN 
maintenance backlog. Some of the recommendations involve long-term 
cultural or organizational changes, and the Navy has matched the right 
responsibilities with the right leaders. There will be an emphasis on 
the importance of the deterrence mission through updated vision 
statements, revised campaign plans, and methods to eliminate obstacles 
to enhance moral conduct and relieve the pressures on sailors, 
training, and work-life balance. More specifically the Navy will apply 
additional resources to Strategic Mission personnel with a planned $28 
million and an increase of 44 Full-Time Equivalents (FTE) in fiscal 
year 2016. In addition 160 FTEs were added for the Strategic Weapons 
Facilities and Trident Training Facility to improve sustainment and 
training of the ballistic missile submarine force.
    The Navy has also planned a substantial increase in FTEs for the 
four Naval Public Shipyards. With an eventual target of 33,500 direct 
and reimbursable FTEs, the goal is to better match capacity with 
workload. In addition, some submarine maintenance will be outsourced to 
the private sector to ensure over capacity work does not result in 
deferred maintenance into the FYDP. Both of these actions result in an 
investment of $338 million with an overall planned FYDP investment of 
$1.1 billion. There will be accelerated infrastructure improvements and 
recapitalization plans to ensure long-term sustainment at Shipyards and 
Strategic Weapons Facilities. The Navy accelerated investment in the 
budget request for fiscal year 2016 from a 17 year plan to a 15 year 
plan to improve the condition of the Shipyards by adding $350 million 
across the FYDP. The Navy has also funded $324 million across the FYDP 
to address infrastructure issues at the Strategic Weapons Facilities. 
Navy is developing a 20 year investment plan to ensure the continued 
reliability of critical infrastructure at these facilities to support 
nuclear weapons movement and operations. While the Navy has made 
significant progress through actions taken to date, we recognize much 
work remains to be accomplished. The Navy is confident we have the 
right emphasis, oversight, and processes in place to maintain a 
credible, modern, and safe sea-based deterrent.
                 navy nuclear regulatory responsibility
    As a result of the Nuclear Enterprise Review the Navy implemented a 
centralized regulatory authority for nuclear force readiness. As the 
Director, Strategic Systems Programs (DIRSSP), I now have 
accountability, responsibility and authority to serve as the single 
Flag Officer to monitor performance and conduct end-to-end assessment 
of the Navy Nuclear Deterrence Mission (NNDM) elements. These 
responsibilities are defined in Secretary of the Navy Instruction 
8120.1B and Office of the Chief of Naval Operations Instruction 8120.1. 
Nine Echelon 2 level commands directly contribute to the NNDM: U.S. 
Fleet Forces Command, U.S. Pacific Fleet, Fleet Cyber Command, Navy 
Supply Systems Command, Naval Sea Systems Command, Chief of Naval 
Personnel, Bureau of Medicine and Surgery, Commander, Navy 
Installations Command, and SSP.
    DIRSSP will be the NNDM regulatory authority responsible for 
assessing and reporting issues to the Navy Nuclear Weapons Council and 
the CNO. SSP is tasked with developing, coordinating, and implementing 
policies approved by the CNO, and conducting end-to-end assessments of 
the Department of the Navy nuclear weapons and nuclear weapons systems 
and personnel for safe, reliable, and effective execution of the NNDM.
    SSP is engaged with the Echelon 2 commands defined above to 
understand their current reporting and assessment processes and to 
define the NNDM regulatory assessment policy. My next in-progress 
review for the CNO, April 2015, will define the existing reporting and 
engagement strategies, the status of our interaction with the commands, 
and present the initial component assessment and reporting.
                    collaboration with the air force
    The final priority is strategic collaboration between the Services. 
The Navy and the Air Force are both addressing the challenges of 
sustaining aging strategic weapon systems and have begun to work 
collaboratively to ensure these capabilities are retained in the long-
term to meet our requirements. To do so, we are seeking opportunities 
to leverage technologies and make the best use of scarce resources.
    As I testified last year, the Navy and the Air Force established an 
Executive Steering Group to identify and investigate potential 
collaboration opportunities and oversee collaborative investments for 
sustainment of our strategic systems. As a part of this effort, 
technology area working groups are studying collaboration opportunities 
in the areas of Reentry Systems, Guidance, Strategic Propulsion, 
Command and Control, Radiation Hardened Electronics, Testing and 
Surveillance, and Nuclear Weapons Surety.
    The Navy was an active participant in the Air Force's Ground Based 
Strategic Deterrent (GBSD) effort. Members of my staff were involved 
with this effort, which began during the GBSD Analysis of Alternatives 
(AoA). Navy subject matter experts supported each of the GBSD AoA 
working groups and participated in an effort to evaluate the benefits 
and potential risks of commonality and collaboration for each of the 
GBSD AoA options. Since the completion of the AoA, the Navy has 
continued to support the Air Force technical and programmatic efforts 
on GBSD including technology identification and requirements 
development.
    The benefits of increased collaboration between the services are 
many. However, commonality is required to actually save costs. 
Commonality will help improve the affordability of the Nation's 
strategic services by eliminating redundant efforts and by improving 
economic order quantities of key constituents and components. In 
addition to the benefits gained by improved economic order quantities, 
the use of common constituents and components will make it easier for 
the Navy and Air Force to sustain the critical skills and capabilities 
needed by stabilizing demand signals to suppliers. Finally these 
efforts allow the Navy and Air Force to leverage work already being 
done by the other Service to avoid unnecessary duplication and costs.
    Each leg of the Triad has unique attributes. Furthermore, a 
sustained and ready Triad provides an effective hedge, allowing the 
Nation to shift to another leg, if necessary due to unforeseen 
technical problems or vulnerabilities. For this reason, the Department 
is focused on cooperative efforts that maintain affordability and 
reduces risk to both services while retaining essential diversity where 
needed to ensure a credible and reliable deterrent. Many of the 
industries and required engineering skills sets are unique to strategic 
systems. Key to SSP's historical success has been our technical 
applications programs, which in the past have provided a research and 
development foundation. As we evaluate maintaining this strategic 
capability until the 2080s to match the full service life of the Ohio 
Replacement submarine, we will need to resume these critical efforts.
                               conclusion
    SSP continues to maintain a safe, secure, and effective strategic 
deterrent and focus on the custody and accountability of the nuclear 
assets entrusted to the Navy. Our PB-16 budget request ensures that we 
will sustain this capability in fiscal year 2016. However, we must 
remain vigilant about unforeseen age-related issues to ensure the high 
reliability required of our SWS. SSP must maintain the engineering 
support and critical skills of our industry and government team to 
address any future challenges with the current system as well as 
prepare for the future of the program. Our Nation's sea-based deterrent 
has been a critical component of our national security since the 1950s 
and must continue to assure our allies and deter potential adversaries 
well into the future. I am privileged to represent this unique 
organization as we work to serve the best interests of our great 
Nation.

    Senator Sessions. Thank you.
    General Wilson?

 STATEMENT OF LT. GEN. STEPHEN W. WILSON, USAF, COMMANDER, AIR 
                  FORCE GLOBAL STRIKE COMMAND

    General Wilson. Chairman Sessions, Ranking Member Donnelly, 
distinguished members of the committee, thank you for allowing 
me to appear before you and represent the men and women of Air 
Force Global Strike Command.
    Let me first say that the airmen are doing an outstanding 
job every single day, providing a safe, secure, and effective 
nuclear force for our Nation while ensuring our conventional 
mission continues to excel.
    The last time I testified before the committee, we had just 
experienced our unignorable moment when we discovered cheating 
at Mahlstrom Air Force Base. We have instituted major changes 
based on feedback from our airmen doing the mission and are 
constantly assessing whether and where we still need to 
improve.
    One of the most important changes we have instituted is 
empowering our people, not micro-managing them. Through their 
innovation, hard work, and shared commitment, they are able to 
truly create their own future and to write their own story.
    These changes we are undertaking are completely in line 
with both the internal and external nuclear enterprise reviews. 
With the support of the senior leadership, we have restored the 
nuclear focus and are starting to fund essential modernization 
efforts.
    Funding for the long-range strike bomber is critical to 
extending our dominance against next generation capabilities. 
The long-range standoff missile will improve our ability to 
strike heavily at defended targets. The ground-based strategic 
deterrent will provide the responsive capability and the 
strategic stability on which this Nation has come to rely. We 
are also continuing our efforts to upgrade the NC3 systems that 
underpin our nuclear deterrent to ensure we receive 
presidential orders. We are working with our Navy partners to 
find areas of intelligent commonality where appropriate.
    Mr. Chairman, I want to thank you for the opportunity to 
appear before the committee, and I look forward to your 
questions.
    [The prepared statement of General Wilson follows:]

         Prepared Statement by Lt. Gen. Stephen W. Wilson, USAF
                              introduction
    Chairman Sessions, Ranking Member Donnelly, and distinguished 
members of the subcommittee; thank you for allowing me to represent the 
over 23,000 Air Force Global Strike Command (AFGSC) airmen. I will use 
this opportunity to update you on our mission, the status of our 
forces, and the future of the command.
                air force global strike command mission
    In an effort to re-invigorate the nuclear enterprise, the Air Force 
re-activated Strategic Air Command and re-designated the organization 
as Air Force Global Strike Command. Last year AFGSC celebrated its 
fifth anniversary. As you know, the command was created to provide a 
focus on the stewardship and operation of two legs of our Nation's 
nuclear triad while also accomplishing the conventional global strike 
mission. Numerous Blue Ribbon panels, task forces, and other reviews 
have reaffirmed that a triad should be maintained under the New START 
agreement with the Russian Federation. Other nations' nuclear arsenal 
advancements and modernization efforts are a national concern and 
validate the fact that AFGSC's Nuclear Deterrence Operations mission 
set remains critical in today's unstable geopolitical environment. We 
live in a world that continues to rapidly change and until we have the 
peace and security of a world without nuclear weapons we must never 
forget the stabilizing influence the triad has on our allies, partners, 
and adversaries. In order for us to be effective across the spectrum of 
conflict from day-to-day deterrence and assurance operations to nuclear 
engagement, our airmen must be ready and equipped with the right tools 
to do the job. The world has not experienced a war between major super 
powers for over 70 years; there are a number of reasons for this, one 
of which is our Nation has provided credible deterrence for our 
adversaries and assurance for allies and partners. Due to the special 
trust and confidence the American people put in us every day, we can 
never fail them in ensuring a safe, secure, and effective nuclear 
arsenal. Continuing in the proud heritage of Strategic Air Command, yet 
tailored for today's evolving world, AFGSC's mission is to: ``Develop 
and provide combat-ready forces for nuclear deterrence and global 
strike operations--Safe, Secure, and Effective--to support the 
President of the United States and combatant commanders.''
Air Force Global Strike Command Nuclear Mission
    At the core of our mission statement are three reinforcing, key 
attributes: ``Safe-Secure-Effective.'' These were outlined in President 
Obama's 2009 Prague speech where he said: ``Make no mistake: as long as 
these weapons exist, the United States will maintain a safe, secure and 
effective arsenal to deter any adversary, and guarantee that defense to 
our allies.'' The attributes of ``safe, secure, effective'' serve to 
underpin every nuclear-related activity in AFGSC, from the discipline 
adhered to in the smallest task, to how we prioritize our planning and 
programming for the Future Years Defense Program (FYDP). The effects of 
our nuclear force, as outlined in the 2010 Nuclear Posture Review, are 
to ensure strategic stability, to support the regional deterrence 
architecture, and to assure our allies and partners.
Air Force Global Strike Command Conventional Mission
    The command's focus on nuclear operations cannot come at the cost 
of our conventional mission. Our conventional bomber forces defend our 
national interests by deterring or, should deterrence fail, defeating 
an adversary. Two capabilities are fundamental to the success of our 
bomber forces: our ability to hold heavily defended targets at risk and 
our ability to apply persistent combat power across the spectrum of 
conflict anywhere on the globe at any time. The United States' fleet of 
heavy bombers provide the Nation a visible global warfighting 
capability that is essential to the credibility of America's national 
security strategy. These bombers carry our latest high-tech munitions 
in quantities to ensure the Air Force can meet our Nation's global 
responsibilities, and therefore are in high-demand by the regional 
combatant commanders.
                          challenges answered
    It is no secret our nuclear forces have recently gone through a 
time of intense scrutiny, most notably with the cheating incident in 
our intercontinental ballistic missile (ICBM) community. However, we 
have turned this negative event into an opportunity for positive and 
lasting change. Remember, the bulk of our airmen are doing great work 
each and every day. They believe in the mission and are serving to the 
best of their abilities. Their faith in us deserves action; we have 
taken action to improve the two legs of the triad we operate. The 
challenge before us is to follow through on these actions.
Force Improvement Program
    As you know, the Force Improvement Program (FIP) was directed in 
response to the aforementioned cheating incident. We knew we had to 
make changes, but instead of doing it the same way we always had in the 
past, we asked the airmen doing the job day in and day out what they 
would improve. They responded openly and thoroughly. Our bottom-up 
approach yielded 384 recommendations in the ICBM community and 215 
recommendations in the bomber community. We approved action on 98 
percent of the ICBM recommendations and 92 percent of the bomber 
recommendations.
    Some of the changes are significant paradigm shifts for our ICBM 
community. We are completely changing ICBM crewmember progression to a 
``3+3'' construct where our crewmembers can focus on becoming weapon 
system experts during their first three years and then transition to 
instructor, evaluator, or flight commander duties for the second three 
years. We have also put assistant Operations Officers in place in all 
of the operations squadrons to provide mid-career leadership so 
desperately needed. Lastly, we changed the testing and evaluation 
culture that was the root cause of many of the problems within the 
operations community. Instead of studying to get a perfect score for an 
exam, we have refocused our training and evaluation programs to reflect 
the mission at hand.
    These changes are not just for the operations community, either. We 
are providing better tools and equipment to the maintainers. Our 
security forces members are getting new uniforms, cold weather gear, 
and weapons improvements--all commensurate with the important mission 
they do in harsh conditions protecting our Nation's most important 
assets. Another way we are showing our airmen the importance of the 
mission they perform is through increased pay. We now provide select 
officers Assignment Incentive Pay and critical enlisted members Special 
Duty Assignment Pay.
    As mentioned earlier, it is important to note that FIP is not just 
an ICBM program. We applied the same construct to our bomber mission 
areas and we have multiple efforts ongoing to address issues raised. We 
are looking at our Continuous Bomber Presence (CBP) program to ensure 
we are manning the mission appropriately while providing stability for 
our airmen. Additionally, we are completely rewriting our qualification 
training syllabi to ensure quality nuclear training without losing 
focus on the conventional mission. With the Office of the Secretary of 
Defense's (OSD) help, we are revamping our implementation of the 
Personnel Reliability Program. We have refocused the program back to 
its original intent--a commander's program with an ``up until down'' 
mentality.
    In order to ensure we do not lose this momentum, we are 
transitioning the idea of the Force Improvement Program to a continuous 
Force Improvement Philosophy. We will internalize the much-needed 
change we have gone through so that we can sustain these efforts to 
improve our Air Force nuclear forces. These changes are examples of us 
bridging the ``Say-Do'' gap that had become so pervasive in the nuclear 
enterprise. We continue to grow and shape our upcoming nuclear experts 
and leaders. We are focusing on developing a force of nuclear leaders 
who understand nuclear strategy and policy, and are capable of 
thoughtfully articulating what deterrence means in the 21st century. 
AFGSC is leading the way by integrating education and training at 
different points in a nuclear professional's career. We are utilizing 
expertise both within the Air Force and in industry to develop airmen 
with the skills necessary to lead and the knowledge necessary to 
effectively shape deterrence theory and policy.
Nuclear Enterprise Review Reports
    This past November, the Department of Defense (DOD) released two 
different reports that analyzed the nuclear missions for areas of 
concern and improvement. The internal and external reports were 
extremely thorough, and I sincerely thank all those involved in helping 
to make our nuclear forces better. I will also add that we had already 
begun addressing almost all of the same issues. The reports' findings 
overlapped a majority of our existing FIP recommendations; we look 
forward to continuing the implementation of the recommended changes.
Senior Leader Support
    There was a common thread throughout the last year with regard to 
the nuclear enterprise--senior leader support. We had neglected our 
nuclear forces for decades; our current leadership recognized this fact 
and moved decisively to correct that shortcoming. Even as we move to 
reduce the roles and missions of nuclear weapons in U.S. nuclear 
policy, nuclear weapons must remain effective and reliable. Former 
Secretary of Defense Hagel recognized this fact by saying, ``Our 
nuclear deterrent plays a critical role in ensuring United States 
national security, and it's DOD's highest priority mission. No 
capability we have is more important.'' Secretary Carter said during 
his confirmation, `` . . . with respect to the nuclear enterprise, I 
have a long history in that regard and am a strong believer in a safe, 
secure and reliable nuclear arsenal for the United States.'' Our most 
senior leaders in both the DOD and Air Force have now made personal 
visits to all of our bases, not only showing support but also following 
up on the actions we are taking. Other ways we are seeing leaders take 
positive and lasting action are the funding increases and the follow 
through of the Nuclear Deterrence Enterprise Review Group chaired by 
the Secretary of Defense. Senior leaders today recognize the importance 
of what our nuclear deterrence offers this nation and are committed to 
lasting, positive change.
                 air force global strike command forces
Intercontinental Ballistic Missile Forces
    Twentieth Air Force, one of two Numbered Air Forces (NAF) in AFGSC, 
is responsible for the Minuteman III (MM III) ICBM and our UH-1N 
helicopter forces. The 450 dispersed and hardened missile silos 
maintain strategic stability by presenting any potential adversary a 
near insurmountable obstacle should they consider a disarming attack on 
the United States. No potential adversary can hope to destroy this 
force without depleting their own arsenal. Every day over 900 airmen 
deploy to our 3 missile fields, executing effective deterrence and 
assurance operations. Accomplishing this vital mission demands we focus 
on sustaining our current systems while modernizing for the future.
  Minuteman III
    We continue efforts to sustain the Minuteman III ICBM. This 
includes upgrading the command, control, and communications systems and 
support equipment.
    One of these support systems is the Transporter Erector (TE) 
Replacement Program (TERP). The TE is used to transport boosters and 
emplace them at the Launch Facilities (LF). The current fleet averages 
23 years old and has experienced significant structural fatigue due to 
high mission tempo. We have completed the TERP design review and are 
preparing to prototype and test a new TE. We expect the new equipment 
to begin fielding in 2016.
    We are also equipping ICBM launch control centers (LCC) with 
modernized communications systems that will upgrade or replace other 
aging and obsolete systems. The LCC Block Upgrade is an overall 
modification effort that replaces multiple LCC components to include a 
modern data storage replacement for floppy disks and new Voice Control 
Panels to provide high quality voice communications. We expect a 
contract to be awarded this year with production in 2018 and deployment 
in 2019. The Minuteman Minimum Essential Emergency Communications 
Network Program Upgrade will modernize and better secure the Emergency 
Action Message network; this upgrade will begin fielding early next 
year.
    We conducted two MM III flight tests in fiscal year 2014 that, 
along with two Simulated Electronic Launch Minuteman tests in the 
operational environment of six LFs each, demonstrate the operational 
credibility of the nuclear deterrent force and the command's commitment 
to sustaining that capability. Operational flight testing is currently 
funded and planned for four operational test launches per year to 
satisfy requirements outlined by United States Strategic Command 
(STRATCOM) and the National Nuclear Security Administration (NNSA). In 
fact, I am pleased to report that last month we successfully test 
launched two ICBMs, both of which were the two longest MMIII flights in 
history. These special extended range missions have allowed us to 
gather important data and validate our global strike capability.
    We continue to examine emerging technologies to ensure the MM III 
weapon system remains reliable and ready through 2030. Additionally, we 
are looking into how investments in these technologies can transfer to 
and provide savings for the future Ground Based Strategic Deterrent 
(GBSD) program.
  Ground Based Strategic Deterrent
    The Minuteman flight system, currently on its third model, has been 
on continuous alert since the early 1960s, over 50 years ago, and has 
proven its value in deterrence well beyond the platform's initial 10-
year lifespan. All parts of the triad are complementary; the ICBM 
provides the most responsive portion of the triad. ICBM capability gaps 
were identified and validated by the Joint Requirements Oversight 
Council (JROC), and subsequently approved in August 2012 by the Air 
Force Chief of Staff, resulting in an Analysis of Alternatives (AoA). 
The AoA completed in June 2014 and identified a replacement to the MM 
III as the most cost-effective approach. Previously planned sustainment 
programs (e.g., guidance and propulsion replacement programs) will be 
leveraged into GBSD and serve as the foundation of the effort. Starting 
this summer, the Air Force's second Enterprise Capability Collaboration 
Team (ECCT) will assemble the resources, stakeholders, and expertise 
across the Air Force to identify ICBM program needs and gaps to 
determine the best command and control and other system requirements 
for GBSD. Additionally, we are engaged with our naval partners to 
further investigate areas for intelligent commonality between potential 
GBSD systems and future Navy weapons. We hope to find areas of overlap 
with the objective of reducing design, development, manufacturing, 
logistics support, production, and testing costs for the Nation's 
strategic systems while still acknowledging that the different weapon 
systems will always have some requirements that necessitate unique 
solutions.
    Successful fielding of a follow-on ICBM will require the 
acquisition team to design the entire system beginning now through 
2019. This approach provides flexible deployment options in light of 
budget constraints. Due to system age-out, the first priority is to 
replace the missile itself. However, command and control (C2) and 
infrastructure recapitalization is necessary to continue safe, secure, 
and effective operations. It is no small task to upgrade the command 
and control systems along with the underlying infrastructure that 
supports the weapon system. For example, at our largest missile field 
operated by the 341st Missile Wing, we must connect and support 
hardened systems across almost 14,000 square miles. As a comparison, 
this is larger than the entire state of Maryland; our nuclear command 
and control is currently serviced by copper wire and equipment 
installed in the 1960s. AFGSC is defining approaches to upgrade C2 and 
modernize necessary facilities. GBSD cannot be viewed as just another 
life extension to our existing MMIII; it is time to field a replacement 
ground-based capability that will assure our allies and deter potential 
adversaries well into the future. Thank you for your continued support 
of GBSD as we move forward ensuring it will lead to a viable 
replacement for the MM III ICBM.
  UH-1N
    AFGSC is the lead command for the Air Force's fleet of 62 UH-1N 
helicopters. The majority of these aircraft support two critical 
national missions: nuclear security in support of the ICBM force, and 
the Continuity of Operations/Continuity of Government mission in the 
National Capital Region. They also actively participate in the Defense 
Support of Civil Authorities program often being called to help with 
search and rescue activities.
    Although the UH-1Ns are 45+ years old, we plan to fly them until 
the mid-2020s. We must sustain the helicopter's current capabilities 
while selectively upgrading the platform to address the most critical 
safety and operational concerns. Safety improvements currently underway 
include the procurement of crashworthy aircrew seats across the fleet 
and night vision goggle-compatible cockpits that will be fully 
integrated by 2016. In addition, the command is fielding the Helicopter 
Terrain Avoidance and Warning System and Traffic Collision Avoidance 
System to improve situational awareness and survivability. Finally, in 
order to more effectively employ the UH-1N in its nuclear security 
role, AFGSC stood up the 582d Helicopter Operations Group, the only 
helicopter operations group in the Air Force, at F.E. Warren Air Force 
Base (AFB), WY, to better support and focus our helicopter employment 
at the three missile wings.
  UH-1N Follow On
    While we can, to some extent, mitigate the UH-1N's deficiencies in 
range, speed, and payload, no amount of modification will close these 
critical capability gaps entirely. This can only be accomplished by 
fielding a replacement aircraft that meets validated mission 
requirements. As such, a UH-1N Replacement Program is included in the 
fiscal year 2016 budget submission. We are working with SAF/AQ and Air 
Force Materiel Command to confirm and select the most cost-effective 
way to procure a new platform. We look forward to identifying and 
procuring a replacement helicopter that fully meets our nuclear mission 
needs.
Dual-Capable Bomber Forces
    Eighth Air Force is responsible for the B-52H Stratofortress (B-52) 
and B-2A Spirit (B-2) bombers. This includes maintaining the 
operational readiness of both the bombers' nuclear and conventional 
missions. The B-52 serves as the Nation's most versatile and diverse 
weapon system in Air Force Global Strike Command by providing precision 
and timely long range strike capabilities. Meanwhile, the B-2 can 
penetrate our adversary's most advanced Integrated Air Defenses Systems 
to strike heavily defended targets. Our flexible dual-capable bomber 
fleet is the most visible leg of the nuclear triad. They provide 
decision makers the ability to demonstrate resolve through generation, 
dispersal, or deployment, and the ability to quickly place bomber 
sorties on alert thereby ensuring their continued survival in support 
of the President and to meet combatant command requirements.
  Global Assurance and Deterrence
    CBP, initiated in 2003, increases regional stability and assures 
our allies and partners in the U.S. Pacific Command area of 
responsibility. CBP is an enduring requirement; therefore we have taken 
steps to reduce the cost of squadron rotations. Specifically, over the 
past year we worked closely with Pacific Air Forces on the requirement 
to establish a detachment at Andersen Air Force Base, Guam. This 
detachment will be made up of operations and maintenance experts and 
will better enable us to support CBP operations. Through the Bomber 
Assurance and Deterrence program, we exercise with every combatant 
command and every joint partner annually. These exercises take place 
all over the world and are another example of the versatility AFGSC can 
provide in the conventional mission area.
  B-52H
    The B-52 may be the most universally recognized symbol of American 
airpower . . . its contributions to our national security through the 
Cold War, Vietnam, Desert Storm, Allied Force, Iraqi Freedom and 
Enduring Freedom are well documented. Our airmen have worked tirelessly 
to keep the venerable B-52 in the air. The B-52 is able to deliver a 
wide variety of nuclear and conventional weapons. This past year, we 
maintained complete coverage of our Nuclear Deterrence Operations 
requirements while supporting overseas CBP commitments.
    AFGSC continues work toward completing the Combat Network 
Communications Technology (CONECT) upgrade. This upgrade resolves 
sustainability issues with cockpit displays and communications while 
also providing a ``digital backbone'' enabling integration into the 
complex battlespace of the future. Specifically, CONECT replaces aging 
displays, adds an additional radio, and provides beyond-line-of-sight 
communications and situational awareness with machine-to-machine 
retargeting. CONECT achieved approval for full rate production by 2016. 
We have accepted our first B-52 CONECT jet, and expect to achieve 
initial operational capability this July.
    We are working on the 1760 Internal Weapons Bay Upgrade to the B-
52's bomb bay that greatly improves flexibility and precision weapon 
capacity for all smart weapons. Configuring the aircraft to internally 
carry these smart weapons and the pathway for integration of the Joint 
Air to Surface Stand-Off Missile-Extended Range (JASSM-ER) will give 
the warfighter additional advantages over an adversary and will provide 
increased capability to our Joint Force Commanders. JASSM-ER, for 
instance, will provide an increase in weapons employment range, 
allowing our forces to posture themselves outside of threat areas 
thereby increasing both the aircraft and weapon's survivability. This 
upgrade improves the B-52's carrying capacity by 60 percent.
    Our B-52s are still using 1960s radar technology. The radar is 
unreliable and will be less effective operationally in a future threat 
environment, especially if we expect this aircraft to operate for 
another 25 years. Without an improved radar system on the B-52 we will 
continue to increase risk of significant degradation in both 
conventional and nuclear mission areas. We are still in the study phase 
of the B-52 Radar Modernization Program. However, this is an important 
program that is absolutely required to bring the B-52 into the modern 
age; and is particularly vital when discussing B-52 viability through 
2040.
  B-2
    For over 25 years, the B-2 has defended America as our most modern 
strategic deterrent. In each of our Nation's last four armed conflicts, 
the B-2 has led the way in combat. This is a direct result of the 
outstanding airmen who work to operate, maintain, and secure the 
aircraft. The B-2 is able to penetrate heavily defended enemy defenses 
and deliver a wide variety of nuclear and conventional weapons due to 
its long-range and stealth capability.
    We will preserve and improve the B-2's capability to penetrate 
hostile airspace and hold any target at risk without subjecting the 
crew and aircraft to undetected threats. To do this, we secured JROC 
validation of the Defensive Management System-Modernization (DMS-M) 
Capabilities Development Document, which will allow the program to 
enter into the Engineering and Manufacturing Development phase to 
acquire a new system. This upgrade provides the B-2 aircrew with 
improved threat situational awareness and increased survivability by 
replacing the current DMS Threat Emitter Locator System and display 
system with modernized and sustainable systems capable of addressing 
advanced threats. This program will keep the B-2 viable in future anti-
access environments. We also continue work on the Common Very Low 
Frequency Receiver (CVR) to permit aircrews to better receive strategic 
communication messages and the B-2 Flexible Strike Phase 1 that will 
allow for future weapon capability upgrades.
    AFGSC continues to evolve B-2 conventional combat capability by 
fielding vital programs such as the Massive Ordnance Penetrator (MOP). 
Successful fielding of the 30,000-pound MOP bolstered our Nation's 
ability to hold hardened, deeply buried targets at risk. Flight testing 
of the MOP completed successfully and AFGSC will become the lead 
command for MOP sustainment starting next fiscal year. Additionally, we 
are still prototyping and testing the MOP dolly and rail system. Once 
complete, we will move to production and the dolly and rail system will 
increase storage capacity and create more efficient handling of the 
MOP. We would like to thank Congress for your support on this critical 
program.
    We are striving to maintain the proper balance of fleet sustainment 
efforts, testing, aircrew training, and combat readiness. The dynamics 
of a small fleet continue to challenge our sustainment efforts 
primarily due to vanishing vendors and diminishing sources of supply. 
Air Force Materiel Command is working to ensure timely parts 
availability; however, many manufacturers do not see a strong business 
case in supplying parts for a small aircraft fleet. Problems with a 
single part can have a significant readiness impact on a small fleet 
that lacks the flexibility of a large force to absorb parts shortages 
and logistics delays.
  Long Range Strike Bomber (LRS-B)
    The combat edge our B-2 provides will be challenged by next 
generation air defenses and the proliferation of these advanced 
systems. The LRS-B program will extend American air dominance against 
next generation capabilities and advanced air defense environments. We 
continue to work closely with partners throughout the Air Force to 
develop the LRS-B and field a fleet of new dual-capable bombers; 
scheduled to become operational in the mid-2020s. Make no mistake--the 
LRS-B will be a nuclear bomber. However, the platform will not be 
delayed for use in a conventional capacity while it undergoes final 
nuclear certification. We request your support for this essential 
program to ensure we maintain the ability to hold any target on the 
globe at risk.
  Air Launched Cruise Missile
    The AGM-86B Air Launched Cruise Missile (ALCM) is an air-to-ground, 
winged, subsonic nuclear missile delivered by the B-52. It was fielded 
in the 1980s and is well beyond its originally designed 10-year service 
life. To ensure the B-52 remains a credible part of the triad, the ALCM 
requires Service Life Extension Programs (SLEP). These SLEPs require 
ongoing support and attention to ensure the ALCM will remain viable 
through 2030. Despite its age, last year we successfully conducted six 
flight test evaluations, and we plan seven this year to fully comply 
with U.S. Strategic Command directives.
  Long Range Stand-Off Missile
    The LRSO is the replacement for the aging ALCM, which will have 
significant capability gaps beginning late this decade and worsening 
through the next. Replacement of the ALCM was identified by OSD in a 
2007 Program Decision Memorandum and reiterated in the 2010 Nuclear 
Posture Review, the Airborne Strategic Deterrence Capability Based 
Assessment, and the Initial Capability Document. In a similar manner to 
LRS-B, the LRSO is necessary to ensure we maintain a credible deterrent 
in the future with the ability to strike at targets from beyond 
contested airspace in anti-access and area denial environments. The 
LRSO will be compatible with the B-52, B-2, and the LRS-B platforms. 
The LRSO AoA is complete and JROC approved, and in February of last 
year the Air Force Chief of Staff signed the Draft Capabilities 
Development Document. LRSO was selected by SAF/AQ as a pilot program 
for ``Bending the Cost Curve'' and ``Owning the Technical Baseline,'' 
which are new acquisition initiatives and is currently planned for 
reaching Milestone A next fiscal year. We fully intend to develop a 
conventional version of the LRSO as a future spiral to the nuclear 
variant.
  B61
    The B61-12 Life Extension Program (LEP) will result in a smaller 
stockpile, reduced special nuclear material in the inventory, and 
improved B61 surety. AFGSC is the lead command for the B61-12 Tail Kit 
Assembly program, which is needed to meet STRATCOM requirements. The 
B61-12 Tail Kit Assembly program is in the Engineering and 
Manufacturing Development Phase 1 and is synchronized with NNSA 
efforts. The design and production processes are on schedule and within 
budget to meet the planned fiscal year 2020 First Production Unit date 
for the B61-12 Tail Kit Assembly, and support the lead time required 
for the March 2020 B61-12 all-up round. This joint AFGSC/NNSA endeavor 
allows for continued attainment of our strategic requirements and 
regional commitments.
                                security
    Nuclear security is a key function of the Command's mission. A 
major AFGSC initiative to ensure security continues to be the new 
Weapon Storage Facilities (WSF) which will consolidate nuclear 
maintenance, inspection, and storage. We have put forward a $1.3 
billion program ($521 million across the FYDP) to replace all deficient 
buildings across our aging 1960's-era Weapon Storage Areas with a 
single modern and secure facility at each of our bases. This initiative 
eliminates security, design, and safety deficiencies and improves our 
maintenance processes. We have included $95 million in funding for the 
WSF at F.E. Warren AFB, WY, in this year's budget and the MILCON for 
the remaining facilities in future years. These facilities are needed 
to meet requirements for a safe, secure, and effective nuclear arsenal.
    Through our continuing efforts to improve security and thanks to 
your strong support, we have completed the fast rising B-Plug system 
and the Remote Visual Assessment (RVA) system installation at all 450 
LFs. These two programs better protect our nuclear weapons. The fast 
rising B-Plug enables our teams to secure the LFs quickly ensuring the 
weapons remain secure. RVA enables our security forces members to have 
increased situational awareness as they determine response actions at a 
given LF.
              nuclear command, control, and communications
    The ability to receive Presidential orders and convert those orders 
into action for the required weapon system is both critical to 
performing the nuclear mission and foundational to an effective 
strategic deterrent. As the Air Force Nuclear Command, Control, and 
Communications (NC3) Chief Architect, AFGSC plays a pivotal role in 
providing reliable and survivable NC3 systems to support national 
objectives. Cryptographic modernization upgrades allowed Air Force 
nuclear operations to transition to more secure equipment and satellite 
communications networks. These transitioned networks greatly improved 
security of sensitive nuclear command and control message traffic. Our 
weapon systems are only as good as the NC3 that underpins them and 
therefore we have redoubled our efforts in this area. We recently held 
the first-ever NC3 General Officer Steering Group to address top 
sustainment and readiness concerns. Additionally, AFGSC has been named 
the lead command for Air Force NC3 issues. Consolidating NC3 authority 
within the Service will enable us to better advocate for, support, and 
upgrade these critical systems. As the NC3 lead, AFGSC is participating 
in an Office of Secretary of Defense led 45-day study to analyze NC3 
systems and future capabilities across the Services. In addition, the 
Chief of Staff of the Air Force directed AFGSC to stand up a task force 
to develop an organizational construct to ensure AFGSC is resourced and 
has the appropriate authorities and command relationships to execute 
responsibilities as it assumes the newly designated role as the Air 
Force lead for the NC3 mission area. Efforts like this study combined 
with ongoing and future upgrades to the NC3 systems will improve 
reliability and readiness of this critical capability across the DOD.
  Global Aircrew Strategic Network Terminal
    The Global Aircrew Strategic Network Terminal (ASNT) program will 
provide a fixed and transportable system of survivable NC3 Command 
Posts. These Command Posts support nuclear-tasked bomber, tanker, 
National Airborne Operations Center (NAOC), Take Charge and Move Out 
aircraft (TACAMO), reconnaissance forces, and nuclear reconstitution 
teams. Global ASNT is one part of the ground element of the larger 
Minimum Essential Emergency Communications Network. Global ASNT 
replaces degraded legacy NC3 systems in AFGSC, Air Combat Command, Air 
Mobility Command, U.S. Air Forces Europe, Air National Guard, and Air 
Force Reserve Command thereby providing redundant strategic 
communications paths. Global ASNT recently moved into the Engineering 
and Manufacturing Development phase of the acquisition process and full 
operational capability is expected in 2020.
                  new strategic arms reduction treaty
    New Strategic Arms Reduction Treaty (START) implementation 
continues ahead of schedule. In the latest data exchange with the 
Russians, the U.S. Government reported only 912 deployed and non-
deployed strategic delivery vehicles, down from the 1,124 reported at 
entry into force in early 2011, and well on the way to the required 800 
combined deployed and non-deployed strategic delivery vehicles. We 
completed all of our planned silo eliminations which included 50 
Peacekeeper LFs, 50 Minuteman III LFs, and 4 test LFs. With the last 
Peacekeeper LF elimination, Peacekeeper is no longer accountable under 
NST. We completed all de-MIRV (i.e., moving to a single reentry vehicle 
configuration) actions in May of last year. AFGSC plans to remove 50 MM 
III boosters from LFs across the missile fleet; the booster removals 
are scheduled to begin next month with 9 boosters scheduled in fiscal 
year 2015. Additionally, we will reduce the number of dual-capable B-
52H aircraft by converting 42 of them to a conventional-only 
configuration. Importantly, our B-52 fleet will maintain all of its 
conventional capability. The first B-52 conventional only conversion is 
scheduled for August of this year with an exhibition for Russian 
inspectors to immediately follow. All NST implementation actions are on 
time and within budget.
              nuclear deterrence operations core function
    We continue to improve and strengthen the nuclear enterprise 
through our long-range planning efforts. One of the methods we use to 
inform our Nuclear Deterrence Operations long-range planning and 
investment strategy efforts is wargaming. Strategic Vigilance, AFGSC's 
biennial wargame, will be held this year and will build on previous 
scenarios to strengthen command innovation and preparation. These 
wargames help us anticipate future conventional and nuclear planning to 
further improve our strategic deterrence and assurance mission areas. 
Ultimately, this allows AFGSC to better organize, train, and equip our 
forces. Additionally, we continue to observe other wargames and stay 
engaged with our partners in the other services to learn from their 
experiences.
                   2015 focus areas (our priorities)
  Deter and Assure with a Safe, Secure, and Effective Nuclear Force
    Nuclear weapons demand a culture where safety, security, and 
effectiveness permeate all aspects of this critical national mission to 
include our people who embody this special trust and responsibility 
through all facets of their profession. As the greatest Air Force in 
the world we will only remain dominant through their professionalism, 
dedication, and commitment to service--and living our Air Force core 
values. Although we will continue to be challenged with sustaining 
aging weapon systems, we will leverage the innovation of our great 
airmen to get the most out of our resources.
  Win the Fight
    Whether that fight is in overseas contingencies where we have over 
1,000 airmen deployed, or with our over 900 member nuclear deterrent 
force deployed to the missile fields conducting a combatant commander 
assigned mission every day, we will forge ahead to keep both our 
nuclear and conventional forces combat ready.
  Strengthen and Empower the Team
    We will continue to improve the quality of life for our airmen and 
their families, aware of the unique demands of our mission and our 
locations. We will continue to foster resiliency within a wingman 
culture, and we will improve education, training, and development at 
all levels. Furthermore, we will continue to strengthen, broaden, and 
deepen our culture around our command values of:

          -  Individual responsibility for mission success
          -  Critical self-assessment of our performance
          -  Uncompromising adherence to all directives
          -  Superior technical and weapon system expertise
          -  Persistent innovation at all levels
          -  Pride in our nuclear heritage and our mission
          -  Respect for the worth and dignity of every airman
          -  Safety in all things large . . . and small
  Shape the Future
    We will stay focused on our human capital development and our 
weapon system modernization initiatives. Our responsive and resilient 
MM III, providing the foundation for strategic stability, must be 
sustained to 2030 until we are able to fully implement the Ground Based 
Strategic Deterrent weapon system. The B-52 will remain the Nation's 
visible deterrent for the next 25 years at least, and will prove a 
versatile platform with unmatched battlefield persistence. The B-2 will 
be our strategic penetrating platform denying safe haven to any 
adversary. The dual-capable Long Range Strike Bomber will ensure we can 
continue to hold any target on the globe at risk. As our Air Launched 
Cruise Missile becomes obsolete and unsupportable, we will field a 
credible and flexible deterrent with the Long Range Stand-Off missile.
  Uphold the Standard
    We understand the importance of ensuring compliance at all levels 
through critical self-assessment of our performance. We have undergone 
a complete shift in our AF inspection system to continually assess and 
fix problems; we refuse to walk by any problem area. One of the ways we 
uphold our standards is through inspections. We continue to implement 
the new Air Force Inspection System and integrate our nuclear 
inspections with that system. The Commander's Inspection Program (CCIP) 
is monitored virtually by our command IG and validated by a Unit 
Effectiveness Inspection (UEI) Capstone event every two years. Going 
forward, we will continue to utilize our rigorous inspection process to 
ensure the highest of standards and determine areas of the mission that 
require improvement.
                               conclusion
    Thank you for your continued support of Air Force Global Strike 
Command and our nuclear deterrent and global strike missions. The 
President's 2015 National Security Strategy is clear: ``As long as 
nuclear weapons exist, the United States must invest the resources 
necessary to maintain--without testing--a safe, secure, and effective 
nuclear deterrent that preserves strategic stability.'' To that end, 
our enduring challenges in AFGSC are: first, to instill a culture where 
every airman understands the special trust and responsibility of 
nuclear weapons; second, to maintain excellence in our conventional 
forces; third, to sustain the current force while modernizing for the 
future; and fourth, to solidify and sustain a culture where our airmen 
are proud to serve in and embrace the great importance of the deterrent 
mission.
    Fiscal constraints, while posing planning challenges, do not alter 
the National security landscape or the intent of competitors and 
adversaries, nor do they diminish the enduring value of long range, 
strategic forces to our Nation. Although we account for less than one 
percent of the DOD budget, AFGSC nuclear forces represent two-thirds of 
the Nation's nuclear triad and play a critical role in ensuring U.S. 
national security, while AFGSC conventional forces provide joint 
commanders rapid global combat airpower. AFGSC will continue to seek 
innovative, cost-saving measures to ensure our weapon systems are 
operating as efficiently as possible. Modernization of the nuclear 
enterprise, however, is mandatory. AFGSC is operating B-52s built in 
the 1960s with equipment designed in the 1950s; our ICBMs are operating 
with 1960s infrastructure; and utilizing 1960s era weapon storage 
areas. We cannot afford to delay modernization initiatives across the 
two legs of the Nation's nuclear triad.
    It is my absolute privilege to lead this elite team empowered with 
special trust and responsibility, and I can assure you that we at Air 
Force Global Strike Command will meet our challenges head-on in order 
to provide our Nation with safe, secure, and effective forces for 
nuclear deterrence and global strike operations.

    Senator Sessions. General Harencak?

STATEMENT OF MAJ. GEN. GARRETT HARENCAK, USAF, ASSISTANT CHIEF 
     OF STAFF, STRATEGIC DETERRENCE AND NUCLEAR INTEGRATION

    General Harencak. Chairman Sessions, Ranking Member 
Donnelly, thank you for the opportunity to appear before the 
subcommittee today to discuss Air Force nuclear policies and 
programs. I respectfully request my written statement be 
entered into the record and look forward to your questions.
    [The prepared statement of General Harencak follows:]

         Prepared Statement by Maj. Gen. Garrett Harencak, USAF
                              introduction
    Chairman Sessions, Ranking Member Donnelly, and distinguished 
members of the subcommittee, thank you for the opportunity to discuss 
Air Force nuclear programs and policies.
    As the Assistant Chief of Staff for Strategic Deterrence and 
Nuclear Integration, my team, on behalf of the Secretary and Chief of 
Staff of the Air Force, leads planning, policy development, advocacy, 
integration, and assessment for the airmen and weapon systems 
performing Nuclear Deterrence Operations, a core function of the U.S. 
Air Force. In today's increasingly complex, multi-polar environment, 
the highly stabilizing deterrence and assurance effects provided by Air 
Force nuclear forces--intercontinental ballistic missiles (ICBMs), 
nuclear-capable bombers, and dual capable aircraft (DCA)--will continue 
to play a critical role in ensuring the security of the United States 
and assuring our allies and partners.
    Throughout the 1990s and early 2000s, a confluence of forces 
contributed to an erosion of the nuclear mission within the Air Force. 
This period of decline was characterized by a loss of senior leader 
focus, fragmentation of responsibility, and chronic underinvestment in 
our personnel, weapon systems, and supporting infrastructure. While in 
recent years we have reversed this downward trend and made substantial 
progress towards addressing these deficiencies and the problems that 
resulted from them, we recognize considerable work lies ahead. As 
Secretary James has emphasized, restoring the health of the nuclear 
enterprise is an undertaking that will require sustained, long-term 
focus and effort.
    Despite challenges, the dedicated airmen who accomplish the nuclear 
mission every day continue to do so with remarkable professionalism, 
pride, and determination. For these women and men and the Nation they 
serve, the Air Force remains fully committed to identifying and 
confronting systemic issues in our nuclear forces, and making the 
investments necessary to ensure they remain credible and effective in 
the decades ahead.
                       nuclear enterprise reviews
    From the outset of the Internal and Independent Nuclear Enterprise 
Reviews (NERs) directed by former Secretary of Defense Hagel in 
February 2014, as well as the review led by the Commander, U.S. 
Strategic Command (STRATCOM), the Air Force partnered closely with the 
assessment teams to provide unfettered access to our operations, 
personnel, and processes.
    Combined, these assessments examined an extensive range of 
personnel, management, oversight, mission performance, training, 
testing, and investment areas across the nuclear enterprise. To date, 
we have implemented a number of the Air Force-specific recommendations 
produced by the NERs, and our work towards completing the remaining 
ones continues at a steady pace.
    Under the direction of our Secretary and Chief of Staff, and with 
oversight and guidance from the Nuclear Deterrent Enterprise Review 
Group (chaired by the Deputy Secretary of Defense) and the Senior 
Oversight Group (chaired by the Director of Cost Assessment and Program 
Evaluation), we are approaching the implementation and tracking of NER 
follow-on actions through a systematic and responsive process, one 
intended to yield tangible and lasting improvements.
    Following completion of the NERs in the fall of 2014, the Air 
Force's immediate efforts were concentrated on addressing the most 
exigent gaps identified in the reviews. As we gradually transition our 
attention this year to implementing NER initiatives that require 
longer-term action, we are placing renewed emphasis on strengthening 
assessment processes and developing valid metrics to ensure that the 
changes we institute are measurable and enduring. While continuous 
improvement and rigorous self-assessment have been guiding precepts of 
our efforts to strengthen the enterprise since our broad reorganization 
of this mission area in 2008-2009, we recognize that the success of our 
NER follow-on actions is critically dependent on how well this effort 
is integrated into existing Air Force nuclear oversight structures and 
processes, where our senior leadership can apply sustained focus, 
provide accountability, and marshal necessary resources.
    Consistent with that objective, NER findings have assumed a central 
place in the agendas of our Nuclear Oversight Board, chaired by the 
Secretary and Chief of Staff with participation from all ten of our 
major command commanders, and the three-star level Nuclear Issues 
Resolution and Integration board. Both of these bodies, which are 
organized and managed by AF/A10 and meet quarterly to focus exclusively 
on issues of importance to the nuclear mission, serve as vital cross-
functional forums where senior leaders can decisively prioritize, 
resource, and direct the implementation of solutions across the Air 
Force. We have determined that the Flight Plan for the Air Force 
Nuclear Enterprise, a comprehensive roadmap that outlines a series of 
strategic vectors for improving and monitoring the health of the 
nuclear enterprise, is the best framework through which to orchestrate 
our long-term NER response. Aligned in four focus areas--human capital, 
governance, inspections and assessments, and resourcing, with an 
understanding that culture and morale are impacted by all of them--
these vectors each have a corresponding action plan with execution and 
follow-up responsibilities assigned to specific Air Force entities.
    The NER process has fostered an unprecedented renewal of senior 
level focus and collaborative engagement on the nuclear mission from 
the highest levels of the Department of Defense (DOD), and is already 
leading to positive outcomes that are visible throughout the force. We 
are optimistic that the new mechanisms created by the NERs can serve as 
a benchmark for future interagency collaboration as the Air Force 
continues its efforts in the coming years to improve the nuclear 
mission.
       sustaining the effectiveness and credibility of our forces
    As long as nuclear weapons exist, the consequences of their 
potential use against the U.S. remains an existential threat that 
demands our strategic forces be prepared to meet not only the most 
likely contingencies, but also the most unlikely. President Obama has 
established a clear mandate that the United States will maintain safe, 
secure, and effective nuclear forces, even as we seek the peace and 
security of a world without nuclear weapons and take concrete steps to 
reduce our total number of weapons and the role they serve in national 
security strategy.
    Consistent with the President's imperative, the fiscal year 2016 
budget request seeks key investments in the sustainment, modernization, 
and recapitalization of Air Force nuclear weapon systems, supporting 
infrastructure, and our nuclear command, control, and communications 
capabilities (NC3). In addition, the budget provides strong support for 
our most critical asset: the Airmen we entrust to perform nuclear 
deterrence operations every day. Closely aligned with the priorities 
established by the NERs, as well as in multiple internal Air Force 
reviews of the nuclear enterprise, these investments in our air and 
ground legs of the Triad make important headway towards ensuring these 
systems remain effective and credible now and in the years ahead.
                        weapon system investment
    The fiscal year 2016 budget supports an array of modernization 
initiatives for our B-2A and B-52H bombers that will enable these 
aircraft to remain capable of performing their assigned nuclear and 
conventional missions. Despite these upgrades, both the B-52H 
(delivered in 1961-1962) and the B-2A (delivered throughout the early/
mid-1990s) are becoming increasingly vulnerable to modern air defenses. 
Accordingly, the fiscal year 2016 budget advances research and 
development efforts for the Long Range Strike-Bomber (LRS-B) in order 
to ensure the Nation retains a credible global strike and power 
projection capability in the decades ahead. We are anticipating a 
contract award for LRS-B in late spring of this year, with initial 
operational capability (IOC) for the planned fleet of 80-100 aircraft 
in the mid-2020s.
    The budget funds life extension to 2030 of the AGM-86B air launched 
cruise missile (ALCM)--the Nation's only air-delivered stand-off 
strategic weapon, fielded by the Air Force in 1982 with a designed 
service life of 10 years. When employed from B-52H bombers, ALCMs 
provide an extremely valuable signaling capability and a degree of 
versatility unmatched elsewhere in the Triad. For these and other 
reasons, the fiscal year 2016 budget request restores funding to the 
critical Long Range Stand-Off (LRSO) effort, a follow-on ALCM program 
that will eventually replace the AGM-86B. The funding level requested 
enables the program to meet STRATCOM's operationally required need date 
and realigns Air Force integration efforts with the Department of 
Energy (DOE)/National Nuclear Security Agency (NNSA) life extension 
program (LEP) to produce an LRSO warhead.
    The life extension effort for the B61, the Air Force's primary 
gravity nuclear weapon, is equally important to the continued 
effectiveness of our deterrence and assurance capabilities. Both the 
B61-12 LEP, which DOE/NNSA manages, and the associated Air Force 
Tailkit Assembly program are supported in the fiscal year 2016 DOE/NNSA 
and Air Force budgets. These efforts are synchronized and on schedule 
to deliver the first production unit B61-12 in 2020. The fiscal year 
2016 Future Years Defense Program (FYDP) also supports risk reduction 
activities for dual capable aircraft (DCA) integration for the F-35 
Joint Strike Fighter. Our goal of reaching IOC for F-35 DCA with the 
life-extended B61-12 by 2024 remains unchanged. This program remains an 
important and highly tangible signal of the U.S.'s continued commitment 
to the North Atlantic Treaty Organization, which has repeatedly 
affirmed the role of nuclear deterrence in the collective security of 
the Alliance.
    Several sustainment programs for the Nation's fleet of Minuteman 
III (MM III) ICBMs and supporting infrastructure are funded in the 
fiscal year 2016 budget that will extend the effectiveness of this 
system through 2030, consistent with Congressional mandates. For more 
than 50 years, continuously on-alert ICBMs have been a foundational 
pillar of America's strategic deterrent, providing a level of 
responsiveness and stability not replicated by other legs of the Triad. 
In order to preserve this capability for the Nation beyond the phase 
out of MM III, the fiscal year 2016 budget supports continued 
development and risk reduction for the follow-on Ground-Based Strategic 
Deterrent (GBSD) program. Last summer, Air Force Global Strike Command 
(AFGSC) completed the GBSD analysis of alternatives, and the program is 
already leveraging synergies with MM III modernization efforts to meet 
a target IOC in 2027.
    For our major weapon system modernization and recapitalization 
efforts, the Air Force's partnership with DOE/NNSA--responsible for 
life extension of the nuclear explosive packages at the heart of our 
gravity weapons, cruise missiles, and ICBM reentry vehicles--remains 
productive and strong. Our ongoing cooperation with the Department of 
the Navy on ballistic missile sustainment, intended to leverage 
commonalities between the Air Force's MM III ICBM and the Navy's 
Trident II (D5) submarine-launched ballistic missile, is helping both 
Services reduce program risk and improve affordability. Through the 
joint DOD-DOE Nuclear Weapons Council and other interagency channels, 
we will continue to pursue new opportunities to strengthen integration 
with our mission partners to ensure the success of our programs.
                addressing other critical mission needs
    The fiscal year 2016 budget addresses a host of other important 
mission needs, particularly across the ICBM force. These investments 
include the establishment of a program office to manage 
recapitalization of the Vietnam-era fleet of UH-1N utility helicopters 
performing the ICBM security mission, as well as the replacement of 
aging ICBM payload transporters with updated models. Complementing the 
longer-term modernization and recapitalization programs underway for 
the missile force, this budget also advances multiple initiatives to 
address immediate, near-term ICBM operations and maintenance needs.
    Prior to the formal initiation of the NERs, in January 2014 AFGSC 
acted decisively to uncover and address urgent shortfalls throughout 
the missile wings through its Force Improvement Program (FIP). Guided 
by actual feedback provided by Airmen in the field performing missile 
operations, FIP yielded a diverse set of actionable recommendations, 
many of which were implemented or initiated last year with fiscal year 
2014 and fiscal year 2015 investments. Examples of improvements for the 
ICBM force supported by FIP to date include incentive pays, 
scholarships, fielding of important test and maintenance equipment, 
refurbishment and deep cleaning of launch control centers and alert 
facilities, new utility vehicles, and upgraded tactical equipment and 
uniforms for our security forces. Most significantly, FIP is supporting 
the addition of approximately 1,100 billets across AFGSC to strengthen 
manning in key nuclear specialties, as well as 158 technical and 
engineering billets at Air Force Materiel Command that will help 
preserve specialized skillsets within the nuclear sustainment 
enterprise and advance the GBSD program.
    The fiscal year 2016 budget also makes important first steps 
towards reversing the trend of decline in our critical nuclear mission 
facilities, particularly our 1950s-1960s era Weapons Storage Areas 
(WSAs) that support nuclear munitions storage and maintenance. The 
fiscal year 2016 FYDP includes military construction funding to 
initiate the first phases of a comprehensive plan--the Weapons Storage 
Facility (WSF) Investment Strategy--that will replace existing WSAs 
with modern WSFs at AFGSC installations in the coming years. 
Additionally, the budget supports robust facilities sustainment, 
restoration, and modernization levels that will allow AFGSC to begin 
addressing a number of previously deferred infrastructure repairs 
across its ICBM and bomber installations.
    As the lead military service for approximately two-thirds of the 
Nation's NC3 systems, the Air Force continues to work to improve focus 
on and resourcing of this vital mission. Critical to the execution of 
the nuclear mission, as well as Presidential and senior leader 
communications, NC3 must be secure, redundant, and highly survivable to 
ensure continuous connectivity in all environments. In order to 
consolidate and strengthen the life cycle management process for NC3, 
we continue to collaborate with mission partners to define key NC3 
system elements, interdependencies, and authorities. In February of 
this year, the Secretary and Chief of Staff designated AFGSC as the Air 
force lead for this mission area. In this capacity, AFGSC is presently 
leading an Air Force Task Force charged with assessing oversight and 
organizational relationships related to NC3 acquisition and 
sustainment, as well as participating in a comprehensive DOD led NC3 
capabilities study.
             strengthening policies to support the mission
    We are effectively capitalizing on the NER process to address 
longstanding inefficiencies in many administrative and policy areas 
affecting the nuclear enterprise. In close partnership with AFGSC and 
other Air Force, Joint, and DOD stakeholders, over the past 12 months 
we have implemented a number of important revisions to key programs and 
policies that are yielding substantial efficiencies. For example, we 
have restructured our Personnel Reliability Program (PRP) to eliminate 
redundancy and vastly reduce the number of individuals required to be 
covered by the program. We anticipate these changes will result in 
considerable reductions in the man-hours required to administer PRP, 
while at the same maintaining the integrity and intent of the program.
    Through the NERs we have accelerated previously initiated efforts 
to refine the scope and methodology of our nuclear inspection process, 
with the goal of reducing duplicative structures, providing wings with 
critical ``white space'' to focus on successful performance of the 
mission in lieu of constant preparation for inspections, and empowering 
Airmen to innovate by removing unnecessary requirements that promote 
micro-management and perfectionism. We continue to strengthen the ICBM 
career field by creating new paths for professional development and 
education, providing additional opportunities for leadership 
experience, and offering incentives to our missileers who elect to 
pursue higher levels of responsibility.
                       treaty compliance efforts
    In accordance with the terms of the New Strategic Arms Reduction 
Treaty, Air Force activities to align our ICBM and heavy bomber forces 
with the treaty-compliant force structure established by DOD last 
spring by the deadline of February 2018 remain on track. In support of 
this effort, modifications to treaty-accountable ICBM silos and bombers 
will continue in 2015. Consistent with statutory mandates and STRATCOM 
requirements, we continue to preserve the capability to reconfigure MM 
III ICBM with multiple warheads.
                               conclusion
    The realization of the benefits intended from these investments and 
the Air Force's ability to continue supporting combatant command 
nuclear requirements is critically dependent on the funding levels 
requested in the President's budget. As the Secretary and Chief of 
Staff have made clear, should the Air Force have to operate at 
sequestration-level funding in fiscal year 2016, no mission area--
including nuclear deterrence operations--would be impervious to its 
effects.
    Thank you for the opportunity to update the subcommittee on Air 
Force nuclear enterprise policies and programs and our actions to 
implement NER recommendations. Our near- and long-term commitment to 
continuous improvement of the nuclear mission--particularly through the 
deliberate development of our airmen--will remain one of the Air 
Force's top priorities.

          STATEMENT OF SENATOR JEFF SESSIONS, CHAIRMAN

    Senator Sessions. We are sorry to have this program 
interrupted, but I think it is time for us to go ahead and move 
forward, as Senator King and Donnelly reminded me.
    So we got a lot going on, and I would just say in terms of 
an opening statement, I do believe the Department of Defense, 
Ms. Creedon, and others has responded to this problem. I think 
Secretary Hagel deserves credit for insisting that we make an 
honest and very serious review, which you have done and I thank 
you for. Some of the findings are extremely troubling I 
thought, some of which is classified, but I believe that you 
folks are on that.
    Secretary Hagel said that the reviews found evidence of 
systemic problems that if not addressed could undermine the 
safety, security, and effectiveness of the elements of the 
force in the future. Close quote. I think that is a serious 
comment, and we need to address it.
    Admiral Benedict, I know your naval submarine crews and 
others are on constant stress and alert and acting. Ships are 
moving things. Plans are being executed. It perhaps is more 
difficult, I think, for the Air Force where you are at bases 
and missiles are in silos and not as much is happening. So I 
can understand the difficulties that we might have in 
maintaining the kind of alertness and morale that you need to 
have.
    Previous briefings I have had so far on this subject 
indicate that the Air Force is taking aggressive action to 
create the kind of morale and attention and evaluation that is 
necessary. But we will have, I am sure, other questions that 
would be asked.
    Also, from what I can see from Secretary Hagel's 
announcement, we may be talking about a 10 percent increase. 
That could be as much as $8 billion, and you can buy a lot with 
$8 billion. So I think we need to ask the question can we 
achieve the kind of improvements we need with less cost than 
that.
    On this vote, Senator King, you have not voted. Is that 
right? Did it just get called?
    Senator King. This is the next one.
    Senator Sessions. Well, there should not be much time left, 
is that not right, for us to vote? 5 minutes, okay. We are in 
better shape than I thought.
    Ms. Creedon, the review found that, quote, significant 
changes are required to ensure the safety and security and 
effectiveness of the force in the future. Can you give us some 
examples of where safety and security and effectiveness are at 
risk and some examples of recommendations that you might make? 
And what is meant by cultural and structural changes?
    Ms. Creedon. Thank you, sir. So let me start probably on 
the end of that.
    On the cultural changes--and I will just use a couple of 
examples to illustrate some of these. On the cultural side, we 
found that particularly in the Air Force, there was not a good 
culture of strong self-assessments that could provide up the 
chain of command no-kidding assessments of what was going on in 
the forces. So we found that what was happening was problems 
were not raised to the next level of attention, and when 
problems were raised, they were not treated with any 
significant degree of credibility. So what we had was a 
situation where the senior leaders for the most part did not 
even know how bad some of the situations were at the working 
level because they were simply not putting in place any sort of 
a good self-assessment regime or having any good, candid 
opportunities for conversation within the services.
    On the organizational, again an illustrative example. We 
found that particularly that the way the Air Force was 
organized for maintenance of the ICBMs, that the Air Force did 
not treat the entire universe of the ICBM as a single weapon 
system. So you have the missile itself. You have the silo that 
it is in, and the silos are covered by launch control centers. 
And the launch control centers then talk within their missile 
field. That whole missile field was not considered as a weapon 
system. So as a result, you had different pieces of the Air 
Force and different sources of money responsible for the long-
term maintenance of different parts and pieces. So there was no 
holistic way to look at that ICBM system as a system of 
systems. So you had some parts of the Air Force taking care of 
other things, and then you had the base commanders taking care 
of other things. And particularly when the base commanders were 
using their money, we found that the base commanders were 
forced with choices of, say, plowing the snow or fixing blast 
doors on a large control facility. So they were not organized 
structurally to fix this.
    On the safety and security, for the most part, what we were 
worried about was the safety and security of the forces as they 
were operating. So we found in many instances that their 
equipment just was not adequate. So at the missile fields, for 
instance, these missile fields are all in the north. They have 
terrible winters. They have lots of snow, lots of ice, and yet 
the security forces were driving around in SUVs that were 
front-wheel drive. So it was as minor as that that could fix 
some of these no-kidding safety of life sorts of things.
    Senator Sessions. And can you give an example of a specific 
action such as the confused support system you just described 
that have been done to improve that? Maybe, General Wilson, you 
could comment on that. What steps do you think that you have 
taken that would alleviate some of the problems that Ms. 
Creedon just described?
    General Wilson. Thank you, Chairman Sessions. Let me give 
you three examples.
    The first thing that she talked about is cultural. So the 
big culture change that we have embarked upon is one of 
empowerment, empowering our airmen. So we started a force 
improvement program, and the force improvement was a different 
look. So it is a bottom-up look and it was a multi-diverse team 
of people who made up this individual--so in operations, it 
would be operators from each of the ICBM wings with submarine 
operators with airplane operators to give a different 
perspective.
    As part of the force improvement program, the ICBM alone 
has brought forward over 350 recommendations from the airmen 
doing the job on how to do it differently and better.
    Senator Sessions. These recommendations were from the 
ground up.
    General Wilson. From the ground up, so from the people 
doing the job. And I look at it as our job to remove the 
barriers to their success. So as an example, as Secretary 
Creedon just mentioned, the defenders out in the field did not 
have the right uniforms and the right vehicles and the right 
equipment. That has all been changed. Based on their 
recommendations, we went out and said what is the best cold 
weather gear and the best gear that we can get for the 
environment that they are in. We have funded that. We have 
delivered it to the field. It was no small task to do it. Just 
for the defenders in the security force, it was over 250,000 
individual line items that were delivered to the field.
    But in addition to the uniforms, we provided new vehicles, 
new radios, and we greatly improved the training of the 
security forces that they get. We do that at Camp Guernsey in 
Wyoming.
    So we are building a model defender program and the model 
defender is not just the outer gear. It is the whole human 
weapon system with the goal of making our airmen--the place 
that everybody wants to go to for the mission because they are 
doing a vitally important mission for our Nation, and we are 
equipping them properly with the right tools to do the mission.
    Senator Sessions. Thank you, General Wilson.
    Of course, this is a big deal. Errors cannot happen in the 
area that you operate in. My impression, General Wilson, is the 
Air Force has taken seriously the concerns and have responded 
in a serious way. Without getting into too many details, would 
you explain to us the role Secretary of Defense Hagel had in 
moving this forward and what you can tell us--my time is 
already over. No. I guess I did my opening statement in this.
    But can you tell us what you have done that would convey to 
the Congress and to the American people that you have seriously 
evaluated the concerns in the report and from top down, actions 
are being undertaken to fix it?
    General Wilson. Yes, sir. If I were to describe it, first 
of all, the change from the past. So what is different today is 
we certainly have the attention and the focus of the senior 
leadership, both of the Department, the Secretary of the Air 
Force, and Chief of Staff of the Air Force.
    Senator Sessions. They have been personally engaged.
    General Wilson. They have been personally engaged in this.
    As an example, the Secretary of the Air Force has visited 
each of our missile wings three times in the last year. She 
meets with our airmen. She gets their direct feedback. The 
Chief of Staff has done the same. They have been personally 
engaged. They both have talked about how do we put our money 
where our mouth is. We have said this is the most important 
mission. We need to put the resources behind it to do that. We 
are on track to be able to provide those resources now.
    We do not disagree with anything in the reviews. Both the 
internal and the external reviews we are in complete agreement 
with. What we found is that our bottom-up reviews and the top-
down reviews overlapped about 95 percent. Within that, we have 
got a multitude of areas that we are addressing, everything 
from ICBM training, recruiting, how do we evaluate, how do we 
instruct them from the security forces, how do we provide the 
right supplies and the maintenance. As Secretary Creedon talked 
about, how do we define the ICBM weapon system that had not 
been done before? There has been a multitude of efforts, but it 
is not just the ICBM. We started with the ICBM.
    The next place we went is to our bombers, and we did a 
bomber force improvement program. And the bombers brought over 
215 recommendations forward on how to do things better and more 
efficiently.
    So we are looking at this as a continuous improvement 
cycle, but it is not something that is one time and done. We 
will go back out to the field. We have been going out to the 
field regularly listening to our airmen and saying are the 
things that we are doing helping. If not, how do we readjust, 
and what do we need to be doing differently? So we are taking 
this as a holistic, systemic view of the enterprise with 
persistent attention and focus, and now it is our job to make 
sure that we follow through with all the things that we have 
got underway.
    Senator Donnelly. General Harencak, have you given your 
opening statement yet?
    General Harencak. Yes, sir, I have.
    Senator Donnelly. Very good.
    Let me ask you this question, General Wilson, and that 
would be like a ?why,? which is somewhat speculative but in the 
reports as well. Why did these things happen? Is it that the 
type of mission that we have, being in a missile silo keeping 
an eye on things there, that it is not a desirable mission? It 
is not challenging enough, that members of the Air Force look 
at it as it was kind of a sidetrack to their career? How does 
this happen?
    General Wilson. That may be part of it. It may be that we 
lost focus on the importance of what strategic deterrence does 
for our Nation. We got engaged in places around the world that 
took our eye off this. And we either relayed in some form or 
fashion that what the airmen were doing was not as important as 
other things.
    I think we are seeing a change in that today. I will give 
you an example. We recently met a captain at Mahlstrom Air 
Force Base. He is an academy grad. He has a 3.8 Grade Point 
Average (GPA) in physics. He is finishing up his 4 years in the 
ICBM community. He said I have noticed a change in the last 
year. I have seen the differences in the empowerment and what 
it can make, and I want to stay in this weapon system. This is 
a once in a lifetime opportunity to be part of something bigger 
and to make a difference. And so he is staying in the ICBM 
community. That is not one person. You will see broadly across 
the community now with this increased focus and attention and 
people know the mission is important, that the airmen value 
that. We just did not do a very good job.
    Senator Donnelly. My perception is that it will be viewed 
as important as the leadership of the Air Force makes it to be 
in the public messaging you have and in the way you look at 
promotions there and ways of a career path there.
    General Wilson. Yes, sir. Well, a couple of specific 
examples the Air Force has done--and you are well aware. We 
have elevated this position for this command from a three-star 
to a four-star. We have elevated the position of the A-10 on 
the headquarters air staff from a two-star to a three-star. 
Again, at all levels, we are seeing it. Before we would see not 
a lot of--from the different accession sources who would 
volunteer to go to missiles, they were seeing a complete 
difference. This year alone 29 first choice and all 174 coming 
in, it was in the top 6 choices. So it is making a difference.
    Senator Donnelly. Admiral Benedict, as you know, Indiana is 
home to the Naval Surface Warfare Center Crane. It provides a 
lot of support to Strategic Systems Programs (SSP). As you look 
at that, one of the things that we have worked on at Crane that 
a lot of folks have put time and effort into is trying to 
enhance collaboration or commonality among the Navy and the Air 
Force nuclear programs. And Crane has been involved in that 
work to ensure lessons learned and best practices are shared 
between the Services. And I was wondering your view of how we 
are doing at promoting collaboration and commonality on these 
programs and how can we do better.
    Admiral Benedict. Yes, sir. Thank you.
    We are working, I think, better today in a more 
collaborative manner on the topic of commonality than I think 
we have ever been between the U.S. Navy and the U.S. Air Force. 
I had the opportunity to host Air Force flags. In fact, Major 
General Harencak visited me when we were out there as part of 
the strategic forum seminar that Crane hosted so generously for 
us. We showed them all of our capability at Crane, and of 
course, Crane is the single largest warfare center provider for 
strategic systems in the United States Navy, and they do an 
exceptional job and they have for many, many years.
    I think we continue to progress in this area. We have an 
official structure set up now where we are looking at various 
areas, one of them in particular being rad hard electronics, of 
which Crane is intimately familiar with the way the Navy does 
business. We have identified that to the Air Force for their 
consideration as they move forward.
    Another example of collaboration and commonality is on 
Monday of next week, I am flying to Omaha. I will join Admiral 
Haney in Omaha. I am flying up with Admiral Haney to be a part 
of the ICBM flag officers forum up at Cheyenne, WY, with all 
the ICBM flags. And I have the opportunity to pitch commonality 
in that forum to the Air Force generals.
    So I think we are making good progress in that area, sir.
    Senator Donnelly. Thank you.
    Ms. Creedon, I know that the internal report on the DOD 
nuclear mission was classified. But in this unclassified forum 
that we have here, what was your biggest surprise when you 
looked in determining how serious the issues were?
    Ms. Creedon. There were probably two. One was that although 
we knew going in that the Air Force had significant problems 
because there were many years of reports that had laid out a 
lot of these problems, the problems that we found were worse 
and they were much more systemic.
    With the Navy, again the surprise was that although the 
strategic systems programs were good and the naval reactors 
programs were good, what we found was the part in the middle 
that neither Admiral Benedict nor Admiral Richardson had really 
much authority over--those were in worse shape than we had 
expected. And what I mean by those, those are a lot of the 
support facilities, particularly some of the shipyards. They 
were pretty severely understaffed. There was a pretty big 
bathtub in the mid-career sections, and the facilities needed a 
lot of work.
    And as a result of that, we understood why the submariners 
were under as much stress as they were in their operational 
capacities. So, for instance, a lot of the work that in the 
past should have or would have been done by the shipyard once a 
submarine was in port was being done by the crew. So there were 
a lot of people and infrastructure things that we were 
surprised to find in the Navy.
    Senator Donnelly. Like how did we miss this or how did we 
get in this spot in your opinion?
    Ms. Creedon. That is probably one of those questions that 
needs an hour or so to fully unpack.
    Senator Donnelly. Actually I am on overtime right now, but 
nobody else is here. So this is awesome.
    [Laughter.]
    Ms. Creedon. I will not take an hour.
    But I would say it is a combination of things. I think 
General Wilson touched on a few of them. I think over time 
certainly at the Air Force, the mission had been sort of pushed 
to the side. I do not think the leadership across the board 
took much of the mission as seriously as possible, although I 
want to caveat very quickly on this, that the morale in the 
Navy was good where the morale in the Air Force was not good. 
So for some complicated reasons, the Navy had managed to keep 
the morale good.
    There was just so much focus and attention over the course 
of the various wars in Iraq and Afghanistan that that is where 
you wanted to be. So from the Air Force perspective, a lot of 
the folks found themselves--and these were their words. There 
are sort of two things that have stuck with me. They felt 
trapped. And there was another phrase that we ran into a lot, 
that they would say, well, I have the nuclear stink on me, so I 
do not have much of a future in the rest of the Air Force. So 
they did not see themselves as having much of a career 
progression.
    All of this happened gradually. It happened over time. None 
of it was very quick. And so it will take a lot of time to 
rectify all these things. But it was very complicated, I think, 
how all these things happened, but a lot of it was I just do 
not think there was a lot of attention being paid at very 
senior levels to certain aspects of this enterprise.
    Senator Donnelly. General Wilson--and this goes back to 
what we were talking about before. You are seeing and changing 
and making sure that there is no stigma to being part of the 
nuclear program, I would assume.
    General Wilson. Yes, sir. The goal is we want this to be 
something that people aspire to. And I am heartened today with 
some of our airmen, you know, what I see and the ability--we 
tell them you are going to be able to create your own future 
here. You own this. You can make a difference. Every airman's 
voice needs to be heard on how do we make this better. And then 
we are trying to empower them, and we are trying to clear the 
obstacles to their success at all levels. And once they start 
seeing the fruits of the success, they start believing it. And 
right now, I think they are just starting to see we have said 
and you are doing this. We have said this, you are doing this. 
They believe it. We are on a journey here but I think we are 
making some important progress.
    Senator Donnelly. I think that Senator Sessions should be 
back in just a minute or 2. I am going to run over and vote 
very quickly, and then I will come back. And if he is not back 
by then, you will be tortured by me again as I return.
    Thank you very much. We will put this in the hearing. We 
will hold off until we get back from votes. Thank you very 
much.
    [Recess.]
    Senator Heinrich [presiding]. Let me start out by thanking 
all of you for your patience with our voting schedule this 
afternoon. It has not been very conducive to these hearings. 
But I sure appreciate the work that all of you do.
    I want to start out, General Harencak. It is great to see 
you. It has been too long. As you know as well as anyone, New 
Mexico is home to the Nuclear Weapons Center and the thousands 
of airmen who work very hard every day to ensure the safety and 
the reliability of our nuclear enterprise.
    The 2014 nuclear enterprise review noted that there was, 
quote, a lack of promotion opportunities generally in the 
nuclear career field and a lack of a defined, sustainable 
career path for nuclear officers in the Air Force and career 
constraints resulting from nuclear specialization for both 
officers and enlisted personnel. Unquote.
    What steps are you taking to fix these personnel issues to 
ensure that our airmen have increased opportunities and 
incentives to enter and stay in this incredibly important 
field? General Wilson, do you want to take that?
    General Wilson. Yes, Senator, absolutely. We have started 
for an ICBM operator a completely different model than we have 
done before. We are calling it the 3 Plus 3 model. So we give 
them 3 years where they experience in a missile field becoming 
a flight commander--excuse me--a deputy and then an aircraft 
commander, missile crew commander. At the 3-year point, we are 
going to PCS the majority of them to another base where they 
are going to become an instructor or a flight commander. And so 
we are going to develop a bench of expertise that they did not 
have before. So they are going to stay longer in their career 
field.
    We also have a bunch of educational opportunities as we 
move forward, education with all the National labs. We are 
spending a lot of time working on what I call the human weapon 
system. What are the things we can do to improve the deterrence 
thinking of the 21st century? Locally we are starting a 
leadership development center where we will have touch points 
for our officers, our enlisted, and our civilians throughout 
their career where we provide them leadership development 
opportunities.
    In addition to that, we are working with our Air Force 
partners at Air University to build a structure throughout the 
Air Force where we increase our deterrence thinking more 
broadly throughout the Air Force so that all airmen understand 
the importance of nuclear deterrence.
    At the strategic level in the air staff, we are doing the 
same thing. So how do we get the Air Force into the National 
policy debates? So General Harencak and his team, working with 
others at headquarters Air Force and STRATCOM, our Navy 
partners to get into the debate at the National level.
    And lastly we are working with academia throughout the 
world. We stood up something we call the Center for Assurance 
Deterrence, Escalation and Nonproliferation Science and 
Education (CADENCE). And what that is doing is bringing in 
academia from around the world to help improve how we do 
business, and they are doing some phenomenal research but how 
do we take advantage of that at the Air Force and more properly 
help our airmen.
    So I think we have laid out a broader, deeper structure for 
airmen. They can see a path. And we tell people with the number 
of airmen today coming into the career field, we have more that 
want to stay in than we have room for. As they grow up, we are 
going to provide them leadership development opportunities, and 
we have a number of operational squadrons and ops officer 
positions and group commander positions. There is a future that 
you have to be an ICBM operator in the United States Air Force.
    Senator Heinrich. Fantastic.
    General Wilson. We got a bunch of efforts underway to 
improve that.
    And I will yield the remaining time to General Harencak 
here.
    General Harencak. The only thing I would add, Senator, is 
the proof of this is truly in the pudding, and I am absolutely 
confident that the leadership of the United States Air Force is 
committed in the long term to the purposeful development of 
nuclear officers and enlisted airmen that all work in this 
field. So I believe that we made structural and institutional 
changes to address your concern, and already we are seeing the 
benefits of that in just the last few months or a year.
    Senator Heinrich. And CADENCE. Where is that being stood 
up?
    General Wilson. Shreveport, LA.
    Senator Heinrich. Fantastic.
    And a related issue. As we know, nuclear missions require 
perfection. However, the nuclear enterprise review found that 
there is, quote, a blurring of lines between accountability and 
perfection in the Air Force. I was hoping you could explain 
what that means a little further. Either of you. General 
Wilson?
    General Wilson. What I am telling our airmen today is that 
they own the future. We are not going to walk by any problems. 
So when you see a problem, you need to identify it, so this 
culture of self-assessment and being able to have someone hear 
your voice and say this needs to be fixed, we can do this 
better.
    I recently had a conversation with a senior officer, and he 
said--
    Senator Heinrich. Basically you are saying accountability 
and perfection were working against each other in some cases.
    General Wilson. We did. We had a culture that was about 
passing the next inspection, and the culture of inspections 
became the mission. Today we are telling our airmen that is not 
it at all. We need to understand the importance of our mission, 
but you are empowered to make a difference.
    A senior officer said to me, well, you do not really 
believe a young airman has the wherewithal to--they just need 
to be told what to do. And I said, no, you are completely 
missing the boat. An example is a young airman at Barksdale Air 
Force Base who is 20 years old who works in the medical group, 
and he is a high school programmer. He was doing a job at that 
entry and realized I can do this better. He made a difference. 
He wrote a program that is now being used DOD-wide, and he is 
20 years old. That is the type of empowerment we are talking 
about, and it is going on throughout our enterprise where the 
youngest airmen and our NCOs and our young officers are 
speaking up because they see a way to make it better, and we 
need to listen to them and then let them do their job.
    Senator Heinrich. Thank you.
    Senator Sessions [presiding]. Senator King?
    Senator King. Thank you.
    Ms. Creedon, I go to a lot of hearings around here, and
    I am starting to think that instead of the U.S. Congress, 
we should call ourselves ``Deficits are Us'' because I keep 
encountering deficits and this is another one. Can you give me, 
very briefly, just in a few seconds, top line, what is the size 
of the nuclear enterprise deficit and what is the timeframe 
that we have to address it? Is it $100 billion, $50 billion, 
$20 billion? What is the number, and how much time do we have 
to do this before national security is truly jeopardized?
    Ms. Creedon. So I think first we need to understand exactly 
what our review did. So our review looked at the people in DOD, 
the systems in DOD that we have now and that we need to 
maintain until such time as we have replacement systems.
    Senator King. I understand that. I want a number.
    Ms. Creedon. So our estimate was a range of between $9 
billion and $25 billion. I do not know the time because how 
those things get executed are up in the air. So we had said 
possibly as many as 5 years, somewhere along those lines.
    Senator King. That is the total number, though. $9 billion 
to $25 billion is the total number.
    Ms. Creedon. That is what we came up with. Not terribly 
scientific, but that is what we came up with, $9 billion to $25 
billion. And it will take years to fix.
    Senator King. Thank you.
    Second, I am concerned about command and control in this 
system and particularly in the world of cyber crimes. How are 
we doing on that front?
    Ms. Creedon. We are doing better. Obviously, a good bit of 
this needs to be taken to a classified session on this 
particular topic, but when we did our review, because of some 
work that had been done previously, one of the main areas of 
attention that we found that it had increased attention was the 
nuclear command and control. So although there is work to be 
done, it at least had, I think, started to get better.
    Senator King. It is being attended to.
    Ms. Creedon. It is being attended to.
    Senator King. General Wilson, the B-52 is reaching the end 
of its life, and we are talking about the long-range strike 
bomber, but that is still on the drawing boards. Is there a 
capacity gap? Will the B-52 last until the long-range strike 
fighter, bearing in mind that the last--the Defense Department 
average for new aircraft procurement is 23 years? That is the 
number that we saw in the full committee. Can we get from here 
to there with the B-52?
    General Wilson. We can. We are planning to fly the B-52 for 
another 25 years. It has service life to go beyond that.
    Senator King. So you are confident in that platform for 
that period of time.
    General Wilson. I am. We need to do some upgrades to it. 
But I am also confident that we need a new penetrating bomber. 
The B-52s that we have on our ramp are 1960 and 1961 models. 
The B-2, our new bomber, is 25 years old. So we absolutely need 
a new bomber. As technology improves around the world, the 
ability to hold targets at risk wherever they are on the planet 
is vitally important to our Nation and certainly to the United 
States Air Force.
    Senator King. I would like to follow up with you or whoever 
is appropriate about the long-range strike bomber, what the 
spec is, how it relates to the B-2 and the B-52. So that is a 
discussion we can have.
    General Wilson. We would be happy to have that with you.
    The information referred to follows:

    Senator King was briefed on the Long Range Strike Bomber, what the 
spec is, and how it relates to the B-2 and the B-52 on May 7, 2015 by 
RCO, SAPCO and SAF/AQP.

    Senator King. If you could be in touch with my office 
because I want to understand before we undertake a new--before 
we get too far into a new vehicle, I want to have that 
opportunity.
    Another deficit is Research and Development (R&D). Are 
there sufficient funds in the President's budget, if it were 
enacted as it is today, to do the R&D that is necessary to keep 
pace in a field which is essentially driven by technology? 
General Wilson, do you want to tackle that? Or, Admiral, why do 
you not give me a thought on that?
    Admiral Benedict. Yes, sir. Well, I will address that as it 
relates to the Ohio replacement program, our new submarine. The 
answer is yes. As requested in the President's budget, if that 
is fully funded, then we will remain on track to do the design 
development and leading into production of that vitally 
important platform.
    Senator King. How about R&D generally in the nuclear 
enterprise?
    Admiral Benedict. I would say from my position as Director 
of SSP, there are four areas that I think my counterparts here 
in the Air Force would agree if we are not investing in, no one 
is investing in, and those would be reentry body science, rad 
hard electronics to the levels that we have to, strategic 
propulsion, which is vital to both us and the ICBM force, as 
well as the guidance systems which are well beyond any 
commercial case.
    Senator King. Could a current ICBM be used to put a 
satellite in orbit, the same rocket?
    Admiral Benedict. I will defer to the Air Force on that, 
sir.
    General Wilson. I would think the answer would be yes. I 
would have to get with the pros to be able to do that. But an 
ICBM is going to fly a significant distance, halfway around the 
world and go up into the hundreds of miles high. So the answer 
would be yes.
    Senator King. Well, I am just interested because we are 
talking about satellite overhead architecture and vehicles, and 
I just want to be sure we are not having a different vehicle 
for every trip to the store. And I would like to follow up on 
that as well in terms of the appropriateness of multiple use of 
some of these vehicles that are being developed.
    A final question. How is Russia doing in their compliance 
with New Strategic Arms Reduction Treaty (START)? Anybody? 
Answer quick. Nobody answering makes me nervous.
    Ms. Creedon. They are fine. Right now, the New START--they 
are full in compliance and we are full in compliance.
    Senator King. They are fully complying?
    Ms. Creedon. They are. It is one of the few bright spots in 
the relationship.
    Senator King. Good.
    That is all I have, Mr. Chairman. Thank you.
    Senator Sessions. A good question.
    Admiral Benedict, with regard to the study and the Navy's 
response, are there things that impacted the Navy that you have 
undertaken to make our arsenal more safe?
    Admiral Benedict. Mr. Chairman, both studies identified 
primarily two deficiencies within the U.S. Navy's actions. We 
are already in process. And we appreciate the confirmation that 
the two reviews gave us. Those are the infrastructure and, as 
Ms. Creedon stated, primarily in the shipyards. We were down in 
our shipyard worker numbers as a result of the impacts of 
sequestration. So those numbers were immediately authorized by 
Secretary Work when he identified that. And so we are hiring 
somewhere around 2,200 personnel for the shipyards and our 
repair facilities. We are on track on that hiring process, and 
that will certainly increase the throughput in our shipyards.
    The second piece, again as Ms. Creedon identified, was the 
infrastructure. We are now on a 15-year recapitalization plan 
of the naval shipyards, as well as a 25-year recapitalization 
program within the strategic weapons facilities that I am 
accountable for. So, yes, sir, we are on track.
    Senator Sessions. Well, your answer to Senator King I 
guess, Ms. Creedon, was $9 billion to $25 billion. Now, this is 
in addition to what our current expected expenditures are?
    Ms. Creedon. Yes, sir. And it was to maintain the current 
systems in DOD between now and whenever they are replaced by 
the follow-on systems.
    Senator Sessions. But you are not counting like the Ohio-
class replacement or the new bomber?
    Ms. Creedon. That is correct.
    Senator Sessions. That is not being counted. What does this 
money go for? I mean, we have been operating here for a long 
time, and we obviously are not at the level of safety and 
reliability we need to be. That is a huge sum of money.
    Ms. Creedon. And it is over a period of time. And I would 
turn to my colleagues for their indications as to how much each 
of them has begun to spend over the Future Years Defense 
Program (FYDP), but it is a wide range of things. Some of it is 
facilities. There are a lot of facilities that need to be 
replaced. Some of it is new equipment. The Air Force needs new 
helicopters for their missile fields. It is people. It is 
parts. It is a whole range of things. It is a very large bill, 
but a lot of it is facilities.
    Senator Sessions. Well, $25 billion would buy a lot, a lot 
of helicopters, a lot of automobiles with heaters in them. I am 
just telling you.
    I would think we need a specific request. So how would this 
reflect itself in future budget requests? You would just ask 
for more or are you talking about taking money out of existing 
programs?
    Ms. Creedon. Well, at that point, sir, I think I would like 
to turn it over to my DOD colleagues who are implementing the 
recommendations.
    Senator Sessions. Gentlemen, do you have thoughts about 
that? I mean, this is not a blank check. I mean, we have got to 
honor the taxpayers? money, and we are worried about not being 
able to maintain sufficient force levels and other matters too 
in this Defense Department.
    Admiral Benedict. Sir, if I may, I will go first.
    Our fiscal year 2016 increase was $446 million. That is in 
our budget within the Navy, and our FYDP increase across the 5-
year defense plan for the Navy totaled just slightly over $2 
billion.
    As Ms. Creedon said, the majority of that is personnel in 
the shipyards, as I explained. We have self-funded--
    Senator Sessions. How many do you have in a shipyard now?
    Admiral Benedict. Across all four shipyards, sir? I would 
have to get you the specific number.
    Senator Sessions. 2,000 sounds like a big number.
    Admiral Benedict. Yes, sir. Remember, these are the four 
naval nuclear shipyards. And so I do not have the exact number 
of all four in total. The number that I gave you, slightly over 
2,200, is the increase to the existing workforce in order to 
ensure that we can maintain the throughput through that system. 
I do not have the total number, sir.
    Senator Sessions. General Wilson?
    General Wilson. Mr. Chairman, we added $5.6 billion over 
the FYDP for the nuclear enterprise. That covers a spectrum of 
things from both people. It covers milcon.
    Senator Sessions. Well, is it not the rule of thumb that 
you can do--$1 billion is equal to 10,000 uniformed personnel?
    General Wilson. I do not know the rule of thumb, Mr. 
Chairman. We added 1,100 people to the nuclear enterprise this 
last year to help us in every area from security forces to our 
operators to supply specialists. 1,100 was the plus-up that we 
got to the nuclear enterprise. Some of that is for procurement 
going forward. We included the long-range standoff weapon 
across this 5-year defense budget. We have about $700 million 
of milcon to start getting after the weapons storage areas 
across all of our bases. So we added $5.6 billion on this FYDP 
to the nuclear enterprise.
    Senator Sessions. Well, I think we should see that in more 
detail. I think we should know more in detail about that and 
exactly how many people and just to say $5 billion and we are 
talking about $1 billion will produce about 10,000. So that is 
a lot of people.
    Anyway, I think we have to look at this hard. We have got 
to create safety and reliability. We know you have been 
undercut and have not had sufficient funding for that, and we 
are going to have to find some more money. But doing it as 
smartly as possible would be good.
    Senator Donnelly, I believe you are next. Has a vote 
started again or do you know?
    Senator Donnelly. Where we are at is there are a number of 
voice votes taking place right now, so about 10 to 15 minutes 
before the final recorded vote. I already went through 
questions, and so, Senator King or Senator Heinrich.
    Senator Sessions. Please.
    Senator Heinrich. One more round if we have got the time.
    And I would just make the point that, unfortunately, 
nuclear weapons have never sort of conformed to the sort of 
ratios between personnel, obviously, and hardware that we see 
in other parts of the DOD budget.
    But I want to get back to a couple of issues with General 
Harencak and also Admiral Benedict. And you guys can decide who 
to answer first.
    But the NNSA labs and plants through the current 
refurbishment programs for the B61-12, the W88 Alt 370, and the 
fuse for the W87 are leveraging rate, our technology across 
these life extension programs now. And I wanted to ask you is 
this sort of leverage beneficial to your programs. Is it cost-
effective? And is there a benefit for the U.S. deterrent as the 
full-scale engineering and design of these programs starts to 
level off over the next few years for Air Force, Navy, and NNSA 
to think about some sort of joint engineering programs to 
maintain the institutional knowledge of the labs? workforce?
    General Harencak. I will start, Senator. First off, as you 
are well aware, the tremendous work that the labs in New Mexico 
and Lawrence Livermore labs are doing in this collaboration. 
The short answer to your question is a resounding yes. We are 
leveraging. We are making affordable smart decisions where we 
collaborate with the United States Navy. And the B61 is a 
perfect example. There are components--we are just using Navy 
components in them, which has been obviously tremendously 
helpful. We are also collaborating on future ways that we could 
use joint common and adaptable materials, not just in hardware 
but also in our processes and using our people. We talked a 
little bit earlier about Navy Crane. The Navy is also using a 
facility in Heath, Ohio that the United States Air Force runs 
through a contractor, and it has also been enormously helpful.
    I will say, though, I have been banging around this 
particular aspect--business for the last 6 continuous years, 
and I can tell you I have never seen better cooperation. Our 
B61 program at the NNSA is working with us, and with 
collaboration from the Navy is on time, on cost. And that is 
just one example of where this collaboration and the great work 
between the Department of Energy, the NNSA, the Navy, and the 
Air Force has occurred.
    Senator Heinrich. That is exactly what I was hoping to hear 
because I think as you heard from Senator Sessions, the 
chairman, while we all recognize that this enterprise is not 
cheap, we have to get the most bang for the buck possible in 
this environment.
    I want to move on real quick to Kirtland Underground 
Munitions Storage Complex (KUMSC). General Wilson, as I 
understand it, the Global Strike Command now owns the Kirtland 
underground munitions and maintenance storage complex. This is 
a unique and strategic national asset. Do you have a long-term 
plan for its upkeep? And if you do, can you share it with the 
committee?
    General Wilson. Senator, I completely agree that KUMSC is a 
national treasure. We have not taken control of Kirtland KUMSC 
yet. We will on 1 October. As we have talked in the past, 
though, in the Air Force corporate structure, as we modernize 
our weapons storage facility, KUMSC absolutely has to be part 
of that plan. And so we will have that as part of the plan. I 
do not have it today, but as we develop it, we will make sure 
we share it with you.
    Senator Heinrich. That was certainly the case when the 
Nuclear Weapons Center was the lead, and we just need to make 
sure that that does not fall by the wayside as we make this 
incredibly important transition.
    General Wilson. Absolutely.
    Senator Heinrich. Thank you, General.
    Senator Sessions. Senator King?
    Senator King. I just want to take a moment to thank all of 
you, Ms. Creedon especially and Dr. Brumer, for the work on the 
report, on the review. I think so often we sort of just keep 
going, and to every now and then to stop and think and analyze 
and review and have some strategy about where we are headed I 
think is very valuable. And I commend former Secretary Hagel 
for initiating it and for your carrying it out. And I can 
assure you that it is going to help to guide our work and 
consideration. So just a thank you for that important work.
    Senator Donnelly. And I would just like to follow up what 
Senator King said to say thank you as well and to also let you 
know our goal is to simply make this all work the best possible 
and to create the most confidence in the people who work in 
this area, and that when we talk about these things, it is not 
to try to pick out people or pick on people. It is simply to 
say how can we do this better. What are the things we missed 
on? Just like the next day in practice, how can we run this 
better and make our team better? And so to all of you, thank 
you and thank you for your work on this effort.
    Senator Sessions. Thank you, Senator Donnelly. And I agree 
with those positive comments. I really believe that the Defense 
Department took the challenge seriously. The report is a 
serious report, and I believe that you are determined to 
eliminate the dangers and problems that we had. I truly believe 
that is so.
    Admiral Benedict, General Harencak mentioned the joint work 
that you have done. I understand there has been some real 
savings of money in that. And do you see possibilities in the 
future as we develop ICBM warheads and submarine-launched 
warheads that we could also have interoperable systems as the 
years go by?
    Admiral Benedict. Yes, sir. And I think there is a spectrum 
of commonality. It goes from the simple constituents using the 
same materials in the weapon system all the way up through--you 
could envision at some point at least a discussion about how 
common could we be. Could we be a common missile? I am not 
certain we are at that far right side of the spectrum. But I 
will tell you that we are engaged at the engineering level, at 
the leadership level, and as I mentioned earlier, I am actually 
briefing the Air Force ICBM flags on Tuesday of next week with 
Admiral Haney on this very subject up in Cheyenne, Wyoming. And 
they were very generous to invite me up there to have the 
conversation on commonality.
    So I think the conversation is ongoing. The recognition 
that the bill that you very well recognize that is in front of 
the two services is something that we have to think about 
differently, and I think there is a commitment now within the 
leadership teams to ensure that we provide you evidence that we 
have thought about it differently and some different proposals 
than the past.
    I will turn it over to my colleagues.
    General Harencak. I would say, Senator, that it is not a 
possibility. It is a certainty that we are going to do it 
because we just cannot do it any other way. People ask me all 
the time, well, how can we afford to do all this 
recapitalization and modernization. Well, one way we are going 
to afford to do it is we are going to do it in a new way. We 
are not going to do it the same way we did it in the 1960s and 
the 1970s and the 1980s and the 1990s. We are going to do it in 
a smarter, better, faster way. And that starts with making sure 
wherever we can leverage another service or what the U.S. Navy 
has done or vice versa, we are going to do it. So this is not a 
possibility. This is a new way of doing things that we are 
committed to, both our services. And it is probably the only 
way we are actually going to be able to deliver the needed 
systems for our Nation in an affordable manner.
    Senator Sessions. Well, thank you. I think those are 
encouraging comments.
    Senator King?
    Senator King. I was just going to say amen, General. You 
got it right.
    Senator Donnelly. I would third that and then also say to 
General Wilson I understand you are moving to STRATCOM, And we 
want to thank you on behalf of the committee for all the help 
you have rendered to us and we hope to continue that 
relationship as we look forward.
    And, General Harencak, we understand there is a new 
incoming A-10. During the ICBM cheating incident and 
modernization of the Air Force's nuclear mission, you have been 
proud to defend and advocate for the Air Force, and we 
appreciate that very much and we wish you the very best in your 
next position as well.
    Senator Sessions. Dr. Brumer, this will be my final 
question. Secretary Hagel talked about a 10 percent need 
increase apparently. I believe Administrator Creedon has used 
$9 billion to $25 billion. That depends on the years. That 
might be even more.
    First, does the 2016 request and the FYDP funding profile 
reflect that increase? So let me ask you that.
    Dr. Brumer. Yes. Thank you for that question, Chairman.
    Indeed, as part of the PB 2016 build, we did bring the 
senior leadership detailed assessments of all of the budget 
options and how they addressed the review recommendations. The 
PB 2016 did add $8 billion across the FYDP. Early on, there 
were options to spend more money, but there were executability 
problems and the ability to spend the money efficiently. By the 
end of the FYDP, I believe it comes close to the 10 percent 
number.
    Senator Sessions. So that is a figure you can live with?
    Dr. Brumer. Sir, it is an outcome of trying to balance a 
good faith effort to address the recommendations of the 
reviews, as well as trying to ensure that there is good use of 
Government resources to ensure that the money is well spent. It 
is something that I am comfortable with today, but we are very 
early on in the efforts to address the issues. I believe that 
this is something that will require years of sustained effort 
and sustained attention, and we intend to comprehensively 
review those decisions and the funding levels every year and if 
changes are needed in future budget requests, we will recommend 
them.
    Senator Sessions. Well, I think that is the kind of answer 
you can give at this time and maybe no more than that. But we 
would like to see the Government do a little better than we 
normally do. We go for years under-investing and then sometimes 
we over-invest. And if we can get on a stable path that we can 
be confident would put us into a safe, secure, and modernized 
system that is reliable, then we want to do that. And we hope 
you will look for every way possible to keep that cost as 
reasonable as you can.
    Anything else, gentlemen?
    Thank you all. We are adjourned.
    [Whereupon, at 4:10 p.m., the subcommittee adjourned.]

    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator James M. Inhofe
                             modernization
    1. Senator Inhofe. Major General Harencak, Lieutenant General 
Wilson, Vice Admiral Benedict, Dr. Brumer, and Ms. Creedon, do each of 
you believe our nuclear deterrence capability has been challenged by 
inadequate modernization funding and continued modernization by other 
nuclear powers?
    Major General Harencak and Lieutenant General Wilson. As long as 
deficit reduction remains a national priority, federal agencies will 
continue to compete for diminishing resources. The modernization 
requirements across the entire Air Force have certainly created 
challenges, particularly for our efforts to simultaneously modernize 
the ICBM force, the dual-capable bomber fleets, and the intricate NC3 
infrastructure.
    In the five years since Air Force Global Strike Command stood up as 
a Major Command, both funding and manpower resources flowing to the 
nuclear mission have improved. However, significant work remains to 
correct 23 years of reduced nuclear focus and funding since standing 
down Strategic Air Command.
    We must continue to balance fleet recapitalization with continuous 
operations and maintenance of a safe, secure, and effective nuclear 
force, which is our number one priority. This nuclear capability is 
foundational to US national security, acting as assurance to our allies 
and a deterrent to those who might choose to harm us.
    Vice Admiral Benedict. Prioritizing limited resources to meet 
national strategic deterrence requirements among all our national 
defense requirements is a challenge. Today's fiscal environment is a 
concern as the Department of Defense (DOD) endeavors to sustain and 
modernize many central components of our strategic nuclear deterrent 
triad, the communications system that directs it and the underlying 
support structure.
    The Armed Services are implementing the President's guidance for 
aligning U.S. security policies to the 21st century security 
environment. Although our nuclear arsenal is the smallest it has been 
since the late 1950s, today's nuclear forces are fully capable of 
meeting current strategic defense needs and are expected to serve the 
nation well into the middle of this century. However, the percentage of 
defense department spending on our nuclear forces and infrastructure 
has declined to only 2.5% of total DOD spending in 2013--an historic 
low.
    Today our nuclear weapons and weapons systems are safe, secure and 
effective despite operating well beyond their originally designed life. 
Today our triad of nuclear forces is formidable and stands as an 
effective deterrent to strategic attack against the U.S. and our 
allies. However, this readiness cannot be sustained indefinitely. 
Recent reviews of our DOD nuclear weapons enterprise have revealed that 
it no longer has the margin of safety and reliability it once had. 
Consequently, the nation faces a substantive, multi-decade 
recapitalization challenge in which we must continue to invest. Our 
current and planned investments are significant compared to past 
expenditures in our strategic deterrent programs since 1992 yet are 
commensurate with the magnitude of the strategic deterrent mission 
which is not expected to markedly change for the foreseeable future. If 
we fail to sustain these investments we risk degrading the global 
stabilizing effect of a diverse, strong, and capable nuclear force. It 
is imperative we resource future sensor improvements; upgrades for 
nuclear command, control, and communications (NC3) capabilities; 
strategic delivery system recapitalization efforts; weapon life-
extension programs and stockpile surveillance activities; and nuclear 
complex infrastructure modernization. Together these exceptionally 
important and necessary investments will ensure our triad of nuclear 
forces remains viable and credible not only to our own defense but to 
our allies defense as well.
    Dr. Brumer. I believe that aging systems, coupled with competing 
priorities and topline pressure, have put stress on the Department's 
ability to maintain adequate risk margin in the nuclear enterprise. If 
left unaddressed over a long period of time, this might have challenged 
our deterrent capability in the future. However, the Department is 
taking action to address these issues, and I do not believe that this 
has undermined our nation's ability to provide a robust deterrent, even 
in the face of modernization by other nuclear powers.
    Ms. Creedon did not respond in time for printing. When received, 
answer will be retained in committee files.

    2. Senator Inhofe. Major General Harencak, Lieutenant General 
Wilson, Vice Admiral Benedict, Dr. Brumer, and Ms. Creedon, do you all 
believe that the nuclear triad (strategic bombers, intercontinental 
ballistic missiles (ICBMs), and submarine-launched ballistic missiles) 
is an essential deterrent and that each must be modernized and 
maintained?
    Major General Harencak and Lieutenant General Wilson. Absolutely--
the nuclear triad is as important today as it has been throughout its 
existence. In today's unpredictable world, our nuclear weapons provide 
the ultimate protection for the United States and our allies and 
partners. The three legs of the triad complement each other to provide 
quick response, visible deterrence, and survivability. If you remove 
any one of these capabilities, you risk increasing our vulnerability 
against the only existential threat our nation faces.
    With respect to modernization, we must continue to modernize our 
existing systems while also developing new weapon systems. For decades 
we have taken a procurement break with respect to our nuclear weapon 
systems, but now that bill has come due. The Air Force is operating B-
52s that were produced in the 1960s, ICBMs that were deployed in the 
1970s, and B-2s and cruise missiles that were produced in the 1980s. We 
have upgraded these systems throughout the years; however, it becomes 
more and more expensive every time we do this. It is similar to 
maintaining an older car--there comes a point where it makes better 
financial and operational sense to simply buy a new one.
    Our adversaries are publicly developing new systems and modernizing 
their existing ones--both offensive and defensive. This is not to say 
we are engaging in a new arms race. But it does mean other countries 
are developing systems that will eventually challenge our capability to 
strike anywhere on the globe at any time. We cannot risk these 
countries turning the Air Force into a regional force instead of a 
global one.
    Vice Admiral Benedict. Per the 2010 Nuclear Posture Review (NPR), 
``retaining all three Triad legs will best maintain strategic stability 
at reasonable cost, while hedging against potential technical problems 
or vulnerabilities.'' The commitment to the triad was reinforced in the 
U.S. Nuclear Weapons Employment Planning guidance the President issued 
in June 2013. USSTRATCOM executes strategic deterrence and assurance 
operations with Intercontinental Ballistic Missiles (ICBMs), Ballistic 
Missile Submarines (SSBNs), and nuclear capable heavy bombers. Each 
element of the nuclear triad provides unique and complimentary 
attributes of strategic deterrence, and the whole is greater than the 
sum of its parts.
Ballistic Missile Submarines (SSBNs)
    Recapitalizing our Sea-Based Strategic Deterrent (SBSD) is the Navy 
and USSTRATCOM's top modernization priority. The Navy's Ohio-class SSBN 
and Trident II D5 Strategic Weapons System (SWS) together are the 
nuclear triad's most survivable leg and are the assured response that 
is the core of our nuclear deterrent strategy. This stealthy and highly 
capable force is composed of two major elements, the SWS and delivery 
system. Both are undergoing needed modernization. With respect to the 
SWS, we are extending the life of the D5 system to be capable until 
after 2040. With respect to the submarine that delivers these missiles, 
the Ohio-class SSBN has already been extended from 30 to 42 years of 
service and no further extension is possible. Consequently, these 
submarines will start leaving service at the rate of one per year in 
2027. It cannot be emphasized enough that the OHIO Replacement Program 
must stay on schedule. No further delay is possible. Continued and 
stable funding for the OHIO Replacement SSBN also supports our 
commitment to the United Kingdom to provide a Common Missile 
Compartment design, ensuring both their and our new SSBNs achieve 
operational capability on schedule.
Summary
    The nuclear Triad is essential to the strategic defense of the 
United States, and each of the legs therein plays a critical and 
complementary role in supporting the other legs of the Triad. Removing 
any of these essential legs would threaten the credibility of our 
strategic deterrent capability the NPR directs the military to maintain 
and would thereby increase the risk of nuclear war.
    Dr. Brumer. The nuclear Triad is the basis for the nation's 
deterrence capability and a key aspect of our national security 
enterprise. Each leg brings unique characteristics, and the multi-
system nature of the Triad ensures that our deterrent is robust even in 
the face of unexpected technical issues or advancements by other 
nuclear powers.
    Ms. Creedon did not respond in time for printing. When received, 
answer will be retained in committee files.

    3. Senator Inhofe. Lieutenant General Wilson and Vice Admiral 
Benedict, if the Air Force and Navy are forced to accept the levels of 
funding in the Budget Control Act, what will the Air Force and Navy 
prioritize and what programs will be impacted?
    Lieutenant General Wilson. Thank you for the question, but I must 
defer to Air Force and DOD leadership on service priorities under 
sequestration.
    Vice Admiral Benedict. A return to sequestration in FY 2016 would 
necessitate a revisit and revision of the defense strategy. 
Sequestration would significantly reduce the Navy's ability to fully 
implement the President's defense strategy. The required cuts would 
force us to further delay critical warfighting capabilities, reduce 
readiness of forces needed for contingency responses, further downsize 
weapons capacity, and forego or stretch procurement of force structure 
as a last resort. Because of funding shortfalls over the last three 
years, our FY 2016 President's Budget represents the absolute minimum 
funding levels needed to execute our defense strategy. We cannot 
provide a responsible way to budget for the defense strategy at 
sequester levels because there isn't one.
    Today's world is more complex, more uncertain, and more turbulent, 
and this trend around the world will likely continue. Our adversaries' 
are modernizing and expanding their capabilities. It is vital that we 
have an adequate, predictable, and timely budget to remain an effective 
Navy. Put simply, sequestration will damage the national security of 
this country.

                               personnel
    4. Senator Inhofe. Lieutenant General Wilson and Vice Admiral 
Benedict, Ms. Creedon, what are we doing to ensure we can recruit and 
retain the right professionals, both military and civilian, to operate 
and sustain our nuclear forces?
    Lieutenant General Wilson. The Air Force has launched several 
initiatives and is leveraging existing programs aimed at recruiting and 
retaining nuclear professionals. We are focusing on developing, 
training, educating, and incentivizing personnel through deliberate 
efforts.
    In Air Force Global Strike Command, our education initiatives start 
at the commissioning sources and initial skills training. We have begun 
there so we can educate and inform current and future Airmen about the 
importance of the nuclear enterprise and how they contribute to that 
mission. We also send senior leaders to Reserve Officer Training Corps 
(ROTC) detachments around the country to engage students and inform 
them about the nuclear enterprise. We have done around 40 of these 
visits thus far, and have received great feedback.
    Additionally, the Air Force dedicated resources to developing 
nuclear professionals through formal education and development programs 
that enhance knowledge and build perspectives on leadership. These 
courses educate and provide research on the nuclear enterprise, weapons 
of mass destruction threats, and appropriate countermeasures to Air 
Force and Department of Defense leaders.
    One of these programs is the new School of Advanced Nuclear 
Deterrence Studies, where we will build a cadre of nuclear deterrence 
and assurance experts experienced in the concepts of leading, 
operating, maintaining, defending, supporting, planning, and sustaining 
the nuclear enterprise. The Air Force has also teamed with the Navy to 
create an exchange program for nuclear professionals. Moreover, there 
are Air Force sponsored fellowships and intern programs at the national 
nuclear laboratories used to further enhance our nuclear professionals' 
education, training, and development.
    The Air Force has taken action to provide monetary and non-monetary 
incentives for nuclear specialties currently performing nuclear related 
duties to include support personnel. Monetary incentives include 
Assignment Incentive Pay for ICBM operators, security forces and 
maintenance officers, and Special Duty Assignment Pay for critical 
enlisted nuclear career fields. Also, the Air Force is offering a 
Selective Reenlistment Bonus for certain specialties unable to meet 
retention goals. For civilians, the Air Force has requested and been 
approved special salary rates and recruitment, retention, and 
relocation incentives to attract personnel to some of our hard to fill 
locations.
    The intent of all these efforts is to meet the objective of 
attracting, and retaining nuclear professionals through education, 
training and developmental initiatives.
    Vice Admiral Benedict. Navy recruits, and eventually commissions or 
enlists, only highly-qualified and trusted candidates who possess the 
emotional stability and physical capability, and who demonstrate the 
reliability and professional competence, essential to maintaining the 
most advanced and sophisticated weapons systems in the world. Our 
future officers commission through the U.S. Naval Academy, Naval 
Reserve Officer Training Corps units at some of the nation's premier 
educational institutions, or through various other colleges and 
universities under the Nuclear Propulsion Officer Candidate (NUPOC) 
program. Enlisted personnel are selected from among Navy applicants who 
achieve the highest scores on the Armed Services Vocational Aptitude 
Battery (ASVAB). The chosen few must maintain certification in, and be 
continuously evaluated through, the Nuclear Weapons Personal 
Reliability Program, and must remain eligible at all times for the 
required levels of security clearance and access.
    Navy uses various special and incentive pays and bonuses to attract 
and retain intelligent, highly-motivated and uniquely-qualified 
officers and enlisted personnel assigned to the nation's nuclear 
deterrent mission, in submarines or in the Fleet Air Reconnaissance 
Take Charge and Move Out (i.e., VQ (TACAMO)) mission. In addition to 
competitive compensation, we invest substantial effort in educating 
Sailors on the benefits of this unique service, which includes the 
opportunity and honor of serving our nation in this unique arena, and 
exposure to world-class training and challenging duty assignments, 
eligibility for Post-9/11 GI Bill benefits and access to continuing 
education, family support programs and world-class health care, while 
qualifying for tax advantages and, potentially, a generous retirement 
plan.
    In the civilian workforce, the Strategic Systems Program (SSP) 
office uses available hiring flexibilities, including Expedited Hiring 
Authority to access highly-qualified acquisition employees, and various 
Veterans' Recruitment Appointments (VRA) to quickly hire qualified 
veterans into civilian jobs. We offer Tuition Assistance and Student 
Loan Repayments to encourage employees to remain in SSP throughout 
their careers. We also provide retention incentives to employees in 
critical skills, and have been successful in hiring new employees to 
fill job vacancies and in retaining the needed skills to do the 
mission.
    Last fall, CNO initiated a Nuclear Enterprise Manpower Review to 
assess military and civilian manpower requirements across the nuclear 
weapons and nuclear propulsion enterprises to identify gaps in mission 
execution. The current phase of the review will provide gap analyses 
across all force management domains late this summer. The next phase 
will focus on competency management requirements for federal civilian 
employees and recommend significant improvements in community 
management and knowledge development practices.
    Ms. Creedon did not respond in time for printing. When received, 
answer will be retained in committee files.
                                 ______
                                 
              Questions Submitted by Senator Joe Donnelly
                naval surface warfare center crane value
    5. Senator Donnelly. Vice Admiral Benedict, can you characterize 
the role Naval Surface Warfare Center (NSWC) Crane plays in support our 
Navy nuclear forces?
    Vice Admiral Benedict. For more than 50 years, NSWC Crane's Global 
Deterrence and Defense Department has provided product engineering and 
design capabilities for shipboard and flight electronics in support of 
a vast array of missile systems for the Navy. Strategic Systems 
Programs has relied on their expertise to ensure generations of Fleet 
Ballistic Missile systems were developed and continue to be deployed in 
support of our nation's strategic deterrence mission. NSWC Crane has 
played a critical role in each of the missile subsystems, including the 
system and platform integration of the Strategic Weapons System.
    They are also active participants in the Commonality efforts, led 
by the Navy and Air Force. NSWC Crane is currently leading the effort 
to develop a radiation hardened parts library for use by the Navy, Air 
Force, and other Defense Department customers. The database will serve 
as a repository for all current radiation hardened parts including the 
manufacturer, specifications, and test results.

            radiation-hardened parts and hardware assurance
    6. Senator Donnelly. Vice Admiral Benedict, as you know, NSWC Crane 
is at the center of work on radiation-hardened electronics and hardware 
assurance efforts. Their work on detecting and protecting against 
counterfeit parts entering the Department of Defense (DOD) supply chain 
is groundbreaking. What is the Navy doing to protect nuclear systems 
against counterfeit parts and how can we better leverage expertise like 
that at Crane to counter this threat, whether in the Navy or elsewhere?
    Vice Admiral Benedict. SSP and our Prime Contractors relied on NSWC 
Crane's expertise relative to detecting and protecting against 
counterfeit parts entering the Navy's TRIDENT II (D5) life extension 
program during the development phase and continuing into the production 
phase. Specifically we utilized an approved DMEA Trusted foundry, 
monitored the electronic parts' and printed circuit boards' supply 
chain, made procurements through OEMs and only if an OEM would not sell 
product directly did we procure through an OEM authorized distributor. 
In addition, we utilized NSWC Crane as an independent test agent to 
perform physical and functional verification of critical components.
    NSWC Crane's expertise in this area was highlighted during the 
recent Microelectronics Integrity Meeting hosted at NSWC Crane. The 
meeting was attended by several key DOD claimants. Continuing this type 
of engagement will help the DOD leverage NSWC Crane's expertise and 
allow the best practices of all of DOD to be highlighted.

    7. Senator Donnelly. Lieutenant General Wilson, I am aware that 
NSWC Crane is working with the Defense Advanced Research Projects 
Agency (DARPA), the National Security Agency (NSA) and the Air Force on 
efforts to better understand and protect against counterfeit parts 
entering the DOD supply chain. Whether in relation to this partnership 
or separately, can you explain how the Air Force is working to protect 
its nuclear systems against counterfeit parts?
    Lieutenant General Wilson. The Air Force is continuing work to 
comply with current and past Congressional language in response to new 
and emerging threats in the context of the supply chain. We continue to 
protect the nuclear enterprise supply chain through a multi-tiered 
approach of prevention, detection, and mitigation. This includes 
policy, oversight, direction, and actions ranging from the Secretary of 
the Air Force for Acquisition (SAF/AQX); Headquarters, Air Force 
Materiel Command (AFMC); the Air Force Nuclear Weapons Center (AFNWC); 
the specific weapons system program offices; and the Air Force Supply 
Chain Manager (448th Supply Chain Management Wing). The Air Force is 
also working in cooperation with other military services, offices, 
laboratories, and partners in industry and academia. Through 
coordination efforts between these various organizations, activities 
involving the identification, threat assessment, planning, 
surveillance, detection, and mitigation of counterfeit parts are 
performed.
    The Air Force controls weapon systems' parts from concept, design 
and development, and operational fielding phases through final weapon 
system disposal by developing and updating rigorous sets of technical 
requirements, specifications, standards, and key suppliers and support 
infrastructure. As systems move into sustainment and become more 
mature, changes in requirements and suppliers drive Air Force and 
Defense Logistics Agency (DLA) reviews of technical data, supplier 
qualification, and test parameters to ensure technical compliance of 
parts. Many items require qualification, first article, and production 
lot sampling and testing.
    As older trusted sources go out of business, outsource, 
consolidate/merge or opt to no longer produce the parts we need, there 
is an increased threat of counterfeit parts entering our supply chain. 
The Air Force and DLA are driven to require more surveillance including 
such things as visual and physical inspection, x-ray analysis, 
deconstruction, software, quarantine, and marking of parts. 
Additionally, the Air Force uses their Discrepant Material Reporting 
Office (DMR) and the Government-Industry Data Exchange Program (GIDEP) 
to react to identified risks.
    As a part of a weapon system's longer sustainment process, the Air 
Force conducts a series of review processes to ensure parts are 
compatible and pass rigorous testing requirements. Additionally, the 
Air Force Supply Chain protects against counterfeit parts by developing 
tools and capabilities to detect counterfeits, and ensuring contractors 
have detection programs in place.
    The Air Force Supply Chain office actively continues to coordinate 
efforts with AFNWC, specific program offices, Air Force Office of 
Special Investigations (AFOSI), Intelligence Offices, higher 
headquarters, and the other military services and DOD agencies for 
future planning and mitigation efforts, as well as holding 
collaborative working groups.
    Furthermore, the Air Force Nuclear Weapons Center (AFNWC) has 
specific Supply Chain processes and efforts underway to identify 
mission critical functions and critical components, and has developed 
implementation strategies to reduce vulnerabilities through a systems 
security engineering approach and by independently assessing 
vulnerabilities of AF strategic systems across the lifecycle of the 
weapon systems against current and emerging threats. AFNWC, in 
coordination with the National Nuclear Security Administration (NNSA), 
is also establishing a Joint US/UK Supply Chain Assurance Working Group 
(JSCAWG). The purpose of the JSCAWG is to provide a joint US-UK 
coordination and communication forum for supporting trust and 
confidence in the respective US and UK nuclear weapon supply chains and 
in Information Technology systems (to include hardware and software).
    Finally, DLA employs an enhanced quality control program to protect 
Air Force ICBM systems from counterfeit/nonconforming parts. Key 
elements of the program include: tracking and managing ICBM parts 
separately from other parts; procuring ICBM parts to the specifications 
identified by the Air Force; employing high level quality assurance 
standards and requirements when procuring AF ICBM parts; conducting 
parts tests; and leveraging anti-counterfeiting technology to validate 
the authenticity of all microcircuits purchased by DLA.

    8. Senator Donnelly. Ms. Creedon, I am aware that NSWC Crane is 
working with DARPA, NSA, and the Air Force on efforts to better 
understand and protect against counterfeit parts entering the DOD 
supply chain for both our nuclear and conventional systems. Whether in 
relation to this partnership or separately, can you explain how NNSA is 
working to protect our nuclear systems against counterfeit parts?
    Ms. Creedon did not respond in time for printing. When received, 
answer will be retained in committee files.

                navy-air force collaboration/commonality
    9. Senator Donnelly. Vice Admiral Benedict, following up on my 
question in the hearing, NSWC has been involved in efforts to enhance 
collaboration and/or commonality among Navy and Air Force nuclear 
programs. At one time, we heard talk of Air Force-Navy collaboration. 
Today we hear more about commonality. How would you characterize each 
of these aims?
    Vice Admiral Benedict. As viewed by the Navy, Commonality and 
Collaboration should cover and examine a large spectrum of potential 
effort. This spectrum covers areas from Sustainment of Current Systems 
(continuing MMIII and D5LE in their current forms) through 
``Evolution'' (Air Force and Navy coordinated programs of joint 
components and constituents) to ``Revolution'' (i.e. Joint Ballistic 
Missile). The goal of the Commonality and Collaboration efforts between 
the Navy and Air Force is not entirely focused at the one extreme of 
building a common SLBM/ICBM, but more likely would utilize certain 
elements of each system that have the potential for being common. The 
full option space must be explored from a National perspective to 
ensure the correct balance of commonality.
    Although commonality and collaboration are often used 
interchangeably as if they are a single effort, they are different. 
Collaboration focuses on what each service is doing and trying to 
coordinate and consolidate those efforts that are similar. Commonality 
focuses on working efforts in the same manner, either by using the same 
components or the same facilities. The radiation hardened electronic 
parts library is a great example that addresses both collaboration and 
commonality. The library itself is a collaborative effort used by both 
services. In the future before developing or certifying a new part, 
both sides will aim to use the parts already included in the library--a 
commonality effort.

    10. Senator Donnelly. Vice Admiral Benedict, you spoke briefly in 
the hearing about the status of efforts to achieve commonality among 
Navy and Air Force nuclear systems. I request that your staff brief 
mine on the status of these efforts in detail, including current 
efforts and opportunities for the future.
    Vice Admiral Benedict. I have a brief ready and it can be scheduled 
at your convenience. My POC CAPT Tyler Meador can be reached at 703-
697-2871 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deaaa7b2bbacf0b3bbbfbab1ac9eb0bfa8a7f0b3b7b2">[email&#160;protected]</a> or Ms. Meghan Raftery at 202-433-
7105, meghan.raftery @ssp.navy.mil.

    11. Senator Donnelly. General Harencak and Lieutenant General 
Wilson, I request that your staff brief my office in detail on the 
status of efforts to enhance collaboration and commonality across Air 
Force and Navy nuclear programs, including current efforts and 
opportunities for the future.
    Major General Harencak and Lieutenant General Wilson. We look 
forward to briefing you on different ways in which the Air Force and 
Navy are working together to ensure commonality.

    12. Senator Donnelly. Ms. Creedon, what is your assessment of 
efforts to enhance collaboration and commonality across Navy and Air 
Force nuclear programs? Do you see value in such efforts and what are 
the challenges and opportunities now and in the future?
    Ms. Creedon did not respond in time for printing. When received, 
answer will be retained in committee files.
                                 ______
                                 
             Question Submitted by Senator Martin Heinrich
                          long range stand off
    13. Senator Heinrich. Lieutenant General Wilson, in your testimony, 
you state that the Air Force ``fully intends to develop a conventional 
version of the Long Range Stand Off (LRSO) Weapon as a future spiral to 
the nuclear variant''. Does this mean that once the current program 
becomes a program of record and achieves Milestone A it will have the 
conventional version as part of its requirements for engineering past 
Milestone B, or will the Air Force come back to it later after they 
develop the nuclear version of LRSO?
    Lieutenant General Wilson. We do, in fact, intend a conventional 
variant of the Long Range Standoff weapon. However, currently, the main 
focus for LRSO is to develop the nuclear variant while ensuring the 
program is achieving the initial developmental guidelines. Upon 
successful development of the nuclear LRSO variant, Air Force Global 
Strike Command will pursue a conventional variant following the Joint 
Capabilities Integration & Development System process by evaluating 
alternatives and codifying any conventional variant requirements in a 
JROC validated capabilities document.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
